<html>
<title> - NOMINATION TO THE AMTRAK BOARD OF DIRECTORS, THE U.S. DEPARTMENT OF TRANSPORTATION, THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION, AND THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 115-581]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-581

                     NOMINATION TO THE AMTRAK BOARD
                   OF DIRECTORS, THE U.S. DEPARTMENT
                  OF TRANSPORTATION, THE FEDERAL MOTOR
                   CARRIER SAFETY ADMINISTRATION, AND
                THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-042 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>                                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 31, 2017.................................     1
Statement of Senator Blunt.......................................     1
    Letter dated October 11, 2017 to Chairman John Thune from 
      Clifford Winston, Senior Fellow, Brookings Institute.......    75
    Letter dated October 12, 2017 to Chairman John Thune and 
      Ranking Member Bill Nelson from Erica L. Groshen, Visiting 
      Senior Scholar, Cornell University--Industrial and Labor 
      Relations School...........................................    76
Statement of Senator Booker......................................     2
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
Statement of Senator Klobuchar...................................    73
Statement of Senator Inhofe......................................    76
Statement of Senator Schatz......................................    78
Statement of Senator Capito......................................    79
Statement of Senator Duckworth...................................    81
    Letter dated October 25, 2017 to Bruce Landsberg, Nominee as 
      Board Member, National Transportation Safety Board from 
      Senators Charles E. Schumer, Richard Blumenthal, Cory A. 
      Booker, Tammy Duckworth, Margaret Wood Hassan and Kirsten 
      Gillibrand.................................................    83
    Letter dated October 30, 2017 to Hon. Tammy Duckworth from 
      Bruce Landsberg............................................    85
    Article dated June 19, 2009 entitled, ``Starting a trade war 
      with ``Buy America'' by Diana Furchtgott-Roth..............    86
    Article dated October 25, 2017 from Bloomberg Business Week 
      entitled, ``Under Trump Made in America is Losing Out to 
      Russian Steel''............................................    87
    Letter dated October 30, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Linda A. Lipsen, Chief Executive Officer, 
      American Association for Justice...........................    90
Statement of Senator Cruz........................................    91
Statement of Senator Blumenthal..................................    92
Statement of Senator Cortez Masto................................    94
Statement of Senator Thune.......................................    98
Statement of Senator Markey......................................   100
Statement of Senator Baldwin.....................................   102
Statement of Senator Peters......................................   103
Statement of Senator Hassan......................................   108
    Statement of opposition dated October 27, 2017 by Emily 
      Martin, General Counsel and Vice President for Workplace 
      Justice, National Women's Law Center.......................   109

                               Witnesses

Hon. Johnny Isakson, U.S. Senator from Georgia...................     1
Hon. Leon (Lynn) A. Westmoreland, Nominee to be a Director, 
  Amtrak.........................................................     4
    Prepared statement...........................................     5
    Biographical information.....................................     6
Diana Furchtgott-Roth, Nominee for Assistant Secretary for 
  Research and Technology, U.S. Department of Transportation.....    11
    Prepared statement...........................................    12
    Biographical information.....................................    13
Raymond P. Martinez, Nominee for Administrator of the Federal 
  Motor Carrier Safety Administration, U.S. Department of 
  Transportation.................................................    55
    Prepared statement...........................................    57
    Biographical information.....................................    58
Bruce S. Landsberg, Nominee to be a Member of the National 
  Transportation Safety Board....................................    65
    Prepared statement...........................................    66
    Biographical information.....................................    66

                                Appendix

Letter dated September 29, 2017 in support of Raymond Martinez to 
  Hon. Jon Thune and Hon. Bill Nelson from Chris Spear, President 
  and CEO, American Trucking Associations........................   115
Letter dated November 2, 2017 in support of Diana Furtchgott-Roth 
  to Chairman John Thune from Deborah Lucas, Sloan Distinguished 
  Professor of Finance and Director, MIT Golub Center for Finance 
  and Policy.....................................................   115
Letter dated November 3, 2017 in support of Diana Furtchgott-Roth 
  to Chairman John Thune and Ranking Member Bill Nelson from Mark 
  J. Perry, Ph.D., Professor of Economics and Finance, University 
  of Michigan-Flint..............................................   116
Letter dated November 4, 2017 in support of Diana Furtchgott-Roth 
  to Chairman John Thune from Neil Gilbert, Chernin Professor of 
  Social Welfare, University of California, Berkeley.............   117
Letter dated November 6, 2017 in support of Diana Furtchgott-Roth 
  to Chairman John Thune and Ranking Member Bill Nelson from 
  Douglas J. Besharo, Professor, School of Public Policy, 
  University of Maryland.........................................   117
Letter dated November 7, 2017 in support of Diana Furtchgott-Roth 
  to Chairman John Thune and Ranking Member Bill Nelson from 
  Robert I. Lerman, Institute Fellow, Urban Institute; and 
  Emeritus Professor of Economics, American University...........   118
Response to written questions submitted to Hon. Leon (Lynn) A. 
  Westmoreland by:
    Hon. Roger F. Wicker.........................................   118
    Hon. Bill Nelson.............................................   119
    Hon. Maria Cantwell..........................................   119
    Hon. Richard Blumenthal......................................   120
    Hon. Edward Markey and Hon. Catherine Cortez Masto...........   122
    Hon. Cory Booker.............................................   122
    Hon. Maggie Hassan...........................................   123
    Hon. Catherine Cortez Masto..................................   123
Response to written questions submitted to Diana Furchtgott-Roth 
  by:
    Hon. Bill Nelson.............................................   123
    Hon. Maria Cantwell..........................................   124
    Hon. Richard Blumenthal......................................   125
    Hon. Brian Schatz............................................   130
    Hon. Cory Booker.............................................   131
    Hon. Maggie Hassan...........................................   131
    Hon. Catherine Cortez Masto..................................   132
Response to written questions submitted to Raymond P. Martinez 
  by:
    Hon. John Thune..............................................   132
    Hon. Deb Fischer.............................................   132
    Hon. Jim Inhofe..............................................   133
    Hon. Todd Young..............................................   134
    Hon. Bill Nelson.............................................   134
    Hon. Richard Blumenthal......................................   135
    Hon. Richard Blumenthal and Hon. Edward Markey...............   135
    Hon. Cory Booker.............................................   137
    Hon. Catherine Cortez Masto..................................   139
Response to written questions submitted to Bruce S. Landsberg by:
    Hon. John Thune..............................................   140
    Hon. Bill Nelson.............................................   140
    Hon. Maria Cantwell..........................................   141
    Hon. Richard Blumenthal......................................   141
    Hon. Catherine Cortez Masto..................................   142

 
                     NOMINATION TO THE AMTRAK BOARD
                   OF DIRECTORS, THE U.S. DEPARTMENT
                  OF TRANSPORTATION, THE FEDERAL MOTOR
                 CARRIER SAFETY ADMINISTRATION, AND THE
                  NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                       TUESDAY, OCTOBER 31, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
presiding.
    Present: Senators Thune [presiding], Blunt, Cruz, Heller, 
Moran, Fischer, Inhofe, Sullivan, Capito, Gardner, Young, 
Nelson, Booker, Klobuchar, Schatz, Blumenthal, Markey, Baldwin, 
Peters, Hassan, Duckworth, and Cortez Masto.

             OPENING STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. The hearing will come to order.
    I think in the interest of time and both Senator Isakson's 
time, I am going to waive my statement. And, Senator Isakson, 
we will come to you for your introduction of one of the people 
to be at the hearing today, and then we will go to Senator 
Booker for whatever opening statement he might make. But, 
Senator Isakson, we are glad you are here and we will first go 
to you this morning.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, Chairman Blunt and Ranking Member 
Booker and members of the Committee, it is a pleasure for me to 
be here today to introduce a great Georgian. I was asked one 
time, when I was introduced as a senior Senator, what does a 
senior Senator do. I said, ``well, if your Little League team 
wins the National World Series in Williamsport, you go to have 
your picture taken at the White House with them, and if 
somebody from your state is nominated to be on the Cabinet of 
the President or appointed to a Federal position, you get to 
introduce them.''
    The second one is my introduction today, which is my 
pleasure to introduce Lynn Westmoreland, not just to the 
Commerce Committee for his confirmation, but to the country for 
its approval for the Amtrak Board.
    Lynn Westmoreland is a guy I have known for a long, long 
time. We toiled in the vineyards of State representatives a 
long, long time in Georgia. Lynn rose to be the Republican 
leader of the Georgia House of Representatives, did a 
phenomenal job.
    In business, he was a homebuilder of great renown, a local 
builder who understood local problems, understood growth, and 
understood transportation. There is nobody better to have on a 
transportation board and authority than a user and consumer of 
the infrastructure of transportation. And Atlanta is probably 
the poster child for the need for more improvements in 
transportation, for intermodal transportation, for the use of 
rail, for the use of roads, for the use of airplanes, for the 
use of everything to get people where they are going and to 
organize it and to plan it.
    And nobody is more conservative and fiscally responsible 
than Lynn Westmoreland. In all the years I served in the 
state--and this is my thirty-ninth year in elected office in 
Georgia--I have known lots and lots of people who have come and 
gone. I know of no one who has made a greater contribution to 
his state and served better as a public servant than Lynn 
Westmoreland.
    So as the senior Senator from Georgia, to all of you, I am 
proud to introduce a great citizen of my state, one who 
understands transportation as well as anyone, one who will be a 
great counselor and board member to the Amtrak Board, and one 
who will serve the United States of America well for a long 
time, Mr. Lynn Westmoreland from the State of Georgia. And I am 
honored to have this occasion. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator. Thanks for joining us 
this morning. I know you have other things you are going to 
have to do, and we appreciate and understand that.
    Before we call the witnesses up, Senator Booker, do you 
have some opening comments you would like to make?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Let me just first express my gratitude to 
our colleague for being here. We were talking here before that 
you are sitting there so low that we felt we should get you a 
seat that is higher than all of us up here. That would have 
been the respectful thing to do, sir. But thank you very much 
as always for coming in here.
    Senator Isakson. Cory, the older you get, the shorter you 
get. You start out at 5,11" and a half 72 years ago. I am down 
to 5,10" and shrinking now.
    [Laughter.]
    Senator Booker. Sir, that has happened for me because I 
used to be about 6,8" with my afro, but now I am only 6,3".
    [Laughter.]
    Senator Isakson. You are still standing tall in my book, 
sir.
    Senator Booker. I look up to you, sir, no matter how tall 
you are.
    Mr. Chairman, thank you for leading this hearing, and I 
want to just let folks know that I am grateful for all the 
nominees who are here and willing to put themselves forward. I 
want to thank them for their willingness to serve the American 
people.
    As I have worked for some time with many of my colleagues 
on the other side of the aisle really trying to focus in on the 
issue of transportation safety, it should be one of our highest 
priorities. Unfortunately, it is one of the most common ways 
people die in the United States of America is in crashes. We 
have in truck crashes alone thousands of people killed every 
year. Over 100,000 are injured. It is really unacceptable in 
the United States of America to have this level of carnage on 
our highways and roads.
    I would like to acknowledge a lot of folks here today who 
are family members of truck crash victims in the audience who 
come here regularly to these Subcommittees not just driven by 
their own grief and their own tragedies in their families, but 
really the noble desire to make sure this does not happen to 
other families. And I truly respect that as being a sign of 
patriotism and love of country.
    I look forward to hearing how some of the nominees are 
concerned about making sure we continue that safety.
    I want to take a moment, though, to talk about Christopher 
Hart. The President nominated folks into a seat formerly held 
by Chairman Christopher Hart. This will result in a balance. I 
am not sure I understand the motivation. It will shift the 
balance, which is now split between two Republicans and two 
Democrats, plus one vacancy to a more majority Republican board 
with only one Democratic vacant seat. It was not necessary to 
do that to get to a Republican majority to replace Mr. Hart. I 
believe this could have been avoided if the President instead 
made this nomination into the vacant seat, and then we would 
have a full board.
    I do not want to let this moment pass. Too often people 
nominated, Republicans, Democrats, it does not matter--we have 
a lot of great people who put themselves forward to serve. And 
I do not want to let this moment pass without just talking 
about some of the great work that Chris Hart has done. He was 
the first black person to serve as Chairman of the Board, a 
milestone that I think is worth noting. Mr. Hart has been a 
champion for safety and for addressing the impacts of 
innovation. For example, under his tenure, the NTSB launched 
the first investigation into a commercial space flight accident 
and the first investigation of a Tesla vehicle using automated 
vehicle control. Under his leadership, the Board was also 
ranked one of the top 10 best small agencies to work for in the 
Federal Government. That is pretty big because we have too many 
agencies, some might think.
    I hope to hear how others that are being nominated share 
this passion and commitment for public safety. I have a lot of 
other issues and concerns, but I am going to save that for the 
actual testimony. But I am grateful again to be the Ranking 
Member and the Democrat sitting next to you, Chairman Blunt.
    Senator Blunt. Well, you are also between me and the other 
Ranking Member of the Democrats. Senator Nelson, if you have 
any comments you want to make----

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I will put my opening comments in the 
record.
    Senator Blunt. In the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I appreciate all of you expressing a willingness to serve in these 
critical transportation positions.
    Infrastructure investment and safety are two top priorities that 
are critical for my state of Florida and for communities around the 
country.
    The infrastructure needs are great and they continue to grow.
    Whether it's increasing investment in our highway and transit 
systems or restoring rail service along the Gulf Coast.
    These investments mean real jobs and real improvements for our 
communities.
    We also need to make sure our transportation systems are safe.
    That means that we're doing everything possible to improve safety 
in our skies and on our highways and railways.
    I look forward to hearing from our witnesses today.

    Senator Blunt. Well, if our witnesses would come to the 
table. Today, we have Lynn Westmoreland of Georgia to be 
Director of the Amtrak Board of Directors; Diana Furchtgott-
Roth of Maryland to be an Assistant Secretary of Transportation 
for Research and Technology; Bruce Landsberg of South Carolina 
who is nominated to be a Member of the National Transportation 
Safety Board; and Raymond Martinez of New Jersey to be 
Administrator of the Federal Motor Carrier Safety 
Administration.
    When you all are seated, we will start with Congressman 
Westmoreland and whatever part of your testimony you want to 
share, and the rest of it, of course, will go into the record. 
Lynn Westmoreland.

STATEMENT OF HON. LEON (LYNN) A. WESTMORELAND, NOMINEE TO BE A 
                        DIRECTOR, AMTRAK

    Mr. Westmoreland. Thank you, Mr. Chairman and Ranking 
Member Nelson and Booker, and members of the Committee. Good 
morning. It is a pleasure to be here today and an honor to be 
nominated to serve on the Amtrak Board of Directors by 
President Trump.
    Like many Americans, I began my career as a small 
businessman running and growing my own business, specializing 
in residential and light commercial construction. I developed 
an interest in the business as a young man, and once I had 
learned about it more, I established and built my own business 
which I ran for 20 years before I was elected to Congress. My 
experience taught me important lessons that have stayed with me 
throughout my life. I learned about the value of the dollar and 
the importance of careful management and hard work.
    My public career of service started in 1992 when I was 
elected to the Georgia House of Representatives where I served 
for 12 years. In 2004, I was elected to the U.S. House of 
Representatives and proudly served my Congressional 
constituents from 2005 to 2017. In the House, I served on the 
Committee of Transportation and Infrastructure, Small Business, 
Government Reform, and Financial Services, which have prepared 
me well for a position on the Amtrak Board of Directors.
    Additionally, my service on the House Permanent Select 
Committee on Intelligence has equipped me with a unique 
perspective on transportation security related matters, and I 
am eager to bring this experience to Amtrak in its efforts to 
provide the highest level of security across the system.
    As you know, the Amtrak Board of Directors is designed by 
statute to oversee the operations of the National Railroad 
Passenger Corporation, better known as Amtrak, and to manage 
and direct its business affairs. The Board sets the strategic 
direction for the company within the guidelines set by Congress 
through the relevant Federal statutes. As a Director, I would 
work closely with the other directors, the U.S. Department of 
Transportation, and the management of Amtrak to ensure that the 
corporation carries out the mission contained in the statutory 
authorization: to efficiently and effectively operate the 
Nation's intercity passenger rail system.
    I strongly support Amtrak's role in the Nation's 
transportation network, and I hope to bring my experience from 
both the private and public sectors to the Amtrak Board. It is 
my belief that the U.S. taxpayers and Amtrak customers can and 
should receive the most efficient and effective intercity 
passenger rail service possible. If confirmed, I am committed 
to working closely with my colleagues on the board, the 
management of the company, the Department of Transportation, 
this Committee, and Congress to ensure that Amtrak is managed 
as safely and effectively as possible.
    Thank you very much for your consideration, and I look 
forward to your questions.
    [The prepared statement and biographical information of Mr. 
Westmoreland follow:]

        Prepared Statement of Hon. Leon (Lynn) A. Westmoreland, 
                    Nominee to be a Director, Amtrak
    Mr. Chairman, Ranking Member Nelson, and members of the Committee. 
Good morning. It's a pleasure to be here today, and an honor to be 
nominated to serve on the Amtrak Board of Directors by President Trump.
    Like many Americans, I began my career as a small businessman, 
running and growing my own business, specializing in residential and 
light commercial construction. I developed an interest in the business 
as a young man, and once I had a learned more about it, I established 
and built my own business, which I ran for twenty-two years before I 
was elected to Congress. My experiences taught me important lessons 
that have stayed with me throughout my life. I learned about the value 
of a dollar and the importance of careful management and hard work.
    My career in public service started in 1992 when I was elected to 
the Georgia House of Representatives, where I served for twelve years. 
In 2004, I was elected to the U.S. House of Representatives and proudly 
served my Congressional constituents from 2005 to 2017. In the House, I 
served on the Committees on Transportation and Infrastructure, Small 
Business, Government Reform, and Financial Services, which have 
prepared me well for a position on the Amtrak Board of Directors. 
Additionally, my service on the House Permanent Select Committee on 
Intelligence has equipped me with a unique perspective on 
transportation security related matters and I am eager to bring this 
experience to Amtrak in its efforts to provide the highest level of 
security across the system.
    As you know, the Amtrak Board of Directors is designed by statute 
to oversee the operations of the National Railroad Passenger 
Corporation, better known as Amtrak, and to manage and direct its 
business affairs. The Board sets the strategic direction for the 
company, within the guidelines set by Congress through the relevant 
Federal statutes. As a director, I would work closely with the other 
directors, the U.S. Department of Transportation, and the management of 
Amtrak to ensure that the corporation carries out the mission contained 
in its statutory authorization: to efficiently and effectively operate 
the Nation's intercity passenger rail system.
    This is an important responsibility, and I take it very seriously. 
Amtrak serves 46 of the 48 contiguous states, and it operates a truly 
national system of transportation. On the National Network, which 
includes the long-distance and state supported trains, it provides 
important scheduled intercity transportation in many communities that 
have lost other transportation options with airline and bus service 
contraction in recent years. On the Northeast Corridor, where there are 
a multitude of critical infrastructure issues that need to be 
addressed, the NEC plays a vital role supporting both regional and 
national economic activity.
    I strongly support Amtrak's role in the Nation's transportation 
network, and I hope to bring my experience from both the private and 
public sectors to the Amtrak Board. It is my belief that U.S. taxpayers 
and Amtrak customers can and should receive the most efficient and 
effective intercity passenger rail service possible. If confirmed, I am 
committed to working closely with my colleagues on the Board, the 
management of the company, the Department of Transportation, this 
Committee, and Congress to ensure that and Amtrak is managed as safely 
and efficiently as possible.
    Thank you very much for your consideration, and I will be happy to 
answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):
    Leon ``Lynn'' Acton Westmoreland, Jr.
    2. Position to which nominated: Amtrak Board.
    3. Date of Nomination: October 5, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: P.O. Box 73053 Marietta, Georgia 30007.

    5. Date and Place of Birth: Atlanta, Georgia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Joan Eskew Westmoreland, not employed.
        Children: Heather Smith (46 years old), Leon A. Westmoreland 
        III (45 years old), Marcy Sakrison (42 years old).

    7. List all college and graduate degrees. Provide year and school 
attended.
    No college or graduate degrees. Attended Georgia State University 
for one year in 1969, no degree awarded.
    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

  <bullet> Principal, Westmoreland Strategies LLC (2017 to present)

    <ctr-circle> I manage my own firm providing strategic consulting 
            services to clients.

    <ctr-circle> I do not provide services to any client that has a 
            relationship to the railroad industry.

  <bullet> Member, U.S. House of Representatives for District GA-03 
        (2006-2017).

    <ctr-circle> During my time in Congress, I served on the 
            Transportation and Infrastructure Committee, including 
            chairing a subcommittee dealing with railroads.

  <bullet> State Representative for District 104 and 86, Georgia House 
        of Representatives (1993-2005).

  <bullet> Self-employed, LAW Builders (1982-2005).

    <ctr-circle> I managed an extensive homebuilding business for this 
            period of time.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.
    No additional service other than that listed above.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

  <bullet> Sole member of Westmoreland Strategies, LLC, which provides 
        consulting services to for a variety of business interests 
        unrelated to the railroad industry.

  <bullet> NRCC as Board member through 2016.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> Leadership Team (Deacon) at Orchard Hills Baptist Church, 
        2011-2016.

  <bullet> Member, Orchard Hills Baptist Church, 2011 to present 
        (Orchard Hills Baptist Church limits membership to individuals 
        affirming the statement of faith of the church).

  <bullet> Capitol Hill Club member, 2006 to present.

  <bullet> Christian City Advisory Board.

  <bullet> Joseph Sams School Advisory Board.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, U.S. House of Representatives for GA-03 and the Georgia House 
of Representatives for districts 104 and 86. None of past campaigns 
carry any debt and I am not personally liable for any of it.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have not contributed any personal funds to any to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $500 or more in the past ten years.
    I served on the NRCC Board through 2016.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    I have not received any recognitions in this category.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have not authored any books or publications. I have authored a 
number of articles and columns. The ones I can locate and recall are 
listed below:

  a.              Editorial: How did Obama's massive surveillance state
                   fail to defend Americans against Russia?, The Hill,
                   May 27, 2017.
 
  b               Editorial: Are American airports really ``third
                   world'' in quality?, The Hill, May 20, 2017.
 
  c.              Editorial: Congress should stand for consumers and
                   repeal the Durbin Amendment, The Hill, April 30,
                   2017.
 
  d.              Editorial: Congress should stop the unconstitutional
                   effort to ban online gambling, The Hill, April 18,
                   2017.
 
  e.              Editorial: Edward Snowden's Gambit, Washington Times,
                   September 20, 2016.
 
  f.              Editorial: Viewpoint: MetLife ruling a devastating
                   blow to Dodd-Frank bureaucratic nightmare, Atlanta
                   Business Chronicle, March 31, 2016.
 
  g.              Editorial: Guest column on state of politics in
                   Washington, Atlanta Journal-Constitution, October 3,
                   2013.
 
  h.              Editorial: Guest column on status of the Voting Rights
                   Act, Atlanta Journal-Constitution, March 7, 2013.
 
  i.              Editorial written with Tom Price: Guest column on gas
                   prices, Atlanta Journal-Constitution, April 25, 2012.
 
  j.              Editorial: Power the Nation with American-made energy,
                   Newnan Times-Herald, April 12, 2012.
 
  k.              Editorial: Guest column on Dodd-Frank and CFPB,
                   Atlanta Journal-Constitution, December 22, 2011.
 
  l.              Editorial: Costly earmark undercuts fighter, Atlanta
                   Journal-Constitution, May 4, 2010.
 
  m.              Editorial: ``Ticks'' sucking taxpayers dry, Columbus
                   Ledger-Enquirer, May 2, 2010.
 
  n.              Editorial: A patriotic duty doable in 10 minutes,
                   Atlanta Journal-Constitution, March 7, 2010.
 
  o.              Editorial: Congress needs to fix the Voting Rights
                   Act, Rock Hill Herald, July 1, 2009.
 
  p.              Editorial: Package hasn't stopped the slide, Atlanta
                   Journal-Constitution, June 28, 2009.
 
  q.              Editorial: Congress can fix its mistakes on Voting
                   Rights Act, Columbus Ledger-Enquirer, June 28, 2009.
 
  r.              Editorial: Fiscal sanity dies in Obama budget, Atlanta
                   Journal-Constitution, April 9, 2009.
 
  s.              Editorial: Dogfighting penalty best handled by states,
                   Atlanta Journal-Constitution, September 6, 2007.
 
  t.              Editorial: The Emmett Till Act: New funds unneeded for
                   `cold' civil rights murders, Atlanta Journal-
                   Constitution, June 22, 2007.
 
  u.              Editorial: Our present strategy in Iraq has failed to
                   halt the escalation of violence, Columbus Ledger-
                   Enquirer, March 4, 2007.
 
  v.              Editorial: Voting Rights Act Renewal, Atlanta Journal-
                   Constitution, May 29, 2006.
 
  w.              Editorial: Our economy hums because of tax cuts,
                   Atlanta Journal-Constitution, December 14, 2005.
 
  x.              Editorial: Storm victims will get housing, not heave-
                   ho, Atlanta Journal-Constitution, November 21, 2005.
 
  y.              Editorial: Prosecutor set sights on DeLay, Atlanta
                   Journal-Constitution, September 30, 2005.
 
  z.              Editorial: Flag protection amendment what Americans,
                   states want, Atlanta Journal-Constitution, July 4,
                   2005.
 
  aa.             Editorial: Who should decide Terri Schiavo's fate?
                   Take opportunity to show we value the sanctity of
                   life, Atlanta Journal-Constitution, March 22, 2005.
 
  bb.             Editorial: Fairer district lines will serve all
                   Georgians, Atlanta Journal-Constitution, February 11,
                   2005.
 
  cc.             Editorial: Equal Time: Bill Recognizes Religious
                   Values' Influence, Atlanta Journal-Constitution,
                   February 19, 2004.
 
  dd.             Editorial: Other Opinion: Don't Raise Taxes; Rein in
                   Spending, Atlanta Journal-Constitution, March 30,
                   2003.
 


    I gave speeches on a number of topics during my time in Congress 
that are contained in the Congressional Record. I do not have records 
of any other speeches that I gave to other groups.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have not testified before a Congressional committee in any 
capacity.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    While serving in Congress, I learned a great deal about the 
railroad industry and the needs of the transportation sector serving on 
the Transportation and Infrastructure Committee and its Railroad 
Subcommittee. In addition, my own history managing a business gives me 
a unique perspective on the needs of Amtrak and how it can best be 
directed going forward. I believe I can be of great assistance to the 
staff at Amtrak and provide helpful feedback.
    My wife and I regularly rode Amtrak from Atlanta to DC when I began 
my service in Congress, so I have a personal connection to the service 
that others are unlikely to have.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Boards for large organization do not exist to run the organization 
itself. The executives are experienced and handle day-to-day 
operations. The board, particularly for Amtrak, functions as a key 
check on the executives. Not only does the board have a role in picking 
the right executives and reviewing their performance, but the board 
must also carefully monitor and assess the internal controls in use at 
an organization like Amtrak.
    My time engaging in Congressional oversight of government agencies 
has given me experience reviewing what is happening inside complex 
institutions. I also chaired the oversight subcommittee for the 
National Security Agency, which is also a complex organization. In 
addition, having run my own businesses before and after my time in 
Congress, I know how to review the types of reports that the Amtrak 
Board will need to review.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    First, Amtrak faces a long-term challenge encouraging individuals 
to choose its service over other competing methods of transportation. 
With the rise of ride-sharing and the potential of its use for longer 
trips, Amtrak has to think strategically about getting Americans to 
choose what may seem to be a slower method of transportation than they 
would like. Amtrak has to educate Americans about the advantages of 
rail service and the benefits that using those services offer.
    Second, Amtrak must continue to address questions of security and 
safety. As a target of potential terrorist attacks, the security of 
Amtrak trains and facilities is a continuing need. In addition, 
derailments due to operator error not only cause loss of life and 
economic losses--they also undermine the mission of persuading 
individuals to choose rail over other transportation methods.
    Third, Amtrak must continue building out the high-speed rail plans 
it currently has. If Amtrak is to remain competitive, it must have 
options that go beyond standard rail service. The Acela has been 
successful in part because of its time-saving design, although even 
that option needs improvement.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

  <bullet> Westmoreland Strategies, LLC, I am the sole owner of this 
        business and provide strategic advice to businesses who wish to 
        interact with the Federal Government or State of Georgia. My 
        income consists of monthly consulting fees and no clients are 
        related to the railroad industry.

  <bullet> I am a beneficiary of the Federal Employee Retirement 
        System.

  <bullet> I am a beneficiary of a defined benefit plan of the Georgia 
        Legislative Retirement System. I am not aware of any financial 
        holdings of the system.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
     I will continue to operate Westmoreland Strategies LLC, but will 
refrain from working for any client that works in the railroad industry 
or has a business arrangement with Amtrak.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As a member of Congress, I regularly voted on legislation and made 
recommendations about policy. I have not worked as a lobbyist in the 
state of Georgia or in any capacity with the Federal Government and 
thus have not attempted to directly or indirectly influence any of 
these processes.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have no conflicts of interest, but will refuse contracts with any 
entity or individual that would create a conflict and will immediately 
terminate any agreements that would cause a conflict if a conflict 
arose.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    I have been a defendant in two lawsuits related to my homebuilding 
business. Both were civil cases filed in Fayette County, Georgia in the 
late 1980s. I do not have any records related to the cases. Both cases 
were filed by homeowners alleging there were problems with the houses I 
built. I contested both cases, but ultimately both were settled out of 
court prior to any substantial discovery. In one case I was represented 
by Buck Murphy. I do not recall who represented me in the other case.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I am not aware of any additional information that should be 
disclosed.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resume of Lynn A. Westmoreland
Experience
Westmoreland Strategies, Grantville, Georgia (January 2017 to the 
present)
Principal and Sole Member
        Provides strategic consulting for clients wishing to interact 
        with state and Federal governments.

U.S. House of Representatives, Washington, D.C. (January 2005 to 
January 2017)
Member
        Represented the Third Congressional District.
        Served on Transportation and Infrastructure Committee, 
        including chairing Railroad Subcommittee Served on Permanent 
        Select Committee on Intelligence, including chairing NSA 
        Oversight Subcommittee
        Served on Financial Services Committee
        Appointed to House Select Committee on the Events Surrounding 
        the 2012 Terrorist Attack in Benghazi

Georgia House of Representatives, Atlanta, Georgia (January 1993 to 
April 2004)
Member, Districts 104 and 86.
        Served as House Minority Leader beginning in January 2001.

Law Builders, Newnan, Georgia (1982 to January 2005)
Owner
        Worked as specialty homebuilder primarily south of Atlanta.

Crest Homes, Fayetteville, Georgia (1976 to 1982)
Vice President, Construction
        Oversaw residential construction.

Lawrence and Company, Fayetteville, Georgia (1972 to 1976)
        Worked on commercial construction projects.

Delta Air Lines, Atlanta, Georgia (1969 to 1972)
Ramp Service Agent
        Worked on loading baggage and other service to customers.
Education

  <bullet> Graduate of Therrell High School, Atlanta, Georgia, 1968.

  <bullet> Attended Georgia State University, Atlanta, Georgia 1969.

    Senator Blunt. Thank you, Lynn.
    Ms. Furchtgott-Roth.

   STATEMENT OF DIANA FURCHTGOTT-ROTH, NOMINEE FOR ASSISTANT 
   SECRETARY FOR RESEARCH AND TECHNOLOGY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Furchtgott-Roth. Chairman Blunt, Ranking Member Booker, 
distinguished members of the Subcommittee, thank you so much 
for the opportunity to appear before you today. I am honored to 
be nominated for the position of Assistant Secretary for 
Research and Technology of the Department of Transportation. 
Over the past month, I have met many staffers and Senators, and 
I appreciate the opportunity to do so and to hear your concerns 
about America's transportation networks. Should I have the 
honor of being confirmed, I look forward to working with you 
closely in the future.
    I would like to introduce my husband, Harold Furchtgott-
Roth, and my father, Gabriel Roth. My son Jeremy is here with 
his wife Channi and my grandson Isaac. My sons, Theodore and 
Richard, are here on fall break from college in New Jersey. 
Unfortunately, my other children, Leon, Francesca, and Godfrey 
are not able to be here due to work and school commitments.
    Since 2001, I have been supervising economic research. As 
Chief of Staff of the Council of Economic Advisers at the White 
House, I managed the hiring of a staff of academic economists 
who were generally on leave from their universities for a one-
year period. At the Council, I coordinated and supervised the 
production of the 2002 Economic Report of the President. Then, 
as Chief Economist at the U.S. Department of Labor under 
Secretary Elaine Chao, I oversaw research, including 
publication of the volume ``America's Dynamic Workforce.'' At 
the Manhattan Institute, I managed the economics division known 
as Economics21, including its research initiatives and the 
Shadow Open Market Committee.
    I believe strongly that the product of research must be 
trustworthy and that data should not be manipulated in order to 
get a preferred conclusion. It is possible for different 
researchers to interpret data differently or to use different 
models or data sets to arrive at their findings, but basically 
facts are facts. We can have differences of opinion, but we 
should not invest in research that is not intellectually 
honest. If I am confirmed, I pledge to adhere to this standard.
    Transportation is used by Americans in some form every day. 
Even if they do not travel by plane, bus, car, or bicycle, they 
use goods that were brought to them through our transportation 
system. There is nothing more important to the well-being of 
Americans than a properly functioning transportation system. 
Assisting Secretary Chao in the operation of America's 
transportation network would be a great privilege.
    There are many questions that surround issues of 
infrastructure financing and the implementation of new 
technologies that could be explored.
    For example, autonomous vehicles hold great promise. Almost 
40,000 people were killed on the roads in 2016, an increase of 
over 8 percent from 2015. Autonomous vehicles have the 
potential to offer improved safety, accessibility for all 
Americans to transportation, and improved technology and 
economic growth. We need to understand all of these better.
    But autonomous vehicles may also have unintended 
consequences. What effects will these vehicles have on 
employment? Will our systems be able to stand up to cyber 
criminals? What effects will autonomous vehicles have on 
patterns of road usage? How might this affect the economy in 
terms of numbers of cars, the wholesale and retail sectors, 
population distribution, property values, and other aspects of 
the economy?
    Drones also offer promising new technology and a wide 
variety of applications. For example, we joke about ordering a 
pizza and having it delivered by drone. This technology could 
cut delivery times not just for pizzas but also for a wide 
variety of goods. It raises questions of the effects on the 
workforce. There are also security and privacy issues involved. 
More research is needed.
    Other countries are making rapid advances in transportation 
infrastructure and technology, and we must redouble our efforts 
to remain in a position of global leadership. If confirmed, I 
look forward to working with others at DOT and all of you in 
Congress to attain this end.
    Thank you so much for listening, and I look forward to 
answering your questions.
    [The prepared statement and biographical information of Ms. 
Furchtgott-Roth follow:]

  Prepared Statement of Diana Furchtgott-Roth, Nominee for Assistant 
       Secretary for Research and Technology, U.S. Department of 
                             Transportation
    Chairman Thune, Ranking Member Nelson, Distinguished Members of the 
Subcommittee, thank you for the opportunity to appear before you today. 
I am honored to be nominated to the position of Assistant Secretary for 
Research and Technology at the Department of Transportation. Over the 
past month I have met with many staffers and Senators, and I appreciate 
the opportunity to do so and hear your concerns about America's 
transportation networks. Should I have the honor of being confirmed, I 
look forward to working closely with you in the future.
    I'd like to introduce my husband, Harold Furchtgott-Roth, and my 
father, Gabriel Roth. My son Jeremy is here with his wife Chani and my 
grandson Isaac, age two. My sons Theodore and Richard are here on fall 
break from college. Unfortunately my other children, Leon, Francesca, 
and Godfrey, who live in Boston and New York, are not able to come 
down, due to work and school commitments.
    Since 2001 I have been supervising economic research. As chief of 
staff of the Council of Economic Advisers at the White House, I managed 
the hiring of a staff of academic economists who were generally on 
leave from their universities for a one-to two-year period. At the 
Council, I coordinated and supervised the 2002 Economic Report of the 
President. Then, as chief economist of the U.S. Department of Labor 
under Secretary Chao, I oversaw research, including publication of the 
volume ``America's Dynamic Workforce.'' At the Manhattan Institute, I 
manage the economics division, known as Economics21, including its 
research initiatives and the activities of the Shadow Open Market 
Committee. I have written papers and articles on a number of 
transportation topics.
    I believe strongly that the product of research must be trustworthy 
and that data should not be manipulated in order to get a preferred 
conclusion. It is possible for different researchers to interpret data 
differently, or to use different models or data sets to arrive at their 
findings, but basically facts are facts. We can have differences of 
opinion, but we should not invest in research that is not 
intellectually honest. If I am confirmed, I pledge to adhere to this 
standard.
    Transportation is used by Americans in some form every day. Even if 
they do not travel by car, bus, plane, train, or bicycle, they use 
goods that were brought to them through our transportation system. 
There is nothing more important to the well-being of Americans than a 
properly-functioning transportation system. Assisting Secretary Chao in 
improving the operation of America's transportation network would be a 
great privilege.
    There are many questions that surround issues of infrastructure 
financing and the implementation of new technologies that could be 
explored.
    For example, autonomous vehicles hold great promise. Almost 40,000 
people were killed on the roads in 2016, an increase of over eight 
percent from 2015. Autonomous vehicles have the potential to offer 
improved safety; accessibility for all Americans to transportation; and 
improved technology and economic growth. We need to understand each of 
these better.
    But autonomous vehicles may also have unintended consequences. What 
effects will these vehicles have on employment? Will our systems be 
able to stand up to cybercriminals? What effect will autonomous 
vehicles have on patterns of road usage? How might this affect the 
economy in terms of the number of cars, the wholesale and retail 
sectors, population distribution, property values, and other aspects of 
the economy?
    Drones also offer new promising technology with a wide variety of 
applications. For example, we joke about ordering a pizza and having it 
delivered by drone. This technology could cut delivery times, not just 
for pizzas, but also for a wide variety of goods. It raises questions 
of the effects on the workforce. There are also security and privacy 
issues involved. More research is needed.
    Other countries are making rapid advances in transportation 
infrastructure and technology, and we must redouble our efforts to 
remain in a position of global leadership. If I am confirmed, I look 
forward to working with others at DOT and in Congress to achieve this 
end.
    Thank you for listening, and I would be glad to answer any 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):
        Diana Furchtgott-Roth (formerly Diana Roth, until June 21, 
        1983).
    2. Position to which nominated: Assistant Secretary for Research 
and Technology, U.S. Department of Transportation.
    3. Date of Nomination: October 2, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Manhattan Institute, 1200 New Hampshire Avenue, Suite 
        570, Washington, D.C. 20036.

    5. Date and Place of Birth: April 4, 1958; London, England.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Harold Furchtgott-Roth, President, Furchtgott-Roth Economic 
        Enterprises, 1200 New Hampshire Avenue, Fourth Floor, 
        Washington D.C. 20036. In addition, Senior Fellow, Hudson 
        Institute, and Adjunct Professor, Brooklyn Law School
        Leon Furchtgott (29); Francesca Furchtgott (27); Jeremy 
        Furchtgott (26); Godfrey Furchtgott (23); Theodore Furchtgott 
        (21); Richard Furchtgott (19).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Swarthmore College, BA in Economics, 1975-1979
        Oxford University, M.Phil. in Economics, 1979-1983

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Manhattan Institute for Policy Research, 2009 to present. 
        (Managerial)
        Senior Fellow and Director, Economics 21. Manage Manhattan 
        Institute's Washington office including Shadow Open Market 
        Committee meetings and publications. Write papers, books, 
        articles, and columns on a variety of economic issues, 
        including taxation, economic growth, income inequality, and 
        labor market regulation. Author of five books, including 
        Disinherited: How Washington Is Betraying America's Young 
        (Encounter Books, 2015), winner of Sir Antony Fisher 
        International Memorial Award, 2016. Testify before 
        congressional committees. Speak on college campuses. Appear on 
        radio and TV, including CNBC, Fox Business News, and BBC's 
        Business Matters.

        George Washington University, 2016 to present (Relates to 
        position)
        Adjunct Professor. Teach Labor Economics and Public Policy in 
        the Applied Economics MA program.

        Friedberg Economics Institute, Jerusalem, Israel, 2015-2016 
        (Relates to position)
        Lecturer. Taught seminars on free-market economics to Israeli 
        undergraduate and graduate students.

        Trump Presidential Campaign and Transition, 2016 to 2017. 
        (Relates to position)
        Appeared frequently on radio and TV and wrote op eds to promote 
        Mr. Trump's policy agenda. Assisted with economic advice. 
        Recruited prominent women as surrogates for Women for Trump. As 
        member of Labor Department Action Team and Landing Team, 
        assisted on detailed plans for Day 1 and Day 100.

        Hudson Institute, 2005-2011. (Managerial)
        Senior Fellow and Director, Center for Employment Policy. Wrote 
        papers on labor economics, including entrepreneurship, effects 
        of financial policies, and education and job training, in the 
        United States and overseas. Editor, Overcoming Barriers to 
        Entrepreneurship in the United States (Lexington Books, 2008).

        U.S. Department of Labor, 2003-2005. (Managerial)
        Chief Economist. Performed and directed research on topics of 
        interest to the Secretary and senior staff, such as regulatory 
        changes, effects of regulation, minimum wage, pensions, health 
        care, immigration, and the changing workforce. Provided regular 
        reports and briefings to Secretary Elaine L. Chao about the 
        economy, macroeconomic and microeconomic policy, and the 
        employment situation in the United States, Europe, and Asia. 
        Delivered speeches on the economy and administration policy. 
        Organized and edited America's Dynamic Workforce, Department of 
        Labor, 2004.

        Council of Economic Advisers, Executive Office of the 
        President, 2001-2003. (Managerial)
        Chief of Staff; Special Adviser to the Council. Supervised 
        production of the Economic Report of the President. Managed 35-
        person staff for the Chairman. Organized economists' 
        representation at meetings within the Executive Office of the 
        President and outside agencies and their interaction with White 
        House staff. Coordinated recruiting of senior economists, staff 
        economists, research assistants, and administrative assistants.

        American Enterprise Institute, 1993-2001. (Relates to position)
        Resident Fellow; Assistant to the President. Performed research 
        on taxation, labor economics, and sex discrimination. Coauthor 
        of two books on women in the workforce. Organized seminars and 
        conferences on economic and regulatory issues.

        The White House, 1991-1993. (Managerial)
        Associate Director and Deputy Executive Secretary, Domestic 
        Policy Council; Associate Director, Office of Policy Planning. 
        Prepared and reviewed domestic policy options for President 
        Bush in the areas of deregulation and taxation. Coordinated 
        interagency working groups on domestic policy issues.

        American Petroleum Institute, 1987-1991. (Relates to position)
        Economist. Conducted studies, wrote papers, and directed 
        research on tax, energy, and environmental issues.

        Council of Economic Advisers, Executive Office of the 
        President, 1986-1987.
        Junior Staff Economist. Provided support to the Chairman and 
        Members of Council on microeconomic issues including labor, tax 
        policy, and regulation.

        Policy Economics Group, 1985-1986.
        Economist. Analyzed the effects of proposed changes in tax laws 
        on various industries including banking, railroad, and 
        trucking.

        Booz, Allen and Hamilton Inc., 1983-1984. Senior Consultant.
        The Urban Institute, Summer, 1981. Research Assistant.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Board Chair, In Shifra's Arms (Crisis Pregnancy Center).
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        In Shifra's Arms, Chair of Board, 2014 to present. Board 
        member, 2009 to 2014. Does not restrict membership.

        Ohev Sholom, The National Synagogue, 2005 to present. Restricts 
        membership to Jews.

        Reform Club, London, UK. July 2017 to present. Club does not 
        restrict membership.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Books
        Disinherited: How Washington is Betraying America's Young, with 
        Jared Meyer, Encounter Books, May 2015. Winner of Sir Antony 
        Fisher International Memorial Award, Atlas Foundation, 2016

        Regulating to Disaster: How Green Jobs Policies Are Damaging 
        America's Economy, Encounter Books, 2012.

        Women's Figures: An Illustrated Guide to the Economic Progress 
        of Women in America, AEI Press, 2012.

        How Obama's Gender Policies Undermine America, Encounter Books, 
        2010.

        Overcoming Barriers to Entrepreneurship in the United States 
        (edited volume), Lexington Books, 2008.

        The Feminist Dilemma: When Success Is Not Enough, with 
        Christine Stolba, AEI Press, 2001.

        Women's Figures: An Illustrated Guide to the Economic Progress 
        of Women in America, with Christine Stolba, AEI Press and 
        Independent Women's Forum, 1999.
Op Eds and Columns
        ``Working Wives Widen `Income Gap','' Wall Street Journal, 
        Tuesday, June 20, 1995.

        ``Congress Scores Again,'' Investor's Business Daily, Tuesday, 
        November 28, 1995.

        ``Abuses of Income Distribution Tables in Tax Policy,'' Tax 
        Notes, Volume 69, Number 11, Monday, December 11, 1995, pp. 
        1414-1416.

        ``Revolution of the Heart,'' review of Revolution of the Heart 
        by Bill Shore, IntellectualCapital.com, October 3, 1996.

        ``Affirmative Action for Women: Just Don't Do It,'' 
        IntellectualCapital.com, October 31, 1996.

        ``The Gender Gap in Taxation: Women Stand to Gain Most from 
        Reform,'' IntellectualCapital.com, December 12, 1996.

        ``The Myth of the Glass Ceiling,'' IntellectualCapital.com, 
        January 23, 1997.

        ``Should Women Worry About Glass Ceilings?'' Insight on the 
        News, February 10, 1997, pp. 25-27.

        ``A Good Starting Point,'' review of Taxing Women by Edward 
        McCaffery, IntellectualCapital.com, April 24, 1997.

        ``Put a Stop to Comp-Time Discrimination,'' Investor's Business 
        Daily, Monday, June 2, 1997.

        ``Women's Work: Choice or Necessity?'' review of The Time Bind: 
        When Work Becomes Home and Home Becomes Work by Arlie Russell 
        Hochschild, IntellectualCapital.com, June 26, 1997.

        ``A Working Woman's Retreat,'' review of When Work Doesn't Work 
        Anymore by Elizabeth Perle McKenna, IntellectualCapital.com, 
        September 18, 1997.

        ``The Skyline Tax,'' with Kevin Hassett, The Weekly Standard, 
        September 29, 1997, pp. 13-14.

        ``Plato Speaks of Gender,'' review of Cultivating Humanity: A 
        Classical Defense of Reform in Liberal Education by Martha 
        Nussbaum, Washington Times, October 22, 1997.

        ``Uncle Sam's Dowry,'' with Kevin Hassett, 
        IntellectualCapital.com, October 30, 1997.

        ``The Trial of the Unabomber: A Moral Guide,''review of Drawing 
        Life: Surviving the Unabomber by David Gelernter, 
        IntellectualCapital.com, November 27, 1997.

        ``Tax Code Penalizes Work, Not Marriage,'' Investor's Business 
        Daily, Friday, January 16, 1998.

        ``Women Don't Need Equal Pay Day,'' with Christine Stolba, 
        Investor's Business Daily, Monday, April 6, 1998, A36.

        ``Sex and Affirmative Action,'' Heterodoxy, Volume 6, Number 8, 
        October 1998, 11.

        ``Faster Than You Think,'' review of Why So Slow? The 
        Advancement of Women by Virginia Valian, 
        IntellectualCapital.com, October 8, 1998.

        ``Undoing Favoritism That Serves to Disfavor,'' with Christine 
        Stolba, Washington Times, Thursday, November 12, 1998, A15.

        ``American Women Aren't Really So Cheap,'' with Christine 
        Stolba, Wall Street Journal, Friday, November 20, 1998, A18.

        ``The Pitfalls of Politicizing Science,'' review of The 
        Baltimore Case: A Trial of Politics, Science, and Character by 
        Daniel Kevles, IntellectualCapital.com, January 7, 1999.

        `` `Comparable Worth' Makes a Comeback,'' with Christine 
        Stolba, Wall Street Journal, Thursday, February 4, 1999, A22.

        ``Money Can't Buy Fulfillment,'' review of What Our Mothers 
        Didn't Tell Us: Why Happiness Eludes the Modern Woman by 
        Danielle Crittenden, IntellectualCapital.com, March 4, 1999.

        ``Sense and Sensibility in the Tax Reform Debate,'' review of 
        The Greedy Hand: How Taxes Drive Americans Crazy and What to Do 
        about It by Amity Shlaes, IntellectualCapital.com, March 25, 
        1999.

        ``Keep Goose That Lays Golden Eggs,'' Los Angeles Times, 
        Thursday, April 1, 1999, A17.

        ``MIT Report Flunks Statistics 101,'' Investor's Business 
        Daily, May 4, 1999, A22. ``Call Off the Troops,'' review of 
        Ceasefire! Why Women and Men Must Join Forces to Achieve True 
        Equality by Cathy Young, IntellectualCapital.com, July 15, 
        1999.

        ``The Victim Myth,'' Investor's Business Daily, Friday, July 
        30, 1999.

        ``Your Surplus Checks Aren't in the Mail Yet,'' with Kevin 
        Hassett, Los Angeles Times, Thursday, August 5, 1999, A17.

        ``The Myth of the Wage Gap,'' Civil Rights Journal, Fall 1999, 
        28-30. ``Suicide Mission: The Union Push for Comparable 
        Worth,'' Labor Watch, Capital Research Center, December 1999.

        ``Eliminating the Marriage Penalty through Flatter Taxation,'' 
        New York Law School Journal of Human Rights, Volume XVI Part 
        One, Symposium 1999, pp. 153-158.

        ``This Pay Gap Is a Phony,'' Washington Post, Monday, January 
        31, 2000, A19. ``On One Tax Proposal, Clinton Has It Right,'' 
        Investor's Business Daily, Thursday, February 10, 2000, A24.

        ``Subpoena Elian,'' Washington Times, Monday, May 1, 2000, A17.

        ``Equal or Equivalent? Feminist Activists Ignore the Data about 
        Women's Pay,'' Investor's Business Daily, Thursday, May 11, 
        2000, A24.

        ``Bourgeois-Bohemian Rhapsody,'' review of Bobos in Paradise: 
        The New Upper Class and How They Got There by David Brooks, 
        IntellectualCaptial.com, June 1, 2000.

        ``Harry Potter's America,'' IntellectualCapital.com, Thursday, 
        July 13, 2000.

        ``Tired Feminist Claims,'' National Review Online, Thursday, 
        July 13, 2000. ``Left with the Bill: Women, Not Men, Carry the 
        Largest Estate Tax Burden,'' Investor's Business Daily, 
        Thursday, July 20, 2000, A26.

        ``Euro Record Troubling So Far,'' United Press International, 
        Friday, August 11, 2000.

        ``Where's the Crisis? Democrats Decry the World's Best Health 
        Care System,'' Investor's Business Daily, Friday, August 25, 
        2000, A28.

        ``Comparable Worth Is Back,'' The American Spectator, September 
        2000, 38-43. ``Susan Estrich's America: Why Can't a Woman Be 
        More Like a Man?'' The Weekly Standard, November 13, 2000, 32-
        34.

        ``Good Policy Should Stay Sans Linda,'' National Review Online, 
        Wednesday, January 10, 2001.

        ``What U.S. Labour Laws Can Teach Europe,'' Financial Times, 
        Friday, August 11, 2005.

        ``Roberts Was Right,'' New York Sun, Tuesday, August 23, 2005.

        ``Labor: Past, Present and Future,'' Indianapolis Star, Sunday, 
        September 4, 2005.

        ``La France Peut Mieux Faire,'' (``France Can Do Better'') Le 
        Figaro, Friday, September 30, 2005.

        ``Even the Low-Wage Workers Move Up,'' Indianapolis Star, 
        Sunday, October 25, 2005.

        ``High Holy Days Ticket Prices Are Costing Community,'' 
        Forward, Friday, November 4, 2005.

        ``In Anacostia, A Model for Job Training,'' The Washington 
        Post, Sunday, November 6, 2005.

        ``Challenges in Staffing,'' HR Magazine, 50th Anniversary 2005, 
        December 2005.

        ``A `Moral Road Map' for Israel's Economy,'' The Jerusalem 
        Post, Friday, February 17, 2006.

        ``A True Believer,'' review of Washington's God: Religion, 
        Liberty and the Father of Our Country by Michael and Jana 
        Novak, New York Post, Sunday, March 12, 2006.

        ``Getting the Sack Really Would Help French Workers,'' The 
        Sunday Times, Sunday, March 19, 2006.

        ``10K Handout: Better Than Welfare,'' review of In Our Hands by 
        Charles Murray, New York Post, Sunday, April 2, 2006.

        ``Immigrants Don't Depress Wages,'' New York Sun, Wednesday, 
        April 12, 2006.

        ``ACI Spells Progress in `Funded Science','' Investor's 
        Business Daily, May 8, 2006.

        ``No Honor, No Victory,'' review of Honor: A History by James 
        Bowman, New York Post, Sunday, June 4, 2006.

        ``Sexist Taxation,'' review of Leaving Women Behind: Modern 
        Families, Outdated Laws, by Kimberly Strassel, Celeste Colgan, 
        and John Goodman, New York Post, June 4, 2006.

        ``Walls to No Avail,'' New York Sun, July 19, 2006.

        ``Friends for Life, Today and Then,'' review of Friendship: An 
        Expose, by Joseph Epstein, New York Post, August 20, 2006.

        ``The Case for Immigration,'' New York Sun, September 22, 2006.

        ``America, Job Frontier,'' New York Sun, October 9, 2006.

        ``The Borjas Blame Game,'' New York Sun, October 13, 2006.

        ``Minimum Wage, Still Crazy After All These Years,'' New York 
        Sun, October 20, 2006.

        ``Cheer Up, Homeowner,'' New York Sun, October 27, 2006.

        ``Doing Just Fine after All,'' New York Sun, November 6, 2006.

        ``Keeping America Competitive,'' New York Sun, November 10, 
        2006.

        ``Now Wage a Campaign for Economic Growth,'' Washington Post, 
        November 11, 2006.

        ``Money Myths: Work Really Does Pay,'' review of Income and 
        Wealth, by Alan Reynolds, New York Post, November 12, 2006.

        ``Where the Money Goes,'' New York Sun, November 17, 2006.

        ``Watch How They Shop,'' New York Sun, November 24, 2006.

        ``Free Trade Advantage,'' New York Sun, December 1, 2006.

        ``Richer Than You Think,'' New York Sun, December 11, 2006.

        ``School Lessons from New York,'' New York Sun, December 15, 
        2006.

        ``The Road Not Taken,'' New York Sun, December 22, 2006.

        ``Running Out of Time,'' New York Sun, December 29, 2006.

        ``How Democrats Tell Time,'' New York Sun, January 5, 2007.

        ``Gaining Security in the Workforce,'' New York Sun, January 
        12, 2007.

        ``Pelosi's Fishy Deal,'' New York Sun, January 15, 2007.

        ``More for Mike to Do,'' New York Sun, January 19, 2007.

        ``The President's Slippery Solution,'' New York Sun, January 
        25, 2007.

        ``Class Facts: Why Education Is Key To Success,'' review of 
        Tough Choices or Tough Times: The Report of The New Commission 
        on The Skills of The American Workforce, by National Center on 
        Education and The Economy, New York Post, January 28, 2007.

        ``America's Budget,'' New York Sun, February 6, 2007.

        ``Traffic Congestion Solutions,'' New York Sun, February 9, 
        2007.

        ``Income Inequality's Reality,'' New York Sun, February 16, 
        2007.

        ``Intimidating Workers,'' New York Sun, February 23, 2007.

        ``Markets' Problem Is Politics,'' New York Sun, March 2, 2007.

        ``Fruits of Immigration,'' New York Sun, March 9, 2007.

        ``Hillary Underrates Women,'' New York Sun, March 16, 2007.

        ``Not Just the Ears,'' New York Sun, March 23, 2007.

        ``Wages of Senator Schumer,'' New York Sun, April 2, 2007.

        ``Losing Paychecks to Union Officials,'' New York Sun, April 6, 
        2007.

        ``Dangerous Tax Times,'' New York Sun, April 13, 2007.

        ``Staircase of Tax Plenty Steep,'' New York Sun, April 20, 
        2007.

        ``Who's the Better Feminist?'' New York Sun, April 27, 2007.

        ``An Overtaxed Electorate,'' New York Sun, May 4, 2007.

        ``Get Pumped,'' New York Sun, May 11, 2007.

        ``Give This Law An `A','' New York Sun, May 18, 2007.

        ``Skip This CAFE,'' New York Sun, May 25, 2007.

        ``Rushing the Numbers,'' New York Sun, June 1, 2007.

        ``This CAFE Is Served Without Dessert,'' The American, June 8, 
        2007.

        ``The Evil We Overcame,'' New York Sun, June 8, 2007.

        ``Checking a Card,'' New York Sun, June 15, 2007.

        ``We Need Their Money,'' New York Sun, June 22, 2007.

        ``Stop Singing Soak the Rich,'' The Guardian (U.K.), June 29, 
        2007.

        ``Sick of Working,'' New York Sun, June 29, 2007.

        ``The Silent Echo,'' New York Sun, July 6, 2007.

        ``The Wrong Fire,'' New York Sun, July 13, 2007.

        ``Extravagant Spending,'' New York Sun, July 18, 2007.

        ``Keep Our Money Here,'' New York Sun, July 27, 2007.

        ``Wising Up,'' New York Sun, August 3, 2007.

        ``Sick of SCHIP,'' New York Sun, August 10, 2007.

        ``Farewell, Karl,'' New York Sun, August 17, 2007.

        ``New York's Collapsible Bridges,'' New York Sun, August 24, 
        2007.

        ``Labor Reconsidered,'' New York Sun, August 31, 2007.

        ``Fred Can Win,'' New York Sun, September 7, 2007.

        ``Ticking Time Bomb,'' review of The Iranian Time Bomb: The 
        Mullah Zealots' Quest for Destruction, by Michael Ledeen, New 
        York Sun, September 14, 2007.

        ``Fixing Airport Delays,'' New York Sun, September 21, 2007.

        ``A Prelude to Health,'' New York Sun, September 28, 2007.

        ``Keep Them Here,'' New York Sun, October 5, 2007.

        ``An Unnecessary Flub,'' New York Sun, October 8, 2007.

        ``Repeg the Peg,'' New York Sun, October 12, 2007.

        ``A Blind Eye to Prevention,'' New York Sun, October 22, 2007.

        ``A Subprime Debacle,'' New York Sun, October 26, 2007.

        ``Making Sense of Income Equality,'' American.com, October 26, 
        2007.

        ``Adjusting to Free Trade,'' American.com, November 1, 2007.

        ``Wrong Way Charlie,'' New York Sun, November 2, 2007.

        ``Clock Watching,'' New York Post, November 4, 2007.

        ``Better Than Ever,'' New York Sun, November 9, 2007.

        ``Punishing the Consumer,'' New York Sun, November 16, 2007.

        ``A Marathon of a Life,'' New York Sun, November 23, 2007.

        ``Breaking Through,'' New York Sun, November 30, 2007.

        ``Frightening Food,'' New York Sun, December 7, 2007.

        ``Credit Verdict,'' New York Sun, December 12, 2007.

        ``Keeping Unions Accountable,'' New York Sun, December 19, 
        2007.

        ``The Great Recession of 2008?'' American.com, December 21, 
        2007.

        ``New York Can Do Better Than London,'' New York Sun, December 
        26, 2007.

        ``Desperately Seeking Visas,'' New York Sun, January 2, 2008.

        ``FairTax's Plausible Solution,'' New York Sun, January 9, 
        2008.

        ``The Health Care Rub,'' New York Sun, January 16, 2008.

        ``Rangel, Recession, and Rebates,'' New York Sun, January 23, 
        2008.

        ``Who's Afraid of Expensive Petrol?'' American.com, January 25, 
        2008.

        ``My McCain,'' New York Sun, January 30, 2008.

        ``The Right Energy Solution,'' New York Sun, February 6, 2008.

        ``Opportunity Knocks for the GOP: A Winning Loss,'' New York 
        Sun, February 8, 2008.

        ``Spend Now While You Have It,'' New York Sun, February 13, 
        2008.

        ``Abusing Sick Leave,'' New York Sun, February 19, 2008.

        ``The Ethanol Catch-22,'' New York Sun, February 27, 2008.

        ``Steinem's Got Clinton All Wrong,'' New York Sun, March 5, 
        2008.

        ``Not So Fast On the Recession,'' New York Sun, March 10, 2008.

        ``Bear Stearns Better than U.K. Bailout,'' New York Sun, March 
        19, 2008.

        ``We Need More of Them,'' New York Sun, March 26, 2008.

        ``Paulson's Mixed Bag,'' New York Sun, April 2, 2008.

        ``The Colombian Imperative,'' New York Sun, April 9, 2008.

        ``You Better Shop Around,'' (with Andrew Brown) American.com, 
        April 14, 2008.

        ``Our Own Tax Hell,'' New York Sun, April 15, 2008.

        ``The Case for Ending Ethanol Subsidies,'' New York Sun, April 
        22, 2008.

        ``Incentives for a Kidney,'' New York Sun, April 23, 2008.

        ``Foul Play on Fair Pay,'' New York Sun, April 30, 2008.

        ``Revolt of the Renters,'' New York Sun, May 7, 2008.

        ``Following Unions' Money Trail,'' New York Sun, May 14, 2008.

        ``Union Leaders Should Disclose Their Compensation to the 
        Public,'' The Examiner, May 20, 2008.

        ``Norquist's Five-Point Plan,'' New York Sun, May 21, 2008.

        ``Desperately Seeking Visas,'' New York Sun, May 28, 2008.

        ``Caps For Sale,'' New York Sun, June 4, 2008.

        ``$2 Gas And $1 Eggs,'' New York Sun, June 11, 2008.

        ``Wisdom of Irish Voters,'' New York Sun, June 18, 2008.

        ``HIRAs Are the Future,'' New York Sun, June 25, 2008.

        ``Geoengineering,'' New York Sun, July 2, 2008.

        ``Holding Up a Mirror to the SEIU,'' New York Sun, July 9, 
        2008.

        ``SEC Sells Economy Short,'' New York Sun, July 16, 2008.

        ``New Rules for OSHA,'' New York Sun, July 18, 2008.

        ``Termites in the Trading System,'' review of Termites in the 
        Trading System, by Jagdish Bhagwati, New York Post, July 27, 
        2008.

        ``Battleground for Sound Science,'' New York Sun, July 30, 
        2008.

        ``Teenagers' Right to Work,'' New York Sun, August 6, 2008.

        ``New York Vs. South Carolina,'' New York Sun, August 13, 2008.

        ``Union Label Reads `No Growth','' New York Sun, August 20, 
        2008.

        ``Obama Wife Penalty,'' New York Sun, August 28, 2008.

        ``Obama and Inequality: On Women in the Workforce,'' New York 
        Sun, September 3, 2008.

        ``Health Care: To Tax or Not To Tax,'' New York Sun, September 
        10, 2008.

        ``New York's Rising Sarah Palin,'' New York Sun, September 17, 
        2008.

        ``Short-Selling Is Not Market Abuse,'' Forbes.com, September 
        20, 2008.

        ``New Hope on Organ Donation,'' New York Sun, September 24, 
        2008.

        ``A Bill That Deserves to Fail,'' American.com, October 2, 
        2008.

        ``Capitalism Is Not Dead,'' Reuters.com, October 16, 2008.

        ``House For Sale--To Immigrants,'' Forbes.com, October 20, 
        2008.

        ``Moving Beyond Conventional Remedies,'' Reuters.com, October 
        24, 2008.

        ``Is The Buck Back?'' Reuters.com, October 31, 2008.

        ``After Victory, A Reality Check For Obama,'' Reuters.com, 
        November 7, 2008.

        ``The U.S. Won't Stomach a New Bretton Woods,'' Reuters.com, 
        November 14, 2008.

        ``Obama's Family-Friendly Agenda Will Hurt Job Growth,'' 
        Reuters.com, November 21, 2008.

        ``Fix Immigration by Next Thanksgiving,'' Reuters.com, November 
        27, 2008.

        ``The Economic Fight of the Year,'' Forbes.com, December 3, 
        2008.

        ``Bail Out the Car Buyers,'' Reuters.com, December 4, 2008.

        ``The Right Way to Spend Billions on Infrastructure,'' 
        Reuters.com, December 10, 2008.

        ``Electric Cars Will Not Cure Environmental Woes,'' 
        Reuters.com, December 18, 2008.

        ``A Christmas Wish: End Traffic Congestion in 2009,'' 
        Reuters.com, December 24, 2008.

        ``Health Care Degree Leads to Higher Earnings,'' Reuters.com, 
        December 31, 2008.

        ``The $300 Billion Tax Cut: Let's Do It Right,'' Reuters.com, 
        January 8, 2009.

        ``Saving Millions from Spectrum Sales,'' Reuters.com, January 
        15, 2009.

        ``Pardon Scooter Libby,'' Forbes.com, January 15, 2009.

        ``First 100 Days: The Mirage of Pay Equity,'' Reuters.com, 
        January 21, 2009.

        ``SCHIP: The Creeping Nationalization of Health Care,'' 
        RealClearMarkets.com, January 29, 2009.

        ``Uncle Sam Pays for Middle-Class Health Care,'' Reuters.com, 
        January 29, 2009.

        ``How Congress is Harming the Economy,'' Reuters.com, February 
        5, 2009.

        ``First, Do No Harm,'' RealClearMarkets.com, February 5, 2009.

        ``Hold Your Wallet--Here Is TARP 2,'' Reuters.com, February 12, 
        2009.

        ``The Financial Instability Plan,'' RealClearMarkets.com, 
        February 12, 2009.

        ``Do You Know Where Your Food Comes From?'' 
        RealClearMarkets.com, February 19, 2009.

        ``Sickness and Death Are No Way to Regulate Food,'' 
        Reuters.com, February 19, 2009.

        ``The Challenge of Health Insurance Reform,'' Reuters.com, 
        February 26, 2009.

        ``So Much for Fiscal Responsibility,'' RealClearMarkets.com, 
        February 26, 2009.

        ``Obama's Higher Taxes Hit Working Wives,'' 
        RealClearMarkets.com, March 5, 2009.

        ``Jump-Start U.S. Growth through Immigration,'' Reuters.com, 
        March 12, 2009.

        ``Card Check Workers Can Only Check In,'' RealClearMarkets.com, 
        March 12, 2009.

        ``A Show Trial for AIG,'' Reuters.com, March 19, 2009.

        ``AIG Bashing Is a Political Smokescreen,'' 
        RealClearMarkets.com, March 19, 2009.

        ``Trillion-Dollar Deficits Are Not the Answer,'' Reuters.com, 
        March 26, 2009.

        ``Obama's Spending Masquerades as Investment,'' 
        RealClearMarkets.com, March 26, 2009.

        ``Keep the Charitable Tax Deduction,'' Reuters.com, April 2, 
        2009.

        ``Charity Begins At Home,'' RealClearMarkets.com, April 2, 
        2009.

        ``Unequal Protection under the Law,'' RealClearMarkets.com, 
        April 9, 2009.

        ``Immigration Can Speed Economic Recovery,'' Reuters.com, April 
        10, 2009.

        ``A Simpler Way to Pay Taxes,'' Reuters.com, April 15, 2009.

        ``Choose Tax Cuts for Economic Recovery,'' 
        RealClearMarkets.com, April 16, 2009.

        ``The Economic Cost of Climate Change Legislation,'' 
        Reuters.com, April 23, 2009.

        ``Job Loss by Millions, Tax Hikes by Billions,'' 
        RealClearMarkets.com, April 23, 2009.

        ``President Obama's First 100 Days,'' Reuters.com, April 29, 
        2009.

        ``The Folly of `Equal Pay' Laws,'' RealClearMarket.com, April 
        30, 2009.

        ``Lessons from Jack Kemp,'' Reuters.com, May 6, 2009.

        ``After Card Check, Don't Forget Binding Arbitration,'' 
        RealClearMarkets.com, May 7, 2009.

        ``Thousands Lose Jobs Due to Higher Federal Minimum Wage,'' 
        Reuters.com, May 14, 2009.

        ``The Minimum Wage and Its Employment Impact,'' 
        RealClearMarkets.com, May 14, 2009.

        ``The Hidden Agenda behind Card Check,'' RealClearMarkets.com, 
        May 15, 2009.

        ``Develop Domestic Oil Reserves for Energy Independence,'' 
        Reuters.com, May 21, 2009.

        ``Obama's Upside-Down Energy Logic,'' RealClearMarkets.com, May 
        21, 2009.

        ``New Fuel Standards Aren't as Tough as They Look,'' 
        Reuters.com, May 28, 2009.

        ``Obama Should Ditch Deadly CAFE Standards,'' 
        RealClearMarkets.com, May 28, 2009.

        ``The Health Insurance Reform Stakes Begin,'' Reuters.com, June 
        4, 2009.

        ``We Face Major Healthcare Choices,'' RealClearMarkets.com, 
        June 4, 2009.

        ``A Better Way to Fund Roads,'' Reuters.com, June 11, 2009.

        ``High-Speed Rail: A Big-Ticket Item That Drives Deficit,'' 
        RealClear
        Markets.com, June 11, 2009.

        ``Workers Deserve Better Pension Plan,'' Worthington Daily 
        Globe, June 17, 2009.

        ``A VAT Tax Is Not the Answer,'' RealClearMarkets.com, June 18, 
        2009.

        ``Starting a Trade War with `Buy America','' Reuters.com, June 
        19, 2009.

        ``Socialized Medicine through the Eyes of a Recipient,'' 
        RealClearMarkets.com, June 25, 2009.

        ``What Will The Climate Change Bill Do to Your Job?'' 
        Reuters.com, June 26, 2009.

        ``It's Time to Go Nuclear,'' RealClearMarkets.com, July 2, 
        2009.

        ``Getting a Summer Job: Entrepreneurship for Teens,'' 
        Reuters.com, July 3, 2009.

        ``Gender Equality: From Sports to Math and Science,'' 
        Reuters.com, July 9, 2009.

        ``Obama, Title IX, and Academics,'' RealClearMarkets.com, July 
        9, 2009.

        ``Minimum Wage Hike Spreads Blue State Unemployment Misery,'' 
        Examiner, July 14, 2009.

        ``A Very Unhealthy Health Bill,'' RealClearMarkets.com, July 
        16, 2009.

        ``Is America Ready for Single Payer Healthcare?'' Reuters.com, 
        July 23, 2009.

        `` `Rich' Taxes Cripple Small Towns,'' RealClearMarkets.com, 
        July 23, 2009.

        ``The Healthcare Bankruptcy Myth,'' RealClearMarkets.com, July 
        30, 2009.

        ``Reduce the High Cost of Medical Malpractice,'' Reuters.com, 
        August 6, 2009.

        ``The High Cost of Medical Malpractice,'' RealClearMarkets.com, 
        August 6, 2009.

        ``Real Madrid, a Threat to Anyone,'' with Theodore Furchtgott, 
        RealClear
        Sports.com, August 10, 2009.

        ``Obama's Health Care Bogeyman Is Obama,'' 
        RealClearMarkets.com, August 13, 2009.

        ``Are Women Paid Less Than Men?'' Reuters.com, August 14, 2009.

        ``Turning Uncle Sam into Peeping Tom,'' National Review, August 
        20, 2009.

        ``Obama's Excessively Optimistic Deficit Projections,'' 
        RealClearMarkets.com, August 27, 2009.

        ``Don't Buy Unions' Labor Day Bluster,'' RealClearMarkets.com, 
        September 3, 2009.

        ``Union Bigs Get the Best Deals: A Sour Labor Day Lesson on 
        Pensions,'' New York Daily News, September 7, 2009.

        ``Nothing New with Obama's Health Plan,'' RealClearMarkets.com, 
        September 10, 2009.

        ``Who's Looking After the Workers?'' Human Events Online, 
        September 14, 2009.

        ``Don't Buy Specter's EFCA ``Compromise,'' 
        RealClearMarkets.com, September 17, 2009.

        ``The True Cost of the Baucus Bill,'' RealClearMarkets.com, 
        September 18, 2009.

        ``The Truth about Income Inequality,'' RealClearMarkets.com, 
        September 24, 2009.

        ``Job Creation Bills Will Kill Them,'' RealClearMarkets.com, 
        October 1, 2009.

        ``The Baucus Bill: An October Trick,'' RealClearMarkets.com, 
        October 8, 2009.

        ``Health Reform Won't Benefit Women,'' RealClearMarkets.com, 
        October 15, 2009.

        ``Higher Education and Economic Mobility,'' 
        RealClearMarkets.com, October 22, 2009.

        ``The Public Option Opt-Out Is No Panacea,'' 
        RealClearMarkets.com, October 29, 2009.

        ``U.S. Health Care Gets Cancer Right,'' Forbes.com, November 5, 
        2009.

        ``Health Reform and Job Destruction,'' RealClearMarkets.com, 
        November 12, 2009.

        ``Fixing the Wrong Disease,'' New York Post, November 20, 2009.

        ``Big Labor's Multi-Billion Dollar Bailout,'' 
        RealClearMarkets.com, November 25, 2009.

        ``Job Creation: The Seen and Unseen,'' RealClearMarkets.com, 
        December 3, 2009.

        ``Climate Change: Another Option,'' RealClearMarkets.com, 
        December 10, 2009.

        ``Kiss Your Health Plan Goodbye,'' RealClearMarkets.com, 
        December 24, 2009.

        ``Budget Deficits Have Consequences,'' RealClearMarkets.com, 
        December 31, 2009.

        ``Don't Ignore Public Pensions,'' RealClearMarkets.com, January 
        7, 2010.

        ``Obama Regulates Away Jobs,'' RealClearMarkets.com, January 
        11, 2010.

        ``It's Time to Elevate Entrepreneurs,'' RealClearMarkets.com, 
        January 21, 2010.

        ``Bank Robbery by another Name,'' Tax Notes, January 25, 2010.

        ``A New Approach to Health Reform,'' RealClearMarkets.com, 
        January 28, 2010.

        ``Job Creation vs. Ideology,'' RealClearMarkets.com, February 
        4, 2010.

        ``It's Time for Volcker, But Not Bank Taxes,'' 
        RealClearMarkets.com, February 11, 2010.

        ``Obama Goes Nuclear, In a Good Way,'' RealClearMarkets.com, 
        February 18, 2010.

        ``Where Tax Policies Diverge,'' Tax Notes, February 22, 2010.

        ``Obamacare 2.0 Is a Job Killer,'' RealClearMarkets.com, 
        February 23, 2010.

        ``Washington's `High Road' to Robbery,'' RealClearMarkets.com, 
        March 4, 2010.

        ``Paycheck Fairness Is a Misnomer,'' RealClearMarkets.com, 
        March 11, 2010.

        ``Why the SEIU Wants Health Reform,'' RealClearMarkets.com, 
        March 18, 2010.

        ``Miracle on the Potomac: A Bipartisan Tax Proposal,'' Tax 
        Notes, March 22, 2010.

        ``Desperately Seeking Bipartisan Tax Simplification,'' 
        RealClearMarkets.com, March 25, 2010.

        ``The Health Bill's Unemployment Implications,'' 
        RealClearMarkets.com, April 1, 2010.

        ``Decrying the Union Pension Bailout Bill,'' 
        RealClearMarkets.com, April 8, 2010.

        ``Equal Pay Advocacy Based on Bad Assumptions,'' Washington 
        Examiner, April 19, 2010.

        ``Marriage Penalties Rise Under the New Healthcare Law,'' Tax 
        Notes, April 19, 2010.

        ``Hello Health Care, Goodbye Marriage,'' RealClearMarkets.com, 
        April 22, 2010.

        ``Immigration: The Great Race for Brains,'' 
        RealClearMarkets.com, April 29, 2010.

        ``Health Care's Impact on the Low-Skilled Worker,'' 
        RealClearMarkets.com, May 6, 2010.

        ``Kerry-Lieberman Equals Lost Jobs,'' RealClearMarkets.com, May 
        13, 2010.

        ``Mileage Fees Over Gas Taxes?'' RealClearMarkets.com, May 20, 
        2010.

        ``The Awesome Naivete of Dodd's Reform,'' RealClearMarkets.com, 
        May 27, 2010.

        ``Rising Minimum Wage, Rising Teen Unemployment,'' 
        RealClearMarkets.com, June 3, 2010.

        ``Congress Returns to Financial Reform Behemoth of a Bill,'' 
        Washington Examiner, June 4, 2010.

        ``Behind the Numbers: Stimulus Created Jobs--for Government,'' 
        Washington Examiner, June 4, 2010.

        ``The Danger of High Taxes on Carried Interest,'' 
        RealClearMarkets.com, June 10, 2010.

        ``Thank Congress for Teen Unemployment,'' Washington Examiner, 
        June 11, 2010.

        ``Skewing the Playing Field for Investment Partnerships,'' Tax 
        Notes, June 14, 2010.

        ``Hoosiercare or Obamacare?'' RealClearMarkets.com, June 17, 
        2010.

        ``EPA Killing Jobs Amidst Recession,'' Washington Examiner, 
        June 18, 2010.

        ``Congress's Medicare Canary,'' RealClearMarkets.com, June 24, 
        2010.

        ``Medicare ``Fix'' is Just a Gimmick,'' Washington Examiner, 
        June 25, 2010.

        ``Expand New York City's Living Wage?'' RealClearMarkets.com, 
        July 1, 2010.

        ``Why President Obama Has Not Created More Jobs,'' Washington 
        Examiner, July 2, 2010.

        ``Racial, Gender Quotas in the Financial Bill?'' 
        RealClearMarkets.com, July 8, 2010.

        ``Race and Gender Employment Quotas Hidden In Financial 
        Reform,'' Washington Examiner, July 9, 2010.

        ``Cap and Trade Equals Lost Jobs,'' Tax Notes, July 12, 2010.

        ``Title IX for Math and Science?'' RealClearMarkets.com, July 
        15, 2010.

        ``Financial Reform Fixes Debit Cards That Weren't Broken,'' 
        Washington Examiner, July 15, 2010.

        ``U.S. Workers Aren't Better Off,'' RealClearMarkets.com, July 
        22, 2010.

        `` `Paycheck Fairness' is Anything But,'' Washington Examiner, 
        July 23, 2010.

        ``Deficits Up, Unemployment Up,'' RealClearMarkets.com, July 
        29, 2010.

        ``A New York Financial Guru Runs for Senate,'' Washington 
        Examiner, July 30, 2010.

        ``Analyzing the Deflation Scare,'' RealClearMarkets.com, August 
        5, 2010.

        ``In the Deficit Battle, the U.K. Leads the Way,'' Tax Notes, 
        August 9, 2010.

        ``Congress Decides to Help Its Own,'' RealClearMarkets.com, 
        August 12, 2010.

        ``Democrats' Retreat From Immigration Delays Reform,'' 
        Washington Examiner, August 12, 2010.

        ``The Benefits of Immigration,'' RealClearMarkets.com, August 
        19, 2010.

        ``A Private-Sector Challenge to A Maryland Incumbent,'' 
        Washington Examiner, August 19, 2010.

        ``Ask Unemployed How the Stimulus is Working,'' 
        RealClearMarkets.com, August 26, 2010.

        ``It's a Tough Time to Be Young and Unemployed,'' Washington 
        Examiner, August 26, 2010.

        ``Another Labor Day, Little Labor Cheer,'' 
        RealClearMarkets.com, September 2, 2010.

        ``No Taxpayer Bailout for Union Pensions,'' Washington 
        Examiner, September 2, 2010.

        ``Avoiding the Next Bailout: Multiemployer Pension Funds,'' Tax 
        Notes, September 7, 2010.

        ``Obama Gets Tax Cuts Right,'' RealClearMarkets.com, September 
        9, 2010.

        ``Rebuild the Ground Zero Orthodox Church,'' Washington 
        Examiner, September 9, 2010.

        ``Obama's Small-Business Schizophrenia,'' RealClearMarkets.com, 
        Septem-
        ber 16, 2010.

        ``Bring Us Your Young, Hard-Working Immigrants,'' Washington 
        Examiner, September 16, 2010.

        ``Obama's Problem Is Ideology,'' RealClearMarkets.com, 
        September 23, 2010.

        ``GOP's Agenda Counters Obama's Big-Spending Anti-Growth 
        Strategy,'' Washington Examiner, September 23, 2010.

        ``Auctioning Visas Do I Hear Billions?'' RealClearMarkets.com, 
        September 30, 2010.

        ``'Paycheck Fairness an Insult to Women,'' Washington Examiner, 
        October 1, 2010.

        ``Lessons From Germany's Hartz Reforms,'' Tax Notes, October 4, 
        2010.

        ``The Wealth Inequality Mirage,'' RealClearMarkets.com, October 
        7, 2010.

        ``So Much for Keeping the Healthcare Plan You Like,'' 
        Washington Examiner, October 7, 2010.

        ``Uncertainty Plagues Bad Jobs Numbers,'' Washington Examiner, 
        October 8, 2010.

        ``Health Care Plans, Waivers, Choice?'' RealClearMarkets.com, 
        October 14, 2010.

        ``Feds Don't Want Troops to Enjoy a Hot Meal,'' Washington 
        Examiner, October 14, 2010.

        ``An Unthinkable Tax Code,'' RealClearMarkets.com, October 21, 
        2010.
        ``White House Has Different Standards for Successful Women Than 
        Women Themselves,'' Washington Examiner, October 21, 2010.

        ``When Unions Vote Your Money,'' RealClearMarkets.com, October 
        28, 2010.

        ``GOP Shouldn't Allow RINO Upton to Chair Energy Committee,'' 
        Washington Examiner, October 29, 2010.

        ``A Consumption Tax Without a VAT,'' Tax Notes, November 1, 
        2010.

        ``Seeking a Healthcare Compromise,'' RealClearMarkets.com, 
        November 4, 2010.

        ``Stop Campaign Funds From Public-Sector Unions,'' Washington 
        Examiner, November 5, 2010.

        ``The 77 percent of Income Fallacy, '' RealClearMarkets.com, 
        November 11, 2010.

        ``Obama's Commission Misdiagnoses Medicare Cost Crisis,'' 
        Washington Examiner, November 12, 2010.

        ``The Done-Nothing 111th and Taxes,'' RealClearMarkets.com, 
        November 18, 2010.

        ``Democrats Prioritize Radical Feminists Over Low Taxes,'' 
        Washington Examiner, November 19, 2010.

        ``Let's Not Internationalize Fairness,'' RealClearMarkets.com, 
        November 25, 2010.

        ``Black Friday Reveals Inequality Mirage,'' Washington 
        Examiner, November 26, 2010.

        ``With Taxes, Ignorance Is Bliss,'' Tax Notes, November 29, 
        2010.

        ``Cut Tax Expenditures, and Taxes,'' RealClearMarkets.com, 
        December 2, 2010.

        ``Grassroots Closely Eye House Energy and Commerce 
        Chairmanship,'' Washington Examiner, December 3, 2010.

        ``Cheers To Obama On Taxes,'' RealClearMarkets.com, December 9, 
        2010.

        ``An Expensive Tax Cut Deal,'' Washington Examiner, December 9, 
        2010.

        ``Is Europe America's Albatross?'' RealClearMarkets.com, 
        December 16, 2010.

        ``Obamacare Will Hurt Low-Skill Workers,'' Washington Examiner, 
        December 16, 2010.

        ``Where Unions Are, Americans Aren't,'' RealClearMarkets.com, 
        December 23, 2010.

        ``Americans Dodge Unions, But Feds Insist On Them Anyway,'' 
        Washington Examiner, December 23, 2010.

        ``How to Reduce Unemployment,'' RealClearMarkets.com, December 
        30, 2010.

        ``Five Ways Washington Can Fix Unemployment,'' Washington 
        Examiner, December 30, 2010.

        ``A Challenge for the New Congress,'' RealClearMarkets.com, 
        January 6, 2011.

        ``End the Highway Trust Fund,'' Washington Examiner, January 6, 
        2011.

        ``Behind the Numbers: Workers drop out of work force, but it 
        can still be fixed,'' Washington Examiner, January 8, 2011.

        ``Revenue Neutrality for Tax Expenditure Cuts,'' Tax Notes, 
        January 10, 2011.

        ``Extreme Budget Illogic at the CBO,'' RealClearMarkets.com, 
        January 13, 2011.

        ``Number Games Obscure Value of Obamacare Repeal,'' Washington 
        Examiner, January 14, 2011.

        ``Obama Approaches Regulations Backwards,'' 
        RealClearMarkets.com, January 20, 2011.

        ``If Obama's So Big on Fixing Regulation, Why Can't Americans 
        Invest in Facebook?'' Washington Examiner, January 20, 2011.

        ``Workers Vote With Their Feet as Union Membership Rate 
        Drops,'' Washington Examiner, January 20, 2011.

        ``Bank Robbery by another Name,'' Tax Notes, January 25, 2010.

        ``Showing the Way On Spending Cuts,'' RealClearMarkets.com, 
        January 27, 2011.

        ``RSC Proposal Is A Reasonable Plan to Cut Spending,'' 
        Washington Examiner, January 27, 2011.

        ``What Now, After Health Care Ruling? '' RealClearMarkets.com, 
        February 3, 2011.

        ``How Will Republicans Replace Obamacare?'' Washington 
        Examiner, February 3, 2011.

        ``People Leaving the Workforce Means Unemployment is Down,'' 
        Washington Examiner, February 5, 2011.

        ``Time to Wind Down the Federal Highway Trust Fund?'' Tax 
        Notes, February 7, 2011.

        ``Legal Reform As Economic Stimulus,'' RealClearMarkets.com, 
        February 10, 2011.

        ``Cut, Don't Promote, High-Speed Rail,'' Washington Examiner, 
        February 10, 2011.

        ``Fiscal Sanity Requires Courage,'' RealClearMarkets.com, 
        February 17, 2011.

        ``Big Government is Taking its Bad Medicine,'' Washington 
        Examiner, February 17, 2011.

        ``With Unions, Follow the Money,'' RealClearMarkets.com, 
        February 24, 2011.

        ``Energy Independence Means More Domestic Production,'' 
        Washington Examiner, February 24, 2011.

        ``Obama, Women's Wages, Myths,'' RealClearMarkets.com, March 3, 
        2011.

        ``Regulation Hampers the Very Medical Innovations We Need,'' 
        Washington Examiner, March 3, 2011.

        ``America Needs More Oil Production, Not Less,'' Tax Notes, 
        March 7, 2011.

        ``Wisconsin Provides a National Model,'' RealClearMarkets.com, 
        March 10, 2011.

        ``Children Will Read, so Give Them Good Books,'' Washington 
        Examiner, March 10, 2011.

        ``Advice for Mr. Obama on Energy,'' RealClearMarkets.com, March 
        17, 2011.

        ``More Obama Energy Moves That Will Cripple the Economy,'' 
        Washington Examiner, March 17, 2011.

        ``Coal, The Unsung Cheap Energy,'' RealClearMarkets.com, March 
        24, 2011.

        ``A Euro Collapse Will Harm U.S. Economy More Than Japan's 
        Disaster,'' Washington Examiner, March 24, 2011.

        ``Union Members Have a Right to Know,'' RealClearMarkets.com, 
        March 31, 2011.

        ``Why Not Disclose What Happens to $8 Billion in Union Dues?'' 
        Washington Examiner, March 31, 2011.

        ``Cracking the Toughest Entitlement Nut: Medicare,'' Tax Notes, 
        April 4, 2011.

        ``Government Shutdown Myths,'' RealClearMarkets.com, April 7, 
        2011.

        ``Six of the Biggest Myths about Government Shutdowns,'' 
        Washington Examiner, April 7, 2011.

        ``Tackling the Runaway Medicare Train,'' RealClearMarkets.com, 
        April 14, 2011.

        `` `Premium Support' Isn't the Same as a `Voucher,' Mr. 
        President,'' Washington Examiner, April 14, 2011.

        ``No Cost-Benefit Studies Done for Obama's $53 Billion High-
        Speed Rail Boondoggle,'' Washington Examiner, April 21, 2011.

        ``U.S. Aid Is Holding Africa Back,'' RealClearMarkets.com, 
        April 21, 2011.

        ``Let's Sunset the Ethanol Subsidy,'' RealClearMarkets.com, 
        April 28, 2011.

        ``Costly Ethanol Subsidies Should Be Ended Now,'' Washington 
        Examiner, April 28, 2011.

        ``The Real Ryan Resolution,'' Tax Notes, May 2, 2011.

        ``Forest Laboratories and the Facts,'' RealClearMarkets.com, 
        May 5, 2011.

        ``Obama, Sebelius Target 83-Year-Old Drug Executive,'' 
        Washington Examiner, May 5, 2011.

        ``NLRB v. Boeing Is an Abuse of Power,'' RealClearMarkets.com, 
        May 12, 2011.

        ``NLRB's Boeing Suit Could Send U.S. Jobs Overseas,'' 
        Washington Examiner, May 12, 2011.

        ``Response to Johnston on Healthcare Proposals,'' Tax Notes, 
        May 16, 2011.

        ``Fuel Taxes, Mileage Charges, and the Road Better Traveled,'' 
        Tax Notes, May 17, 2010.

        ``Women Don't Need Federal Affirmative Action Programs,'' 
        Washington Examiner, May 18, 2011.

        ``How to Address the Debt Ceiling,'' RealClearMarkets.com, May 
        19, 2011.

        ``If at First Government Fails, Then Spend, Spend Again,'' 
        Washington Examiner, May 19, 2011.

        ``Let's Leave Our Roads to the States,'' RealClearMarkets.com, 
        May 26, 2011.

        ``What Ryan's Medicare Plan Really Does,'' Washington Examiner, 
        May 26, 2011.

        ``Ethanol Can Make It without Subsidies,'' Tax Notes, May 30, 
        2011.

        ``Sarkozy Confronts French Anti-Semitism,'' Moment Magazine, 
        May/June 2011.

        ``A Call For Light Bulb Sanity,'' RealClearMarkets.com, June 2, 
        2011.

        ``Congress Should See the Light on Bulbs,'' Washington 
        Examiner, June 2, 2011.

        ``Hydrofracturing Can Fix State Budgets,'' 
        RealClearMarkets.com, June 9, 2011.

        ``Education Policies Fail A Promising Young Star,'' Washington 
        Examiner, June 9, 2011.

        ``Bringing Sanity To Student Loans,'' RealClearMarkets.com, 
        June 16, 2011.

        ``NLRB Assault on Boeing Will Cost Countless Jobs,'' Washington 
        Examiner, June 16, 2011.

        ``What Was the Wal-Mart Decision?'' RealClearMarkets.com, June 
        23, 2011.

        ``Trial Lawyers Won't Give Up on Wal-Mart Lawsuits,'' 
        Washington Examiner, June 23, 2011.

        ``Exposing the Demonizers of Shale Gas,'' RealClearMarkets.com, 
        June 30, 2011.

        ``What the Times Didn't Tell You About Ian Urbina,'' Washington 
        Examiner, June 30, 2011.

        ``How to Create Jobs Without Spending a Dime,'' 
        RealClearMarkets.com, July 7, 2011.

        ``Mr. President, Pick Up the Phone and Call in Some Jobs,'' 
        Washington Examiner, July 7, 2011.

        ``The Virtues of a Balanced Budget Amendment,'' 
        RealClearMarkets.com, July 14, 2011.

        ``More Red Tape Coming with Obama Spring Agenda,'' Washington 
        Examiner, July 15, 2011.

        ``Innovative New Ideas for Job Creation,'' 
        RealClearMarkets.com, July 21, 2011.

        ``A Workable Balanced Budget Amendment,'' Tax Notes, July 25, 
        2011.

        ``How to Cut Taxes, Boost Revenue,'' RealClearMarkets.com, July 
        28, 2011.

        ``Column on the Deficit,'' CNN.com, August 2, 2011.

        ``A Small Step Toward Fiscal Solvency,'' RealClearMarkets.com, 
        August 4, 2011.

        ``Proposed European Tax on U.S. Flight Emissions Should Be Shot 
        Down,'' Washington Examiner, August 4, 2011.

        ``Bipartisan Opposition To the EU Airplane Emissions Tax,'' 
        RealClear
        Markets.com, August 11, 2011.

        ``Josh Coyne Shows America Is Still the Land Of Opportunity,'' 
        Washington Examiner, August 11, 2011.

        ``Obama's Jobs Policies Will Reduce Job Opportunities,'' 
        RealClearMarkets.com, August 18, 2011.

        ``Reality Is Found Beyond The Washington Beltway,'' Washington 
        Examiner, August 18, 2011.

        ``Europe's Unprecedented International Travel Tax,'' Tax Notes, 
        August 22, 2011.

        ``Congress, Not Obama, Should Set Immigration Policy,'' 
        Washington Examiner, August 25, 2011.

        ``Getting Real On Immigration,'' RealClearMarkets.com, August 
        25, 2011.

        ``Supercommittee Is A Mere Appetizer For The Banquet Of Cuts To 
        Come,'' Newsmax.com, August 25, 2011.

        ``Mr. Obama, Tear Down Those Union Posters,'' Washington 
        Examiner, September 1, 2011.

        ``The NLRB's ``Gift'' Of Job Loss,'' RealClearMarkets.com, 
        September 1, 2011.

        ``Don't Forget the Job Killing EPA, Mr. Obama,'' 
        RealClearMarkets.com, September 8, 2011.

        ``Voters Get Clear Choice On Jobs With Obama, GOP,'' Washington 
        Examiner, September 8, 2011.

        ``Obamacare Is A Job Killer For Small Business, Franchises,'' 
        Washington Examiner, September 15, 2011.

        ``Slow Employment Growth? Look to Obamacare,'' 
        RealClearMarkets.com, September 15, 2011.

        ``Job Creation and the Affordable Care Act,'' Tax Notes, 
        September 19, 2011.

        ``Solyndra Gave Feds 22 Pages Of Reasons Why The Firm Could 
        Fail,'' Washington Examiner, September 22, 2011.

        ``Solyndra and the Perils of Industrial Policy,'' 
        RealClearMarkets.com, September 22, 2011.

        ``What Obamanomics Has Meant for Latinos,'' 
        RealClearMarkets.com, September 29, 2011.

        ``Obama Should Call For Immigration Reform,'' Washington 
        Examiner, September 29, 2011.

        ``The DOE Hasn't Learned Its Solyndra Lessons,'' 
        RealClearMarkets.com, October 6, 2011.

        ``Steve Jobs Didn't Get Loan Guarantees,'' Washington Examiner, 
        October 6, 2011.

        ``The Republican Debate,'' The Guardian, October 11, 2011.

        ``Analyzing Herman Cain's 9-9-9 Tax Plan,'' 
        RealClearMarkets.com, October 13, 2011.

        ``Cain's `9-9-9' Could Lead To A VAT,'' Washington Examiner, 
        October 13, 2011.

        ``Examining Herman Cain's 9-9-9 Tax Plan,'' 
        RealClearMarkets.com, October 13, 2011.

        ``The Economic Disappointment of Generation O,'' 
        RealClearMarkets.com, October 20, 2011.

        ``Honesty Is the Best Policy for Federal Budgets,'' Tax Notes, 
        October 24, 2011.

        ``Dueling Tax Plans In the GOP,'' RealClearMarkets.com, October 
        27, 2011.

        ``Another Unpleasant Surprise from Obamacare,'' Washington 
        Examiner, October 27, 2011.

        ``Obama's Green-Energy Jobs Lie,'' RealClearMarkets.com, 
        November 3, 2011.

        ``More Green Energy Jobs Exposed as Myths,'' Washington 
        Examiner, November 3, 2011.

        ``Forget the Wealth Gap, It's the Age/Income Gap,'' 
        RealClearMarkets.com, November 10, 2011.

        ``David Salzman's Valiant Fight for What Truly Matters,'' 
        Washington Examiner, November 10, 2011.

        ``The Pros and Cons of Carbon Taxes,'' Tax Notes, November 14, 
        2011.

        ``Will the Poor Be Able to Afford Obamacare?'' 
        RealClearMarkets.com, November 17, 2011.

        ``No Sense In Democrats Supporting Occupy Protesters,'' 
        Washington Examiner, November 17, 2011.

        ``Supercommittee Didn't Have To Fail,'' Washington Examiner, 
        November 24, 2011.

        ``There's No Appetite for Kyoto II,'' RealClearMarkets.com, 
        December 1, 2011.

        `` `Geo-Engineering' May Solve Global Warming Problem,'' 
        Washington Examiner, December 1, 2011.

        ``The Feds Pay Bureaucrats $137M/Year Not to Work,'' 
        RealClearMarkets.com, December 8, 2011.

        ``Obama's Keystone Slow-Walking Hurts Jobs Creation,'' 
        Washington Examiner, December 8, 2011.

        ``The Portman Solution,'' Tax Notes, December 12, 2011.

        ``Payroll Tax GOP Hands Obama Potential Victory,'' 
        RealClearMarkets.com, December 15, 2011.

        ``House GOP Hands Obama a Re-Election Tool,'' Washington 
        Examiner, December 15, 2011.

        ``EPA Tries to Pull a Fast One,'' RealClearMarkets.com, 
        December 22, 2011.

        ``How to Revive Jerusalem, Israel's Poorest City,'' 
        RealClearMarkets.com, December 29, 2011.

        ``Opening Trade Could Ease West Bank Tensions,'' Washington 
        Examiner, December 29, 2011.

        ``The Economic Policies of Iowa's Winners,'' 
        RealClearMarkets.com, January 5, 2012.

        ``Obama Moving Imperial Presidency To Dangerous New Level,'' 
        Washington Examiner, January 5, 2012.

        ``Will the rising star of Rick Santorum give Romney a run for 
        his money?'' Daily Mail, January 5, 2012.

        ``The Republican race all comes down to South Carolina,'' Daily 
        Mail, January 11, 2012.

        ``Obama Appointments No Way To Run A Democracy,'' Washington 
        Examiner, January 12, 2012.

        ``NLRB Obama Bludgeons the Constitution,'' 
        RealClearMarkets.com, January 12, 2012.

        ``The Economy Creates and Destroys Jobs Every Year,'' 
        RealClearMarkets.com, January 19, 2012.

        ``Obama Blows It on Keystone Decision,'' Washington Examiner, 
        January 19, 2012.

        ``How Can Obama's Class War Put An End To Partisan Politics?'' 
        Daily Mail, January 25, 2012.

        ``President Obama's Capital Gains Tax Envy,'' 
        RealClearMarkets.com, January 26, 2012.

        ``Has Obama Seen the Light on Oil?'' Washington Examiner, 
        January 26, 2012.

        ``A Good, But Not Great, Highway Bill,'' RealClearMarkets.com, 
        February 2, 2012.

        ``Teens Will Lose If Minimum Wage Pegged to Inflation,'' 
        Washington Examiner, February 2, 2012.

        ``Romney Has Serious Problems, He Has Dollars but No Sense,'' 
        Daily Mail, February 3, 2012.

        ``Higher Capital Gains Taxes Will Cause Capital Erosion,'' Tax 
        Notes, February 6, 2012.

        ``Santorum Emerges as a Factor,'' RealClearMarkets.com, 
        February 9, 2012.

        ``Santorum's Economic Plan,'' Washington Examiner, February 9, 
        2012.

        ``The State and Local Pension Crisis,'' RealClearMarkets.com, 
        February 16, 2012.

        ``Uncle Sam Can't Bail Out States If He's Broke,'' Washington 
        Examiner, February 16, 2012.

        ``Taxing Miles Driven Over Fuel Consumed,'' 
        RealClearMarkets.com, March 1, 2012.

        ``Measuring Income Inequality,'' Tax Notes, March 5, 2012.

        ``The Misleading Tale of Income Inequality,'' 
        RealClearMarkets.com, March 8, 2012.

        ``Is Economic Mobility In the U.S. Dead?'' 
        RealClearMarkets.com, March 15, 2012.

        ``Rep. Ryan's Common-Sense Budget,'' RealClearMarkets.com, 
        March 22, 2012.

        ``The Economic Costs of Obamacare,'' RealClearMarkets.com, 
        March 29, 2012.

        ``Battle of the Budgets,'' Tax Notes, April 2, 2012.

        ``Medicare Is a Future Budget Buster,'' RealClearMarkets.com, 
        April 5, 2012.

        ``The 4 percent Growth Project,'' RealClearMarkets.com, April 
        12, 2012.

        ``How To Get Warren Buffett to Pay His Fair Share,'' Daily 
        Mail, April 12, 2012.

        ``Dakota Wood,'' Newsmax.com, April 15, 2012.

        ``Women's Figures: Second Edition,'' American Enterprise 
        Institute, April 17, 2012.

        ``Gen O Discovers Washington's Debt Bomb,'' 
        RealClearMarkets.com, April 19, 2012.

        ``Your Future Share of U.S. Debt? There's an App for That,'' 
        Daily Mail, April 20, 2012.

        ``The Mysterious White House/CBO Deficit Disparity,'' 
        RealClearMarkets.com, April 26, 2012.

        ``American Election: The Audacity of Obama's Deficit Reduction 
        Claims,'' Daily Mail, April 27, 2012.

        ``Congress Can Solve Illinois' Pension Crisis,'' Chicago 
        Tribune, April 28, 2016.

        ``Raising Oil Taxes Would Hurt Average Americans,'' Tax Notes, 
        April 30, 2012.

        ``Paycheck Act Is Trial Lawyers' Payday,'' Washington Examiner, 
        May 1, 2012.

        ``Romney Flirts With Pay Equity,'' RealClearMarkets.com, May 3, 
        2012.

        ``David McIntosh: A genuine voice for Congress,'' Daily Mail, 
        May 3, 2012.

        ``Paycheck Fairness Act Is Based on a Misapplied Statistic,'' 
        USNews.com, May 4, 2012.

        ``Has The Euro's Demise Finally Arrived?'' Washington Examiner, 
        May 8, 2012.

        ``A Mortgage Deal With the Wrong Incentives,'' 
        RealClearMarkets.com, May 10, 2012.

        ``Fiscal Ruin? There's An App For That,'' Washington Examiner, 
        May 15, 2012.

        ``An Unemployment Crisis for Older or Younger Workers?'' 
        RealClear
        Markets.com, May 17, 2012.

        ``Fuzzy Math Undermines Budget Credibility,'' Washington 
        Examiner, May 22, 2012.

        ``Educated Children Are Successful Children,'' 
        RealClearMarkets.com, May 24, 2012.

        ``Budget Taxmageddon Is Here'', Tax Notes, May 28, 2012.

        ``Parental Choice Is The Best Reform To Education,'' Washington 
        Examiner, May 29, 2012.

        ``Bain Efficiency vs. Obama Cronyism,'' RealClearMarkets.com, 
        May 31, 2012.

        ``Solis Won't Testify On DOL Media Flap,'' Washington Examiner, 
        June 3, 2012.

        ``Green Power Corrupts,'' Washington Examiner, June 5, 2012.

        ``Aborting Girls Because They're Girls Is The Real `War On 
        Women','' Washington Examiner, June 6, 2012.

        ``Unions and Economic Mobility Is There a Link?'' 
        RealClearMarkets.com, June 7, 2012.

        ``Green Power Corrupts, Again,'' Washington Examiner, June 12, 
        2012.

        ``Choose Lower Taxes for Economic Recovery,'' 
        RealClearMarkets.com, June 14, 2012.

        ``Tips For Teenage Entrepreneurs,'' Washington Examiner, June 
        19, 2012.

        ``Pipelines The Safest Way to Move Fuel,'' 
        RealClearMarkets.com, June 21, 2012.

        ``With Obamacare, It's The Economic Costs That Matter,'' 
        Washington Examiner, June 26, 2012.

        ``Beyond the Supremes A Better Health Insurance System,'' 
        RealClear
        Markets.com, June 28, 2012.

        ``America Can Work Out A System of Health Insurance without the 
        Interference of Federal Government,'' Daily Mail, June 28, 
        2012.

        ``The Real War on Women,'' Tax Notes, July 2, 2012.

        ``Private Pensions Evade Honest Accounting,'' 
        RealClearMarkets.com, July 5, 2012.

        ``Presenting Alternatives To Obamacare,'' Washington Examiner, 
        July 10, 2012.

        ``ObamaTax Will Make Insured Sicker, More Costly,'' 
        RealClearMarkets.com, July 12, 2012.

        ``Perils Of A Corporate Profit Slowdown,'' MarketWatch.com, 
        July 14, 2012.

        ``Higher Taxes Won't Cure What Ails Us,'' Washington Examiner, 
        July 17, 2012.

        ``The War On Women Is an Economic Outrage,'' 
        RealClearMarkets.com, July 19, 2012.

        ``The Real War on Women,'' Washington Examiner, July 24, 2012.

        ``We Can't Rely On the Fed to Rescue Us,'' 
        RealClearMarkets.com, July 26, 2012.

        ``The Gender Wage Gap Is A Myth,'' MarketWatch.com, July 26, 
        2012.

        ``Congress vs. GASB: Differences in Assumed Pension Return 
        Rates,'' Tax Notes, July 30, 2012.

        ``Central Bankers Cannot Save Us,'' Washington Examiner, July 
        31, 2012.

        ``How To Keep The Young Unemployed,'' MarketWatch.com, August 
        1, 2012.

        ``The U.S. Is On India's Horrid Energy Path,'' 
        RealClearMarkets.com, August 12, 2012.

        ``Even 5th Graders Know Mitt Won't Raise Taxes,'' 
        RealClearMarkets.com, August 7, 2012.

        ``Flat-Out Lies On Romney's Tax Plan,'' Washington Examiner, 
        August 7, 2012.

        ``The WARN Act dilemma,'' MarketWatch.com, August 9, 2012.

        ``Paul Ryan's Economics Aren't Anti-Woman,'' 
        RealClearMarkets.com, August 14, 2012.

        ``A Serious Man In Unserious Times,'' Washington Examiner, 
        August 14, 2012.

        ``By Choosing Budget Geek Paul Ryan as His Running Mate, Romney 
        Proves He's Serious About Economic Reform,'' Daily Mail, August 
        14, 2012.

        ``The Case For Supply-Side Tax Cuts,'' MarketWatch.com, August 
        17, 2012.

        ``Tapping the SPR Is a Bad Idea Every Time,'' 
        RealClearMarkets.com, August 21, 2012.

        ``A Gas Price Emergency--For America, Or For Obama,'' 
        Washington Examiner, August 21, 2012.

        ``Why Henry Blodget Is Dead Wrong,'' MarketWatch.com, August 
        24, 2012.

        ``Tax Rates and Economic Growth,'' Tax Notes, August 27, 2012.

        ``Why Henry Blodget Is Dead Wrong,'' RealClearMarkets.com, 
        August 27, 2012.

        ``The U.S. Needs a Vigorous Medicare Debate,'' 
        RealClearMarkets.com, August 28, 2012.

        ``Stop Demonizing And Start Discussing The Ryan Plan,'' 
        Washington Examiner, August 28, 2012.

        ``Paul Ryan's Rousing Speech in Tampa Has Cemented Medicare As 
        The Big Issue Splitting Voters,'' Daily Mail, August 30, 2012.

        ``Obama's Fuel Standards Don't Add Up,'' MarketWatch.com, 
        August 31, 2012.

        ``Could School Choice Erase the Income Gap?'' 
        RealClearMarkets.com, September 4, 2012.

        ``What The Democrats Won't Say About Education,'' Washington 
        Examiner, September 4, 2012.

        ``The Focus On Green Jobs Is Misplaced,'' MarketWatch.com, 
        September 6, 2012.

        ``Deloitte Has New Ideas For Fixing Joblessness,'' 
        RealClearMarkets.com, September 11, 2012.

        ``Take Your Pick: Trendy Green Jobs, Or Real Jobs?,'' 
        Washington Examiner, September 11, 2012.

        ``Medicare Reform: Battling The Myths,'' MarketWatch.com, 
        September 13, 2012.

        ``Lax Rules Author Spike In Food Stamp Usage,'' 
        RealClearMarkets.com, September 18, 2012.

        ``Food Stamps Expand By Leaps,'' Washington Examiner, September 
        18, 2012.

        ``What Romney Should Have Said,'' MarketWatch.com, September 
        20, 2012.

        ``Apple's Been On a Tear--Without Government Assistance,'' 
        RealClear
        Markets.com, September 25, 2012.

        ``Rethinking 'Green' Tax Preferences,'' Washington Examiner, 
        September 25, 2012.

        ``How Obama's Green Energy Policies Are Bad For The Poor,'' 
        Washington Examiner, October 1, 2012.

        ``Time to Rethink Green Tax Preferences,'' Tax Notes, October 
        1, 2012.

        ``J.D. Kleinke Is Wrong, Obamacare Isn't Conservative,'' 
        RealClearMarkets.com, October 2, 2012.

        ``Two Visions For Energy: Smugness Or Prosperity?'' Washington 
        Examiner, October 2, 2012.

        ``Green-Energy Policy Hurts America,'' MarketWatch.com, October 
        3, 2012.

        ``Obama Argues Anti-Romney Case--Not Pro-Obama,'' 
        MarketWatch.com, October 4, 2012.

        ``Obama Asks Big Business to Break the Law,'' 
        RealClearMarkets.com, October 9, 2012.

        ``California Gas Prices Are A Warning,'' Washington Examiner, 
        October 9, 2012.

        ``A Fairer Look At Taxes And Wealth,'' MarketWatch.com, October 
        12, 2012.

        ``Biden Fibbed Green Cronyism Is Alive and Well,'' 
        RealClearMarkets.com, October 16, 2012.

        ``White House To Contractors: Break The Law, We'll Pay The 
        Costs,'' Washington Examiner, October 16, 2012.

        ``Romney's Tax Plan Will Drive Business Growth,'' 
        MarketWatch.com, October 17, 2012.

        ``Obama and Romney on the Wage Gap,'' National Review, October 
        17, 2012.

        ``Are Lower Taxes Fair?'' Tax Notes, October 22, 2012.

        ``Obama Envisions An Energy Future Through Pink Shades,'' 
        RealClear
        Markets.com, October 23, 2012.

        ``Obama's Attacks On Romney Belittle Presidency,'' 
        MarketWatch.com, October 23, 2012.

        ``Energy Sources Of The Future, Or Of The Next Election?'' 
        Washington Examiner, October 23, 2012.

        ``Memo To Ceos: Higher Taxes Slow Economy,'' MarketWatch.com, 
        October 25, 2012.

        ``The Evidence Is In Green Jobs Are a Total Waste,'' 
        RealClearMarkets.com, October 30, 2012.

        ``Bogus AAUW Study Perpetuates Wage Gap Myths,'' Washington 
        Examiner, October 30, 2012.

        ``Bloomberg's Misguided Endorsement Of Obama,'' 
        MarketWatch.com, November 2, 2012.

        ``How to Fix the Affordable Care Act In 2013,'' 
        RealClearMarkets.com, November 6, 2012.

        ``Fixing The Unemployment Problem,'' Washington Examiner, 
        November 6, 2012.

        ``Time For Obama To Show Leadership On Taxes,'' 
        MarketWatch.com, November 7, 2012.

        ``The Fed Dismisses the Needs of Savers,'' 
        RealClearMarkets.com, November 13, 2012.

        ``Regulating to Disaster,'' Newsmax.com, November 13, 2012.

        ``Washington Must Not Kill America's Energy Revolution,'' 
        Washington Examiner, November 13, 2012.

        ``Corporate Tax Reform Should Come First,'' Tax Notes, November 
        19, 2012.

        ``With Ethanol, Obama Ignores Common Sense,'' 
        RealClearMarkets.com, November 20, 2012.

        ``A Broken Immigration System Puts A Dad In Limbo,'' Washington 
        Examiner, November 20, 2012.

        ``Why The Fiscal Cliff Matters,'' MarketWatch.com, November 23, 
        2012.

        ``What Do Unions Not Want Walmart Employees to Know?'' 
        RealClear
        Markets.com, November 27, 2012.

        ``The Real Reason Unions Are Targeting Wal-Mart,'' Washington 
        Examiner, November 27, 2012.

        ``The Hard Facts About Spending Cuts,'' MarketWatch.com, 
        November 29, 2012.

        ``Review of Green is Good: Save Money, Make Money, and Help 
        Your Community Profit from Clean Energy by Brian F. Keane,'' 
        Barron's, December 2, 2012.

        ``Cut Tax Rates, Boost Tax Revenues,'' RealClearMarkets.com, 
        December 4, 2012.

        `` `Fiscal Cliff' Deal Needs Spending Cuts,'' Washington 
        Examiner, December 4, 2012.

        ``Medicare Is Unsustainable In Current Form,'' MarketWatch.com, 
        December 6, 2012.

        ``Medicare Is Clearly Unsustainable,'' RealClearMarkets.com, 
        December 7, 2012.

        ``It's a Fact That Politicians Wreck Work Incentives,'' 
        RealClearMarkets.com, December 11, 2012.

        ``Reform Is Needed To Save Medicare,'' Washington Examiner, 
        December 11, 2012.

        ``Right-To-Work Comes Just In Time For Michigan,'' 
        MarketWatch.com, December 13, 2012.

        ``Low-Income Individuals Already Face a Fiscal Cliff,'' Tax 
        Notes, December 17, 2012.

        ``At the 11th Hour, Obama & Boehner Begin to Deal,'' 
        RealClearMarkets.com, December 18, 2012.

        ``Three Lost Issues In `Fiscal Cliff' Debate,'' Washington 
        Examiner, December 18, 2012.

        ``Cutting Corporate Taxes Would Stimulate Economy,'' 
        MarketWatch.com, December 20, 2012.

        ``Maybe You Never Met Bork, But He Made Your Life Better,'' 
        Washington Examiner, December 25, 2012.

        ``Obama Can Resolve Cliff By Backing His 2011 Plan,'' 
        MarketWatch.com, December 27, 2012.

        ``A New Year's Resolution: Tax Reform,'' Washington Examiner, 
        January 1, 2013.

        ``Higher Taxes Penalize Working Wives,'' MarketWatch.com, 
        January 4, 2013.

        ``3 Ways Congress Can Boost Growth,'' RealClearMarkets.com, 
        January 8, 2013.

        ``A Good Dinner, A Friendly Chat, An Effective Policy,'' 
        Washington Examiner, January 8, 2013.

        ``Just 1 Cheer for the American Taxpayer Relief Act of 2012,'' 
        Tax Notes, January 14, 2013.

        ``Don't Be Fooled By the Meritless Carbon Tax,'' 
        RealClearMarkets.com, January 15, 2013.

        ``Obama Must Come Back To The Table,'' Washington Examiner, 
        January 15, 2013.

        ``Is Union Membership A Bad Deal For Workers?'' 
        MarketWatch.com, January 18, 2013.

        ``Obama & The Anti-Business Agenda,'' RealClearMarkets.com, 
        January 21, 2013.

        ``Obama Lays Out the Case for Big Government,'' 
        RealClearMarkets.com, January 22, 2013.

        ``Why The Unions Are Shrinking,'' Washington Examiner, January 
        22, 2013.

        ``America's Major Problem Is Unlimited Spending,'' 
        MarketWatch.com, January 25, 2013.

        ``Immigrants Come to Work, So Let's Ease Their Arrival,'' 
        RealClear
        Markets.com, January 29, 2013.

        ``A Critical Moment For Immigration Reform,'' Washington 
        Examiner, January 29, 2013.

        ``How To Create More Jobs In 2013,'' MarketWatch.com, January 
        31, 2013.

        ``India's In the News For All the Wrong Reasons,'' 
        RealClearMarkets.com, February 5, 2013.

        ``Cheap Fixes For The Jobs Bust,'' Washington Examiner, 
        February 5, 2013.

        ``America Needs Immigration For Economic Growth,'' 
        MarketWatch.com, February 8, 2013.

        ``Farewell to the Carbon Tax,'' Tax Notes, February 11, 2013.

        ``Obama Must Drop Green For Real Energy,'' 
        RealClearMarkets.com, February 12, 2013.

        ``If Obama Wants Growth, That Means Oil And Gas,'' Washington 
        Examiner, February 12, 2013.

        ``The Fed Isn't Helping Economic Growth,'' MarketWatch.com, 
        February 14, 2013.

        ``With Federal Layoffs Coming, It's Time to WARN Workers,'' 
        RealClear
        Markets.com, February 19, 2013.

        ``Government Contractors Fail To Warn Employees Of Layoffs,'' 
        Washington Examiner, February 19, 2013.

        ``Book Review: The Declining Importance of Race and Gender in 
        the Labor Market, Washington Times,'' February 21, 2013.

        ``Raising The Minimum Wage Is Bad News,'' MarketWatch.com, 
        February 22, 2013.

        ``To Cut Government Spending, Lay Off the Loafers,'' 
        RealClearMarkets.com, February 26, 2013.

        ``The Federal Employees Who Don't Work For Taxpayers,'' 
        Washington Examiner, February 26, 2013.

        ``Easy Money Will End in Tears,'' RealClearMarkets.com, March 
        2, 2013.

        ``To Navigate $12M Sequester, BLS Cuts Green Jobs,'' 
        RealClearMarkets.com, March 5, 2013.

        ``How The Fed Has Juiced The Stock Market,'' Washington 
        Examiner, March 5, 2013.

        ``Collecting Immigrants' Back Taxes: An Impossible Dream,'' Tax 
        Notes, March 11, 2013.

        ``Scrap Immigrant Taxes, Go For Amnesty Fee,'' 
        RealClearMarkets.com, March 12, 2013.

        ``How Will Illegal Immigrants Pay Back-Taxes?'' Washington 
        Examiner, March 12, 2013.

        ``Cyprus Forces Politics Back Into Banking and Bailouts,'' 
        RealClear
        Markets.com, March 19, 2013.

        ``Obamacare's Crushing Burden,'' Washington Examiner, March 19, 
        2013.

        Green Jobs Haven't Lived Up To Obama's Promise,'' 
        MarketWatch.com, March 22, 2013.

        ``Friends of the Poor Are Often Their Greatest Enemies,'' 
        RealClear
        Markets.com, March 26, 2013.

        ``How To Lift A Nation Out Of Poverty,'' Washington Examiner, 
        March 26, 2013.

        ``Pipelines Are The Safest Way To Transport Energy,'' 
        MarketWatch.com, March 29, 2013.

        ``The Obamacare Story Starts To Unravel,'' 
        RealClearMarkets.com, April 2, 2013.

        ``Catastrophic Health Insurance Can Lower Costs,'' Washington 
        Examiner, April 2, 2013.

        ``Stockman's Rant Ignores What's Right With America,'' 
        MarketWatch.com, April 3, 2013.

        ``Tragedy in Lac-Megantic,'' The Globe and Mail, April 7, 2013.

        ``Will the Medical Device Excise Tax Bite the Dust?'' Tax 
        Notes, April 8, 2013.

        ``Thatcher Loved Merit, Decried 'Equal Pay','' 
        RealClearMarkets.com, April 9, 2013.

        ``People Should Be Paid For Their Work, Not Their Gender,'' 
        Washington Examiner, April 9, 2013.

        ``Column on Women,'' The Sunday Times, April 10, 2013.

        ``The Jobs Crisis For Younger Workers,'' MarketWatch.com, April 
        12, 2013.

        ``The Medical Device Tax Hurts Weak, Strong, Sick and 
        Healthy,'' RealClear
        Markets.com, April 16, 2013.

        ``New Labor Rule Will Violate Attorney-Client Privilege,'' 
        Washington Examiner, April 16, 2013.

        ``Labor Disclosure Rule Is Unfair To Business,'' 
        MarketWatch.com, April 17, 2013.

        ``Italy's Economy Vindicates Skeptics of Big Government,'' 
        RealClear
        Markets.com, April 23, 2013.

        ``Stop Paying Federal Air Traffic Controllers To Do Union 
        Work,'' Washington Examiner, April 23, 2013.

        ``6 Ways To Bring Italy Out Of Crisis,'' MarketWatch.com, April 
        25, 2013.

        ``For An Obamacare Preview, Look To England,'' 
        RealClearMarkets.com, April 30, 2013.

        ``British National Health Service Shows Obamacare's Future,'' 
        Washington Examiner, April 30, 2013.

        ``Carbon Tax: An Idea Whose Time Should Not Come,'' 
        MarketWatch.com, May 3, 2013.

        ``It's No Time to Raise Taxes on Oil and Gas,'' Tax Notes, May 
        6, 2013.

        ``Lets Cut Benefits, Not Immigration,'' RealClearMarkets.com, 
        May 7, 2013.

        ``Heritage Report Misses Immigration Mark,'' Washington 
        Examiner, May 7, 2013.

        ``The Case For Fracking In New York,'' MarketWatch.com, May 9, 
        2013.

        ``Fracking Could Create New Wealth For New York As It Has For 
        Pennsylvania,'' Washington Examiner, May 13, 2013.

        ``Securing the Border Is No Easy Feat,'' RealClearMarkets.com, 
        May 14, 2013.

        ``6 New IRS Questions For 2014,'' MarketWatch.com, May 17, 
        2013.

        ``House Ag Bill Includes Needed Food Stamp Reforms,'' 
        Washington Examiner, May 21, 2013.

        ``The Real Washington Scandal? The War On Youth,'' 
        RealClearMarkets.com, May 22, 2013.

        ``Apple, IRS Highlight The Need For Tax Reform,'' 
        MarketWatch.com, May 24, 2013.

        ``Bernanke's Cures Are the Economy's Disease,'' 
        RealClearMarkets.com, May 28, 2013.

        ``Fed's Easy Money Policies Can't Go On Forever,'' Washington 
        Examiner, May 28, 2013.

        ``4 Benefits Of `Bare-Bones' Insurance Plans,'' 
        MarketWatch.com, May 31, 2013.
        ``Bare-Bones Insurance Could Lower ACA Revenues, Increase 
        Hiring,'' Tax Notes, June 3, 2013.

        ``New York's Fracking Ban Suffocates New Yorkers,'' 
        RealClearMarkets.com, June 4, 2013.

        ``Tax Simplification Is Key To Growth, Fairness,'' Washington 
        Examiner, June 4, 2013.

        ``4 Ways The Government Is Discouraging Hiring,'' 
        MarketWatch.com, June 6, 2013.

        ``While the Rest of Us Toil, Government Workers Get `Official 
        Time','' RealClearMarkets.com, June 11, 2013.

        ``Hundreds Of VA Employees Working For Union On Taxpayers' 
        Dime,'' Washington Examiner, June 11, 2013.

        ``Pipeline Safety,'' National Review, June 12, 2013.

        ``Avandia Win A Pyrrhic Victory For Consumers,'' 
        MarketWatch.com, June 14, 2013.

        ``Women, and the Unequal Pay Myth,'' RealClearMarkets.com, June 
        18, 2013.

        ``Christina Hoff `Freedom Feminism' Is Right Path For Women's 
        Movement,'' Washington Examiner, June 18, 2013.

        ``The CBO And The Case For Immigration,'' MarketWatch.com, June 
        19, 2013.

        ``Obama's New Environmental Regulations Would Weaken The 
        Economy Further,'' RealClearMarkets.com, June 25, 2013.

        ``Column on President Obama's Environmental Regs,'' Washington 
        Examiner, June 25, 2013.

        ``How Will Gay Marriage Impact The Deficit?'' MarketWatch.com, 
        June 26, 2013.

        ``Same-Sex Marriage Decisions Won't Affect Uncle Sam's Bottom 
        Line,'' Tax Notes, July 1, 2013.

        ``The Senate Immigration Bill Encourages More Illegal 
        Immigration,'' RealClearMarkets.com, July 2, 2013.

        ``Delay In Obamacare Penalties Won't Help Hiring,'' 
        MarketWatch.com, July 3, 2013.

        ``Don't Require Union Wages For Immigrants,'' Washington 
        Examiner, July 3, 2013.

        ``Europe's Economic Crisis Explained Through Soccer,'' 
        RealClearMarkets.com, July 9, 2013.

        ``Energy Safety Requires More Pipelines,'' Washington Examiner, 
        July 9, 2013.

        ``6 Changes That Would Improve Obamacare,'' MarketWatch.com, 
        July 12, 2013.

        ``As Global Warming Stalls, Activists Talk `Climate Change','' 
        RealClear
        Markets.com, July 16, 2013.

        `` `Living Wage' Measures Hurt The Young, Unskilled Workers The 
        Most,'' Washington Examiner, July 17, 2013.

        ``Larry Summers' Views On Women Shouldn't Disqualify Him,'' 
        RealClear
        Markets.com, July 23, 2013.

        ``Larry Summers for Federal Reserve Chairman,'' Washington 
        Examiner, July 24, 2013.

        ``The Tax-Exempt Status of Worker Organizations,'' Tax Notes, 
        July 29, 2013.

        ``What You Should Know About Job Killing `Worker Centers','' 
        RealClear
        Markets.com, July 30, 2013.

        ``More Of The Same In Chattanooga From A One-Tune President,'' 
        Washington Examiner, July 30, 2013.

        ``The UAW Turns Its Crippling Sights South,'' 
        RealClearMarkets.com, August 6, 2013.

        ``A Homeless, Minimum-Wage Worker With A Union PR Agent?'' 
        Washington Examiner, August 7, 2013.

        ``Why the Fed Should Start Tapering,'' RealClearMarkets.com, 
        August 9, 2013.

        ``With Immigration, Congress Shouldn't Set Wages,'' 
        RealClearMarkets.com, August 13, 2013.

        ``ROC United Diners Guide Will Keep Teens Out Of The Job 
        Market,'' Washington Examiner, August 14, 2013.

        ``Unlearning World Bank Lessons To Fix Local Poverty,'' 
        RealClearMarkets.com, August 20, 2013.

        ``Hilton Head Offers A Better Way Out Of Poverty Than Minimum 
        Wage Hikes,'' Washington Examiner, August 21, 2013.

        ``Making An Investment In At-Risk Kids,'' MarketWatch.com, 
        August 23, 2013.

        ``States Build Better Roads to Infrastructure Funding'', Tax 
        Notes, August 26, 2013.

        ``A Fast Food Strike Staged To Benefit a Rich Union,'' 
        RealClearMarkets.com, August 27, 2013.

        ``Harbor Windmills Are No Bargain For Massachusetts 
        Residents,'' Washington Examiner, August 28, 2013.

        ``Road Rage: States Get Creative To Fund Highways,'' 
        MarketWatch.com, August 30, 2013.

        ``Under Charles Lollar, Maryland Could Achieve Elusive 
        Growth,'' RealClear
        Markets.com, September 3, 2013.

        ``Charismatic Black Goper Sets Sights On Maryland 
        Governorship,'' Washington Examiner, September 4, 2013.

        ``Six Points To Note From Friday's Jobs Report,'' 
        MarketWatch.com, September 5, 2013.

        ``When It Pays Not To Work,'' RealClearMarkets.com, September 
        10, 2013.

        ``The Cost of Syria Is Money the Military Doesn't Have,'' 
        RealClearMarkets.com, September 10, 2013.

        ``Syria Fight Came At Just The Right Time For Obama,'' 
        Washington Examiner, September 11, 2013.

        ``Are Some Worker Rights Worth More Than Others?'' 
        MarketWatch.com, September 13, 2013.

        ``You Know the Fed Chairman, And That's the Problem,'' 
        RealClear
        Markets.com, September 17, 2013.

        ``Federal Reserve Chairman Is Washington's Most Powerful 
        Official,'' Washington Examiner, September 18, 2013.

        ``How To Grow The Economy And Cut Spending,'' MarketWatch.com, 
        September 20, 2013.

        ``Where Not to Die,'' Tax Notes, September 23, 2013.

        ``No Glass Ceiling In Germany for Politicians,'' 
        RealClearMarkets.com, September 24, 2013.

        ``Obamacare Will Leave Millions Of Low-Income Americans Without 
        Health Insurance,'' Washington Examiner, September 25, 2013.

        ``Will Obamacare Hurt Job Creation And Marriage?'' 
        MarketWatch.com, September 27, 2013.

        ``Calling Obama's Bluff On Obamacare,'' RealClearMarkets.com, 
        October 1, 2013.

        ``A Common-Sense Path Out Of The Government Shutdown Impasse,'' 
        Washington Examiner, October 1, 2013.

        ``Can Fracking Save The U.S. Economy?'' MarketWatch.com, 
        October 4, 2013.

        ``Courts Hold the Key to Obamacare's Future,'' 
        RealClearMarkets.com, October 8, 2013.

        ``IRS Heist Of Premium Subsidies Could Wreck Obamacare,'' 
        Washington Examiner, October 9, 2013.

        ``Janet Yellen Can't Fix The Economy,'' MarketWatch.com, 
        October 11, 2013.

        ``The Rich Don't Care For the Poor? What a Laugh,'' 
        RealClearMarket.com, October 15, 2013.

        ``Don't Expect Magic From Janet Yellen At The Federal 
        Reserve,'' Washington Examiner, October 16, 2013.

        ``In Immigration, U.S. Loses Out To Canada,'' MarketWatch.com, 
        October 18, 2013.

        ``Watch Out, New York--De Blasio's Coming,'' Tax Notes, October 
        21, 2013.

        ``In Two Weeks, New York City Will Commit Suicide,'' 
        RealClearMarkets.com, October 22, 2013.

        ``U.S. Should Adopt Canada's Immigration System,'' Washington 
        Examiner, October 22, 2013.

        ``Court Could Block Obamacare Subsidies In 34 States,'' 
        MarketWatch.com, October 25, 2013.

        ``Sorry New York Times, Inflation Doesn't Lead to Growth,'' 
        RealClear
        Markets.com, October 29, 2013.

        ``Vehicle Mileage Taxes Could Help States Take Over Road 
        Building From Washington,'' Washington Examiner, October 29, 
        2013.

        ``One Wish from Budget Negotiations,'' CNN.com, October 31, 
        2013.

        ``U.S. Highways Could Be Paved With Gold,'' MarketWatch.com, 
        November 1, 2013.

        ``In King v. Sebelius, Obamacare's Viability Hangs In 
        Balance,'' RealClear
        Market.com, November 5, 2013.

        ``Obamacare Subsidies At Stake In Two New Federal Court 
        Cases,'' Washington Examiner, November 5, 2013.

        ``Calvin Coolidge Transformed The Economy--Can We?'' 
        MarketWatch.com, November 8, 2013.

        ``Gasoline Lines and Cancelled Health Insurance Policies,'' 
        RealClear
        Markets.com, November 12, 2013.

        ``Obama Should Approve Keystone And Encourage More Pipelines,'' 
        Washington Examiner, November 12, 2013.

        ``Pipelines are Safer than Rail, Period,'' Economics21.org, 
        November 13, 2013.

        ``Four Reasons To Choose Community College,'' MarketWatch.com, 
        November 15, 2013.

        ``Subsidizing the Green Theology of Wind Energy Tax Credits,'' 
        Tax Notes, November 18, 2013.

        ``Will Congress Finally Kill Ethanol and Wind Energy?'' 
        RealClearMarkets.com, November 19, 2013.

        ``Government Doesn't Work As A Health Insurance Middleman,'' 
        Washington Examiner, November 19, 2013.

        ``6 Lessons From JFK On Tax Policy,'' MarketWatch.com, November 
        22, 2013.

        ``Unions Hate That Workers Highly Covet Wal-Mart Jobs,'' 
        RealClear
        Markets.com, November 26, 2013.

        ``Worker Centers Are Doing Unions' Dirty Work For The 
        Holidays,'' Washington Examiner, November 26, 2013.

        ``Forget Black Friday, The Tax Man Is Coming For You,'' 
        MarketWatch.com, November 29, 2013.

        ``Tax Man Is Coming for New Yorkers,'' RealClearMarkets.com, 
        December 1, 2013.

        ``Minimum Wage Meets the Political Machine,'' Economics21.org, 
        December 3, 2013.

        ``Minimum Wage Boosters Don't Know Basic Economics,'' RealClear
        Markets.com, December 4, 2013.

        ``Raising Minimum Wage Hurts Young People,'' Washington 
        Examiner, December 4, 2013.

        ``Let's Make Job Creation Easier,'' Economics21.org, December 
        5, 2013.

        ``The Income-Inequality Problem Is Overblown,'' 
        MarketWatch.com, December 6, 2013.

        ``When it Pays Not to Work, People Stay Home,'' 
        Economics21.org, December 9, 2013.

        ``Krugman's Unemployment Answer Stares Him In the Face,'' 
        RealClear
        Markets.com, December 10, 2013.

        ``Inequality Depends On How You Measure It,'' Washington 
        Examiner, December 11, 2013.

        ``Many Women Don't Want To Be CEO--And That's OK,'' 
        MarketWatch.com, December 13, 2013.

        ``Courts Could End Obamacare in Most States,'' Tax Notes, 
        December 16, 2013.

        ``Obama Makes the IRS Free Speech Cop Too,'' 
        RealClearMarkets.com, December 17, 2013.

        ``Obama Administration Misuses Rules To Punish Enemies And 
        Reward Friends,'' Washington Examiner, December 17, 2013.

        ``The Real Cost Of Raising The Minimum Wage,'' MarketWatch.com, 
        December 20, 2013.

        ``If Possible, Fed Forecasts Are Worse Than Its Policies,'' 
        RealClearMarkets.com, December 24, 2013.

        ``Congress Should Let Everyone Buy Catastrophic Health 
        Insurance,'' Washington Examiner, December 24, 2013.

        ``Health Insurance For Everyone?'' RealClearMarkets.com, 
        December 27, 2013.

        ``10 Stocks For The U.S. Economy's Revival In 2014,'' 
        MarketWatch.com, December 27, 2013.

        ``Ten Missed Economic Opportunities In 2013,'' 
        RealClearMarkets.com, December 31, 2013.

        ``Open Doors To Those Who Want To Come To The U.S. To Work,'' 
        Washington Examiner, December 31, 2013.

        ``Turkey's Turmoil Will Only Get Worse In 2014,'' 
        RealClearMarkets.com, January 7, 2014.

        ``Enough Is Enough: No New Unemployment Insurance Extension,'' 
        Washington Examiner, January 7, 2014.

        ``The IRS Should Not Regulate Political Speech,'' Tax Notes, 
        January 13, 2014.

        ``Who Is Dropping Out Of The Labor Force, and Why?'' 
        RealClearMarkets.com, January 14, 2014.

        ``The Three Myths Of Labor Force Participation,'' Washington 
        Examiner, January 14, 2014.

        ``New Rules to Deprive Seniors of Drugs, Doctors,'' 
        RealClearMarkets.com, January 21, 2014.

        ``Snow Day Musing: Americans Don't Miss The Vast Federal 
        Bureaucracy That Sucks Up Their Tax Dollars,'' Washington 
        Examiner, January 21, 2013.

        ``The State Of The Union I'd Like To See,'' MarketWatch.com, 
        January 24, 2014.

        ``Does Paul Krugman Have a Retirement Account?'' 
        RealClearMarkets.com, January 28, 2014.

        ``Obama's Minimum Wage Order Is Out Of Step With America,'' 
        Washington Examiner, January 28, 2014.

        ``Making School Choice Work: A Lesson From Israel,'' 
        MarketWatch.com, January 31, 2014.

        ``The Verdict On Keystone XL Is In,'' RealClearMarkets.com, 
        February 4, 2014.

        ``Obama's Solution To Phony Wage Gap Is Another Job-Killer,'' 
        Washington Examiner, February 4, 2014.

        ``CVS's Decision Isn't Really About Smoking,'' MarketWatch.com, 
        February 5, 2014.

        ``Solving the State and Local Pension Crisis,'' Tax Notes, 
        February 10, 2014.

        ``Why Is VW Helping The UAW Unionize?'' RealClearMarkets.com, 
        February 11, 2014.

        ``Obama Should Work With Congress To Eliminate Employer 
        Mandate,'' Washington Examiner, February 11, 2014.

        ``Why Tipped Workers Don't Need A Raise,'' MarketWatch.com, 
        February 13, 2014.

        ``Oil Is Where the Growth Is, So Let's Drill,'' 
        RealClearMarkets.com, February 18, 2014.

        ``International Union Politics At Play In UAW Bid For Tennessee 
        VW Workers,'' Washington Examiner, February 18, 2014.

        ``Can Higher Wages Actually Hurt The Economy?'' 
        MarketWatch.com, February 21, 2014.

        ``CBO Misses Mark on Minimum Wage,'' RealClearMarkets.com, 
        February 23, 2014.

        ``The Fight Against Income Inequality Starts With Children,'' 
        RealClear
        Markets.com, February 25, 2014.

        ``Minimum Wage Supporters Mischaracterize Its Effects,'' 
        Washington Examiner, February 25, 2014.

        ``Dave Camp's Tax Plan Doesn't Go Far Enough,'' 
        MarketWatch.com, February 28, 2014.

        ``Public Employees Unions Help Boost State Debt Crisis,'' 
        Washington Examiner, February 28, 2014.

        ``Save the Ukraine By Exporting Natural Gas,'' 
        RealClearMarkets.com, March 4, 2014.

        ``Taxing Carried Interest Discourages Investment,'' 
        MarketWatch.com, March 7, 2014.

        ``Can Maryland Eliminate Its Income Tax?'' Tax Notes, March 10, 
        2014.

        ``Unions Conclude Obamacare Will Make Inequality Worse,'' 
        RealClear
        Markets.com, March 11, 2014.

        ``Keystone XL Pipeline Delays: Don't Blame Canada,'' 
        MarketWatch.com, March 14, 2014.

        ``Inequality As a Barrier to Growth? Invented Out of Thin 
        Air,'' RealClear
        Markets.com, March 18, 2014.

        ``How The Fed Is Hurting Seniors,'' MarketWatch.com, March 21, 
        2014.

        ``Raise Your State's Minimum Wage? Why Be Like California?'' 
        RealClear
        Markets.com, March 25, 2014.

        ``How Obama Can Help, Not Hurt, Women In Today's Economy,'' 
        Market
        Watch.com, March 28, 2014.

        `` `Paycheck Fairness' Will Lead to Fewer Paychecks, Less 
        Fairness,'' RealClear
        Markets.com, April 1, 2014.

        ``Opponents Of Natural-Gas Exports Have It All Wrong,'' 
        MarketWatch.com, April 4, 2014.

        ``To Boost the Economy, Let the Unemployment Bill Die,'' 
        RealClear
        Markets.com, April 8, 2014.

        ``Want to Help Women? End the Marriage Penalty,'' Tax Notes, 
        April 10, 2014.

        ``CVS, Walgreens Get Helping Hand From Obama,'' 
        MarketWatch.com, April 11, 2014.

        ``On Tax Day, Tax-Cutting Candidates Take Center Stage,'' 
        RealClear
        Markets.com, April 15, 2014.

        ``It's Women Who Suffer Most From The Marriage Penalty,'' 
        MarketWatch.com, April 18, 2014.

        ``The Systematic Errors In Thomas Piketty's New Book,'' 
        RealClearMarkets.com, April 22, 2014.

        ``Instead Of Taking Kids To Work, Bring Work To Kids,'' 
        MarketWatch.com, April 24, 2014.

        ``Hitting Putin in the Pocketbook,'' Economics21.org, April 25, 
        2014.

        ``Public Employees Unions Help Boost State Debt Crisis,'' 
        Washington Examiner, April 28, 2014.

        ``With the Keystone Delay, U.S. Is the Only Loser,'' 
        RealClearMarkets.com, April 29, 2014.

        ``4 Easy Ways To Boost The U.S. Economy,'' MarketWatch.com, May 
        1, 2014.

        ``A Man of Numerous Ideas, Gary Becker Will Be Missed,'' 
        RealClear
        Markets.com, May 6, 2014.

        ``6 Dubious Yellenisms From The Fed Chair's Testimony,'' 
        MarketWatch.com, May 8, 2014.

        ``One Dem's Equal-Pay Day War on a Woman,'' National Review, 
        May 9, 2014.

        ``No, Professor Piketty, Capital and Wealth Are Not 
        Synonymous,'' Tax Notes, May 12, 2014.

        ``Janet Yellen's Meddling Is Robbing Us of a Recovery,'' 
        RealClearMarkets.com, May 13, 2014.

        ``Union-Backed `Day of Action' Will Hurt Teens,'' 
        Economics21.org, May 15, 2014.

        ``America Can't Prosper With Low Rates, Weak Dollar,'' 
        MarketWatch.com, May 19, 2014.

        ``It Costs You a Fortune for Obama To Be Green,'' 
        RealClearMarkets.com, May 20, 2014.

        ``Yellen Should Really Say This To College Graduates,'' 
        MarketWatch.com, May 21, 2014.

        ``As Veterans Languish, Federal Employees Do Union Work,'' 
        MarketWatch.com, May 25, 2014.

        ``Obama's Plan to Make the Poor Even Poorer,'' 
        RealClearMarkets.com, May 27, 2014.

        ``Manhattan Moment: Obama Should Not Impose Cap-And-Trade 
        Through Regulation,'' Washington Examiner, May 30, 2014.

        ``The White House's Invisible Pay Gap,'' National Review, July 
        3, 2014.

        ``Inequality In America Fact or Fiction?'' 
        RealClearMarkets.com, June 4, 2014.

        ``How to Solve Urban Problems,'' RealClearMarkets.com, June 6, 
        2014.

        ``Cities Can Be Saved--If Politicians Move Out,'' 
        MarketWatch.com, June 6, 2014.

        ``End Retroactive Taxation,'' Tax Notes, June 9, 2014.

        ``U.S. Tax Policy Is That Of A Silly Nation,'' 
        RealClearMarkets.com, June 10, 2014.

        ``5 Reasons The Tea Party Should Favor Immigration,'' 
        MarketWatch.com, June 11, 2014.

        ``To Help Working Women, Set Them Free,'' RealClearMarkets.com, 
        June 17, 2014.

        ``An Unfinished Job In Iraq Will Cost America Dearly,'' 
        MarketWatch.com, June 19, 2014.

        ``The IRS's E-Mail `Coincidences' Are Too Many,'' 
        RealClearMarkets.com, June 24, 2014.

        ``Young Get Punished for Internship Law,'' 
        RealClearMarkets.com, June 29, 2014.

        ``Let's Not Unionize Home Health Care Workers,'' 
        RealClearMarkets.com, July 1, 2014.

        ``Automatic Obamacare Enrollment Is Anti-Patient,'' 
        RealClearMarkets.com, July 8, 2014.

        ``Piketty's Inequality Cure Hurts the Poor,'' 
        RealClearMarkets.com, July 11, 2014.

        ``Portuguese Bank Is Tip of the Iceberg,'' MarketWatch.com, 
        July 11, 2014.

        ``It's Time for Drivers to Pay for Their Roads,'' Tax Notes, 
        July 14, 2014.

        ``Drivers Should Pay For the Roads They Use,'' 
        RealClearMarkets.com, July 15, 2014.

        ``Obama Dances Around Serious Transportation Fixes,'' 
        RealClearMarkets.com, July 22, 2014.

        ``The U.S. Can Export Putin To His Knees,'' 
        RealClearMarkets.com, July 29, 2014.

        ``Bill To Address Fake Campus-Rape Epidemic Goes Too Far,'' 
        Market
        Watch.com, August 1, 2014.

        ``Suddenly Every McDonald's Franchisee Is Worth Suing,'' 
        RealClear
        Markets.com, August 5, 2014.

        ``Manhattan Moment: Maryland's Motor Vehicle Bureaucracy Needs 
        an Overhaul,'' Washington Examiner, August 7, 2014.

        ``Tax Inversions Help the Economy,'' RealClearMarkets.com, 
        August 10, 2014.

        ``Watch Closely Obama's Treatment of Unions,'' 
        RealClearMarkets.com, August 12, 2014.

        ``One Easy Way To Save Up To 1 Million Lives A Year,'' 
        MarketWatch.com, August 15, 2014.

        ``The Texas Economy Makes Rick Perry a Lefty Target,'' 
        RealClearMarkets.com, August 19, 2014.

        ``New Ideas for Ending Poverty,'' Tax Notes, August 18, 2014.

        ``Obama Executive Order On Immigration Would Backfire,'' 
        MarketWatch.com, August 22, 2014.

        ``The Tale of Missing IRS E-Mails Gets More and More Curious,'' 
        RealClearMarkets.com, August 26, 2014.

        ``Money Is Not The Answer For Our Bloated Public Education 
        System,'' MarketWatch.com, August 29, 2014.

        ``What to Look For In Friday's Unemployment Report,'' 
        RealClearMarkets.com, September 2, 2014.

        ``Fast-Food Worker Strikes Aren't What They Appear To Be,'' 
        Market
        Watch.com, September 4, 2014.

        ``The `Coincidence' of CVS and Tobacco,'' RealClearMarkets.com, 
        September 9, 2014.

        ``More Military Spending Could Actually Save The U.S. Money,'' 
        MarketWatch.com, September 11, 2014.

        ``Nothing Unpatriotic About Doughnuts to Dollars,'' Tax Notes, 
        September 15, 2014.

        ``LNG Exports Are a Win For All Concerned,'' 
        RealClearMarkets.com, September 16, 2014.

        ``Women, Get Real: Here's The New Feminists' Manifesto,'' 
        MarketWatch.com, September 19, 2014.

        ``The FDA Should Be In Ebola-Mode All the Time,'' 
        RealClearMarkets.com, September 23, 2014.

        ``5 Reasons To Counter Climate-Change Regulation,'' 
        MarketWatch.com, September 25, 2014.

        ``Federal Workers Are Rewarded When They Waste Your Money,'' 
        RealClearMarkets.com, September 30, 2014.

        ``Political Correctness Endangers President Obama's Life,'' 
        MarketWatch.com, October 2, 2014.

        ``To Grow, America Needs More Legal Work Visas,'' Hoover 
        Institute, October 6, 2014.

        ``Federal Employees Spent 3.4 Million Hours Working For Their 
        Unions,'' MarketWatch.com, October 7, 2014.

        ``Worker Interests Are Well Served By `Tipped Wage','' 
        RealClearMarkets.com, October 9, 2014.

        ``There's More to Internet Taxation Than Meets the Eye,'' Tax 
        Notes, October 13, 2014.

        ``Don't Be Fooled, the Internet Is Already Taxed,'' 
        RealClearMarkets.com, October 14, 2014.

        ``This Nobel Prize-Worthy Economist Figured Out How To Destroy 
        Terrorism,'' MarketWatch.com, October 15, 2014.

        ``5 Reasons Janet Yellen Shouldn't Focus On Income 
        Inequality,'' MarketWatch.com, October 20, 2014.

        ``Will Apple Redefine How We Shop?'' RealClearMarkets.com, 
        October 21, 2014.

        `` `Just Say Yes' To Making Marijuana Legal,'' MarketWatch.com, 
        October 24, 2014.

        ``No Band-Aids, Let's Have Real Tax Reform,'' 
        RealClearMarkets.com, October 28, 2014.

        ``Maybe There Should Be A State Ballot That Bans State 
        Ballots,'' MarketWatch.com, October 31, 2014.

        ``A Non-Partisan Case For Obamacare Reform,'' 
        RealClearMarkets.com, November 4, 2014.

        ``Here's The New Congress' Most Important Task,'' 
        MarketWatch.com, November 5, 2014.

        ``Forget the Purple Line, Mr. Hogan,'' Economics21.org, 
        November 7, 2014.

        ``Ignore Inequality for Comprehensive Tax Reform,'' Tax Notes, 
        November 10, 2014.

        ``A Supreme Court Case That Could Upend Obamacare,'' 
        RealClearMarkets.com, November 11, 2014.

        ``Dear World Leaders: Ignore Obama's Economic Advice,'' 
        MarketWatch.com, November 12, 2014.

        ``President Obama's Abuse of Power Calls for Tough Oversight,'' 
        Economics21.org, November 14, 2014.

        ``Obama's War On Working Women,'' RealClearMarkets.com, 
        November 18, 2014.

        ``How Obama's Plan On Immigration Will Enrich Wal-Mart,'' 
        MarketWatch.com, November 20, 2014.

        ``OUR Walmart Is 100 percent Union, 0 percent WMT,'' 
        RealClearMarkets.com, November 25, 2014.

        ``Do Immigrants Boost Economic Growth? Yes,'' 
        RealClearMarkets.com, December 2, 2014.

        ``The EPA Pours On The Pain With New Ozone Regulations,'' 
        Market
        Watch.com, December 3, 2014.

        ``Who Is Terrance Wise, the Strong Voice In the Fight for 15?'' 
        Economics21.org, December 5, 2014.

        ``Republicans Should Choose a New CBO Director,'' Tax Notes, 
        December 8, 2014.

        ``Union Interests Work Against Low-Wage Workers,'' 
        RealClearMarkets.com, December 9, 2014.

        ``6 Ways Govt. Criminalizes Economic Activity,'' 
        RealClearMarkets.com, December 12, 2014.

        ``Union Elections Make Cuba's Seem Fair,'' 
        RealClearMarkets.com, December 16, 2014.

        ``This Tax Change Could Keep Your Business Alive After Your 
        Death,'' MarketWatch.com, December 19, 2014.

        ``You Can't Avoid Death, But You Can Postpone The Death Tax,'' 
        MarketWatch.com, December 19, 2014.

        ``The NLRB Turns Government into Kafka's Nightmare,'' RealClear
        Markets.com, December 23, 2014.

        ``What I Learned With My 10 Stock Recommendations A Year Ago,'' 
        Market
        Watch.com, December 23, 2014.

        ``South Dakota Could Trump Obama In Blocking Keystone,'' 
        RealClear
        Markets.com, December 30, 2014.

        ``A Healthier Russia Is In The U.S.'s Best Interest,'' 
        MarketWatch.com, January 5, 2015.

        ``Harvard Assault Regulations About Inequality Before the 
        Law,'' RealClearMarkets.com, January 6, 2015.

        ``Keystone XL And Two Other Things That Won't Happen In 2015,'' 
        MarketWatch.com, January 9, 2015.

        ``Things That Won't Happen in 2015,'' RealClearMarkets.com, 
        January 11, 2015.

        ``To Make Welfare Work, Hand It to the States,'' 
        RealClearMarkets.com, January 13, 2015.

        ``Raising Taxes on Capital Hurts the Middle Class,'' 
        Economics21.org, January 19, 2015.

        ``Obama's Joke Of A Tax Plan Only Fuels Class Warfare,'' 
        MarketWatch.com, January 21, 2015.

        ``Why Not Marco Rubio For President In 2016?'' MarketWatch.com, 
        January 23, 2015.

        ``Turn the United States Into a Tax Haven,'' Tax Notes, January 
        26, 2015.

        ``Minimum Wage Advocates Should Support School Choice,'' 
        Economics21.org, January 27, 2015.

        ``McDonald's, Already Struggling, Now Has To Fight The 
        Government,'' MarketWatch.com, January 30, 2015.

        ``Here Are Five Obama Tax Proposals That Make No Sense,'' 
        MarketWatch.com, February 3, 2015.

        ``Manhattan Moment: Franchise Owners Deserve a Break Today From 
        The Labor Board,'' Washington Examiner, February 6, 2015.

        ``With Job Creation Up, Workers Still Choose to Stay Home,'' 
        Economics21.org, February 10, 2015.

        ``With Staples, Obama Once Again Interferes With The Private 
        Sector,'' MarketWatch.com, February 12, 2015.

        ``A New Fix for Obamacare,'' New York Times, February 13, 2015.

        ``Millions Of Americans In Danger Of Losing Key Obamacare Tax 
        Subsidy,'' MarketWatch.com, February 20, 2015.

        ``A Supreme Solution: The Health Checks Option,'' Tax Notes, 
        February 23, 2015.

        ``Obamacare's Vending Machine Power Grab,'' Economics21.org, 
        February 25, 2015.

        ``Republicans Get A New Power Broker In Washington,'' 
        MarketWatch.com, February 27, 2015.

        ``The Real Scandal Is The U.S.'s Embrace Of Iran,'' 
        MarketWatch.com, March 3, 2015.

        ``Labor Unions Just Lost Even More Power,'' MarketWatch.com, 
        March 10, 2015.

        ``Republicans Want A Better Life For You That Democrats Can't 
        Stand,'' MarketWatch.com, March 19, 2015.

        ``A Pathway to Solvency,'' Economics21.org, March 20, 2015.

        ``Congress Tackles the Weird World of Washington Budgeting,'' 
        Tax Notes, March 23, 2015.

        ``Cruz's Gamble As The Only True Conservative May Pay Off,'' 
        MarketWatch.com, March 24, 2015.

        ``House Subcommittee Raises Questions on New Union Election 
        Rules,'' Economics21.org, March 25, 2015.

        ``Seductive Liberal Agenda No Match for Modern Conservatism,'' 
        CNSNews.com, March 30, 2015.

        ``Here's What An Almost Perfect Tax-Reform Plan Looks Like,'' 
        MarketWatch.com, March 31, 2015.

        ``Hysterical Reaction To Indiana Law Is Destructive To Our 
        System Of Government,'' MarketWatch.com, April 1, 2015.

        ``Why Conservatives Win When Expectations Rise,'' 
        TheFiscalTimes.com, April 1, 2015.

        ``More Americans Give Up Looking for Work,'' Economics21.org, 
        April 8, 2015.

        ``Feminists Overreach With Equal Pay Day,'' MarketWatch.com, 
        April 13, 2015.

        `` `Popular Economics' Contains Inconvenient Truths For 
        Liberals,'' Market
        Watch.com, April 15, 2015.

        ``New Congress Breaks Into Action With Smart Bills,'' 
        MarketWatch.com, April 17, 2015.

        ``The Economic Benefits of Tax Integration,'' Tax Notes, April 
        20, 2015.

        ``New Purple Line Study Fails Economics 101,'' Economics21.org, 
        April 27, 2015.

        ``Trade Agreement Will Accomplish Nothing If Ports Aren't 
        Open,'' MarketWatch.com, April 28, 2015.

        ``Rubio Already Spearheading Tax Reform,'' Economics21.org, May 
        1, 2015.

        ``New York Times Explains Gender Wage Gap,'' Economics21.org, 
        May 4, 2015.

        ``3 Reasons Democrats Should Find Someone Other Than Hillary,'' 
        MarketWatch.com, May 6, 2015.

        ``Teachers' Unions Throw Students Under the Bus,'' CNSNews.com, 
        May 7, 2015.

        ``Occupational Licensing Laws Hurt New Graduates,'' 
        Watchdog.org, May 8, 2015.

        ``The Young Lose From a Higher Minimum Wage,'' Townhall, May 9, 
        2015.

        ``Four Ways to Reduce Poverty In America,'' MSNBC.com, May 10, 
        2015.

        ``Young Americans Have Yet Another Debt Burden,'' 
        MarketWatch.com, May 11, 2015.

        ``Unpaid Internships: Do As Congress Says, Not As It Does,'' 
        TheFederalist.com, May 11, 2015.

        ``Education Reform That Works,'' City Journal, May 13, 2015.

        ``How Government Debt Disinherited the Next Generation . . . 
        and How to Fix It,'' TheFiscalTimes.com, May 12, 2015.

        ``Dear Class of 2015, You're in Big Trouble,'' Wall Street 
        Journal, May 12, 2015.

        ``Washington Is Betraying America's Young,'' Tax Notes, May 18, 
        2015.

        ``Obamacare Is a Horror Story for Young Americans,'' National 
        Review, May 19, 2015.

        ``New Grads, Start A Business If You Can't Find A Job,'' 
        MarketWatch.com, May 21, 2015.

        ``How Occupational Licensing Harms the Young,'' 
        RealClearPolicy.com, May 22, 2015.

        ``A Crucial Service Lacking For Veterans: Investment 
        Management,'' MarketWatch.com, May 25, 2015.

        ``Review of Only One Thing Can Save Us: Why America Needs a New 
        Kind of Labor Movement,'' Claremont Review of Books, May 25, 
        2015.

        ``Regulation's Stranglehold on Millennials' Futures,'' Forbes, 
        May 26, 2015.

        ``Why Unions Exempt Themselves from Hard-Fought Minimum Wage 
        Hikes,'' CNSNews.com, May 29, 2015.

        ``Millennials Can't Afford to Ignore Washington,'' 
        RealClearPolicy.com, May 31, 2015.

        ``Cuomo's Fishy Fast Food Wage Board,'' Economics21.org, June 
        4, 2015.

        ``Americans Are Fine with Spying--As Long as It's Google and 
        Not the NSA,'' MarketWatch.com, June 5, 2015.

        ``Old Money: How the Fed's Actions Harm Millennials,'' Atlas 
        Network, June 10, 2015.

        ``Unwanted Touching Is Not Sexual Assault,'' Economics21.org, 
        June 14, 2015.

        ``Op Ed on Disinherited Youth'', The Sunday Times, June 14, 
        2015.

        ``The Affordable Care Act Is Unaffordable for the Young,'' Tax 
        Notes, June 15, 2015.

        ``Pope Francis' Plan To Help The Environment Will Backfire,'' 
        MarketWatch.com, June 19, 2015.

        ``The U.S. Government Is Making Full Use Of Arbitrary Power 
        Again,'' MarketWatch.com, June 25, 2015.

        ``Proposed Retirement Investment Regulations Could Backfire on 
        Savers,'' Economics21.org, June 25, 2015.

        ``Obama Deals A Blow To Parents, Women And Millennials In New 
        Overtime Rules,'' MarketWatch.com, June 26, 2015.

        ``Six Priorities for Obamacare Reform,'' Economics21.org, June 
        26, 2015.

        ``This Supreme Court Case Will Decide The Fate Of Unions In The 
        U.S.'' MarketWatch.com, July 2, 2015.

        ``Good News on Internships From the Second Circuit,'' 
        Economics21.org, July 6, 2015.

        ``Obama and Hillary Gloat: Obamacare Is `Here to Stay'; But 
        America Must Seek Reform,'' CNSNews.com, July 7, 2015.

        ``IRS Ramps Up Obamacare Employer Penalties,'' Tax Notes, July 
        13, 2015.

        ``Hillary Clinton Promises Higher Taxes and More Regulation,'' 
        CAPX.co, July 13, 2015.

        ``Don't Supersize the Minimum Wage,'' City Journal, July 13, 
        2015.

        ``For Hillary Clinton, Donald Trump Is A Godsend,'' 
        MarketWatch.com, July 14, 2015.

        ``Hillary, Obama Meddle In The Workplace Again,'' 
        MarketWatch.com, July 16, 2015.

        ``Generation Y Needs an Office for Inter-Generational 
        Responsibility,'' CAPX.co, July 21, 2015.

        ``The Newest Obamacare Fail: Penalties Of $36,500 Per Worker,'' 
        Market
        Watch.com, July 23, 2015.

        ``GDP Numbers Should Be a Wake-Up Call,'' Economics21.org, July 
        30, 2015.

        ``GOP Debate Served As The Grand Equalizer,'' MarketWatch.com, 
        August 7, 2015.

        ``Obama's `Clean Power Plan' Punishes Workers, Consumers, and 
        States That Voted for Romney,'' National Review, August 10, 
        2015.

        ``How A Few D.C. Bureaucrats Will Destroy College Football,'' 
        Market
        Watch.com, August 17, 2015.

        ``How To Keep The EPA Honest,'' MarketWatch.com, August 18, 
        2015.

        ``Focus on Anchor Babies Misses Broader Immigration Problems,'' 
        Economics21.org, August 25, 2015.

        ``DC Bureaucrats Upend Franchise Businesses,'' Economics21.org, 
        August 28, 2015.

        ``Workers Don't Do Better In Unions,'' MarketWatch.com, 
        September 2, 2015.

        ``How Jeb Bush And Marco Rubio Would Help Women,'' 
        MarketWatch.com, September 11, 2015.

        ``When Is a Contractor Not a Contractor?'' Tax Notes, September 
        14, 2015.

        ``The Republican Debate Was Missing These Eight Key Issues,'' 
        MarketWatch.com, September 17, 2015.

        ``Marco Rubio Is the Beneficiary of Scott Walker's Departure,'' 
        CAPX.co, September 22, 2015.

        ``Pope Francis' Policies Won't Help The Poor,'' Washington 
        Examiner, September 24, 2015.

        ``VW Diesel Buyers Could Have Discovered Cheating Before The 
        EPA Did,'' MarketWatch.com, September 25, 2015.

        ``5 Ways To Get A College Education Without Amassing A Lot Of 
        Debt,'' MarketWatch.com, October 2, 2015.

        ``White House's Summit On Unions Is A One-Sided Affair,'' 
        MarketWatch.com, October 7, 2015.

        ``Paid-Leave Bill Would Be A Lose-Lose For Women And D.C.,'' 
        Market
        Watch.com, October 16, 2015.

        ``Tax Carried Interest as Capital Gains,'' Tax Notes, October 
        19, 2015.

        ``Paul Ryan Is Just Who The Republicans Need Now,'' 
        MarketWatch.com, October 22, 2015.

        ``Republicans Have Themselves To Blame For Such A Shoddy Debate 
        Format,'' MarketWatch.com, October 29, 2015.

        ``Why Jeb Bush's Campaign Is in Such Deep Trouble,'' CAPX.co, 
        October 30, 2015.

        ``Trump Or Carson May Repeat What Eisenhower Did In 1952,'' 
        Market
        Watch.com, November 4, 2015.

        ``Bipartisan Budget Act Increases Burden on Millennials,'' Tax 
        Notes, November 9, 2015.

        ``Why the Fed Should Raise Rates,'' CAPX.co, November 9, 2015.

        ``Donald Trump's Ideas In `Crippled America','' 
        MarketWatch.com, November 12, 2015.

        ``Why Rubio Beats Cruz On Immigration Policies,'' CAPX.co, 
        November 17, 2015.

        ``Free College Tuition Promised By Democrats Is One Big 
        Illusion,'' Market
        Watch.com, November 19, 2015.

        ``Proposed D.C. Metro Line May Run Foul Of Environmental 
        Laws,'' Washington Examiner, November 23, 2015.

        ``Princeton Students Stand Up To Political Correctness,'' 
        MarketWatch.com, November 25, 2015.

        ``Obamacare Bailouts Prove That The Law Is Flawed And Lousy,'' 
        MarketWatch.com, December 2, 2015.

        ``Clinton's Wall Street Attack Would Only Hurt You And Me,'' 
        MarketWatch.com, December 8, 2015.

        ``Why ISIS Laughs at the West,'' Tax Notes, December 14, 2015.

        ``Student Bullies At Yale,'' CAPX.co, December 14, 2015.

        ``The Negative Side of Negative Interest Rates,'' USNews.com, 
        December 16, 2015.

        ``U.S. Renewable Energy Isn't Helping The Economy--Or The Fight 
        Against ISIS,'' MarketWatch.com, December 17, 2015.

        ``Three Reasons Why It's Good to Be Rubio Right Now,'' CAPX.co, 
        December 28, 2015.

        ``Seven Missed Opportunities to Double Our Growth,'' 
        MarketWatch.com, December 30, 2015.

        ``Hillary Clinton Is Wrong On The So-Called War Against 
        Women,'' MarketWatch.com, January 7, 2016.

        ``One Woman's Fight to Opt Out Of Her Union,'' CAPX.co, January 
        11, 2016.

        ``Ted Cruz And Rand Paul Have a Terrible Idea: A New Tax,'' 
        Market
        Watch.com, January 14, 2016.

        ``Resist the Seductive VAT,'' Tax Notes, January 18, 2016.

        ``Court to Decide Legal Merits, Not Union Politics,'' CAPX.co, 
        January 20, 2016.

        ``Unions vs. Students,'' National School Choice Week, January 
        26, 2016.

        ``Teachers Unions Fight Educational Progress,'' 
        Economics21.org, January 27, 2016.

        ``Presidential-Election Winner To Be Decided By 2016 Economy,'' 
        Market
        Watch.com, January 30, 2016.

        ``With Zika, Time to Bring Back DDT,'' Economics21.org, January 
        31, 2016.

        ``Obama's Latest Lifeline for Unions,'' Wall Street Journal, 
        February 1, 2016.

        ``Resist the Value-Added Tax: Opposing View,'' USA Today, 
        February 3, 2016.

        ``What Unions Don't Do for the Middle Class,'' National Review, 
        February 4, 2016.

        ``5 Wasteful Items That Obama Should Cut From The Budget,'' 
        Market
        Watch.com, February 11, 2016.

        ``Bernie Sanders's Robin Hood Tax Plan,'' Tax Notes, February 
        15, 2016.

        ``In Praise Of Antonin Scalia, The Gold Standard For 
        Conservative Thought,'' MarketWatch.com, February 16, 2016.

        ``Privatize Air-Traffic Control? Not if It's a Union 
        Giveaway,'' National Review, February 17, 2016.

        ``Bernie Sanders' Tax Plan Would Hinder Economic Growth,'' 
        Washington Examiner, February 20, 2016.

        ``Air-Traffic Control Needs Real Privatization,'' National 
        Review, February 22, 2016.

        ``Marco Rubio Can Defeat Hillary, If He Can Stop Trump,'' 
        CAPX.co, February 24, 2016.

        ``Trump Is Most Vulnerable On These Four Crucial Issues,'' 
        MarketWatch.com, February 26, 2016.

        ``Carbon Tax Is Unpopular for Good Reason,'' Economics21.org, 
        February 29, 2016.

        ``Confiscating Private Property Won't Make America Great,'' 
        Economics21.org March 1, 2016.

        ``Donald Trump Wins Republicans' Hearts With Democratic 
        Ideals,'' MarketWatch.com, March 2, 2016.

        ``Bulldozing Property Rights Won't Make America Great Again,'' 
        Foundation for Economic Education, March 3, 2016.

        ``McDonald's Labor Trial Could Upend The Restaurant's Business 
        Model,'' MarketWatch.com, March 11, 2016.

        ``Double Taxation for Passengers Under the FAA Reauthorization 
        Bill,'' Tax Notes, March 14, 2016.

        ``Donald Trump Leads The Uprising Against The `Ruling Class','' 
        MarketWatch.com, March 17, 2016.

        ``7 Obamacare Failures That Have Hurt Americans,'' 
        MarketWatch.com, March 24, 2016.

        ``A Higher Minimum Wage Is No Way To Solve The Problem Of 
        Poverty,'' MarketWatch.com, March 30, 2016.

        ``Free Pfizer! Why Inversions Are Good for the U.S.,'' New York 
        Times, April 7, 2016.

        ``Millennials Are in The Driver's Seat as Companies Ramp Up 
        Hiring,'' MarketWatch.com, April 8, 2016.

        ``The Pay-Equity Police Get New Ammunition,'' Wall Street 
        Journal, April 11, 2016.

        ``New York's Suicidal Attempted Takeover of Capital Gains 
        Taxation,'' Tax Notes, April 18, 2016.

        ``New Yorkers, You Can Do Something About Those Brutally High 
        Taxes,'' MarketWatch.com, April 18, 2016.

        ``UnitedHealthcare's Exit Augurs Badly For Obamacare,'' 
        Economics21.org, April 19, 2016.

        ``New Overtime Rules Would Hit Women and Millennials Hardest,'' 
        Economics21.org, April 22, 2016.

        ``New York Legislators Enter Dangerous Territory with 
        Investment Tax Bill,'' MarketWatch.com, April 25, 2016.

        ``Congress Can Solve Illinois' Pension Crisis,'' CAPX.co, April 
        29, 2016.

        ``Businessman Trump Trumps Politician Trump,'' Economics21.org, 
        May 2, 2016.

        ``What Would Ronald Reagan Do to Fix America Today?'' 
        MarketWatch.com, May 5, 2016.

        ``Congress Should Solve America's Pension Crisis,'' Washington 
        Examiner, May 6, 2016.

        ``Teamsters Pension Crisis Shows How Unions Add Risks to 
        Workers,'' MarketWatch.com, May 10, 2016.

        ``A New Approach to Solving Illinois's Pension Crisis,'' Tax 
        Notes, May 16, 2016.

        ``Mandatory Paid Maternity Leave Will Hurt Women's Choices,'' 
        Economics21.org, May 16, 2016.

        ``A Tip for College Graduates: It's the Little Things That Can 
        Get You a Job,'' MarketWatch.com, May 16, 2016.

        ``New Overtime Rule Causes Triple Damage to Economy,'' 
        Economics21.org, May 18, 2016.

        ``Bad News from Labor Department's New Overtime Rules,'' 
        Washington Examiner, May 20, 2016.

        ``New York Attorney General Doesn't Like Pizza,'' CNSNews.com, 
        May 27, 2016.

        ``What Would Happen If We Shut Down the Federal Reserve?'' 
        Market
        Watch.com, May 27, 2016.

        ``The AG's Guide to Ruining Business and Slowing State 
        Growth,'' TheFiscalTimes.com, May 29, 2016.

        ``French Workers Are Protesting Against Reforms,'' 
        MarketWatch.com, June 10, 2016.

        ``Taxing E-Cigarettes Is Counterproductive,'' Tax Notes, June 
        13, 2016.

        ``Don't Let Air-Traffic Control Become Another Amtrak,'' 
        MarketWatch.com, June 14, 2016.

        ``5 Reasons So Many Britons Favor Brexit And Want to Dump The 
        EU,'' MarketWatch.com, June 17, 2016.

        ``Happy Brexit day, from Washington,'' Reaction.life, June 24, 
        2016.

        ``Britain Punches Above Its Weight In EU,'' Economics21.org, 
        June 28, 2016.

        ``Federal Overreach Is Smacked Down by A Texas Judge,'' 
        MarketWatch.com, June 29, 2016.

        ``The U.S. Doesn't Even Enforce Trade Rules, Never Mind Enact 
        Favorable Deals,'' MarketWatch.com, July 7, 2016.

        ``There's Nothing ``Socially Responsible'' About Low Pension 
        Returns,'' Economics21.org, July 22, 2016.

        ``DNC Speakers Decry Gender Pay Gap: In Reality, There Is No 
        Gap to Close,'' CNSNews.com, July 28, 2016.

        ``Why The Fed Should Raise Rates,'' Washington Examiner, July 
        25, 2016.

        ``Sorry, Elizabeth Warren, Women Already Have Equal Pay,'' 
        Economics21.org, July 27, 2016.

        ``Why Women Shouldn't Vote for Hillary Clinton,'' 
        MarketWatch.com, July 29, 2016.

        ``How to Stimulate Investment,'' Economics21.org, July 31, 
        2016.

        ``How to Finally Win the War on Terror,'' National Review, 
        August 4, 2016.

        ``Black Clouds Behind the Sunny Jobs Data,'' Economics21.org, 
        August 8, 2016.

        ``Administration Exceeds Its Power With New Inversion Regs,'' 
        Tax Notes, August 15, 2016.

        ``Why the Washington D.C. Suburbs Need to Rethink This Light-
        Rail Project,'' MarketWatch.com, August 15, 2016.

        ``Leaving Is Too Much Labor,'' USNews.com, August 17, 2016.

        ``Insurance Companies Wise Up to Obamacare,'' Economics21.org, 
        August 18, 2016.

        ``Obama's Bathroom Law Fails To Protect Those Who Need It Most: 
        Girls,'' MarketWatch.com, August 24, 2016.

        ``Why Minimum Wage Laws Hurt America,'' Jewish Policy Center's 
        inFocus, Summer 2016 Issue.

        ``Drowning in Child-Care Bills? Blame the Government For 
        Micromanaging,'' MarketWatch.com, August 31, 2016.

        ``I Was Forced to Join a Union,'' National Review, September 5, 
        2016.

        ``Mining Taxpayers' Pockets for Private-Pension Relief,'' Wall 
        Street Journal, September 8, 2016.

        ``Ryan's Corporate Plan Reverses Tax Code's Trade Bias,'' Tax 
        Notes, September 19, 2016.

        ``Why Trump is the right choice for America,'' Reaction.life, 
        September 19, 2016.

        ``Obama's Overtime Rules Hurt the Economy and American 
        Workers,'' MarketWatch.com, September 21, 2016.

        ``Princeton Students Push Back on Speech Ban,'' 
        MarketWatch.com, September 27, 2016.

        ``How to Fulfill Donald Trump's Trade Promise Without Using 
        Tariffs,'' MarketWatch.com, October 7, 2016.

        ``Donald Trump Would Help Working Women More Than Hillary 
        Clinton Would,'' MarketWatch.com, October 18, 2016.

        ``How National Pollsters Are Helping Hillary Clinton,'' 
        Economics21.org, October 20, 2016.

        ``The Tax Code's Treatment of Real Estate,'' Tax Notes, October 
        24, 2016.

        ``Obama Regulatory Order on Federal Contracts Misfires,'' 
        MarketWatch.com, October 25, 2016.

        ``Is the Tax Code's Treatment of Real Estate Worthwhile?'' 
        Economics21.org, October 25, 2016.

        ``Obama, In One Of His Last Blasts, Sends Out Another 
        Regulatory Order,'' MarketWatch.com, October 25, 2016.

        ``Why Trump Is the Right Choice for Israel,'' Bechadrei 
        Haredim, November 6, 2016.

        ``A Couple of Corrections to the Clarifiers,'' Tax Notes, 
        November 7, 2016.

        ``Why Trump Will Be Good for America--And For Britain,'' 
        CAPX.co, November 9, 2016.

        ``Why America Has Chosen Donald Trump,'' MarketWatch.com, 
        November 9, 2016.

        ``Why Women Voted for Trump,'' The Guardian, November 9, 2016.

        ``Inequality No Excuse for Delaying Tax Reform,'' Tax Notes, 
        November 14, 2016.

        ``Obama Administration Is Chastised Once Again By The 
        Judiciary,'' MarketWatch.com, November 23, 2016.

        ``House Republicans Have A Big Decision To Make This Week,'' 
        Market
        Watch.com, November 29, 2016.

        ``The Trump Administration Ought To Target The `Fiduciary 
        Rule','' Market
        Watch.com, December 8, 2016.

        ``Make Domestic Growth Great Again,'' USNews.com, December 20, 
        2016.

        ``Five Ways Trump Will Give Americans More Opportunities,'' 
        Market
        Watch.com, December 22, 2016.

        ``U.K. Must Go Full Steam Ahead With Brexit In 2017,'' 
        MarketWatch.com, December 30, 2016.

        ``5 Health-Conscious Ways To Repeal Obamacare,'' 
        MarketWatch.com, January 6, 2017.

        ``Kentucky 27th State to Protect Workers' Rights,'' 
        Economics21.org, January 8, 2017.

        ``Punishing Theft Does Not Violate Free Trade,'' 
        Economics21.org, January 10, 2017.

        ``The Potential for Stronger U.S. Growth Under President 
        Trump,'' Tax Notes, January 16, 2017.

        ``Trump Doesn't Need Economists,'' USNews.com, January 18, 
        2017.

        ``Big Labor's Misleading Attacks On Andy Puzder,'' Investor's 
        Business Daily, January 27, 2017.

        ``What Donald Trump Could Learn From The U.K.'s Theresa May At 
        Today's Meeting,'' MarketWatch.com, January 27, 2017.

        ``For Some in The Middle Class, Net Worth Slumps a Staggering 
        43 percent,'' MarketWatch.com, February 1, 2017.

        ``5 Things Betsy Devos Can Do to Help Students as Test Scores 
        Decline,'' MarketWatch.com, February 9, 2017.

        ``The Challenge for Secretary Betsy DeVos,'' Economics21.org, 
        February 9, 2017.

        ``More Lies About Puzder,'' Economics21.org, February 13, 2017.

        ``Carbon Tax Won't Curb Climate Change, But It Will Clobber 
        Growth,'' Investor's Business Daily, February 13, 2017.

        ``Trump's Job Promises Depend on This Ice-Cream-Scooper-To-CEO 
        Success Story,'' MarketWatch.com, February 15, 2017.

        ``Puzder's Withdrawal Was a Win for Big Labor,'' Washington 
        Examiner, February 16, 2017.

        ``A Carbon Tax Is Still a Terrible Idea,'' Tax Notes, February 
        20, 2017.

        ``My Draft Address to Congress for President Trump,'' 
        Economics21.org, February 27, 2017.

        ``You Might Not Have to Pay More for Trump's Spending Plans,'' 
        Market
        Watch.com, March 3, 2017.

        ``Trump's Obamacare Replacement Has These Six Improvements,'' 
        Market
        Watch.com, March 8, 2017.

        ``No, CBO,'' USNews.com, March 15, 2017.

        ``President Trump Should Have Made Even Deeper Cuts in 
        Washington's Bloated Budget,'' MarketWatch.com, March 17, 2017.

        ``Want to Help Women? Lower Marginal Tax Rates,'' 
        Economics21.org, March 20, 2017.

        ``How U.S. Economic Growth Could Accelerate To 4 percent,'' 
        MarketWatch.com, March 23, 2017.

        ``Delivering Paid Maternity Leave,'' Tax Notes, March 27, 2017.

        ``State Department Cuts Too Small: Opposing View,'' USA Today, 
        March 30, 2017.

        ``Ten Problems with EPA's Clean Power Plan Analysis,'' 
        Economics21.org, March 30, 2017.

        ``President Trump Should Repeal This Obama-Era EEOC Rule on 
        Pay,'' MarketWatch.com, March 31, 2017.

        ``America's High Corporate Taxes Make It a Loser on the Global 
        Stage,'' The Hill, April 6, 2017.

        ``March Jobs Report Shows Divergence Between Households and 
        Companies,'' MarketWatch.com, April 7, 2017.

        ``On the March Jobs Report,'' Economics21.org, April 7, 2017.

        ``Delivering Paid Maternity Leave,'' Tax Notes, April 10, 2017.

        ``Focus on Better Roads, Not Building Washington, D.C.'S Purple 
        Line,'' MarketWatch.com, April 10, 2017.

        ``Rebuilding America's Roads,'' Tax Notes, April 17, 2017.

        ``Three Steps to Lower Spending and Taxes,'' Economics21.org, 
        April 18, 2017.

        ``This Is the Election That Will Test the Foundations of the 
        French Republic,'' MarketWatch.com, April 21, 2017.

        ``President Trump Gets Serious About Tax Reform,'' 
        Economics21.org, April 26, 2017.

        ``Hypocrites Hide Obamacare's Flaws,'' Economics21.org, May 8, 
        2017.

        ``Remembering Allan Meltzer,'' Investor's Business Daily, May 
        10, 2017.

        ``The Government Could Gift This One Thing to Mothers if It 
        Wanted To,'' MarketWatch.com, May 14, 2017.

        ``In Trump Budget, What Media Call `Cuts' Are Really 
        Increases,'' Investor's Business Daily, May 21, 2017.

        ``America Should Never Have Backed Paris Accord,'' 
        Economics21.org, June 1, 2017.

        ``May's June Come-Uppance,'' Economics21.org, June 9, 2017.

        ``Tax Reform--a Sensible Tax System Means Economic Growth, 
        Simple as That,'' FoxNews.com, June 22, 2017.

        ``The Fed's Bloated Balance Sheet,'' US News & World Report, 
        June 22, 2017.

        ``New Study Proves Seattle Punishes the Poor,'' 
        Economics21.org, June 26, 2017.

        ``Cities Should Embrace Innovation, Not Fight It,'' 
        Economics21.org, June 27, 2017.

        ``CBO Gets Obamacare Reform Estimates Wrong--Again,'' 
        Investor's Business Daily, June 27, 2017.

        ``DC Government Drove Grocery Stores from Poor Neighborhoods,'' 
        Economics21.org, June 29, 2017.

        ``How High Taxes, Generous Welfare and Lack of Training Keep 
        Millions of Available Jobs Unfilled,'' Investor's Business 
        Daily, July 13, 2017.

        ``CBO Scores of ObamaCare Rollback Have Been Nothing but 
        Fantasy,'' The Hill, July 25, 2017.

        ``Five Fixes for Obamacare,'' Economics21.org, July 30, 2017.

        ``A Workable Balanced Budget Amendment,'' Investor's Business 
        Daily, August 3, 2017.

        ``The Missing Millions,'' Economics21.org, August 9, 2017.

        ``Standing up to China,'' USNews.com, August 16, 2017.

        ``Millennials Fulfill Their Entrepreneurial Dreams in Rural 
        Virginia,'' Economics21.org, August 27, 2017.

        ``EEOC Rule Repeal Means Employers Can Focus on Hiring,'' 
        Economics21.org, September 5, 2017.

        ``A Federal Agency's Bogus Battle to Keep College Grads Out of 
        Work,'' The Hill, September 7, 2017.

        ``America Needs Congressional Action on Immigration,'' 
        Economics21.org, September 15, 2017.

        ``A Change for Tax-Exemption Redemption,'' USNews.com, 
        September 21, 2017.

        ``Young People Need Greater Access to Practical Training,'' 
        Economics21.org, September 25, 2017.

    15. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        ``The Puzzle of Job Vacancies,'' testimony before the Joint 
        Economic Committee, July 12, 2017.

        ``The Environmental Protection Agency's Flawed Cost-Benefit 
        Analysis Methodology,'' testimony before the Subcommittee on 
        Superfund, Waste Management, and Regulatory Oversight of the 
        Senate Committee on Environment and Public Works, October 21, 
        2015.

        ``Raising the Minimum Wage for Fast Food Workers,'' before New 
        York Wage Board, June 22, 2015.

        ``Empowerment in the Workplace,'' testimony before the U.S. 
        Joint Economic Committee, June 18, 2014.

        ``The Benefits of Natural Gas Exports,'' testimony before the 
        U.S. Joint Economic Committee, June 24, 2014.

        ``The Disadvantages of High Marginal Tax Rates,'' testimony 
        before the New York Senate Standing Committee on Finance and 
        Standing Committee on Investigations and Government Operations, 
        October 4, 2013.

        ``If Climate Change Is Happening Now, What Do We Do?'' 
        testimony before the Senate Environment and Public Works 
        Committee, July 18, 2013.

        ``Effects of the Affordable Care Act on Jobs,'' testimony 
        before the Subcommittee on Health of the House Energy and 
        Commerce Committee, March 13, 2013.

        ``Sequestration: Examining Employers' WARN Act 
        Responsibilities,'' testimony before the Subcommittee on 
        Workforce Protections of the House Committee on Education and 
        the Workforce, February 14, 2013.

        ``Effects of Regulatory and Fiscal Uncertainty on 
        Entrepreneurs,'' testimony before the Senate Committee on Small 
        Business and Entrepreneurship, November 29, 2012.

        ``The American Energy Initiative: No More Solyndras'' testimony 
        before the Subcommittee on Energy and Power of the House 
        Committee on Energy and Commerce, July 12, 2012.

        ``Green Jobs in the U.S. Economy,'' testimony before the House 
        Committee on Oversight and Government Reform, June 6, 2012.

        ``Solving the Long-Term Unemployment Crisis for Older 
        Workers,'' testimony before the Senate Special Committee on 
        Aging, May 15, 2012.

        ``Disincentive Effects of the PPACA on Job Creation,'' 
        testimony before the Subcommittee on Health Care of the House 
        Committee on Ways and Means, March 29, 2012.

        ``How to Lower Gasoline Prices,'' testimony before the House 
        Committee on Natural Resources, March 21, 2012.

        ``The Advantages of a Balanced Budget Amendment,'' testimony 
        before the Subcommittee on the Constitution, Civil Rights, and 
        Human Rights of the Senate Committee on the Judiciary, November 
        30, 2011.

        ``The Effects of the Affordable Care Act on Work and 
        Marriage,'' testimony before the Subcommittee on Health Care, 
        District of Columbia, Census, and the National Archives of the 
        House Committee on Oversight and Government Reform, October 27, 
        2011.

        ``Take 2: The President's Proposal to Stimulate the Economy and 
        Create Jobs,'' testimony before the Subcommittee on Regulatory 
        Affairs, Stimulus Oversight, and Government Spending of the 
        House Committee on Oversight and Government Reform, September 
        13, 2011.

        ``Regulatory and Statutory Barriers to Employment,'' testimony 
        before the Joint Economic Committee, July 12, 2011.

        ``Social, Behavioral, and Economic Science Research: The Need 
        for Federal Investments and Priorities for Funding,'' testimony 
        before the Subcommittee on Research and Science Education of 
        the House Committee on Science, Space, and Technology, June 2, 
        2011.

        ``The Future of Union Transparency and Accountability,'' 
        testimony before the Subcommittee on Health, Employment, Labor, 
        and Pensions of the House Committee on Education and the 
        Workforce, March 31, 2011.

        ``The Gender Pay Gap,'' testimony before the Joint Economic 
        Committee, September 28, 2010.

        ``Long-Term Unemployment: Problem and Solutions,'' testimony 
        before the Joint Economic Committee, April 29, 2010.

        ``The American Samoa Protection of Industry, Resources, and 
        Employment Act,'' testimony before the Subcommittee on Insular 
        Affairs, Oceans, and Wildlife, of the House Committee on 
        Natural Resources, November 4, 2009.

        ``Testimony on Medical Debt: Can Bankruptcy Reform Facilitate a 
        Fresh Start?,'' testimony before the Senate Committee on the 
        Judiciary, Subcommittee on Administrative Oversight and the 
        Courts, October 20, 2009.

        ``Testimony on the Effects of Health Reform Proposals on 
        Women,'' testimony before the Senate Committee on Health, 
        Education, Labor and Pensions, October 15, 2009.

        ``Testimony on the Gender Pay Gap,'' testimony before the Joint 
        Economic Committee, April 28, 2009.

        ``Testimony on the Growing Income Gap in the American Middle 
        Class,'' testimony before the Subcommittee on Workforce 
        Protections of the House Committee on Education and Labor, July 
        31, 2008.

        ``Promoting U.S. Worker Competitiveness in a Globalized 
        Economy,'' testimony before the Subcommittee on Investigations 
        and Oversight of the House Committee on Science, June 24, 2008.

        ``Consequences and Solutions to America's Energy Crisis,'' 
        testimony before the House Committee on Natural Resources, June 
        18, 2008.

        ``Testimony on the Employment Status of Women,'' testimony 
        before the Joint Economic Committee, June 4, 2008.

        ``Testimony on Promoting Worker Competitiveness in a Globalized 
        Economy,'' testimony before the House Committee on Ways and 
        Means, June 14, 2007.

        ``Testimony on the Future of Undocumented Immigrant Students,'' 
        testimony before the House Judiciary Committee's Subcommittee 
        on Immigration, Citizenship, Refugees, Border Security, and 
        International Law, May 18, 2007.

        ``Testimony on the Paycheck Fairness Act,'' testimony before 
        the House Committee on Education and Labor, April 24, 2007.

        ``Economic Security for Working Families,'' testimony before 
        the House Committee on Education and Labor, January 31, 2007.

        ``Testimony on Behalf of Judge John Roberts to Be Chief Justice 
        of the Supreme Court,'' testimony before the Senate Committee 
        on the Judiciary, September 15, 2005.

        ``The Challenges of the 21st Century Workforce,'' testimony 
        before the Senate Committee on Health, Education, Labor, and 
        Pensions, May 26, 2005.

        ``The Statistically Misleading 74 Cent Wage Gap,'' testimony 
        before the Equal Employment Opportunity Commission, 
        Philadelphia, Pennsylvania, April 12, 1999.

        ``The Economic Effects of Capital Gains Taxation,'' testimony 
        before the Senate Committee on Agriculture, Nutrition, and 
        Forestry, February 26, 1997.

        ``The Working Families Flexibility Act,'' testimony before the 
        House Committee on Education and the Workforce, Subcommittee on 
        Workforce Protections, February 5, 1997.

        ``The Difficulty of Interpreting Income Distribution Tables,'' 
        testimony before the National Commission on Economic Growth and 
        Tax Reform, July 12, 1995.

    16. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I would be nominated for Assistant Secretary for Research and 
Technology. Nothing is more important to the economic health of America 
than getting the private sector involved in rebuilding the Nation's 
infrastructure. As an economist with over 30 years of experience, I 
have studied the provision of infrastructure and transportation 
extensively. I have written articles on transportation issues and on 
regulation. In addition, I have managed staffs at the Council of 
Economic Advisers, at the Department of Labor, and at the Manhattan 
Institute. I have reviewed hundreds of papers and articles to determine 
their quality and suitability for publication.
    17. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I would be responsible for managing the Office of the Assistant 
Secretary for Research and Technology. I would make sure that the 
programs in the Office are efficiently run and that the legal and 
technical responsibilities of the Office are met. I would ensure that 
Congress's appropriated funds were properly managed. I have managed the 
staff of the Council of Economic Advisers, a staff of 35 professionals 
at the White House. For the past several years I have managed the 
Washington office of the Manhattan Institute for Policy Research.
    18. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The first challenge is managing the Office of the Assistant 
Secretary and the research portfolio. The second challenge is making 
sure that the quality of the research is as high as possible. This is 
particularly difficult given the rapidly changing technology, such as 
autonomous vehicles and drones. The third challenge is getting the 
private sector involved in rebuilding America's infrastructure.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am currently paid a salary by the Manhattan Institute and I 
receive an annual bonus. The Manhattan Institute contributes to my 
retirement account. I am paid a salary by George Washington University 
for teaching labor economics if I teach a course, although I am not 
teaching at present. I would no longer be employed by the Manhattan 
Institute nor George Washington University if I were to be confirmed. I 
have no deferred compensation or continuing dealings with these 
institutions.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have never been a registered lobbyist. I have no consulting 
clients. I have never accepted funds for taking any positions. I have 
written many columns advocating lower taxes, less regulation, and lower 
government spending in an effort to change our government's policies. I 
wrote a paper for the Advanced Medical Technology Association measuring 
the employment effects of the Medical Device Tax, for which I was paid 
$15,000 in 2009 and $10,000 to update it in 2011.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, orother law enforcement authority ofany Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    Resume of Diana Furchtgott-Roth
Employment
Manhattan Institute for Policy Research, 2009 to present.
Senior Fellow and Director, Economics 21. Manage Manhattan Institute's 
Washington office. Coordinate the Shadow Open Market Committee meetings 
and publications. Write papers, books, articles, and columns on a 
variety of economic issues, including taxation, economic growth, income 
inequality, and labor market regulation.

George Washington University, 2016 to present.
Adjunct Professor. Teach Labor Economics and Public Policy in the 
Applied Economics MA program.

Hudson Institute, 2005-2011.
Senior Fellow and Director, Center for Employment Policy. Wrote papers 
on labor economics, including entrepreneurship, effects of financial 
policies, and education and job training, in the United States and 
overseas. Editor, Overcoming Barriers to Entrepreneurship in the United 
States (Lexington Books, 2008).

U.S. Department of Labor, 2003-2005.
Chief Economist. Pcrformed and directed research on topics of interest 
to the Secretary and senior staff, such as regulatory changes, effects 
of regulation, minimum wage, pe1fsioi1s, health care, immigration, and 
the changing workforce.

Council of Economic Advisers, Executive Office of the President, 2001-
2003.
Chief of Staff; Special Adviser to the Council. Supervised production 
of the Economic Report of the President. Managed 35-person staff for 
the Chairman. Organized economists' representation at meetings within 
the Executive Office of the President and outside agencies and their 
interaction with White House staff.

American Enterprise Institute, 1993-2001.
Resident Fellow; Assistant to the President. Performed research on 
taxation, labor economics, and sex discrimination. Coauthor of two 
books on women in the workforce. Organized seminars and conferences on 
economic and regulatory issues.

The White House, 1991-1993.
Associate Director and Deputy Executive Secretary, Domestic Policy 
Council; Associate Director, Office of Policy Planning. Prepared and 
reviewed domestic policy options for President Bush in the areas of 
deregulation and taxation. Coordinated interagency working groups on 
domestic policy issues.

American Petroleum Institute, 1987-1991.
Economist. Conducted studies, wrote papers, and directed research on 
tax, energy, and environmental issues.

Council of Economic Advisers, Executive Office of the President, 1986-
1987.
Junior Staff Economist. Provided support to the Chairman and Members of 
Council on microeconomic issues including labor, tax policy, and 
regulation.

Policy Economics Group, 1985-1986.
Economist. Analyzed the effects of proposed changes in tax laws on 
various industries including banking, railroad, and trucking.

Booz, Allen and Hamilton Inc., 1983-1984. Senior Consultant.
Books
Disinherited: How Washington is Betraying America's Young, with Jared 
Meyer, Encounter Books, May 2015. Winner of Sir Antony Fisher 
International Memorial Award, Atlas Foundation, 2016.

Regulating to Disaster: How Green Jobs Policies Are Imaging America's 
Economy, Encounter Books, 2012.

Women's Figures: An Illustrated Guide to the Economic Progress of Women 
in America, AEI Press, 2012.

How Obama's Gender Policies Undermine America, Encounter Books, 2010.

Overcoming Barriers to Entrepreneurship in the United States (edited 
volume), Lexington Books, 2008.

The Feminist Dilemma: When Success Is Not Enough, with Christine 
Stolba, AEI Press, 2001.

Women's Figures: An Illustrated Guide to the Economic Progress of Women 
in America, with Christine Stolba, AEI Press and Independent Women's 
Forum, 1999.
Columns
Weekly columnist for MarketWatch.com, 2012-2017.

Monthly columnist for Tax Notes, 2010-2017.

Weekly columnist for Washington Examiner, 2010-2014.

Weekly colunmist for RealClcarMarkets.com, 2009-2015.

Weekly colmnnist for Reuters.com, 2008-2009.

Weekly colunmist for New York Sun, 2006-2009.
Education
M. Phil. in Economics, Oxford University, 1982.

B.A. cum laude in Economics, Swarthmore College, 1979.

    Senator Blunt. Thank you.
    Mr. Martinez.

         STATEMENT OF RAYMOND P. MARTINEZ, NOMINEE FOR

          ADMINISTRATOR, FEDERAL MOTOR CARRIER SAFETY

       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Martinez. Thank you very much, Chairman Blunt, Ranking 
Member Booker, and members of the Committee. Thank you for the 
opportunity to appear before you today as the President's 
nominee for Administrator of the Federal Motor Carrier Safety 
Administration. I am grateful to President Trump and Secretary 
Chao for the opportunity to be nominated to serve in this key 
position. It is integral to improving the safety of our 
Nation's roadways.
    As the former Motor Vehicle Commissioner and Chairman of 
the Governor's Safety Committee in New York State and the 
current Chairman and Chief Administrator of the State of New 
Jersey Motor Vehicle Commission, I have been a partner with 
other State agencies, as well as stakeholders, to advance 
safety on our roadways. I have developed close working 
relationships with both the FMCSA, NHTSA, as well as safety 
advocates, including AAA, the National Safety Council, and 
other national, State, and local safety groups. I believe that 
open communication and collaboration are very important and 
would continue this practice as FMCSA Administrator.
    The FMCSA has jurisdiction over more than 550,000 trucks 
and bus companies and 6 million commercial driver license 
holders who share the road with 250 million other motorists. 
The majority of the FMCSA staff is field-based, about 1,100 
strong. But much of its mission is to encourage State partners 
to join in safety initiatives and to be a force multiplier for 
commercial motor vehicle enforcement.
    In both New York and New Jersey, to ensure that we were 
utilizing the best available data when approaching 
transportation and traffic safety challenges, we also routinely 
engaged with thought leaders at some of the university research 
institutions in our region that continue to do great work in 
the area of traffic safety, including the Institute for Traffic 
Safety Management and Research ITSMR at the State University of 
New York at Albany, the Vorhees Transportation Research Center 
at Rutgers University, the consortium of 19 major universities 
that make up the University Transportation Research Center 
based at the City University of New York, and the 
transportation research program at Princeton University. I have 
found this open dialogue and cross pollination of ideas 
essential to problem solving. Implementation of laws and 
promulgating regulations should be done with the best 
information available and must be viewed by stakeholders as 
reasonable, rational, and fair. If confirmed as FMCSA 
Administrator, I would continue to pursue data-driven policies.
    Each year, the safety landscape on our roadways becomes 
more and more complex and challenging. The tried and true 
approach of applying the three E's of traffic safety: 
engineering, that is, applying the application of new 
technologies; education, meaning the better training and 
testing of those in the truck and bus industry, but also those 
sharing the road with trucks and buses; and enforcement, 
effective enforcement of our existing laws and regulations. As 
an important mode within the Department of Transportation, the 
FMCSA needs to do its part to keep our highways as safe as 
possible and to drive the number of crashes, injuries, and 
fatalities down to zero. Note I say crashes.'' I try not to 
refer to accidents. Crashes are preventable. There is a cause 
or causes, and we have to find them and reduce those causes.
    Early on, my parents instilled in me that citizenship 
carried responsibilities, including civic engagement, and that 
public service was a good and honorable endeavor. Indeed, like 
many here, I have found public service to be a calling. It has 
given me a chance to work with dedicated and knowledgeable 
colleagues in a field that makes a real difference in people's 
lives and has the potential to improve the communities we all 
live in.
    I thank the Committee for your consideration. If confirmed, 
I would look forward to working with you and your staff on our 
mutual goals of highway safety and effective transportation. I 
stand ready to answer any questions that you may have. Thank 
you.
    [The prepared statement and biographical information of Mr. 
Martinez follow:]

 Prepared Statement of Raymond P. Martinez, Nominee for Administrator, 
    Federal Motor Carrier Safety Administration, U.S. Department of 
                             Transportation
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee:
    Thank you for the opportunity to appear before you today as the 
President's nominee for Administrator of the Federal Motor Carrier 
Safety Administration. I am grateful to President Trump and Secretary 
Chao for the opportunity to serve in this key position that is 
integrally involved in improving safety on our Nation's roadways.
    As the former Motor Vehicle Commissioner and Chairman of the 
Governors Traffic Safety Committee in New York State and the current 
Chairman & Chief Administrator of the State of New Jersey Motor Vehicle 
Commission, I have been a partner with other state agencies as well as 
stakeholders to advance safety on our roads. I have developed close 
working relationships with both FMCSA and NHTSA as well as with safety 
advocates, including AAA, the National Safety Council, and MADD. I 
believe that open communication and collaboration are very important 
and would continue this practice as FMCSA administrator.
    Additionally, FMCSA has jurisdiction over more than 550,000 truck 
and bus companies and 6 million commercial driver license holders who 
share the road with 250 million other motorists. The majority of the 
FMCSA staff is field based, and much of its mission is to encourage 
state partners to join in safety initiatives and to be a force 
multiplier for CMV enforcement.
    In both New York and New Jersey, to ensure that we were utilizing 
the best available data when approaching transportation and traffic 
safety challenges, we also routinely engaged with thought leaders at 
some of the university research institutions in our region that 
continue to do great work in the area of traffic safety including the 
Institute for Traffic Safety Management and Research (ITSMR) at the 
State University of New York at Albany, the Vorhees Transportation 
Center at Rutgers University, and the consortium of 19 major 
universities that make up the University Transportation Research Center 
(UTRC) based at the City University of New York. I have found this open 
dialogue and cross pollination of ideas was essential to problem-
solving. Implementation of laws and promulgating regulations should be 
done with the best information available, and must be viewed by 
stakeholders as reasonable, rational and fair. If confirmed as FMCSA 
administrator, I would continue to pursue data-driven policies.
    Each year, the safety landscape on our roadways becomes more and 
more complex and challenging. The tried and true approach of applying 
the three ``E's'' of traffic safety: Engineering applies the 
application of new technologies; Education means better training and 
testing of those in the truck and bus industry and the sharing of 
important safety information for those who share the road with trucks 
and buses; and Enforcement of laws and regulations. As an integral part 
of the Department of Transportation, FMCSA needs to do its part to keep 
our highways as safe as possible and to drive the number of crashes, 
injuries and fatalities down to zero.
    Early on, my parents instilled in me that citizenship carried 
responsibilities, including civic engagement, and that public service 
was a good and honorable endeavor. Indeed, like many, I have found 
public service to be a calling. It has given me a chance to work with 
dedicated colleagues in a field that makes a real difference in 
people's lives and has the potential to improve the communities we all 
live in.
    I thank the Committee for your consideration. If confirmed, I would 
look forward to working with you and your staff on our mutual goals of 
highway safety and effective transportation. I stand ready to answer 
any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):
    Raymond Phillip Martinez.
    2. Position to which nominated: Administrator, Federal Motor 
Carrier Safety Administration, U.S. Department of Transportation.
    3. Date of Nomination: September 29, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: New Jersey Motor Vehicle Commission, 225 East State 
        Street, Trenton, NJ 08666.

    5. Date and Place of Birth: December 9, 1960; Bronx County, New 
York City, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Juris Doctor--1993--St. John's University School of Law
        Baccalaureate--1983--Long Island University/C.W. Post College

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
All post-undergraduate employment

        1/10--Present New Jersey Motor Vehicle Commission--Chairman & 
        Chief Administrator

        12/05-1/09--United States Department of State--Deputy United 
        States Chief of Protocol

        12/00-12/05--New York State Department of Motor Vehicles 
        Commissioner/Chairman Governors Traffic Safety Committee--State 
        Highway Safety Representative

        2/99-12/00--Long Island Power Authority--Assistant General 
        Counsel

        7/97-1/99--New York State Attorney General's Oflice--Deputy 
        Chief of Staff & Special Counsel

        1/94-7/97--Davidoff & Mali, LLP--Associate Attorney

        2/92-6/93 Queens County District Attorney's Office--Criminal 
        Court Bureau Legal Assistant

        6/89-3/90--Citicorp/Citibank--Assistant Vice President for 
        Protocol & Special Events

        9/86-2/89--The White House--Deputy Director for Scheduling & 
        Advance for the First Lady

        3/85-9/86--U.S. Department of Housing & Urban Development, 
        Region II--Special Assistant

        12/82-2/85--New York State Senate, 6th Senatorial District--
        Legislative Aide to Senator
Current and Past employment related to position to which I have been 
        nominated

        Chairman & Chief Administrator--New Jersey Motor Vehicle 
        Commission

        Commissioner New York State Department of Motor Vehicles/Chair 
        Governors Traffic Safety Committee--State Highway Safety 
        Representative

        New York State Attorney General's Office--Deputy Chief of Staff 
        & Special Counsel

        New York State Senate--Legislative Aide

    9. Attach a copy of your resume. Resume attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal. State, or local governments, other 
than those listed above, within the last ten years.
    As Chairman & Chief Administrator of the New Jersey Motor Vehicle 
Commission I serve as a Member of the Executive Board of the Federal 
Bureau of Investigation, Joint Terrorism Task Force for New Jersey.
    As Chairman & Chief Administrator of the New Jersey Motor Vehicle 
Commission I serve as the Governors appointee on the New Jersey State 
Planning Commission.
    Both of these positions are uncompensated. If confirmed. I will 
resign from both positions.
    11. List all positions held as an officer, director. trustee, 
partner. proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership. or other business. enterprise, 
educational, or other institution within the last ten years.
    None/Not Applicable.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex. race, color, religion, 
national origin, age, or handicap.
    Member of the Board of Directors of the American Association of 
Motor Vehicle Administrators (AAMVA). I serve on this Board by virtue 
of my position as the Chief Motor Vehicle Administrator for the State 
of New Jersey. This organization has no membership restrictions based 
upon sex, race, color, religion, national origin, age or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for public office or incurred 
campaign related debt. I currently serve as Chairman & Chief 
Administrator of the New Jersey Motor Vehicle Commission, a state 
cabinet level position which requires nomination by the Governor and 
confirmation by the State Senate.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have not held office with or rendered services to any state or 
national political party or election committee in the past ten years.
    My contributions to individuals. campaign organizations, political 
parties, political action committees or similar entities of $500.00 or 
more in the last ten years are as follows:

        5/22/2009--$500. To the Republican Campaign Committee of New 
        York

        10/04/2011--$1,000. To State Senator Joe Kyrillos, N.J. 13th 
        Legislative District

        10/25/2012--$500. To Mitt Romney Presidential Campaign

        2/11/2013--$1,000. To Chris Christie, 2013 Governor Primary 
        Campaign

        6/28/2013--$500. To Christopher J. Christie 2013 Governor 
        General Campaign

    15. List all scholarships, fellowships. honorary degrees. honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Summer 2005--American Association of Motor Vehicle 
        Administrators (AAMVA) Fellowship to the John F. Kennedy School 
        of Government/Harvard University, Program for Senior Executives 
        in State & Local Government
        2005--New York State Bar Association and the Committee on 
        Volunteer Lawyers--Award for Leadership

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Presenter--Princeton University Smart Driving Vehicle Summit

        Presenter--New Jersey Association of Chiefs of Police

        Presenter--New Jersey Traffic Officers Association

        Presenter--Constitutional Officers Association of New Jersey

        Presenter--International Association of Transportation 
        Regulators

        Presenter--City University of New York--Urban Transportation 
        Research Center

        Presenter--NYU--Connected & Autonomous Vehicles Symposium

        Presenter--Connect:ID, Identification Security Conference

    All of these speeches have been given in my official capacity as 
Chairman & Chief Administrator of the New Jersey Motor Vehicle 
Commission and I have received no additional compensation for their 
presentation.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have not testified orally or in writing before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The mission of the FMCSA is to reduce crashes, injuries and 
fatalities involving large trucks and buses. As Chairman and Chief 
Administrator of the New Jersey Motor Vehicle Commission, an 
organization of 2,300 employees located throughout the state, I believe 
I am qualified to lead the FMCSA. I am eager to assist the FMCSA focus 
on its mandate by developing and enforcing data driven regulations that 
enhance safety, with a particular focus on higher risk carriers; 
ensuring proper attention and resources are dedicated to enforcement; 
targeting educational messages and information to carriers, commercial 
drivers, and the public; and partnering with stakeholders including 
Federal, State. and local enforcement agencies, the motor carrier 
industry, safety groups, and organized labor on efforts to reduce bus 
and truck related crashes.
    Similarly, as Commissioner of the New York Department of Motor 
Vehicles and Chairman of the Governors Traffic Safety Commission, I 
coordinated statewide traffic safety activities and promoted the 
state's highway safety program to provide for the safe transportation 
of people and goods on the roadways throughout the state. I managed the 
state highway safety pro, ram by reviewing and monitoring grant 
programs, coordinating special programs throughout the state and 
providing guidance and oversight to state and local agencies. I believe 
this experience will enable me to be an effective partner with other 
modal administrations at DOT to improve safety.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls. and what experience do you have in managing a large 
organization?
    I have experience in leading large public agencies and agree that 
accountability is critically important .If confirmed, I would expect to 
be charged with the responsibility of establishing or maintaining 
processes and procedures that would generally provide the Secretary and 
Congress continued assurance that:

        FMCSA data and information is accurate, reliable, complete and 
        timely: the actions of FMCSA personnel are at all times in 
        compliance with all applicable Jaw, regulation, policies, 
        standards and procedures; FMSCA employees are effectively 
        deployed, engaged, and encouraged in accomplishing the mission; 
        and that FMCSA is a good, honest steward of public resources.

    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  Safety must remain the FMCSA top priority. Emerging technologies 
        like highly automated or self-driving vehicles, especially 
        large trucks, provide potential for great improvement in 
        highway safety as well as operational efficiencies for industry 
        stakeholders. However, these same emerging technologies and 
        related safety concerns and enforcement issues also pose 
        challenges to the FMCSA regulatory and oversight role and its 
        safety mission. The FMCSA must ensure appropriate, balanced 
        regulation and seamless integration of any new and developing 
        technologies into the existing highway safety landscape without 
        hindering innovation.

  2.  The FMCSA is increasingly dependent upon its IT infrastructure 
        and the use of outside vendors in order to accomplish is core 
        safety mission. Safeguarding this infrastructure by employing 
        stringent management and strong risk mitigation will help to 
        ensure the security, stability and sustainability of its data 
        management and communications capability.

  3.  The FMCSA must continue to expand and enhance its relationship 
        with its transportation safety partners at every level of 
        government as well as with those stakeholders in the private 
        sector. Highway traffic safety, especially in relation to the 
        truck and motorcoach sectors, requires extensive and continued 
        cooperation between all of these entities. Effective regulation 
        and continued improvement of safety in this area can only be 
        achieved by leveraging current. valid and verifiable data from 
        all of these sources in order to identify areas of risk and 
        focus enforcement efforts more efficiently on those identified 
        areas.
                   b. potential conflicts of interest
    A. Describe all financial arrangements, deferred compensation 
agreements. and other continuing dealings with business associates, 
clients. or customers. Please include information related to retirement 
accounts.
    I currently receive a salary from the State of New Jersey for my 
position as Chairman & Chief Administrator of the State Motor Vehicle 
Commission. If confirmed, I will resign from my salaried position as 
Chairman & Chief Administrator of the State Motor Vehicle Commission.
    My retirement accounts include in total, state retirement accounts 
from New York and New Jersey:

        A New York State Deferred Compensation Plan [a 457 Plan]. 
        Neither my former employer nor I, currently or in the future, 
        will make contributions to this plan.

        A New Jersey Defined Contribution Retirement Plan [a 401(a) 
        Plan] and a New Jersey State Employees Deferred Compensation [a 
        457 Plan]. If confirmed. neither I nor my current employer will 
        make any further contributions to the plans.

        I also have a Thrift Savings Plan Account from my previous 
        Federal service. If confirmed, I will retain my TSP account.

    I have no other financial arrangements or agreements that would 
involve continuing dealings with current associates, clients, or 
customers.
    1. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment') If so, 
please explain.
    No.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
(DOT) Designated Agency Ethics Official to identify potential conflicts 
of interest. Any potential conflicts of interest will be resolved with 
the terms of an ethics agreement that I have entered into with DOT's 
Designated Agency Ethics Official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved with the 
terms of an ethics agreement that I have entered into with DOT's 
Designated Agency Ethics Official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I serve as the Chairman & Chief Administrator of the New Jersey 
Motor Vehicle Commission (NJMVC). In that capacity, I and the Motor 
Vehicle Commission are asked by both the Governor and the Legislature 
to assess the impact of proposed legislation that is in any way related 
to the NJMVC. In any given legislative session dozens of bills are 
submitted that require review and submission of comments through the 
Legislative Liaison in the NJMVC Office of Legislative and Regulatory 
Affairs.
    On an annual basis, I testify before both the State Assembly and 
the State Senate Budget Committees.
    I have also testified before the State Senate and State Assembly 
Transportation Committees on matters related to the Motor Vehicle 
Commission.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved with the 
terms of an ethics agreement that I have entered into with DOT's 
Designated Agency Ethics Official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct. or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee. or other 
professional group? If yes:

  a.  Provide the name of agency. association. committee. or group:

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint. or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so. please explain.

        Yes--DUI 8/89, Nassau County, New York
        Yes--DUI 9/87, Fairfax County, Virginia

    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    No. I have not been a party to civil litigation, administrative 
agency proceedings, or criminal proceedings, except as described in 
response to Question 4 below. The public agencies of which I have been 
an officer have on occasion been parties to litigation, but none of 
those litigation matters has concerned activities involving me 
personally.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.

        Yes--DUI 8/89, Nassau County, New York (Same as above)
        Yes--DUI 9/87, Fairfax County, Virginia (Same as above)

    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so. please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable. which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the extent reasonable and feasible.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the extent consistent with legal and customary 
requirements.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resume of Raymond P. Martinez
Experience
January 2010-Present
New Jersey Motor Vehicle: Commission--Trenton, NJ
Chairman & Chief Administrator
Nominated by the Governor to serve in his Cabinet and confirmed by the 
State Senate. Chief Executive of a public agency with 2,500 employees 
located at 70 locations throughout the state handling over 25 million 
customer contacts annually. Advisor to the Governor and the Legislature 
on all areas of motor vehicle transportation and traffic safety. Serve 
as the Chairman of the MC Board, a regulatory policy making body made 
up of government and public members. Interact daily with local, state 
and federal government officials. Responsible for the development of 
the agency legislative and regulatory agenda and all project 
prioritization. Oversee an operating budget of 330 million dollars and 
an annual revenue stream of over 1 billion dollars. Spokesperson on 
motor vehicle traffic safety issues via legislative testimony, news 
media and public service announcements. Board Member of the New Jersey 
State Planning Commission representing the state in oversight of land 
use, environmental protection issues, transportation planning and 
development. Executive Board Member--U.S. Department of Justice/FBI, 
Joint Terrorism Task Force for New Jersey (JTTF). Federal clearance 
level: DOJ/Secret.

December 2005-January 2009
United States Department of State & The White House--Washington, DC
Deputy Chief of Protocol of the United States
Managed five operational divisions: Diplomatic Affairs; Foreign Visits; 
Ceremonial Events; Blair House; and Administration. Accompanied the 
President on official visits abroad. Oversaw U.S. delegations appointed 
by the President and traveled with them overseas for meetings. with 
foreign leaders. Served as the President's liaison to 186 foreign 
Ambassadors in Washington. Coordinated the visits of foreign heads of 
state and coordinated meetings with members of congress, cabinet 
officials and the President. Served as counsel on diplomatic immunity 
issues pursuant to U.S. and international law. Managed a staff of 70 
and an annual budget of 8 million. Acted as spokesman for all media 
issues. Responsible for all operational matters including human 
resources, legal, budget. intergovernmental relations and public 
affairs. Served on U.S. Government missions to over 70 countries. 
Federal clearance level: White House/State Department--Top Secret/SCI.

December 2000-December 2005
New York State Department of Motor Vehicles--Albany, NY
Commissioner
Nominated by Governor George Pataki to serve in his Cabinet and 
confirmed by the State Senate Chief Executive of a state agency that 
served more than 20 million customers per year and generated over $1 
billion in annual revenues. Oversaw network of 129 offices statewide, 
including Administrative Law Judges, Legal Department and a State 
Investigators unit. Responsible for annual budget of over 350 million 
dollars. Served Chairman of the Governor's Traffic Safety Committee, 
administering over 50 million dollars annually in federal funds for 
state and local highway safety projects. Interacted daily with local, 
state and Federal officials. Developed Department legislative and 
regulatory agenda, project prioritization and budget. State 
spokesperson on traffic safety issues via legislative testimony, news 
media and public service announcements.

February 1999-December 2000
Long Island Power Authority--Uniondale, NY
Assistant General Counsel
Handled legal matters for large public utility. Supervised work of 
numerous outside legal counsel. Prepared briefings for the Chairman and 
General Counsel. Regular interaction with local, state and Federal 
officials.

July 1997-January 1999
New York State Attorney General's Office--New York & Albany, NY
Deputy Chief of Staff and Special Counsel
Reported to the Attorney General on wide variety of sensitive projects, 
interacted daily with elected officials, advocates, business groups and 
attorneys on legislative and case related matters. Supervised legal 
aspects of responses to the media, other government officials and the 
public.

January 1994-July 1997
Davidoff & Mali, LLP--Albany, NY
Associate Attorney
Handled legal assignments in the areas of government relations, 
legislation, administrative and municipal law.

March 1992-June 1993
Office of the Queens County District Attorney--Queens, NY
Criminal Court Bureau Legal Assistant (while attending law school)
Appeared in court for daily calendar and hearings. Reviewed motions and 
prepared responses. Assisted Bureau Chief in organizing case materials 
for homicide trial.

June 1989-March 1990
Citicorp/Citibank, Corporate Headquarters--New York, NY
Assistant Vice-President for Protocol & Special Events
Handled program development and event management for the Chairman and 
Board of Directors.

Sept 1986-Feb. 1989
The Whitehouse--Washington, DC
Deputy Director for Scheduling & Advance for the First Lady
Planned public events for the President and First Lady. Prepared 
detailed schedules and briefings. Traveled extensively throughout the 
U.S. and abroad. Federal Clearance Level: White House--Top Secret/SCI.

March 1985-Sept. 1986
United States Department of Housing & Urban Development--New York, NY
Special Assistant to the Regional Administrator for Region II
(New York, New Jersey, Puerto Rico, and the Virgin Islands)
Handled projects involving regional policy issues. Served as liaison to 
government officials, business and citizens groups within the region.

Dec. 1982-Feb. 1985
New York State Senate--Albany & Garden City, NY
Legislative Aide to Senator John R. Dunne
Principal community relations assistant. Prepared reports on developing 
public policy issues and represented senator at public hearings, 
business and community group meetings throughout the district and the 
region.
Education & Training
St. John's University School of Law--Jamaica, NY
Juris Doctor--Admitted to practice in New York State in February 1994

Long Island University/C.W. Post College--Greenvaley NY
B.A. in Political Science--June 1983

Summer 2005 Fellow
John F. Kennedy School of Government/Harvard University--Cambridge, MA
Program for Senior Executives in State & Local Government
Teaching & Independent Consulting

2010-Present              Presenter--New Jersey Association of Chiefs of
                           Police
                          Presenter--New Jersey Traffic Officers
                           Association
                          Presenter--Constitutional Officers Association
                           of New Jersey
                          Presenter--International Association of
                           Transportation Regulators
                          Presenter--CUNY--Urban Transportation Research
                           Center
2005-2009                 Presenter--National Association of State
                           Secretaries of State
                          Presenter--Washington, D.C. Consular Corps
                          Presenter--U.S. House of Representatives
                           retreat
2000-2005                 Presenter--United States Secret Service
                           Electronic Crimes Task Force
                          Presenter--New York Prosecutors Training
                           Institute
                          DPresenter--New York State Sheriffs
                           Association
                          Presenter--New York State Association of
                           Chiefs of Police
1994-1997                 Adjunct Faculty--Long Island University/C.W.
                           Post College, Greenvale, N.Y.
                          School of Public Administration
 

Professional Associations

2015                      International Board, American Association of
                           Motor Vehicle Administrators (AAMVA)--
                           Representing the State of New Jersey
2004-2005                 International Board, American Association of
                           Motor Vehicle Administrators (AAMVA)--
                           Representing the State of New York
2005                      President, AAMYA--Region I (Mid-Atlantic and
                           New England states & Northeast Canadian
                           Provinces) Worked with counterpart
                           commissioners and other jurisdiction
                           officials throughout the northeast region of
                           the United States and Canada.
2008                      St. John's University School of Law--
                           Distinguished Alumni in Government Service
 


    Senator Blunt. Thank you, Mr. Martinez.
    Mr. Landsberg.

STATEMENT OF BRUCE S. LANDSBERG, TO BE A MEMBER OF THE NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Landsberg. Thank you, Chairman Blunt, Ranking Member 
Booker, and distinguished Members of the Committee. I am 
honored to appear before you today as you consider my 
nomination as a member of the National Transportation Safety 
Board. And I am grateful to President Trump for the confidence 
he has placed in me in making this nomination.
    I am joined today by my son Matthew who is here to observe 
the proceedings.
    My entire working career has been devoted to safety, either 
directly or indirectly. As a young Air Force officer assigned 
to nuclear weapons, safety was paramount. As a flight 
instructor, my job was not only to keep the training aircraft 
safe but to impart safety knowledge to my students.
    Although I flew both light and corporate turbine aircraft 
during my tenure here, that was never my primary 
responsibility. For the last 33 years, my employers have had 
the word ``safety'' in the organization name. For 22 years, I 
was the Executive Director and President of the AOPA Foundation 
and the Air Safety Institute. The mission was to promote safety 
for all pilots with an emphasis on business and personal flight 
operations where ongoing effort is placed to improve their 
safety record.
    I have served on many government committees, including 
NASA's Aviation Safety Committee and the National Weather 
Service's Modernization Transition Committee, as the aviation 
representative. For the FAA, I served on the Research, 
Engineering and Development Advisory Committee and was the 
Industry Co-Chair on runway incursions, which remains an 
ongoing challenge. My longest and most recent committee 
assignment was as the Industry Co-Chair of the Joint Aviation 
Steering Committee, which is similar to the Commercial Airline 
Safety Team.
    As industry co-chair, I spent 14 years working 
collaboratively with FAA, NTSB, and many industry groups to 
identify the primary sources of fatal accidents and address 
them. We made many recommendations, and I am pleased to say 
that there has been a significant reduction in the general 
aviation fatal accident rate. There is still more to be done.
    If confirmed, there are several areas that I believe would 
be beneficial for the NTSB to address.
    Automation implementation across all modes, surface, 
airborne, and marine. The engineering and human factors 
challenges are significant and urgent.
    The integration of drones, or unmanned aerial systems, into 
airspace to prevent collisions with manned aircraft.
    And finally, the continuing and ongoing emphasis on human 
factors across all modes.
    There is a fine balance between appropriate and essential 
regulation for the protection of life and practical 
recommendations that allow as much freedom and innovation 
consistent with safety. By learning from past tragedies across 
all modes, there is great opportunity. As accidents become 
fewer and data collection improves, looking for precursors to 
high-risk operations and situations becomes the next frontier. 
Data leads the way, but safety first, always.
    If confirmed, it would be my honor to serve. I look forward 
to working collaboratively with my fellow board members, the 
NTSB staff, and this Committee to enhance transportation safety 
for all modes for the benefit of all.
    Thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement and biographical information of Mr. 
Landsberg follow:]

   Prepared Statement of Bruce S. Landsberg Nominee to be a Member, 
                  National Transportation Safety Board
    Thank you, Chairman Thune, Ranking Member Nelson, and distinguished 
Members of the Committee. I am honored to appear before you today as 
you consider my nomination as a Member of the National Transportation 
Safety Board (NTSB). I am grateful to President Trump for the 
confidence he has placed in me to make this nomination.
    My entire working career has been devoted to safety, either 
directly or indirectly. As a young Air Force Officer, assigned to 
nuclear weapons, safety was paramount. As a flight instructor, my job 
was not only to keep the training aircraft safe but to impart safety 
knowledge to my students.
    Although I flew both light and turbine corporate aircraft, that was 
never my primary responsibility. For the last 33 years my employers 
have had the word ``Safety'' in the organization name. For 22 years I 
was executive director and president of the AOPA Foundation and Air 
Safety Institute. The mission was to promote safety for all pilots with 
emphasis on business and personal flight operations where ongoing 
effort is placed to improve the safety record.
    I have served on many government committees, including NASA's 
Aviation Safety Committee and National Weather Service Modernization 
Transition Committee as aviation representative. For the FAA, I served 
on the Research, Engineering and Development Advisory committee and was 
Industry Co-Chair for Runway Incursions, which remains an ongoing 
challenge. My longest and most recent committee assignment was Industry 
Co-Chair for the General Aviation Joint Steering Committee--similar to 
the Commercial Airline Safety Team.
    As Industry Co-Chair, I spent 14 years working collaboratively with 
FAA, NTSB and many industry groups to identify the primary sources 
fatal accidents and address them. We made many recommendations and I'm 
pleased to say that there has been a significant reduction in the 
General Aviation fatal accident rate. There is still more to be done.
    If confirmed, there are several areas that I believe would be 
beneficial for the NTSB to address:

  1.  Automation implementation across all modes, surface, airborne and 
        marine. The engineering and human factors challenges are 
        significant and urgent.

  2.  The integration of drones, or UAS, into the airspace to prevent 
        collisions with manned aircraft.

  3.  The continuing and ongoing emphasis on human factors across all 
        modes.

    There is a fine balance between appropriate and essential 
regulation for the protection of life and practical recommendations 
that allow as much freedom and innovation consistent with safety. By 
learning from past tragedies across all modes there is great 
opportunity. As accidents become fewer and data collection improves, 
looking for precursors to high-risk situations becomes the next 
frontier. Data leads the way. Safety comes first, always!
    If confirmed, it would be my honor to serve. I look forward to 
working collaboratively with my fellow Board Members, the NTSB staff 
and this committee to enhance transportation safety across all modes 
for the benefit of all.
    Thank you for the opportunity to be here. I look forward to 
answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames: Bruce S. Landsberg.
    2. Position to which nominated: NTSB--Board Member, Vice Chair.
    3. Date of Nomination: September 29, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not provided to the public.
        Office: Information not provided.

    5. Date and Place of Birth: July 15, 1949; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse--Janet D. Landsberg; Son--Matthew E. Landsberg; Son--
        Neil C. Landsberg (Deceased)

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A. Psychology, 1971, University of Maryland
        M.A. Industrial Technology, 1976, University of Maryland

    8. List all post-undergraduate employment and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1973-1976: Beacon Flying Service, Assistant Chief Flight 
        Instructor

        1977-1980: Cessna Aircraft Company, Manager Air Age Education

        1981: American Airlines Training Corporation Instructor

        1981-1992: Product Marketing Manager Flight Safety 
        International

        1992-2014: A Foundation & Air Safety Institute, Executive 
        Director/President

        2015-2016: AOPA Air Safety Institute, Senior Safety Advisor

    9. Attach a copy of your resume. Attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

        2001-2015: FAA--General Aviation Joint Steering Committee--
        Industry Chair
        2001-2010 (dates approximate) NASA Aviation Safety Reporting 
        System Committee--Member

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Aviation Accreditation Board International (A)--Board member, 
safety committee member (approximate) 2009-2014
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Coalition to End Veteran Suicide: 2014-2017, charitable group--
        No restriction
        East Cooper Pilots Association Member: 2015-Present--No 
        restriction

    13. Have you ever been a candidate tor and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more tor the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Aero Club of New England--Presidents Award
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position tor which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Making presentations was an integral part of my position with the 
Air Safety Institute with hundred of programs over the past 22 years. 
Subject was general aviation safety, pilot techniques, accident reviews 
and procedure. Speeches were almost entirely to pilot groups and 
occasionally to aviation associations. Did not use notes or keep 
records.

        2016 Speeches: NTSB Panelist--Pilot Report Forum--DC

        Annual Speeches--given to these same groups every year 
        Aero Club of New England--Crash Course--Boston, MA--March
        NATCA--Communicating for Safety--Las Vegas, March
        Sun-N-Fun--Lakeland, FL--April
        EAA Air Venture--Oshkosh, WI--July

Articles and Columns

    My position at AOPA entailed considerable writing including monthly 
magazine columns. Topics address aviation safety, pilot procedures and 
techniques.
    Articles--Below is a brief listing of recent writings. Many more 
can be found at www.aopa.org/news-and-medialartic/es-by-author/bruce-
landsberg

AOPA Pilot Magazine

        Margins to live by--August 2017--Pilots who successfully push 
        the envelope at larger airports sometimes find difficulty at 
        the bucolic grass strips where many go to vacation.

        Sideways Slide--June 2017--Crosswinds affect all aircraft, big 
        and small. This ``Landmark Accident'' illustrates that previous 
        experience and training doesn't always serve us well.

        Vertical Thinking--February 2017--Controlled flight into 
        terrain (CFIT) is the third leading cause of fatal accidents in 
        general aviation, according to the FAA.

        Only using the Hammer to Train--December 2016--There's a 
        consensus that much of the flight training system is broken, 
        and has been for decades.

        Flameout--December 2016--Distraction is present in one form or 
        another in almost every accident scenario, and the priorities 
        have to be clear as to what gets resolved first.

        Soft Field, Soft Thinking--Sept 2016--When is a pilot-in-
        command not responsible for a takeoff gone wrong? What is the 
        role of regulation and common sense?

        Weather Wolves and Crowdsourcing--May 2016--Have you ever been 
        told that VFR was not recommended, or that there was moderate 
        turbulence ahead, or icing--and nothing bad happened? Ever 
        expected to have an easy flight, and all of those things 
        happened?

        Nobody's Flying Today--April 2016--It was a little more than 
        three years ago when a Mooney pilot decided to challenge a big 
        wind in New Mexico.

        Hosed--December 2015--Love the smell of jet fuel in the 
        morning? You'd better be flying a turbine or a diesel aircraft, 
        because Jet A in a conventional aircraft piston engine will 
        cause a lot of trouble.

        The Annual Brush-up--November 2015--Feeling a bit rusty? Or, 
        perhaps you're the self proclaimed ace of the base. How about 
        an honest second opinion?

        Watch That Basket--October 2015--One of the challenges pilots 
        face in powered flight is what to do when the flight becomes 
        unpowered. Clyde Cessna noted nearly a century ago that, ``If 
        the engine stops for any reason, you are due to tumble, and 
        that's all there is to it!''

        Distracting Distractions--August 2015--The NTSB looks at the 
        annual carnage that occurs in all modes of transport to 
        determine its top 1O list of things not to do.

        Trust But Verify--July 2015--The quote, ``First, do no harm''--
        often attributed, erroneously, to the Hippocratic Oath--does 
        have application to aircraft mechanics.

        Aviate First--June 2015--The late comedian, George Carlin, 
        offered solid advice to, ``Always do what is next.'' We 
        aviators usually hear it as ``Aviate, navigate, communicate.''

        Losing it--May 2015--It's always a bad thing when we lose it--
        whatever ``it'' may be. In flying, loss of control (LOG) might 
        lead to the ultimate calamity-the loss of life. The NTSB put 
        LOC on its top-10 list for 2015.

        Wild Wings on Takeoffs--February 2015--The Lancair IV-PT is one 
        of the highest performance kit-built aircraft ever conceived. 
        While the pilot had considerable experience in high-performance 
        jets, including vintage fighters, he had received no 
        instruction in this amateur built speedster.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Industry Co-Chair, FAA Runway Incursion Subcommittee of FAA 
Research, Engineering & Development Advisory Committee--November 13, 
1997 http://comm
docs.house.gov/committees/Trans/hpw105-47.000/hpw105-47_Of.htm
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As an active pilot and flight instructor for over 45 years, I've 
had an abiding interest in safety, participating in both corporate and 
personal aviation. My career has been dedicated to improving pilot 
education and training, involving both turbine and light aircraft. My 
most recent career position, which I held for over two decades, 
addressed the challenges of the largest and most diverse group of 
flight operations to improve their safety record, ranging from turbine 
business aircraft to the lightest of training aircraft.
    All channels were employed (live seminars, online Weimar and 
courses, video, direct mail and publications) much like NTSB. While 
considerable safety improvement has been made, there is still much to 
be done in all modes.
    The NTSB's enabling legislation directs it to conduct independent, 
unbiased investigation of accidents across all modes of transportation. 
There can be no higher calling than to preserve life. It would be a 
great honor to serve our Nation and its citizens in this capacity.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My role will be to support the Chairman and Managing Director to 
insure proper setting of priorities with commensurate investment and 
oversight to prevent waste and overspending.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  Assessing effects of automation across all modes and making 
        safety recommendations.

  2.  The pros and cons of drones, or UAS, should be understood and 
        appropriate recommendations made to allow greatest possible use 
        without creating unacceptable risk to the public.

  3.  Continuing to expand understanding of human factors across modes, 
        including complacency, distraction and fatigue.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

  <bullet> AOPA, deferred compensation 457(b) plan--estimated final 
        cash payment to be received in January 2018, (AOPA has no 
        control over this item.)

  <bullet> FlightSafety International, defined benefit plan pension-
        retirement payments received monthly--annuity via Mass Mutual 
        Life Insurance. (FlightSafety has no control over this item.)

  <bullet> AOPA Defined Benefit Plan: Metropolitan Life Insurance Fixed 
        Annuity--value not ascertainable--have not started annuity. 
        (AOPA has no control over this item.)

    More detail provided in Section E--Financial Data
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    There are no conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense. If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Civil litigation, DC Superior Court, 2014CA80, settled July 2016, 
Medical Malpractice.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
another basis? No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Bruce Landsberg
Experienced aviation safety executive with broad industry background 
and extensive volunteer government service seeks appointment to the 
National Transportation Safety Board (NTSB).
Employment History
All positions required technical expertise, integrity, ability to 
collaborate with others to accomplish complex tasks and programs, 
creativity and persistence to achieve goals. With exception of USAF, 
positions involved corporate flight operations, accident analysis, 
safety promotion and management perspective.

Aircraft Owners and Pilot Association (AOPA) Air Safety Institute/AOPA 
Foundation--Executive Director/President, 1992-2014--Developed and 
expanded general aviation safety education programs including a 
national live seminar program working in conjunction with FAA, managed 
development of more than three dozen online training courses and 
accident review case studies, developed national general aviation (GA) 
accident database to provide pilots, industry and government free 
universal access and published a nationally recognized annual report 
(Joseph T. Nall Report) to specifically track accidents and analyze 
general aviation safety trends for accident reduction purposes. 
Considerable interaction with National Transportation Safety Board.

FlightSafety International--Product Marketing Manager, 1981-1992 
Created marketing programs for general aviation pilots of turbine and 
high performance multiehgine piston aircraft promoting initial and 
recurrent simulator training, developed an airline transition training 
program for new regional airline pilots, new business development, 
insurance company liaison.

Cessna Aircraft Company--Manager, Aviation Education Department, 1977-
1980--Assisted colleges and universities integrate aviation operations 
into their curriculum. Developed fleet sales program adjudication 
programs/workshops to provide guidance to educational institutions.

U.S. Air Force--Missile Launch Officer 1971-1977, Nuclear ICBMs 
(Minuteman II/III), Required high level of safety awareness and 
procedural discipline, Top Secret Cryptographic clearance, includes 
reserve duty.
Aviation QuaIifications
Current aircraft owner and active pilot, Airline Transport Pilot, 
Flight Instructor, Ground Instructor Flight Experience: 6,200+ hours, 
3,000+ hours flight instruction.
Committees and Working Groups
Provided service over 35 years to industry and government in support of 
aviation safety, training, and accident prevention.

Aviation Accreditation Board International (AABI)--2010-2014, Board 
Member, Safety Committee member--provided general guidance regarding 
aviation flight operations and accreditation to collegiate aviation 
programs.

FAA Research, Engineering and Development Committee member--1994-1998, 
served as general aviation representative to assist FAA in choosing 
appropriate programs for future investment.

FAA Runway Safety Program Industry Co-Chair--1997 (est), developed 
recommendations for FAA Flight Standards, Airports, Air Traffic Control 
and industry on how to reduce runway incursions. Key guidance reduced 
ambiguity of ATC clearances and improved ground signage.

FAA General Aviation Joint Steering Committee (GAJSC) Industry Co-
chair--2000-2014, in leadership position, collaborating with FAA and 
industry on improving General Aviation safety--successful in exceeding 
10 year goal of reducing GA fatal accidents by ten percent.

FAA Accident Prevention Counselor--1975-1977, served as FAA safety 
representative to small DC area GA airport (W32).

General Aviation Manufacturers Assn Transition Training Committee 
Chair--1988 (est.), One year lead of an industry team to develop a 
standard syllabus for transition into more complex aircraft.

NASA--Aviation Safety Reporting System/ASRS) Advisory Committee 
member--1998-2006, Develop implementation plan for current and future 
aviation safety needs and Federal Aviation Administration requirements.

NASA Advanced General Aviation Transportation Experiment (AGATE) 
member--1996-2001, provided industry perspective and assistance in 
helping to design weather in the cockpit and other aspects of modern 
aircraft, including Cirrus Design SR20/SR22, highway in the sky 
avionics.

National Weather Service--Modernization Transition Committee, aviation 
representative--1994-1999, assisted NWS in executing congressional 
oversight on consolidation of hundreds of forecast offices with no 
degradation of service to either aviation entities or the general 
public.
Publications & Education Outreach
Monthly safety columnist and feature writer for AOPA Pilot & Flying 
Magazine--Safety, training articles and accident reviews. (AOPA Safety 
Pilot, Landmark Accidents, AOPA Leading edge blog)--Several hundred 
articles. Provided editorial guidance for video and online courses.

Keynote speaker and seminar presenter--major air-shows, domestic and 
international conferences, aviation events, various aircraft owner 
groups, colleges and university safety events.
Education
University of Maryland--BA, Psychology, English, AFROTC

University of Maryland--MA, Industrial Technology--[Thesis: comparison 
of safety and effectiveness using various pilot training protocols--
published Flying Magazine].

    Senator Blunt. Well, thank you, Mr. Landsberg.
    And we will start a series of 5-minute rounds of questions 
with Senator Booker and I and then others in the order that 
they have come to the hearing today.
    I know that all of you have had substantial public service 
before, and we appreciate that. I also know that you each would 
have reasons to appreciate the importance of cooperation 
between the Executive Branch and the Congress. However, having 
a hearing gives us a chance to put you on the record to be sure 
that that is a commitment that you are making.
    And so the question to each of you is, if confirmed, will 
you pledge to work collaboratively with this Committee and its 
Members and to provide thorough and timely responses to our 
requests for information? This is a yes or no question, and 
only a no will solicit a follow-up. So Congressman 
Westmoreland?
    Mr. Westmoreland. Yes, sir.
    Senator Blunt. Ms. Furchtgott-Roth?
    Ms. Furchtgott-Roth. Yes.
    Senator Blunt. Mr. Martinez?
    Mr. Martinez. Yes, Chairman.
    Senator Blunt. Mr. Landsberg?
    Mr. Martinez. Absolutely, Chairman.
    Senator Blunt. Well, then let us start with questions.
    Mr. Martinez, you had a substantial job dealing with motor 
vehicles, and you mentioned the 250 million people that are on 
the road that are not commercially on the road. Your experience 
has been pretty much on the non-commercial side up till now. 
Just a brief sense of how you think that has helped you get 
ready for now regulating this important commercial industry and 
the drivers in the industry?
    Mr. Martinez. Certainly. In the two previous positions as 
the Motor Vehicle Commissioner in New Jersey and the Motor 
Vehicle Commissioner and Traffic Safety Chief in New York 
State, it gives you the broad view of the traffic safety 
landscape in both of those jurisdictions. Obviously, we license 
commercial driver license holders and have to suspend some of 
them when they run afoul.
    Certainly when it comes to truck safety and bus safety, in 
New Jersey--it is set up differently in many different states, 
but in New Jersey, we do the inspection of commercial buses. 
The Motor Vehicle Department does that. So we have involvement 
in that aspect of it.
    But I understand that this is a very complex area, and I 
would look forward to working with all of our stakeholders.
    Senator Blunt. Thank you.
    Ms. Furchtgott-Roth, I think the job you have been 
nominated for is a relatively new job looking at research 
across the Transportation Department. And your sense of how you 
deal with that intermodally, how you look at all aspects of 
transportation and be sure that the research that needs to be 
done for all of those aspects of transportation is being done. 
Just a brief sense of your thoughts on that up till now?
    Ms. Furchtgott-Roth. My priority would be working with 
Secretary Chao and with all of you on research that can inform 
policy proposals and policy decisions. I see very important 
areas in autonomous vehicles safety, effect on the workforce, 
funding highways, cybersecurity. So I would hope to be able to 
work closely with all of you.
    Senator Blunt. We appreciate that. And I think there will 
be some more questions that come up on specific areas. Like 
autonomous vehicles are one of the things that this Committee 
is spending a lot of time thinking about, thinking about the 
Federal role as opposed to the 50 states and what they might 
do. And I think we will probably get back to that and other 
areas of research here in a minute.
    Congressman Westmoreland, there have been instances in the 
past when you voted against Amtrak funding. Could you explain 
the reasons for that vote? I think even on the last 
transportation bill, there was a vote or two that you might 
want to talk about, and I would be pleased to hear your 
thoughts on those votes and how you think they would impact, if 
at all, your job on the Amtrak Board?
    Mr. Westmoreland. Yes, sir. Thank you. Mr. Chairman, I did 
vote for the FAST legislation. In the past, there have been 
amendments that have been tried to be put on the transportation 
bill that called into question some of the supplement that was 
paid on some of these train tickets. And what the amendment 
said--and this has been more than one. There is about four of 
these that I have listed on the sheet that I was given--that 
basically said if the cost of the rail ticket was subsidized 
twice more than what the passenger paid, that it would not be 
funded.
    And so I think this is a responsibility in my district, the 
Congressional district I represent, a very conservative 
district. It would be hard for me to explain to my folks at 
home that jumping on a train to ride to Washington or New York 
or Boston or New Jersey--why their ticket is not subsidized in 
the same amount as somebody else. And so, therefore, I voted 
with conscience of my constituents and also for the fact that 
we have to be conscious of these supplements that we give.
    And so I joined several Members on this Committee in a lot 
of these votes. And so I think it was just a really--not that I 
do not believe in the transportation system that we have here 
but just as a matter to have these things looked at to see if 
there is not some type of remedy that we can do to cut down on 
the supplemental pay.
    Senator Blunt. Thank you.
    I think I will maybe get back to you later, Mr. Landsberg. 
We will have a second round of questions if anybody needs them. 
And to try to set the standard here that we will stay within 
the 5 minutes on the first round, I am going to go to Senator 
Booker.
    Senator Booker. Out of respect to my colleague's time, I am 
going to pass to Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. I appreciate it and 
thank both of you.
    And congratulations to all of you.
    Mr. Westmoreland, I thought I would start with you. I 
assume you served some with my friend and former Congressman 
who died a few years ago, Jim Oberstar, who I think you know 
cared a lot about rail and transportation and was always the 
one that said, ``there is no such thing as a Democratic bridge 
or a Republican bridge.'' And I hope you will bring that 
philosophy to rail at Amtrak.
    And I just wanted to remind you there is the Empire 
Builder. I know we talk a lot about coastal services here, but 
there is a very important service from Chicago that goes 
through Minnesota and for cities like Winona where Amtrak has a 
station and all the other towns. For the Empire Builder, it is 
very, very important.
    Mr. Westmoreland. Sure, and I agree with you, Senator. And 
Chairman Oberstar was a great Chairman until he started 
speaking in French.
    [Laughter.]
    Mr. Westmoreland. It was very hard to interpret what he was 
trying to get across.
    But I understand that. You know, rural communities have got 
to have access to transportation, and sometimes rail is that 
access that they have to get from one place to the other. And I 
understand that. And my desire is that the Board--and I could 
work with the Board to make sure that we make those possible 
and do them in a very cost efficient way.
    Senator Klobuchar. Very good. And I think for us just the 
on-time issue and some of the things being a route that only 
has a few trains that go a day is very, very important for us.
    Mr. Westmoreland. Yes, ma'am.
    Senator Klobuchar. Mr. Landsberg, I have worked a lot on 
the pilot safety issue. Of course, former Senator Wellstone 
died in a tragic crash. So I got interested in it because of 
that. And we have, of course, passenger pilots. We put some 
safety rest requirements in place, which was a bit of an issue 
in this crash in Minnesota. But as we know, the Colgan flight 
3407 really brought it to light for all of us. And I am trying 
to work on a bill that Captain Sullenberger is very strongly 
behind that would apply these same rules to cargo pilots. 
Despite using the same runways and airspace, they currently 
have looser rest requirements.
    Could you talk about the pilot fatigue issue and how you 
see this as applying to cargo pilots?
    Mr. Landsberg. Absolutely, Senator. I have not noticed that 
cargo pilots are significantly different than pilots flying 
passenger planes, and they suffer from the same fatigue issues. 
I realize that there are fewer people on board those aircraft. 
I think it is difficult sometimes to put cost-benefit analyses 
to these because our system is so safe. But having flown many, 
many hours myself, including on the back side of the clock, I 
think we really do need to defer to human factors. And I would 
think that it makes sense to have cargo pilots adhere to the 
same standards.
    Senator Klobuchar. Thank you.
    I have also worked distracted driving for quite a while. 
Senator Hoeven and I passed a bill. And I just think for my 
colleagues to think about this. We have had a lot of declines 
for the last 5 decades with traffic fatalities, and that is a 
lot of good work that has gone on here with seatbelt rules and 
drunk driving rules on the State basis. All kinds of good 
things have happened and education campaigns. Well, 
unfortunately, from 2015 to 2016, there was a 5.6 percent 
increase in traffic fatalities. And we know that much of this 
is attributed to distracted driving. And can you commit to work 
with me on this issue? I still think there is more we have to 
do.
    And, Ms. Furchtgott-Roth, I just sent a letter to 
Administrator Rosekind urging him to work with us on getting 
the data on this for individual states. I always figured, as 
you said, you can use data in a better way if you have good 
data to come up with policies.
    But if you, Mr. Landsberg, could----
    Mr. Landsberg. Senator, I could hardly wait.
    Senator Klobuchar. Wow. You are really enthusiastic about 
my issues. This has made my day. So I appreciate it.
    In light of the time and Senator Blunt's admonition here, I 
will ask my question about rail on the record. Thank you.
    Senator Blunt. Thank you.
    Before I go to Senator Inhofe, I have two letters in 
support of Ms. Furchtgott-Roth. These letters were submitted by 
William Winston, the Senior Fellow at The Brookings Institute, 
and Erica Goshen at Cornell University's Industrial Labor 
Relations School. So without objection, those will be included.
    [The letters referred to follow:]

                                                  Brookings
                                   Washington, DC, October 11, 2017

Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune:

    It is a pleasure for me to write a letter in support of Diana 
Furchtgott-Roth's nomination to be Assistant Secretary for Research and 
Technology in the U.S. Department of Transportation. I have known Diana 
for decades and she is a highly intelligent, honest, and dedicated 
researcher and policy analyst, who will greatly enhance policymaking at 
DOT.
    By way of background, I am a general transportation economist, who 
studies all modes and infrastructure in the process of analyzing 
domestic and international transportation policy issues. I have 
interacted with Diana since the 1980s when I presented research at the 
American Enterprise Institute and sought her feedback on issues 
including deregulation of the airlines and surface freight 
transportation industries and efficient pricing and investment of 
highways and airports. I have always found Diana to offer constructive 
and balanced insights, with sound policy judgments. I have also read 
Diana's research at AET and more recently at Economics21 and found it 
to be of high quality. Diana has a healthy respect for the price system 
and a balanced view toward finding constructive government policy 
interventions when appropriate.
    Those qualities will serve her and the Nation well in her 
responsibilities as an Assistant Secretary for Research and Technology. 
In addition, Diana is honest about empirical analysis and data quality, 
which are essential for credible policy recommendations.
    In sum, I believe DOT would be fortunate to attract someone with 
the intelligence, research abilities, judgment, and integrity as Diana 
Furchtgott-Roth and I strongly hope the Senate gives unanimous consent 
to her nomination.
            Sincerely
                                          Clifford Winston,
                                                     Senior Fellow.
                                 ______
                                 
                                         Cornell University
                                     New York, NY, October 12, 2017

Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators Thune and Nelson:

    I write to provide input on the nomination of Diana Furchtgott-Roth 
to the position of Assistant Secretary of Transportation for Research 
and Technology. As Assistant Secretary, Ms. Furchtgott-Roth would 
oversee the Bureau of Transportation Statistics and the Office of 
Research, Development and Technology. I believe that Ms. Furchtgott-
Roth understands the need for trustworthy Federal statistical data and 
will fully respect the integrity of the Bureau of Transportation 
Statistics and data-producing areas within her sphere.
    On January 27, 2017, I finished my four-year term as the 
Commissioner of the Bureau of Labor Statistics (BLS) in the Department 
of Labor. As a former statistical agency head, I know the importance of 
reporting to a leader who understands and supports the independence and 
mission of the agency.
    I have known Ms. Furchtgott-Roth professionally for many years. I 
have seen that she has been consistently been supportive of the need 
for gold-standard Federal statistical data to inform public and private 
decision-making. When she served as Chief Economist for the Department 
of Labor, she worked closely with BLS economists on detail to her and 
interacted regularly with BLS leaders and staff. She treated the BLS 
with the utmost respect and never attempted to suppress or otherwise 
interfere with BLS data or undermine the agency's independence.
    I hope you find this information useful and I would be happy to 
respond to any follow-up questions you have.
            Sincerely,
                                          Erica L. Groshen,
                                           Visiting Senior Scholar,
             Cornell University--Industrial and Labor Relations School.

    Senator Blunt. And we will go to Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Well, thank you, Mr. Chairman.
    First of all, Mr. Landsberg, I am really excited that you 
are going to be on the NTSB. I have had a lot of experience, as 
you are fully aware of, and your time was very valuable that 
you spent with the AOPA and particularly with the safety group. 
I have had an opportunity to see your work personally, and I am 
going to share with you an experience.
    Five years ago, I introduced the Pilots Bill of Rights, and 
that was one that had a lot to do with the NTSB. I had other 
things in there too, other issues that we had that we found 
that pilots were not really being treated properly. But one of 
the main ones was if you were accused of something in the 
field, as I was down in Port Isabel, Texas--that was 5 years 
ago--when I had done nothing wrong, and it would go to the FAA. 
Then if I wanted--now, it never got that far with me, but with 
others it has--to take that on to the NTSB, then our experience 
has been that 91 percent of all of the recording changes or 
appeals that went to the NTSB were virtually rubber stamped by 
the NTSB. And they did not even deny it because when I talked 
to the NTSB, well, that investigation has already been going 
forward.
    So we added something to the first Pilots Bill of Rights, 
and that is de novo so that if it then went to the next--it 
went past the NTSB and went to the Federal district courts, 
they would have start all over again. And that policy then was 
assumed to be the same way as it went to the NTSB.
    So my question of you is, will you see to it on anything 
that is any action against a pilot that is appealed to the NTSB 
from the FAA, that it be treated as a de novo in terms of the 
investigation that would bring you to the conclusion to either 
approve or disapprove the action of the FAA?
    Mr. Landsberg. Absolutely, Senator. To the extent that an 
investigation is appealed to the NTSB, there is obviously a 
certain amount of energy and importance to that. And I think in 
fairness to all and following due process and for the NTSB to 
maintain its independent stature, it is appropriate for them to 
take a very thorough look at that rather than just saying we 
will let this go by the board.
    Senator Inhofe. Yes. And you have actually had that 
experience before in working with the NTSB from the experience 
that you had with AOPA. Is that not correct?
    Mr. Landsberg. Yes, sir, not personally, but I have on 
occasion seen circumstances where I am not sure that things 
worked out as fairly as they might have.
    Senator Inhofe. Yes. Well, anyway, I think it is going to 
work out real well to have someone with your background in that 
position. And I am looking forward to working with you.
    Let us see. Mr. Martinez, the Federal Motor Carrier Safety 
Administration has issued exemptions to Federal hours of 
service based on what I call real world circumstances. And I 
was disappointed that the FMCSA issued guidance excluding 
certain types of commercial from being able to fully operate 
around the service of oil and gas well sites. Now, I am from 
Oklahoma and we do have a lot of these. And I appreciate very 
much your coming into my office and going over this.
    But right now, in terms of servicing, if you are involved 
in hydraulic fracturing, you have six different trucks that are 
waiting in line for their place, each moving up. You have your 
heavy coil vehicles, the wireline trucks, the cement pumps, the 
frack pumps, and the blenders, and the sand trucks. And all six 
of them have to get to the site to make that work. And only one 
of those does not have the same exemption that the rest of them 
do.
    Now, I will not ask you if you would change that, but I 
would ask you that if your research tells you that all six of 
these perform the same function in terms of their application 
in waiting in line, would you then either consider adding the 
sand truck to the rest of them.
    This is a huge thing because if just one of these six 
trucks has to go in a different way, that interrupts the whole 
process. It makes it much more expensive.
    Do you follow my thoughts here?
    Mr. Martinez. I do, Senator. And thank you. I have been 
made aware of this issue. I would look forward to, if 
confirmed, working with my colleagues at the FMCSA and engaging 
your office and learning more and also with other stakeholders 
to learn more about the specifics of this issue to see how it 
could be addressed.
    Senator Inhofe. All right. Well, I think that is all I 
would really ask, and I appreciate that very much.
    Senator Blunt. Thank you, Senator Inhofe.
    We will go to Senator Schatz and then Senator Capito.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you to all of you for your willingness to serve.
    My first question is for Ms. Furchtgott-Roth. In discussing 
the prospects of a government shutdown during the previous 
administration, you highlighted the Department of 
Transportation as being an appropriate target for spending 
cuts. You stated, quote, perhaps we could benefit from a 
shutdown by identifying nonessential services that could be 
eliminated permanently. One sector ripe for cuts is 
transportation. You have also repeated a call for the Federal 
Government to devolve responsibility for the Federal highway 
system to the states.
    Is that still your view? Do you believe that it is vital to 
our national interests that the Federal Government ensures a 
fast, safe, efficient, accessible, and convenient 
transportation system?
    Ms. Furchtgott-Roth. Well, I think that transportation is 
important to everybody. There are many new facts that have come 
to light, and I am open to talking about this to you and 
changing my opinion. As everybody knows, there are many, many 
important programs of the Department of Transportation, 
including those under the Office of the Assistant Secretary for 
Research.
    Senator Schatz. So do you want to take that back? Perhaps 
we could benefit from a shutdown. One sector ripe for cuts is 
transportation.
    Ms. Furchtgott-Roth. I think that in light of new facts 
that have come to light, I think that a shutdown is not helpful 
for anybody.
    Senator Schatz. Do you think that the transportation sector 
is ripe for cuts?
    Ms. Furchtgott-Roth. I think that the transportation sector 
is extremely important and needs to be given a lot of support.
    Senator Schatz. Is that a yes or a no? I mean, you said 
that one sector that is ripe for cuts and nonessential services 
that could be eliminated permanently is the transportation 
sector. Is that still your view?
    Ms. Furchtgott-Roth. I have not been in the Department of 
Transportation, and so I do not really know if these cuts--I 
have not looked at the budgets, and I would have to look at it 
in order to give you a more informed answer.
    Senator Schatz. But you had that view before your 
nomination.
    Ms. Furchtgott-Roth. But the budget of the Transportation 
Department is different from what it is right now.
    Senator Schatz. OK.
    In 2013, you testified before the Senate EPW Committee that 
a review of the data over the past 100 years does not show a 
steady increase in major storms such as hurricanes nor a steady 
increase in the number of floods, even though greenhouse gas 
emissions have increased.
    What is your view on extreme weather?
    Ms. Furchtgott-Roth. Well, we have certainly seen a lot of 
extreme weather this past year, and climate change is certainly 
happening. In the 1960s, we used to regularly skate on the C&O 
canal right next to the Potomac River, and now it hardly ever 
freezes over.
    Senator Schatz. Do you think climate change is primarily 
caused by humans?
    Ms. Furchtgott-Roth. Certainly some aspects of it, of 
course, by humans, and I think no one has the precise amount.
    Senator Schatz. Do you think it is primarily caused by 
humans?
    Ms. Furchtgott-Roth. Well, this is a scientific issue. It 
is certainly caused by humans, and no one can specify the 
precise amount.
    Senator Schatz. What is the predominating view among 
scientists?
    Ms. Furchtgott-Roth. The predominating view among many 
scientists is that it is caused by humans. And I am an 
economist, and this is a subject that I would leave to the 
scientists. And it is not a matter of the research under the 
auspices of the Assistant Secretary for Research.
    Senator Schatz. In looking at your writings, particularly 
on American workers, there seems to be a common thread. And let 
me just quote. You said that Congress should end the Highway 
Trust Fund and devolve authorities to states because, quote, 
such devolution of responsibility to states would release them 
from expensive Federal laws and regulations associated with 
current highway spending, such as environmental laws, nor would 
states be bound by Davis-Bacon prevailing wage requirements and 
project labor agreements which require the use of costly 
unionized labor. Is that still your view?
    Ms. Furchtgott-Roth. I support the current law. Davis-Bacon 
is the current law, and changing it would be up to Congress.
    Senator Schatz. You also said that allowing collective 
bargaining rights for air traffic control could determine 
whether the Nation's air traffic control system is thriving and 
a vibrant part of the U.S. aviation or it becomes as infamous 
as the Post Office, Amtrak, and TSA. Is that still your view?
    Ms. Furchtgott-Roth. I support all American workers and the 
rights of all American workers.
    Senator Schatz. Thank you.
    Senator Blunt. Thank you, Senator Schatz.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and thank you for 
bringing these folks before us. And thank you for your 
willingness to serve.
    Congressman Westmoreland, well, well, well, I have been 
waiting for 12 years that I served with you in the House to be 
able to grill you in front of America.
    [Laughter.]
    Mr. Westmoreland. This should be fun.
    [Laughter.]
    Senator Capito. Anyway, it is good to see you. And I 
remember our trip to Noonan, Georgia, and look forward to, 
hopefully, supporting you and having you on the Amtrak Board.
    In West Virginia, Amtrak services 10 stations across the 
state, and ridership has increased by over 1,700 passengers 
between 2015 and 2016. In the country, a record 31 million 
traveled on America's railroad, and nearly 400,000 more than in 
2015. And ticket revenue has been up, $12 million compared to 
last year.
    My question is--and I know these were votes that came up 
frequently over on the House side because we were there 
together. Your votes on funding for Amtrak I think reflected a 
need to look at the spending, use your business background, and 
use the dollars more efficiently. Could you address some of 
your feelings on that particular issue?
    Mr. Westmoreland. Sure. Senator, I voted in the affirmative 
for passage of the Surface Transportation Act and FAST Act, 
which included Amtrak.
    Some of the votes that people are concerned with are some 
of the amendment votes. And I think you have to show your 
constituents and some of the agencies that there is concern for 
some of the way they are operating. We have an entire railroad 
system for this whole country. As you mentioned in West 
Virginia, a lot of the rural areas need this railroad 
transportation just to get back and forth to work. And the 
Northeast Corridor is one of the biggest commuter rail systems 
in the world, I think.
    But the votes--I think that if you look at what has 
happened since some of this attention has been brought, like 
you said, revenues are up. The debt is down. I think Mr. 
Moreland and I know that Mr. Anderson are going to continue to 
work in that direction. But from all indications, I think some 
of these votes helped them and helped the Board to say we need 
to identify some of these problems and work on them. And they 
have been successful with doing that.
    Senator Capito. Thank you.
    Mr. Landsberg, on May 9, 2017--I am not sure if you are 
aware of this--a cargo plane crashed and killed two people at 
Charleston's Yeager Airport. It was early in the morning. I 
just wanted to take this opportunity again--I have done this 
from the Committee--to thank the NTSB for their quick response, 
for their transparency, and for the professionalism with which 
they moved forward in the investigation of that particular 
accident.
    So I guess in terms of how you see--I heard you address the 
difference between cargo pilots and others. But how do you see 
the NTSB's role in terms of transparency and immediacy in 
reacting to one of these accidents, whether it is an air 
accident or a train accident or something of that nature?
    Mr. Landsberg. Well, I have had the privilege of working 
with the NTSB for quite a number of years, including Chairman 
Hart, Senator. But I think it is absolutely essential that they 
respond quickly. They are the premier accident investigation 
group in the world. And to bring their expertise to bear in a 
timely fashion I think is essential that we get to the bottom 
of whatever happened and learn what we can as quickly as we 
can.
    Senator Capito. Thank you. And I join with you on your 
commitment for that.
    Ms. Furchtgott-Roth, you mentioned in your testimony--I 
just have a minute left. But you mentioned at the very end of 
your testimony that some of the innovations in the 
transportation sector are occurring outside the United States. 
If you could pick one or maybe two examples of where you see 
some really innovative ideas occurring outside the United 
States that you think would be good ideas for us to look at, 
could you name, off the top of your head, one or two of those 
countries?
    Ms. Furchtgott-Roth. For example, there are the congestion 
charges in London where if you come in during certain hours, 
vehicles have to pay because they are imposing costs on others. 
In New Zealand, there are these hubometers for electric cars. 
So they are charged for their use of the road because they do 
not pay gasoline taxes.
    Senator Capito. And what are they called?
    Ms. Furchtgott-Roth. They call them hubometers because you 
charge up your car with a certain number of miles, and that 
alleviates privacy concerns because you are actually putting a 
number of miles in your electric vehicle, a charge that would 
be equivalent to a gas tax charge that they have for their 
normal gasoline----
    Senator Capito. Well, that is an issue that we tried to 
face with the transportation costs in the trust fund is with 
the electric vehicles and others, how do you make an even 
playing field in terms of road usage and paying for the road 
usage.
    Thank you all very much.
    Senator Booker. Ms. Duckworth, we are going to go to you.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. All right. I am ready to go. Thank you. 
I want to thank the Chair and Ranking Member for convening 
today's hearing, and I want to thank the nominees for 
participating in this very important conversation.
    Mr. Landsberg, you have been nominated to serve in an 
incredibly important position that requires a strong commitment 
to independence and speaking hard truths despite the risk of 
upsetting industry and other government agencies.
    As you know, Congress has given NTSB a unique mission to 
prioritize safety above all other concerns. And NTSB's role in 
providing clear guidance to Congress and the public on what is 
the safest course of action, irrespective of costs or political 
hurdles, is incredibly valued. That is why we value NTSB.
    When it comes to civil aviation policy, we already have 
plenty of industry back panels and diligent government agencies 
who are required to listen to all stakeholders and seek 
compromises to achieve and improve the status quo. What we only 
have one of is a strong, credible, and independent voice that 
is solely focused on improving transportation safety.
    That is why I was concerned to learn about your previous 
writings that suggest that you believe that the FAA's 1,500 
hour rule has not benefited the flying public. As recently as 
last month, FAA Administrator Michael Huerta has suggested that 
our Nation's civil aviation system remains safer and better off 
as a result of the 1,500 hour rule.
    So yes or no. Do you agree with Administrator Huerta?
    Mr. Landsberg. Senator, first off, as a family who has lost 
a loved one due to the incompetence of others, I have great 
empathy for the Colgan families and I commend their response to 
taking action.
    As far as my writings were concerned, which I think----
    Senator Duckworth. Well, my question of you was, do you 
agree with Michael Huerta's statement that our Nation's civil 
aviation system remains safer and better off as a result of the 
1,500 hour rule? It is a simple yes or no.
    Mr. Landsberg. I think that there are two aviation 
rulemaking advisory committees----
    Senator Duckworth. Are we better off since the rule?
    Mr. Landsberg.--as recently as last week, who had struggled 
with this. I believe in the performance of pilots, and I think 
that setting an arbitrary number is not necessarily the best 
way to go.
    Senator Duckworth. Looking at the accident rates since the 
1,500 hour rule, in terms of fatalities in U.S. commercial 
aviation, yes or no, do you agree with Administrator Huerta?
    Mr. Landsberg. The accident rate has gone down.
    Senator Duckworth. OK, thank you. Thank you. I am running 
out of time. I apologize. I apologize. The Chairman can give 
you more time to respond, but I only have 2 minutes left.
    Mr. Landsberg. I understand.
    Senator Duckworth. Pilots need to know how aircraft respond 
in all conditions. Classroom and simulator experience is 
helpful, but they are not a substitute for preparing a pilot 
for the split second decisions required to operate aircraft 
safely.
    Before the 2009 Colgan air crash, pilots only needed 250 
hours of experience before becoming a first officer. This 
included only 50 hours of cross country experience, 5 hours of 
night experience, and 10 hours of instrument time. And today 
pilots must obtain 500 hours of cross country experience, 100 
hours of night experience, and 75 hours of instrument time, as 
well as gain multi-engine aircraft experience and an aircraft 
type rating. This is why it has been safer since the 1,500 hour 
rule was put into effect.
    Since these rules were enacted 8 years ago, we have had 
zero fatalities on passenger airlines compared with 154 tragic 
airline fatalities in the 8 years preceding the reforms, in 
addition to the Colgan air crash.
    If confirmed, Mr. Landsberg, are you committed to providing 
independent recommendations for pilot and first officer 
training certification requirements that would achieve the 
safest civil aviation system, not what is the safest system 
balanced against industry claims of pilot shortages, just 
simply what is safest?
    Mr. Landsberg. Yes.
    Senator Duckworth. OK. Thank you.
    Ms. Furchtgott-Roth, very quickly, thank you for joining us 
today.
    If confirmed, you will oversee several U.S. DOT programs, 
including the Bureau of Transportation Statistics. Is that 
correct?
    Ms. Furchtgott-Roth. Correct, yes.
    Senator Duckworth. As you may know, on November 2, U.S. DOT 
published its final rule entitled, ``Reporting of Data of 
Mishandled Baggage and Wheelchairs and Scooters Transported in 
Aircraft Cargo Compartments.'' And yet, that rule has not yet 
been complied with.
    If confirmed, will you commit to prioritizing the 
development of reporting requirements for the baggage, 
wheelchair, and scooter rule and guarantee their successful 
implementation ahead of the new January 2019 deadline?
    Ms. Furchtgott-Roth. I would be very happy to work with you 
on that. I have not yet been at the Department, so I am not 
familiar with that rule.
    Senator Duckworth. Thank you.
    Mr. Chairman, I am over time. I would like to ask for 
consent to enter the following documents into the record.
    Senator Blunt. Without objection.
    Senator Duckworth. Do you want me to name them?
    Senator Blunt. If you want to name them.
    Senator Duckworth. Sure. October 25, 2017, the letter for 
Mr. Landsberg asking him to clarify his position on the 1,500 
hour rule. Second, Mr. Landsberg, October 30, 2017, response to 
that letter. The third, Ms. Furchtgott's June 2009 article 
entitled ``Starting a Trade War with Buy America.'' An October 
25, 2017 from Bloomberg Business Week entitled ``Under Trump 
Made in America is Losing Out to Russian Steel.'' And the fifth 
item is an October 30, 2017 letter from the American 
Association for Justice opposing Ms. Furchtgott-Roth's 
nomination.
    Senator Blunt. Without objection.
    [The information referred to follows:]

                                       United States Senate
                                   Washington, DC, October 25, 2017

Bruce Landsberg,
Nominee as Board Member,
National Transportation Safety Board,
Washington, DC.

Dear Mr. Landsberg:

    Congratulations on your nomination by President Trump to serve on 
the National Transportation Safety Board (``NTSB.''). We write to 
determine the degree to which you, if confirmed, would faithfully 
execute this important responsibility, and to request specific 
commitments from you as we consider your pending nomination before the 
United States Senate.
    NTSB operates as an independent Federal agency responsible for 
investigating and determining the probable cause of every civil 
aviation accident in the United States, along with significant 
accidents in other modes of transportation railroad, highway,marine, 
and pipeline. With this vested responsibility, NTSB develops 
recommendations to prevent future accidents or reduce their effects in 
terms of injury, loss of life, or damage to property. With a reputation 
for objectivity and thoroughness, NTSB has achieved such success in 
shaping transportation safety.
    NTSB was instrumental in effectuating change in the wake of the 
horrific tragedy of the Colgan Air flight 3407 that crashed into a 
house in Clarence Center, New York, killing all 49 passengers and crew 
onboard, as well as one person on the ground. The crash alerted the 
Nation to shortfalls in our aviation safety system, particularly at the 
regional airline level, and following subsequent investigation by NTSB 
and numerous congressional hearings, Congress passed the Airline Safety 
and Federal Aviation Administration Extension Act of 2010. This law 
required the FAA to issue new safety regulations governing pilot 
fatigue, training and minimum qualifications, including duty time and 
rest requirements and a requirement that all prospective commercial 
pilots have 1,500 hours of flight time before receiving an Airline 
Transport Pilot Certificate. Since these regulations have been in 
place, there have been no airline passenger fatalities on a U.S. 
domestic carrier, far surpassing the previous longest period without a 
fatal commercial crash.
    If confirmed, you would be responsible for ensuring the NTSB 
continues to investigate and develop thorough recommendations to 
prevent or reduce the effects of tragic accidents such as the Colgan 
Air flight 3407. The NTSB is critical to providing honest and 
thoughtful recommendations for how to improve transportation safety 
without being biased by industries that all too often fight common 
sensesafety regulations. While we hope that you will continue in this 
important objective, it has come to our attention that while employed 
by the Aircraft Owners and Pilots Association (AOPA) you made a number 
of public comments about important safety requirements. In order to 
understand your willingness to fulfill the responsibility of serving on 
the NTSB, we request that you respond to the following questions:

  1.  While employed by AOPA, you authored multiple articles appearing 
        to attack the 1,500 hour flight time safety regulation issued 
        by the FAA following the Airline Safety and Federal Aviation 
        Administration Extension Act of 2010. Specifically, in November 
        2012, you wrote the following about the rnle:

        ``The Colgan accident was tragic and avoidable. There was a 
        systemic failure that needed to be addressed, but this result 
        is disappointing. A blunt instrument was used when a scalpel 
        would leave fewer scars and promote faster healing. Sometimes 
        even good intentions result in an unintended and undesirable 
        outcome. There are better ways to address the Colgan 
        disaster.''

    Can you please clarify these comments and provide additional detail 
about your view of the 1,500 hour rule? As you can imagine, these 
comments are particularly concerning to us because they seem to suggest 
that you do not support the current law. As recently as September 2017, 
FAA Administrator Huerta stated Congress raised the safety standard 
when requiring the FAA issue the 1,500 hour rule and that the system 
remains safer and better off with the rule in place, do you share that 
view?

  2.  In addition, you wrote the following in a 2012 article about the 
        rule:

        ``Nowhere in any of this are the first officer's flight-hour 
        qualifications mentioned as a cause or a factor, yet a law has 
        passed addressing a non-issue. This non sequitur was caused by 
        the understandable grief and outrage of the families who lost 
        loved ones on the flight. They somehow were led to believe that 
        the FO was under-qualified and she was a proximate cause.''

    Can you please provide additional clarification on your position 
that first officer qualifications are a ``non-issue''? Is this a view 
you continue to hold? We have been working closely with the Families of 
Flight 3407 since the horrific crash and there is no doubt that their 
strength, determination, and advocacy has helped to improve aviation 
safety. But to be clear, the landmark Airline Safety and Federal 
Aviation Administration Extension Act of 2010 was not passed as a 
result of outrage or grief, but rather as a clear and substantive 
effort to improve aviation safety and address tragic shortfalls in the 
existing regulations, including the different levels of safety that 
existed across the aviation industry. For you to categorize their 
efforts in this fashion is concerning, at best.

  3.  Furthermore, in 2015 Capt. Chesley B. ``Sully'' Sullenberger III 
        provided the following testimony to Senate Commerce Committee:

        ``Some lobbyists would like you to significantly roll back the 
        1,500-hour minimum. Short of that, they want the FAA to allow 
        simulator and academic training hours to count toward meeting 
        the 1,500-hour minimum. They see this as an easier, more 
        convenient, less expensive path to getting young pilots into 
        regional airline cockpits. But there are no shortcuts to 
        experience. There is no shortcut to safety. The standards are 
        the standards because they are necessary.''

        Do you agree with Capt. Sullenberger's testimony that the 
        current standards are necessary? If confirmed, are you 
        committed to upholding, and under no circumstances recommending 
        weakening, existing pilot and first officer training 
        certification requirements which have proven to deliver the 
        longest period of time without a fatal commercial airline 
        crash?

  4.  Finally, the full text of a 2010 column written by you on Safety 
        Pilot has been removed from the AOPA website. Can you please 
        provide the full transcript of this article and any other 
        articles you have authored on pilot training and aviation 
        safety standards?

    The United States traveling public deserve the highest integrity 
and objectivity when NTSB determines an accident's probably cause and 
then issues safety judgments and recommendations. We plan to continue 
to hold NTSB accountable for delivering on this responsibility. We look 
forward to hearing from you and receiving answers to our questions in a 
timely manner.
            Sincerely,
                                        Charles E. Schumer,
                                             United States Senator.
                                        Richard Blumenthal,
                                             United States Senator.
                                            Cory A. Booker,
                                             United States Senator.
                                           Tammy Duckworth,
                                             United States Senator.
                                      Margaret Wood Hassan,
                                             United States Senator.
                                        Kirsten Gillibrand,
                                             United States Senator.
                                 ______
                                 
                                                   October 30, 2017
Hon. Tammy Duckworth,
United States Senate,
Washington, DC.

Dear Senator Duckworth:

    Thank you for your letter dated October 25, 2017, regarding my 
pending nomination to serve on the National Transportation Safety Board 
(NTSB).
    This appointment is a responsibility that I will faithfully execute 
to the best of my abilities and, if confirmed by the United States 
Senate, will uphold the Board's longstanding objectivity and 
thoroughness with respect to accident investigations.
    With respect to aviation safety, I have always relied solely on a 
review of the facts and data analysis in my decision-making process, 
which has helped in the formulation and implementation of safety 
programs intended to educate and train general aviation pilots to 
reduce or eliminate accidents.
    My past writings with respect to the Airline Safety Act are based 
solely on facts as outlined by the NTSB's accident investigation 
findings. The captain's poor airmanship, the crew's distraction, 
complacency, fatigue, and failure caused that tragedy. Significant 
management failures in Colgan training programs and FAA oversight were 
also prominently cited. The failure to identify the captain's ongoing 
substandard performance, the lack of monitoring for procedural 
compliance regarding sterile cockpit and distraction, training 
inadequacies relative to the Q400s stall warning indications/recovery, 
and others were cited by the NTSB.
    Also, my ``non-issue'' comment was made in the context of specific 
NTSB findings and recommendations in the Colgan accident final report, 
which did not recommend any flight hour minimums for pilots. It was 
never intended as a comment that pilots should not be fully qualified 
and competent. All pilots must meet certification requirements to 
ensure a high level of knowledge, skills, and professionalism.
    My role at the NTSB would be to objectively analyze accident data 
and review the facts and make recommendations accordingly. You have my 
commitment to adhere to these principles.
    Also, as you requested, here is the link, https://www.aopa.org/
news-and-media/all-news/2010/november/01/safety-pilot-(5), to a 2010 
Column that appeared in Safety Pilot. In addition, following are links 
to other aviation safety columns that I authored regarding this issue:

        https://www.aopa.org/news-and-media/all-news/2010/may/pilot/
        safety-pilot-a-personal-and systemic-failure

        https://blog.aopa.org/aopa/2012/11/14/not-exactly-the-intended-
        destination/

        https://www.aopa.org/news-and-media/all-news/2014/december/
        pilot/landmark

    In addition, the Air Safety Institute produced many online safety 
courses, safety seminars, and publications during my tenure. These can 
be seen at www.airsafety
institute.org and are open to the public.
    My writings on accidents and aviation safety matters were derived 
from NTSB accident reports and nearly 50 years as an active private 
pilot, flight instructor, and other pilot certifications including an 
Airline Transport Pilot (ATP) certificate.
    I believe we share the belief that integrity and objectivity are 
essential to the NTSB's function of ensuring the Nation's 
transportation safety. A facts-based driven analysis is paramount in 
the field of safety and accident prevention. I also fully expect the 
Congress to hold NTSB Board members and staff fully accountable to 
fulfill this critical mandate.
            Sincerely,
                                           Bruce Landsberg.
                                 ______
                                 

                    The Great Debate--June 19, 2009

               Starting a trade war with ``Buy America''

                        By Diana Furchtgott-Roth

Diana Furchtgott-Roth, former chief economist at the U.S. Department of 
Labor, is a senior fellow at the Hudson Institute. The views expressed 
are her own.

    When Congress inserted ``Buy America'' protectionist provisions 
that required some goods (such as steel, cement, and textiles) financed 
by the stimulus bill to be made in America, our government invited a 
trade war with important economic partners. Now China and Canada are 
imposing their own protectionist regulations, potentially destroying 
well-paid American jobs in the export sector. Other countries may 
follow suit.
    This week China reported that the government now requires stimulus 
projects to use domestic suppliers when possible, even though in 
February it promised to treat foreign companies equally. The Chinese 
$585 billion stimulus package has resulted in a World Bank growth 
forecast of 7.2 percent for China this year, far above other 
industrialized countries.
    And on June 6 the delegates at the Federation of Canadian 
Municipalities passed a resolution calling on ``local infrastructure 
projects, including environmental projects such as water and wastewater 
treatment projects, [to] procure goods and materials required for the 
projects only from companies whose countries of origin do not impose 
trade restrictions against goods and materials manufactured in 
Canada.''
    The tragic losers of ``Buy America'' are free trade agreements and 
potential job growth in the American economy. Seductively, ``Buy 
America'' promises workers they can have it all--cheap goods from 
China, oil from Canada, as well as protection from global competition. 
But real life just doesn't work that way. In reality, ``Buy America'' 
is shorthand for fewer jobs as other countries retaliate.
    Many markets no longer have national boundaries but global reaches. 
America sits at the center of global markets for technology, equipment 
manufacturing, finance, banking, fashion, and advertising--to name but 
a few. When international markets expand, America grows. When barriers 
are erected to trade, jobs--and also wages--shrink.
    Trade creates jobs not just through investments of foreign 
companies at home, but also by increasing employment at exporting 
firms. This effect, though less obvious, is far more significant. 
That's why ``Buy America'' hurts employment.
    Andrew Bernard, a professor at Dartmouth College, together with 
economists Bradford Jensen and Peter Schott, find that firms that trade 
goods employ over 40 percent of the American workforce. They conclude 
that approximately 57 million American workers are employed by firms 
that engage in international trade.
    They analyze American imports and exports using customs documents 
that accompany shipments of goods crossing the border, along with 
reports of firms' employment. The resulting information provides the 
most precise picture available of the employment effects of American 
trade.
    Back in February, Caterpiller spokesman Jim Dugan declared, ``Our 
position is that, while `Buy American' may sound good, in fact we're 
very concerned that if this stimulus legislation contains the `Buy 
American' provision, other nations and regions of the world would 
follow our lead and pass similar provisions.'' He was right.
    Trade also benefits millions of families who cut their shopping 
bills by buying low-cost imports. To take just one example, the amount 
that Americans spend on clothing has declined by 21 percent in real 
terms over the past 20 years, yet our closets are fuller than ever.
    The benefits of free trade, such as increased employment, higher 
economic growth, and lower prices, are often taken for granted. But the 
disadvantages of free trade--such as the occasional instances of 
shuttered plants and lost jobs where American firms are not as 
efficient as international competitors--are all too visible.
    Trillions of international dollars pass through America each year 
not because we are isolated, but because we are the hub of the world. 
Terrorists twice attacked the World Trade Center because the building 
symbolized international trade. They destroyed a building and murdered 
thousands of innocent Americans, but they failed to vanquish world 
trade. Sadly, politicians who erect barriers to trade are hostile not 
only to trade but to our country and to our jobs.
                                 ______
                                 

October 25, 2017, 4:00 AM EDT, Updated on October 25, 2017, 6:01 PM EDT

      Under Trump, Made in America Is Losing Out to Russian Steel

                   By Margaret Newkirk and Joe Deaux

    An oligarch-owned steel company is winning pipeline contracts, and 
foreign steel imports are up 24 percent this year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    President Trump signed presidential memoranda on Jan. 24, 2017, 
reviving the construction of two controversial oil pipelines including 
Keystone XL, but said the projects would be subject to renegotiation. 
PHOTOGRAPHER: NICHOLAS KAMM/AFP/GETTY IMAGES

    Four days after his inauguration, Donald Trump signed a handful of 
executive memos to advance the Keystone XL pipeline and revive the U.S. 
steel industry. He invited builder TransCanada Corp. to reapply for a 
permit denied by Barack Obama and ordered up fast-track rules forcing 
not only Keystone but also all new U.S. pipelines to be made from 
American steel. ``From now on, we're going to be making pipeline in the 
United States,'' he said.
    Made-in-America Keystone was a stunt. Most of its pipes had already 
been manufactured, a fact the White House grudgingly admitted when it 
exempted the project from any new Buy American rules a few months 
later. While some of Keystone's pipes were made in the U.S., at least a 
quarter of them came from a Russian steel company whose biggest 
shareholder is an oligarch and Trump family friend. The company, Evraz 
North America, supplied Keystone from its steel plants in Canada and 
for years has lobbied in Washington against Trump-style protectionism.
    Ten months after his Keystone event, Trump has yet to deliver on 
his pledge to boost the fortunes of American steel. Two self-imposed 
deadlines for trade action, one in June and one in July, have come and 
gone. Meanwhile, the prospect of tariffs has led to a surge of cheap 
foreign steel into the U.S., with imports rising 24 percent in 2017, 
the fastest increase in years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As Federal and congressional investigators probe Moscow's 
interference in the 2016 U.S. election, Evraz North America shows that 
Russians are also involved in pressing against one of Trump's main 
campaign promises. The company is a wholly owned subsidiary of Evraz 
Plc, Russia's second-largest steelmaker. It has two factories in the 
U.S., in Colorado and Oregon, and four in western Canada, where it 
produces steel and large-diameter steel pipe. The company's top 
shareholder is Roman Abramovich, a billionaire who owns 31 percent of 
Evraz's stock. In 2005 he was the first oligarch allowed to sell his 
oil company to the state, taking in $13 billion in a deal approved by 
Vladimir Putin.
    Abramovich's ties to the Trumps stem from a decade-long friendship 
between Ivanka Trump and Abramovich's wife, Dasha Zhukova, from whom he 
announced a separation in August. Jared Kushner and his brother, 
Joshua, invested in Zhukova's art collection business. The Russian 
couple hosted Ivanka and Jared in Russia in 2014, when they shared a 
table at a fundraiser for Moscow's Jewish museum. Zhukova went to the 
2016 U.S. Open tennis tournament with Ivanka and attended Trump's 
inauguration as Ivanka's guest.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    From left, Ivanka Trump and Dasha Zhukova attend the U.S. Open 
men's singles final on Sept. 11, 2016, in Queens, N.Y. PHOTOGRAPHER: 
ELSA/GETTY IMAGES

    Evraz won its share of the Keystone XL business in 2009 and hired a 
Washington lobbyist named John Stinson the next year, according to 
disclosures collected by Bloomberg Government and Open Secrets, a 
nonprofit that tracks money in politics. Over the next seven years, 
Stinson lobbied the House, Senate, U.S. Department of Commerce, and 
Office of the U.S. Trade Representative, earning $2.2 million for 
representing Evraz's interests. He fought Buy American language in 
Federal spending bills for transportation, water infrastructure, and 
defense, as well as in a bill specifically about Keystone in 2015--the 
same year Obama denied its cross-border permit.
    According to Federal disclosures, Evraz paid Stinson $100,000 in 
the first half of 2017 to persuade Congress and the Commerce Department 
to exclude its Canadian products from Trump's steel import crackdown. 
Stinson declined to comment. Christian Messmacher, the company's vice 
president for development, says its lobbying efforts are typical for 
the industry. ``We, like all other North American companies, work to 
provide public officials with our insights on issues that affect us and 
our ability to provide good North American jobs,'' he says.
    In late May, Evraz won a contract with liquefied natural gas 
company Cheniere Energy Inc. to supply the steel pipe for a 200-mile 
pipeline to bring natural gas from Oklahoma to the Gulf Coast. The 
contract, worth an estimated $100 million, was expected to go to a 
Florida-based company, Berg Steel Pipe Corp., according to the American 
Line Pipe Producers Association. The association put out a press 
release in June arguing that Evraz was undercutting U.S. companies. It 
asked the Trump administration to act quickly on new rules and stop 
``Russian-owned Evraz'' from ``aggressively'' seeking U.S. contracts 
ahead of any new tariffs or quotas on imports.
    The Cheniere contract shows how hard it is to differentiate between 
foreign and U.S.-made steel. While losing out to Evraz cost Berg 216 
jobs, or 42 percent of its workforce, company Vice President Jonathan 
Kirkland told the Mobile, Ala., Press-Register in June, Berg makes 
pipelines using steel from Germany and France. U.S. steel supplies 
aren't reliable enough, Chief Executive Ingo Riemer told the U.S. 
International Trade Commission last year.
    In September, Commerce Secretary Wilbur Ross said the 
administration will defer a decision to impose tariffs on foreign steel 
so it can focus on tax reform. The industry is getting impatient. Steel 
executives have been meeting with administration officials. More than 
60 steelworkers met with members of Congress on Sept. 21 to tell them 
of their growing frustration with the White House's delays. ``The 
president makes his policy decisions based on what is best for the 
American people,'' says White House Deputy Press Secretary Lindsay 
Walters. ``Moreover, to place unrelated information about his 
daughter's social engagement with the ex-wife of one of a company's 
shareholders in a story about actual policy is incredibly irresponsible 
and misleading.''
    Given the promises Trump made in the campaign, there may be 
political blowback if he doesn't deliver. Although the United 
Steelworkers union endorsed Hillary Clinton, many of its members voted 
for Trump, helping him to narrow victories in states across the 
Midwest. ``Those workers absolutely won't forget if they are empty 
promises,'' says Dan Simmons, president of Steelworkers Local 1899 in 
Granite City, Ill. ``Like Elvis says, we want a little less talk and a 
little more action.''

    (Updates with comments from White House Deputy Press Secretary in 
the 10th paragraph.)
                                 ______
                                 
                                                   October 30, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Thune and Senator Nelson,

    The American Association for Justice (AAJ), the world's largest 
trial bar, writes to you today to express our vehement opposition to 
the nomination of Diana Furchtgott-Roth as Assistant Secretary for 
Research and Technology at the U.S. Department of Transportation (DOT).
    Ms. Furchtgott-Roth lacks the substantive experience to prepare her 
for this role, a role which will become increasingly important as 
driverless cars and other technological innovations advance at a rapid 
pace on our Nation's roadways. Ms. Furchtgott-Roth is unequipped and 
unqualified to lead DOT's regulatory efforts on research and 
technology. Other than a few articles loosely related to 
transportation, there is nothing in the public record to explain why 
she is a suitable--much less the best--person to fill this post.
    Beyond the fact that she lacks any relevant knowledge and 
experience, it's important to note that this position will be at the 
center of the debate on driverless cars, serving as the lead for the 
DOT's entire driverless car regulatory program. This technology has the 
potential to dramatically affect public safety, redefine our 
transportation infrastructure and literally change our American way of 
life. It is critical that DOT have a leader in this position with a 
strong grasp of this technology and the potential benefits and dangers 
it will bring. Ms. Furchtgott-Roth is not that leader.
    AAJ believes that driverless cars have the potential to eventually 
reduce accidents and provide for safer travel, but we do not believe 
that will happen overnight. There will be a time between introduction 
and full deployment when new driverless cars will share the roadways 
with human drivers. There will be a need for strict, minimum safety 
standards for all the various technologies these new vehicles will 
utilize. The DOT needs to carefully and thoughtfully craft a regulatory 
framework that will adequately govern the way driverless cars perform, 
and ensure access to the courts when defective driverless cars 
inevitably crash and cause injuries. To that end, the person 
responsible for that program should have the necessary experience to 
successfully and thoughtfully oversee driverless technologies and other 
transportation innovations--experience that Ms. Furchtgott-Roth lacks.
    Even more disturbing than her lack of substantive experience is her 
repeated public questioning of the need for workplace rights and 
protections for women, which informs her management style and decision-
making as a Federal official. She has routinely and categorically 
discounted the importance of the civil justice system to provide 
remedies for those who are harmed, and to serve as a deterrent for 
corporate wrongdoing. She has commented that sexual harassment laws 
breed ``employer overreaction,'' that no gender gap exists, and that it 
is unnecessary to strengthen or improve the existing laws that serve to 
provide a remedy for victimized women. Ms. Furchtgott-Roth even said 
that ``differences in pay and position stemming from women's choices 
are not a reason to pass more workplace pay discrimination regulations 
such as the Paycheck Fairness Act.''
    As an organization whose mission is to safeguard victims' rights 
and strengthen the civil justice system, we firmly believe that these 
kinds of beliefs have no place in public office or anywhere else. Once 
the committee reviews her sordid history and lack of expertise, we are 
confident you will conclude that she is unfit for this office and 
reject her nomination.
    Given Ms. Furchtgott-Roth's lack of topical transportation 
experience and her harmful views on gender equity, we urge you to 
oppose her confirmation.
            Sincerely,
                                           Linda A. Lipsen,
                                           Chief Executive Officer,
                                      American Association for Justice.

    Senator Blunt. Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Good morning. Welcome to everyone testifying. 
Congratulations on your nominations.
    Let me start, Ms. Furchtgott-Roth, with a question, one 
concerning the Department of Transportation's Office of 
Positioning, Navigation and Timing and Spectrum Management, 
which coordinates the development of departmental positions on 
PNT spectrum and policy and is a program in the Office of the 
Assistant Secretary.
    As you may be aware, our Nation's global positioning 
system, GPS, is used by a number of critical infrastructure and 
other key resource sectors. In 2014, the Department of Homeland 
Security publicly recognized that of the Nation's 16 critical 
infrastructure sectors, 15 of them use GPS. Should GPS be 
disrupted or even flicker for a few hours, the U.S. could 
potentially see widespread failure of cellular and 
telecommunications networks, disruption or failure of the power 
grid, breakdown of our financial system, air traffic control-
related failures, which occurred on January 25, 2016 when GPS 
had a 7-hour internal flicker, and first responder network 
failures, which also occurred on January 25.
    Do you have concerns about the vulnerabilities confronting 
GPS, and do you see the need for a backup system?
    Ms. Furchtgott-Roth. I have not yet been in the Department, 
so I have not looked precisely at this issue. But there is 
certainly a great need to address issues of cybersecurity, and 
I would hope that the research, should I be honored being 
confirmed, would definitely inform that. Cybersecurity is a 
priority. We have had many high-level hacks recently. I know 
that even if the Internet goes down in my house, it is a 
disaster with my six kids. They are clamoring to get it fixed. 
And I would commit to working with you on this very important 
issue.
    Senator Cruz. Now, one potential solution. Since 2001, U.S. 
Federal agencies and Presidential directives have warned of our 
dependence on GPS and lack of a backup and have recommended 
using eLORAN as a backup system and that the eLORAN signal is 
1.3 million times stronger than GPS and said to be virtually 
jam- and spook-proof. Given tight budgets, would you be willing 
to work with Congress on a public-private partnership that 
would stand up eLORAN or another suitable system as a backup 
system to GPS?
    Ms. Furchtgott-Roth. I would definitely want to work with 
you on that issue.
    Senator Cruz. Let me shift to another topic.
    Mr. Martinez, one of my top priorities in Congress is 
regulatory reform, and it has been a significant priority for 
the administration. One of the major areas of policy victories 
in this new administration have been the advances we have been 
making on reg reform. You will not be surprised to know that 
many industries involved in trucking have contacted my office 
expressing concerns about the implementation of the Federal 
Motor Carrier Safety Administration's electronic logging 
device, or their ELD mandate, which the Obama administration 
estimated would cost $2 billion to implement. In fact, I have 
in my possession a letter that President Obama sent to John 
Boehner on August 30, 2011 which confirms that the mandate is 
estimated to cost $2 billion.
    In light of the costs, do you believe that the FMCSA should 
delay the implementation of the ELD mandate prior to December 
18, 2017?
    Mr. Martinez. Senator, first of all, I believe that 
regulatory reform should be an ongoing process. My 
understanding with regard to ELDs are that they are now legally 
required and that there is a December deadline for 
implementation with a phase-in, with an ultimate deadline of 
December 2019.
    If confirmed and in position, I would look forward to 
working with industry and all stakeholders, safety advocates, 
and particularly impacted sectors of commerce. I have heard 
that this rule could cause serious hardship to some small 
independent truckers, particularly those working in the 
agricultural sector. So I would want to meet with those 
involved in those areas who oppose the rule to learn more about 
their concerns. The goal is not to cripple commerce. The goal 
is to make our roadways safer. That is our mission, and 
everything that we approach this with is through that lens of 
safety. So it would be my intention, if confirmed, to first and 
foremost abide by the law but also to have an open door policy 
and work with all the impacted stakeholders.
    Senator Cruz. Very good. I look forward to working with you 
on that issue and working to mitigate the cost to small 
businesses and agriculture in particular.
    Senator Blunt. Thank you, Senator.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here and your willingness to serve.
    Ms. Furchtgott-Roth, I am told--I have not seen it, but I 
am told that in 2015 you wrote that, ``unwanted touching is not 
sexual assault in a piece arguing that rape and sexual assault 
on campus is over-reported.'' Is that correct?
    Ms. Furchtgott-Roth. That is correct.
    Senator Blumenthal. Do you continue to believe that 
unwanted touching is not sexual assault?
    Ms. Furchtgott-Roth. For example, if I touch Mr. 
Westmoreland like this, he might not want me to touch him, but 
that is not the same as sexual assault.
    Senator Blumenthal. OK. So unwanted touching, as in 
touching a part of your body that is private, is not sexual 
assault?
    Ms. Furchtgott-Roth. That definitely could be sexual 
assault. Definitely, yes.
    Senator Blumenthal. It could be but not always?
    Ms. Furchtgott-Roth. Touching a part of the body that is 
private in an unwanted fashion is sexual assault.
    Senator Blumenthal. Is sexual assault on campus over-
reported?
    Ms. Furchtgott-Roth. Well, this issue does not pertain to 
the Assistant Secretary for Research in Transportation.
    But I just want to say that the data from the Department of 
Justice is very different from the commonly used data that 25 
percent of young women are going to be raped on campus. It is a 
tragedy when anyone is sexually assaulted, but the Department 
of Justice data show 3 percent rather than 25 percent and that 
was the purpose of writing my article. But it is definitely 
something that we need to be addressing. We need to be 
protecting young women on campuses.
    Senator Blumenthal. It is, but you continue to believe that 
sexual assault on campus is over-reported.
    Ms. Furchtgott-Roth. Not by the Department of Justice. It 
is not over-reported by the Department of Justice.
    Senator Blumenthal. Who is over-reporting it?
    Ms. Furchtgott-Roth. The common statistic that 25 percent 
of young women on campus are going to be raped at college is 
over-reported. That is an exaggerated statistic that does not 
meet the Department of Justice statistical standards.
    Senator Blumenthal. Not all sexual assault, though, is 
rape.
    Ms. Furchtgott-Roth. That is correct, yes.
    Senator Blumenthal. It can be unwanted touching.
    Ms. Furchtgott-Roth. Correct.
    Senator Blumenthal. And can you give us some examples of 
how unwanted touching might not be sexual assault?
    Ms. Furchtgott-Roth. Yes. For example, if I touch Mr. 
Westmoreland like this. This is not sexual assault, but it 
could be unwanted touching.
    Senator Blumenthal. And what is the line?
    Ms. Furchtgott-Roth. It is difficult to draw the line. It 
does not have anything to do with transportation research.
    Senator Blumenthal. It has nothing to do with 
transportation research per se, but your statement, unwanted 
touching is not sexual assault, is a pretty blanket statement 
that indicates to me some lack of precision in an area 
demanding both sensitivity and precision. Correct?
    Ms. Furchtgott-Roth. Sensitivity is extremely important and 
precision is also extremely important.
    Senator Blumenthal. And in many transportation issues?
    Ms. Furchtgott-Roth. Yes, Senator.
    Senator Blumenthal. You come to this job with relatively 
little background in transportation or safety, if any, issues 
pertaining to transportation. I recognize you have a lot of 
background and training in economics but none in the area that 
you have been assigned to oversee in the position for which you 
have been nominated. Correct?
    Ms. Furchtgott-Roth. I have overseen a very broad range of 
research since 2001 as Chief of Staff----
    Senator Blumenthal. Any relating to transportation?
    Ms. Furchtgott-Roth. There was transportation at the 
Council of Economic Advisors, and I have also written papers on 
transportation. I am familiar with many of the issues. I was 
speaking to Professor Kornhauser at Princeton on Sunday about 
his concerns about autonomous vehicles.
    Senator Blumenthal. But you have had some conversations 
about it.
    Let me ask you. Just a few months ago, you wrote that the 
wage gap is, to quote you, a myth. You wrote, quote, 
legislation to close the gender wage gap is misguided. In 
reality there is no gap to close. I think there is a lot of 
information, in fact, that a wage gap exists in a high 
percentage of occupations and likely in transportation. Do you 
agree?
    Ms. Furchtgott-Roth. There is a wage gap I believe in equal 
pay for equal work. That is the law of the land, and there are 
many laws that enforce that and I support the enforcement of 
those laws.
    Senator Blunt. Thank you, Senator.
    Senator Blumenthal. Well, you have not answered my 
question. I just want the record to reflect that you have not 
answered my question.
    My time has expired, Mr. Chairman, but the fact is that you 
have contended factually there is no wage gap. Yes, there are 
laws that forbid discrimination, but you have denied that there 
is a wage gap. Correct?
    Ms. Furchtgott-Roth. There is an overall aggregate wage 
gap, but when experience, time in the workforce, and profession 
are taken into account, it is a standard result in labor 
economics that the wage gap is diminished. It still exists but 
it is not the traditional 77 cents on the dollar. Professor 
June O'Neill, Professor Marianne Bertrand, and other professors 
all come to the same conclusion.
    Senator Blunt. Thank you, Senator.
    Senator Cortez Masto.
    There will be time for a second round of questions, if 
anyone wants to stay for that.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, I appreciate that, Mr. 
Chair.
    Welcome. Thank you all to the nominees and your willingness 
to serve. Welcome to your families, if they are here as well.
    I apologize. I had another committee hearing, so I could 
not be here for your statements. But thank you for the written 
statements. They are very, very helpful.
    Mr. Westmoreland, let me start with you. I am from Nevada 
and parts of Nevada are very rural. And I was just recently 
during the August break in some of our rural communities, one 
of them being Elko, and had a chance to visit with our local 
leaders there who really reiterated to me their fear over the 
administration's efforts to cut funding to the California 
Zephyr line service that stops in Elko, Winnemucca, and Reno, 
Nevada where we have an average of 84,000 Nevada riders there.
    Do you support the President's Fiscal Year 2018 budget, 
especially the transportation aspects of it?
    Mr. Westmoreland. Ma'am, I have not seen the President's 
budget but let me address the rural lines.
    Rail is very important to our rural communities across this 
country. I do think that there is a time to look at the cost of 
some of these rural routes and what the percentage is of 
supplement over what the cost of the ticket is. And I think 
that needs to be considered. I believe that the government and 
Congress and this administration has the right or the necessity 
to fund our rail system, but I do think that as a member of the 
Board of Directors of Amtrak, that we need to do our due 
diligence to find out what we can do to bring down some of 
those subsidies that go to some of these rural lines. But I 
hope that every person in America could have access to train 
service.
    Senator Cortez Masto. And I get the challenge that you are 
going to have. I would like a commitment, though, because there 
are so many parts of rural communities not just in Nevada but 
all across this country, as you well know. And they are 
challenged. They are challenged for transportation to get 
around and transportation to get to services that they need 
whether they be doctors or any other type of service. So I 
would hope I can get at least a commitment that you would be 
willing to work with me on--and I am sure you have heard from 
some of my other colleagues on rural rail service and how we 
still bring that service to our rural communities because that 
sometimes is the only transportation they have to get to 
services they need outside of their communities.
    Mr. Westmoreland. Yes, Senator, I would be willing to work 
with you on that. And if anybody really wants to see this 
country and see the rural side of it, take a train ride across 
the country and you will see a lot of the rural nature.
    Senator Cortez Masto. That is right. Thank you. I 
appreciate that.
    Ms. Furchtgott-Roth, in June 2009, you penned, it looks 
like, a Reuters op-ed and you highlighted a position of 
transitioning gasoline taxes to a form of vehicle miles 
traveled system to fund our roads.
    Ms. Furchtgott-Roth. Yes.
    Senator Cortez Masto. Will you be asserting that position 
in your role if you are to become the Assistant Secretary of 
Transportation?
    Ms. Furchtgott-Roth. My role would just be to oversee 
research that would inform policymakers. It would not have 
anything to do with transitioning to different forms of highway 
financing. We have projects such as at the University of Nevada 
in Reno looking at columns with high-strength steel and 
investigation and design implications of seismic response to 
span bridge systems. So we commission different kinds of 
reports and then those are used to inform policy. The actual 
decisions to policy is up to----
    Senator Cortez Masto. Thank you. It sounds like you have 
done your homework.
    One of the things that you may not know, though, and one of 
my concerns and that I have heard from this administration is 
getting the private sector involved in rebuilding Nevada's 
infrastructure. Although I think there always should be a 
public-private partnership, I am concerned about that private 
partnership taking over infrastructure in many communities 
across the country. And quite honestly, in Nevada there is no 
incentive. In Nevada, it is against the law to have toll roads. 
In Nevada, it is against the law to have fees on some of our 
roads. And so I am curious if you are going to play a role in 
the incentivizing or bringing in that private sector to invest 
in our transportation infrastructure across the country.
    Ms. Furchtgott-Roth. No. That is not the role of the 
Assistant Secretary for Research and Technology.
    Senator Cortez Masto. OK. Thank you. I appreciate that.
    And I know my time is running out. So, gentlemen, I have 
other questions for you, but I will submit those on the record. 
Thank you.
    Senator Blunt. Senator, if you want to stay, there will be 
a second round opportunity here.
    Senator Booker has not taken his first round yet in 
deference to getting everybody else's questions asked. That was 
deeply appreciated by Members who have had to come and go, and 
it is time for some of your questions, Senator.
    Senator Booker. Thank you very much, Mr. Chairman.
    I just want to again echo what everybody is saying. Thank 
you all for putting yourself forward to serve your country. It 
is really something that is very grateful.
    Mr. Martinez, Ms. Furchtgott-Roth, I really appreciate that 
both of you are speaking boldly with New Jersey accents.
    [Laughter.]
    Senator Booker. So real quick, I am going to try to go as 
quickly as I can to mercifully maybe not to have a second 
round. So forgive me if I am abrupt or cutting anybody off.
    But just real quickly, Congressman Westmoreland, I am glad 
that you and I finally get to talk. I am sick of sitting next 
to this man, my Chairman, and having him tell me all the good 
things about you.
    But just real quickly, if we were running our country like 
America, Inc., which we are not, or running like a board of 
directors looking for the biggest return, of all the 
transportation dollars you can spend, a dollar spent on the 
Gateway Program is probably one of the best in terms of returns 
for economic growth in a region that sends so much more money 
to Washington than it gets back. Just about every dollar 
invested in the Gateway Program produces about $4 in expansion 
and economic growth.
    Do you agree that the Gateway Program is critical and needs 
to be built?
    Mr. Westmoreland. Yes, sir. In fact, in my recent study of 
the Gateway project, I am amazed at the infrastructure, some of 
it dating back to the Civil War on some of the tunnels and some 
of the infrastructure that is there. And it has been quite 
amazing to me. In fact, I think that Amtrak, as I have 
expressed, would do a good job of going around and making sure 
that Members of Congress on both the Senate and the House 
understand what that Northeast Corridor does.
    Senator Booker. Sir, I am going to cut you off. If you 
continue talking like that, Chris Christie and I will make you 
an honorary New Jerseyan.
    [Laughter.]
    Senator Booker. Thank you for that answer. That is all I 
wanted to do.
    Mr. Westmoreland. I know I do not have a Jersey accent.
    Senator Booker. It sounds very Jersey to me right now. Keep 
talking the way you are talking.
    So these are some additional rail priorities. Do you 
support increased funding for Amtrak, including Federal support 
for distance passenger rail services?
    Mr. Westmoreland. Sir, I do support the funding for Amtrak 
and making sure that we have a rail system that serves the 
entirety of this country. I do think some of these long 
distance routes need to be looked at to make sure they are the 
best economic policies that we have, and I am sure that Mr. 
Moreland and Mr. Anderson are working hard towards that. They 
brought down the debt. They are bringing up the revenue. They 
are increasing the passengers.
    Senator Booker. I am going to stop you there. You are 
saying all the right things, sir.
    I am going to try to catch you on this one. He and I both 
agree on the importance of positive train control, getting that 
implemented. Is that something that is a priority for you, sir?
    Mr. Westmoreland. Yes, it is. And that is one of the 
reasons that I think I could help the Board. In my experience 
as Subcommittee Chair of Cybersecurity on the House Intel 
Committee, when you start doing cyber stuff to control trains, 
there is a big worry there for me, and we need to make sure 
that that system is safe.
    Senator Booker. I am going to only get through one more 
line of questioning for Mr. Martinez. I want to be deferential 
to Chairman Thune, one of the few Senators who can bench press 
more than I can.
    Real quickly, a speed round for you, sir. Mr. Martinez, 
where are you from, sir?
    Mr. Martinez. Port Monmouth, New Jersey.
    Senator Booker. What state? I am sorry.
    Mr. Martinez. Port Monmouth, New Jersey.
    Senator Booker. Thank you very much.
    Do you believe that fatigue is a serious safety issue that 
should be addressed?
    Mr. Martinez. No question about it, Senator.
    Senator Booker. And that is a priority for you to address 
the fatigue issue?
    Mr. Martinez. Absolutely. It is critical.
    Senator Booker. Thank you very much.
    The electronic logging issue came up with Senator Cruz. You 
said you would support electronic logging devices. Why is that 
important, sir?
    Mr. Martinez. What we have experienced in the past was it 
was paper-based, which means that it was very susceptible to 
fraudulent entries and altered entries.
    Senator Booker. Thank you very much.
    Do you support requiring automatic braking systems to help 
mitigate crashes?
    Mr. Martinez. I believe we should look at all technologies 
that would help safety.
    Senator Booker. What about speed limiters on trucks?
    Mr. Martinez. I think that we have to look at the cost-
benefit analysis on that, but I am willing to look at all 
opinions on it.
    Senator Booker. OK. Minimum insurance has not been changed 
for 30 years. I know in the State of New Jersey, these massive 
accidents happen, and folks just do not have the insurance to 
cover all of it.
    In response to pre-hearing questions, you indicated that 
more data may be necessary to make a determination about 
raising minimum insurance levels. What further data is 
important for you? I am pretty much convinced it just seems 
common sense. Can you just let me know where you stand on that?
    Mr. Martinez. That 30-year number certainly raises my 
eyebrows, but I would really need--it comes down to an economic 
question as well. I would like to get more information with 
regard to the cost of those crashes and whether that is 
sufficient.
    Senator Booker. I will not press you on that because my 
time is about to be out. But I really hope you will look at the 
data.
    And just to finish my line of questions so you do not have 
to deal with me again, in response to pre-hearing questions, 
you said you support making improvements to FMCSA's assessment 
of safety performance of motor carriers and the identification 
of high-risk carriers. What sort of data and metrics do you 
think are necessary there, sir?
    Mr. Martinez. I believe that we have to be a data-driven 
organization. We only have 1,100--and I say ``we.'' If I am 
fortunate enough to be confirmed and join the FMCSA, we rely on 
13,000 partners in the State level who are also stretched. We 
have to be focused in our efforts, and we need data to do that, 
appropriate data to do that.
    Senator Booker. Thank you, sir. And repeat for the record 
one more time what state are you from, sir?
    Mr. Martinez. New Jersey, sir.
    [Laughter.]
    Senator Booker. Thank you.
    Senator Blunt. Chairman Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman.
    I do want to thank all of our panelists here today. You are 
up for some important positions. Congressman Westmoreland, 
welcome back. Nice to have you here. Ms. Furchtgott-Roth, Mr. 
Landsberg, and Mr. Martinez, for your willingness to serve or 
in some cases continue to serve our Nation.
    And thank you, Senator Blunt, for chairing the hearing 
today.
    The Committee once again has a group of very well-qualified 
nominees that have been selected to fill critical positions in 
the Federal Government. If confirmed, each of you is going to 
have an opportunity to bring considerable leadership and 
expertise to your respective positions and to move our Nation 
forward. We have been, on this Committee, active on a wide 
range of transportation-related legislation and oversight. And 
so I wanted to follow up with just a few priorities of mine, 
and I will start with Mr. Martinez.
    Pursuant to the FAST Act, FMCSA is working to update the 
compliance, safety, and accountability, or CSA, program to 
ensure the scores assigned to motor carriers are more reliable 
and reflective of actual risk. In your experience with data 
management, including as the head of New Jersey's Motor Vehicle 
Commission and as New York's Commissioner of Motor Vehicles, 
how best can we utilize and apply reliable data to improve 
motor carrier safety?
    Mr. Martinez. First of all, I agree with the overall thrust 
of this program. The safety data needs to be verifiable and 
supportable, and we need to be using sound science. The key 
thing here is whether the data used to compile the assessments 
is accurate, reliable, and fair, in short, sound science. If 
the data is unreliable, we lose credibility, and we lose 
credibility with our stakeholders. We lose credibility with the 
entities that we regulate. And I think we do a disservice to 
the public.
    If confirmed, it would be my intention to review the recent 
findings of the National Academy of Sciences' report on the CSA 
program and make appropriate changes as recommended to evaluate 
how best we can move forward.
    There is also an effort beyond compliance. That is, we 
should be setting a very high standard that companies should be 
aspiring to, whether it is mandated or incentivized. So that is 
the type of environment that we should be setting forth in this 
country.
    The Chairman. Ms. Furchtgott-Roth, as you know, the FAST 
Act sought to address a data gap in the movement of goods into 
and out of our ports and how those flows connect with the rest 
of the transportation system. Specifically, the FAST Act 
required development of a port performance freight statistics 
program to be informed by a working group composed of the key 
stakeholders to provide recommendations on the data 
measurements used in the metric development process.
    Going forward, do you commit to working closely with the 
working group and across the Department to report robust, 
nationally consistent data and metrics that adequately gauge 
the efficiency and productivity of our ports providing a better 
understanding of our overall transportation network?
    Ms. Furchtgott-Roth. Yes.
    The Chairman. Good. That was easy.
    So this is for Mr. Landsberg. The NTSB plays an important 
role in investigating transportation accidents and promoting 
safety. The last authorization of the NTSB was enacted over 10 
years ago, and I think it is time for this Committee to look at 
reauthorizing the agency, modernizing its investigative tools, 
and increasing transparency as we promote a risk-based, data-
driven approach to safety recommendations. So I look forward to 
collaborating with my colleagues on this committee in 
considering some of those reauthorization ideas.
    Do I have your commitment to work closely with this 
Committee in the development of this proposal and to offer the 
Board's expertise as we evaluate potential improvements to 
existing NTSB authorities?
    Mr. Landsberg. Yes, Mr. Chairman.
    The Chairman. And I have got a little bit of time left. So 
I would like to have perhaps Mr. Landsberg, if you could 
elaborate a little bit. I think perhaps this question or 
discussion came up earlier. Is there anything else that you 
feel it is important to get out and talk about with regard to 
your views on the 1,500 hour flight hour requirement? I 
understand that came up earlier and that you did not get an 
opportunity to give a full answer. So I would like to ask you 
that question directly.
    Mr. Landsberg. Thank you, Mr. Chairman.
    I believe in performance-based regulation as opposed to an 
arbitrary one-size-fits-all rule. And in the case of the Colgan 
3407 accident, which was the genesis of all of this, 4,000 
hours was not enough for the captain of that aircraft to 
perform satisfactorily.
    We have pilots coming from many different backgrounds. The 
military can train pilots in 300 to 500 hours in very high 
performance aircraft with great success. They should be given 
some consideration for that.
    The feed mechanism for pilots, as I said, many different 
sources, and just as doctors, civil engineers, and attorneys do 
not all go to Harvard Law School, they all have to go through 
the same certification process in order to get their 
certificates.
    So I do not want this to be construed as I am not in favor 
of high standards. I am. But I think it becomes--no degradation 
of safety. That is my litmus test that people can meet the 
performance requirements as opposed to just saying, well, you 
have to have 1,500 hours no matter what.
    The Chairman. Mr. Chairman, thank you. Thank you all very 
much.
    Senator Blunt. Thank you, Chairman.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Congressman Westmoreland, in March, a public works official 
was killed when his snowplow was struck by an Amtrak train at a 
rail crossing in Long Meadow, Massachusetts. This tragic event 
marks the fifth death and the seventh collision at that 
location since 1975, making the crossing the deadliest in 
Massachusetts.
    Fortunately, the State and local governments are seeking to 
implement safety improvements at the crossing and have already 
secured over $700,000 in Federal assistance. But to implement 
these safety features, Amtrak, the owner of the rail line, must 
first confirm that the crossing is public, approve a design, 
and construction plan, and may need to contribute a portion of 
the cost.
    So today I sent a letter with Senator Warren and 
Congressman Richie Neal from western Massachusetts calling on 
Amtrak to help to address this matter.
    Congressman Westmoreland, if confirmed, how will you 
address these types of safety issues where the local community 
wants to have action taken?
    Mr. Westmoreland. Thank you, Senator.
    I know that Amtrak has been working with your State and 
local officials and trying to bring some resolution of that 
particular crossing. Crossings are a situation where some of 
them are private, some of them are public. And the funding of 
it has always been, I guess, a confusing issue of who is going 
to pay for it. But I will make a commitment with you to work 
with you on that.
    We also need to look at trespassing across railroad 
property that has led to a lot of deaths also. But safety is 
the biggest concern I think any of us can have with any mode of 
our transportation.
    Senator Markey. Again, I agree with you. Safety is at the 
core of Amtrak's mission, and I think it is absolutely 
imperative that we ensure that this issue and issues like it 
get addressed as quickly as possible.
    Mr. Westmoreland. Yes, sir.
    Senator Markey. On Amtrak funding, a long distance rail 
line runs through the heart of Massachusetts connecting Boston, 
Worcester, Framingham, and Pittsfield and providing my 
constituents with high-quality rail access to major 
destinations including Chicago and Cleveland.
    Regrettably, the Trump administration's budget request 
proposed slashing over $600 million of funding for these 
critical long distance routes. Do you support these types of 
cuts, Congressman Westmoreland?
    Mr. Westmoreland. Well, Senator, I have been around here 
for a while, and I have never known a President's budget to 
pass as submitted. And I am sure with just the concern that I 
have seen from this Committee and I know the concern of some on 
the House Transportation Committee, I doubt that that number 
will be zero.
    What I do agree with the President on is that these routes 
do need to be looked at, and they need to make sure that we are 
doing everything economically possible to make these routes 
more pay for themselves. And so I am all for the funding to 
make this because we do have to have an entire railroad system 
that serves this country. But at the same time, we owe it to 
our taxpayers to make sure that we are doing these routes as 
economically as possible.
    Senator Markey. Well, a cut of $600 million in funding 
actually would make the problem worse. I know that 
Congresswoman Cortez Masto agrees with me on this, that it is 
just something that takes us in the wrong direction, and it is 
something that we are going to fight for to make sure that 
there is full funding in the years ahead.
    And I have one minute left. I would like to ask you, Mr. 
Martinez, a question, which is that businesses and consumers 
should have the right to know the safety records of truck 
companies when selecting which company to use and to help 
Americans make better, safer selections to government used to 
make the safety scores of truck companies available to the 
public.
    Regrettably, a provision in the FAST Act hid these safety 
scores from public view. I am concerned that businesses and 
consumers will find it difficult, if not impossible, to 
identify safe truck companies without the public display of 
those safety scores. And I am also concerned that truck 
companies will have little incentive to improve their safety 
records if the scores are not made public.
    Mr. Martinez, how will you ensure that full safety scores 
will again one day be made publicly available?
    Mr. Martinez. Senator, thank you for that question.
    I am an advocate for transparency. Certainly on the State 
level where I have specific oversight over school buses, we 
have a report card that we do where we are transparent with 
regard to the reports of our inspections. But the data does 
have to be accurate in order to be effective for the consumer 
to use and also to be fair for the industries that are 
regulated.
    I look forward, if confirmed, to working with the FMCSA 
staff to see what they have, what they are working on and 
working with your staff to see how best we can achieve the goal 
of transparency and reporting.
    Senator Markey. Yes. It is absolutely imperative that these 
safety scores are made available. Then the public can decide. 
And ultimately that is really the way the marketplace should 
work. The public sees a company is not doing their job. Then 
they can just move over to another company. So transparency is 
key.
    Senator Blunt. Thank you, Senator Markey.
    Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman.
    I will be focusing my questions on a topic that my 
colleagues on this Committee have heard me discuss multiple 
times before: domestic content preferences, commonly called Buy 
America.
    Ms. Furchtgott-Roth, in 2009, you wrote that Buy America 
preferences in the stimulus bill would invite a trade war. 
Thankfully, we can say that this trade war did not come to 
pass. In fact, a recent GAO report that I requested found that 
the U.S. procurement market is the most open in the world, 
offering more access than the next five largest partners 
combined.
    I am curious to know if you still believe that enforcing or 
strengthening our Nation's Buy America rules will invite a 
trade war?
    Ms. Furchtgott-Roth. Well, first, this is not within the 
purview of the Assistant Secretary for Research. And you know, 
data have shown that what I wrote was not correct. So no. The 
answer is no, it would not invite a trade war. When the data 
change, I change my mind.
    Senator Baldwin. OK. So I want to get into a little bit 
more specifics on this. President Trump has frequently said 
that he supports Buy America policies, issuing a Buy America 
executive order and promising an infrastructure plan for 
Congress that will be guided by a buy American and hire 
American principle.
    If confirmed, you will be working with Secretary Chao, 
President Trump, and Congress on infrastructure legislation. 
Yet, you have written that you strongly oppose Buy America 
policies. Do you support Congress and the President working 
together to strengthen Buy America policies in infrastructure 
legislation? Yes or no?
    Ms. Furchtgott-Roth. Yes.
    Senator Baldwin. What specific Buy America infrastructure 
policies and reforms would you suggest for the President's 
infrastructure plan?
    Ms. Furchtgott-Roth. I have not yet been at the Department, 
and I have not seen an infrastructure plan. And so I do not 
have any comments on what the infrastructure plan is right now 
or how it could be improved.
    Senator Baldwin. Well, let me give you a couple of examples 
of pending legislation. Do you support my legislation to make 
permanent a requirement that water infrastructure projects 
should be made, when possible, with American iron and steel?
    Ms. Furchtgott-Roth. Yes.
    Senator Baldwin. Do you support changing the definition of 
``Buy America'' to increase the amount of American-made content 
required to be considered Buy America, as Senator Stabenow's 
Make It in America Act would do?
    Ms. Furchtgott-Roth. Yes.
    Senator Baldwin. And do you support cracking down on 
waivers that make it too easy for foreign companies to get 
around Buy America requirements?
    Ms. Furchtgott-Roth. Yes.
    Senator Baldwin. Thank you.
    Senator Blunt. Thank you, Senator Baldwin.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And to each of our witnesses today, thank you for your 
willingness to serve the American people in the capacity you 
have been nominated for. I appreciate that.
    Mr. Westmoreland, it has been more than 2 years since the 
tragic Amtrak 188 derailment which the National Transportation 
Safety Board found could have been entirely prevented if the 
rail line was equipped with positive train control, as you 
know. With the deadline approaching to fully implement positive 
train control by December 31, 2018, I would just like to get 
your thoughts on that, and will you commit to make sure that 
Amtrak and other railroads meet their commitments under that 
provision?
    Mr. Westmoreland. Absolutely, sir. As I have stated before, 
safety should be the number one priority of any of our modes of 
transportation in this country.
    The positive train control on the Amtrak lines is 
implemented. We have that. There have been some problems with 
some of the other rail lines about interconnectivity of this, 
and they are working very hard to do it. Amtrak is doing their 
part, and hopefully we will continue to work with these 
partners to make sure that it is fully implemented by December 
2018.
    Senator Peters. If confirmed, I appreciate your focus on 
this issue going forward.
    Mr. Westmoreland. Yes, sir.
    Senator Peters. Thank you.
    Ms. Furchtgott, I was concerned with some of your past 
remarks that you have made. Certainly I was concerned about 
your Buy America comments in particular, and I appreciate 
Senator Baldwin focusing her questioning on that issue because 
it is incredibly important that we think about American workers 
and American jobs first, and we always put American workers at 
the head of the line.
    But I was also concerned about some of your past remarks 
about the state of the environment and the climate, where you 
have continued to propagate climate denier arguments and you 
have echoed criticisms of corporate average fuel economy 
standards for automobiles even though those arguments have been 
pretty routinely debunked.
    If confirmed, you will be in charge of running a research 
operation that must uphold the integrity, as well as the 
impartiality of transportation statistical data. I helped 
introduce the Scientific Integrity Act at the beginning of this 
Congress with the Ranking Member of this Committee, Senator 
Nelson, as well as 26 other Senators, due to our concern that 
this administration could seek to suppress scientific findings 
because the results may not fit their particular ideology or 
their political agenda.
    If confirmed, will you commit to ensuring that the 
researchers working under your supervision will be allowed to 
communicate their findings with the public, the press, and 
Congress?
    Ms. Furchtgott-Roth. Yes.
    Senator Peters. If confirmed, will you uphold the principle 
of open communication of scientific findings and prevent the 
suppression of scientific findings?
    Ms. Furchtgott-Roth. Yes. I have the utmost respect for Pat 
Hu, head of the Bureau of Transportation Statistics, and Rolf 
Schmitt, the Deputy Director of the Bureau of Transportation 
Statistics. They do excellent studies which are routinely 
published outside.
    Senator Peters. Great.
    I have also heard directly from engineers at American 
automakers who believe that the best drivetrain for self-
driving cars will be electric. We are expecting a 
transformation of the auto industry, as you know, with self-
driving vehicles, it will be revolutionary, that will likely 
all be powered with electricity if the engineers have their 
way. But that also means, if that is the case, we are going to 
have some infrastructure challenges that could impede the 
development of conventional electric vehicles. So I am hopeful 
that one day we will be able to realize this potential. But I 
want to know what role will the research arm of the Department 
of Transportation play in helping our country enable the 
development and the deployment of these technologies?
    Ms. Furchtgott-Roth. I would hope that should I be honored 
being confirmed, I could work with you on specific research 
projects in these areas. It is very important that research be 
done on electric vehicles and autonomous vehicles, including 
safety, in order to inform the policymaking process.
    Senator Peters. So because as you mentioned, the incredible 
safety advantages, we have to deploy them as quickly as 
possible, and they are coming a whole lot quicker than I think 
the American public realizes. That means the research needs to 
be accelerated as well, and I hope that would be something you 
would focus on.
    Ms. Furchtgott-Roth. Definitely, yes. Yes. There is 
actually research on--the University of Michigan is a lead on 
promoting safety, and there is a project at Washtenaw Community 
College.
    Senator Peters. Well, I appreciate you mentioning those two 
great institutions from Michigan. Thank you. You have obviously 
done your homework, ma'am. Thank you.
    The President reportedly told a group of lawmakers in 2017 
that public-private partnerships in infrastructure are, ``more 
trouble than they are worth.'' And in 2014, you seemed to agree 
by saying that ``public-private partnerships are no substitute 
for serious transportation policy.'' However, I have heard you 
praising them recently. Where are you on public-private 
partnerships?
    Ms. Furchtgott-Roth. Well, there are different kinds of 
public-private partnerships, how much the private sector is 
involved, how much the public sector is involved. And it is not 
really a matter of the Assistant Secretary for Research, and I 
would support whatever Secretary Chao wanted to do with 
private-public partnerships and give her whatever research she 
needed.
    Senator Peters. Thank you.
    Senator Blunt. Thank you, Senator.
    We will start a second round of questions that will be 
interrupted only if people come back who have not asked their 
first round of questions yet.
    Mr. Martinez, this Committee through the FAST Act has 
really worked to try to focus reforming the regulatory process 
where it would be more data-driven than it has been in the 
past. Do you have any thoughts on how we could better use data 
to determine whether a regulation was needed or whether a 
regulation was working?
    Mr. Martinez. It is critical for the efficient use of our 
resources to use good data and to use good models and 
approaches. And so everything that my fellow nominee has been 
saying is music to my ears.
    On the State level, we relied on gathering data from our 
counties and we still do--crash data--because of the limited 
resources that we have for enforcement and education to focus 
where the problem is. And the same thing goes with regard to 
the FMCSA that we look for problem operators and we would look 
for problem drivers. And the only way we can get to that is 
with using good data.
    Senator Blunt. Well, what about the cumulative impact of 
regulation generally? How do you analyze whether one regulation 
is making it harder to comply with the other one? How do you 
use data in that area?
    Mr. Martinez. We do see that sometimes they bump up against 
each other. What I would look forward to is working with my 
colleagues at the DOT, should I be fortunate enough to join 
them, and with members of your staff to see how we could 
streamline that so that we could be more efficient and not have 
that occur.
    Senator Blunt. Ms. Furchtgott-Roth, one issue that has not 
come up today really is the port issue. A third of the economy 
is tied to trade one way or another. I think as world food 
demand increases dramatically over the next 25 years or so, the 
inland ports become more important.
    The Department really has not come up with effective ways 
to evaluate either inland or other port traffic. Would you talk 
about what we could do to get that information to where it is 
more usable and more understandable as it relates to the rest 
of transportation?
    Ms. Furchtgott-Roth. There is an annual port performance 
report, and I understand the Bureau of Transportation 
Statistics is adding to it the time spent in ports. Should I 
have the honor of being confirmed, I would hope I could work 
with you on further adding to that particular port performance 
report so that it can inform policymaking.
    Senator Blunt. Well, I think it definitely needs to be 
added to. I think the metrics are not what they need to be for 
us to really use that or for the Department to use it or for 
the affected ports to use it.
    Ms. Furchtgott-Roth. Exactly.
    Senator Blunt. And I would suggest that was an important 
area for you to look at how we can use our research and data 
collection in a greater way.
    Senator Booker.
    Senator Booker. If there is nobody else that wants to ask a 
second round, except with Senator Blumenthal, I will follow up 
with a few more questions. But if you would allow for me to 
defer to Senator Blumenthal.
    Senator Blunt. Well, Senator Blumenthal, and as others come 
back or stay, we will give them a chance also. But, Senator, go 
ahead.
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman.
    Congressman Westmoreland, I know you have been asked about 
your votes against Amtrak funding. Maybe you can explain why 
you opposed I think just about every Federal dollar going into 
Amtrak?
    Mr. Westmoreland. Well, I do not know that I opposed all 
Amtrak funding because I did vote for the final passage of 
these bills. What I did vote for was some amendments that would 
hold Amtrak more accountable for the way they were spending 
some of their money. And I think that is all of our 
responsibility as this Congress is really an oversight of these 
Federal agencies. I will say that if you look at some of those 
votes, I was not by myself and how I voted with some of the 
members on this Committee.
    But, Senator Blumenthal, the one thing I realize is that we 
have to fund Amtrak. And I think it is the Board of Directors' 
responsibility to make sure that the things that we are funding 
and the things the government is funding for Amtrak is the best 
use of our tax dollars.
    Senator Blumenthal. Why did you vote to cut funding for 
Amtrak?
    Mr. Westmoreland. Well, it was cut funding in certain 
areas. Some of those areas were on long distance routes where 
we were subsidizing the price of a ticket twice as much as the 
ticket cost the passenger. And I do think in instances like 
that I was accountable to my constituents, and I represented a 
very conservative district in Georgia, to explain to them that 
they were going to get on the train and go to Chicago or to New 
York or to Washington, D.C., why in the world they were not 
subsidizing their fare like they were subsidizing other fares.
    Senator Blumenthal. Will you commit to support increases in 
Amtrak funding?
    Mr. Westmoreland. Yes, sir. In fact, I will declare right 
now that when this infrastructure bill passes--and I do believe 
we will have an infrastructure bill passed--I am going to do 
everything I can to fight for the money to update the 
infrastructure that we have on our rail system. I have been 
appalled to look at some of the information we have of the age 
and the condition of some of the rail----
    Senator Blumenthal. You would oppose any attempts by the 
President to cut Amtrak funding?
    Mr. Westmoreland. Yes, sir, I would.
    Senator Blumenthal. And you would support efforts to 
install positive train control throughout the system?
    Mr. Westmoreland. Absolutely. In fact, Amtrak on the part 
of the lines that they own--the PTO has been installed, and 
they are working right now to make sure there is the 
interconnectivity between the other lines and the other 
railroads to make sure that we can complete this by the 
December 18 date.
    Senator Blumenthal. I want to ask you about a couple of 
your positions just to give you an opportunity to explain them 
in the event that they arise between now and the time of the 
vote.
    You fought vigorously against the Emmett Till Act, a bill 
that provided Department of Justice resources necessary to 
pursue prosecutions against anyone who might be lynched and 
murdered during the civil rights era. You were one of two in 
the House to oppose that bill.
    You also opposed the Voting Rights Act.
    Perhaps you can explain those two votes.
    Mr. Westmoreland. Yes, sir. The Emmett Till vote was for 
the FBI to go back and reopen investigations prior to 1970. I 
thought the money could much better be spent on investigating 
things that were happening right now. Hopefully, the people 
that happened before 1970 could be handled accordingly, but I 
did not see setting up a whole new unit just to hound those 
cases that had been done prior to 1970.
    As far as the Voting Rights Act, I come from a Southern 
State, and I feel like that it has not been fair to us and the 
progress that we have shown with our elections and our 
abilities to hold fair elections. And what I was trying to do 
in opposing the Voting Rights Act was to make sure that this 
whole country was under a Voting Rights Act.
    I also fought against the section 5 portion of it, which 
the Supreme Court eventually overturned, because I thought some 
of the things that were being inferred to southern states 
happened in the 1968 election. A lot of things have changed 
since the 1968 election. And you cannot use data from an 
election that is 50 years old to make your assumption about 
what the Voting Rights Act should be today.
    Senator Blumenthal. Have you supported Confederate symbols?
    Mr. Westmoreland. Have I supported them?
    Senator Blumenthal. Yes, sir.
    Mr. Westmoreland. In what way would I support them? I mean, 
I think it is very proper that people can recognize their 
heritage. My great grandfather joined the Confederacy when he 
was 82 years old so he could go with his two sons. And so I do 
respect the heritage that my family has had with the 
Confederacy and that the honor they served in being part of the 
state that made a decision. So I am proud of my heritage.
    Senator Blumenthal. But you would not advocate for use of 
Confederate symbols at any point on the routes of Amtrak?
    Mr. Westmoreland. No. I do think that is in Amtrak's 
purview. But I do not see that happening.
    Senator Blumenthal. Thank you.
    Mr. Westmoreland. Yes, sir.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair.
    And just briefly to Mr. Westmoreland, I will add my 
concerns to those that I understand other Committee Members 
have expressed. I am a longtime supporter of Amtrak. I have 
been trying to work to get it into my state. So I am concerned 
and just want the record to note my concern about your record 
of voting to eliminate all Amtrak funding.
    I did want to move on to Mr. Martinez. I wanted to thank 
you, sir, for meeting with me in my office regarding your 
confirmation. And I would like to address some of the issues we 
discussed just to get them on the public record.
    Could you describe, please, how you will work to ensure 
that FMCSA works closely with State legislators and how states 
can collaborate with FMCSA as you carry out the duties of this 
role?
    Mr. Martinez. Thank you, Senator. As you are aware, the 
FMCSA works closely with our 13,000 State partners. As a former 
Governor, you are well aware of that. And as a State 
stakeholder right now, that is currently what I do. I act on 
FMCSA's behalf to ensure that the citizens and motorists in New 
Jersey are safe. I have an open door policy, and I believe it 
is critical that we have a good working relationship.
    Senator Hassan. Well, thank you. This may be a given but 
just again for the record. Will you ensure for this Committee 
that, if confirmed, safety will remain a top priority for this 
agency?
    Mr. Martinez. Everything that we do should be viewed 
through the lens of safety.
    Senator Hassan. Thank you.
    Ms. Furchtgott-Roth, good morning.
    Ms. Furchtgott-Roth. Good morning.
    Senator Hassan. Almost afternoon.
    On the topic of sexual harassment in the workplace, you 
have written that you do not support labeling behaviors such as 
leering and making suggestive remarks as forms of sexual 
harassment, even saying that, ``feminists who cry wolf with 
regard to harassment and violence will eventually face a public 
skeptical of any of their claims about violence.''
    You further state that measures taken to prevent sexual 
harassment that create a hostile work environment mean that, 
``relationships between men and women in the workplace 
inevitably suffer.'' And you suggest that it is prudent for 
male employees in positions of authority to avoid interacting 
with female colleagues in order to avoid claims of sexual 
harassment.
    These statements raise serious concerns about how you will 
respond as a manager to any sexual harassment charges among 
your employees. Given these statements, what assurances can you 
provide us that you will properly address any accusations of 
harassment?
    Ms. Furchtgott-Roth. Well, I would follow the law. And 
there is an office of civil rights within the Department, and I 
would fully support the office of civil rights.
    Senator Hassan. And will you ensure a work environment that 
is safe and productive for all employees regardless of gender?
    Ms. Furchtgott-Roth. Definitely, yes.
    Senator Hassan. Well, thank you.
    I would just note that when there are suggestions that male 
supervisors should never meet with female subordinates alone, 
it obviously puts those female subordinates at a career 
disadvantage if they cannot have the same kind of one-on-one 
relationship with their supervisors that men can. So you can 
understand how that kind of statement and perspective concerns 
a lot of us.
    And to that end, without objection, I would like to submit 
a statement of opposition to the nomination of Ms. Furchtgott-
Roth from the National Women's Law Center.
    Senator Blunt. Without objection.
    [The information referred to follows:]

               National Women's Law Center Press Release

 NWLC Expresses Deep Concern at Nomination of Diana Furchtgott-Roth to 
       Department of Transportation Assistant Secretary Position

                       Posted on October 27, 2017

    (Washington, D.C.) On October 31, 2017, the Senate Committee on 
Commerce, Science, and Transportation is scheduled to hold its 
confirmation hearing for Diana Furchtgott-Roth as Assistant Secretary 
for Research and Technology at the U.S. Department of Transportation.
    The following is a statement by Emily Martin, General Counsel and 
Vice President for Workplace Justice at the National Women's Law 
Center:

    ``The National Women's Law Center has serious concerns about the 
nomination of Diana Furchtgott-Roth to serve as Assistant Secretary for 
Research and Technology for the U.S. Department of Transportation. 
Furchtgott-Roth routinely distorts data to argue against legal 
protections for women's rights at work and elsewhere. Furchtgott-Roth 
argues there is no gender wage gap and that it is unnecessary to 
strengthen equal pay laws or improve enforcement of existing laws-
despite the undeniable fact that gender gaps appear in almost every 
occupation even when correcting for factors such as education and 
experience. She has asserted sexual harassment laws breed ``employer 
overreaction,'' and implied that workplace sexual harassment is over-
reported, despite significant data indicating that the majority of 
women who experience sexual harassment never make a formal complaint. 
Top research positions in our government should be filled by public 
servants who are committed to principled, rigorous analysis. 
Unfortunately, Furchtgott-Roth's record shows she is far too ready to 
offer up political ideology in place of this analytical work.''

    Senator Hassan. Thank you, and I yield back my time.
    Senator Blunt. Senator Cortez Masto or Senator Booker?
    Senator Booker. I am going to make this brief. I just have 
one line of questioning for Ms. Furchtgott-Roth. I think you 
pointed out that your child is going to college in which state?
    Ms. Furchtgott-Roth. I have two children, two voters in New 
Jersey, and they are both here in the audience.
    Senator Booker. Thank you very much. Would the New Jersey 
student please identify himself? Both of them. Thank you very 
much for being here, gentlemen. You make fine choices with 
where you get your education.
    Mr. Landsberg, I apologize. I will have no questions for 
you during this hearing. It does not mean I do not like you. It 
is just that you have no New Jersey connection whatsoever.
    [Laughter.]
    Mr. Landsberg. I am sorry, sir. Well, I have friends in New 
Jersey.
    Senator Blunt. Maybe you do have some questions.
    [Laughter.]
    Mr. Landsberg. And some of the best air traffic control 
occurs in New Jersey.
    Senator Booker. I appreciate that prodigious pandering. 
Thank you very much.
    [Laughter.]
    Senator Booker. Ms. Furchtgott-Roth, thank you again. And I 
know it has been a long afternoon, and this will be as briefly 
as possible.
    In your questionnaire to the Committee, you talked a lot 
about rebuilding infrastructure, and I am really grateful for 
that. I just want to drill down on just some specifics because 
as somebody who was a former Mayor, I believe in public-private 
partnerships, any way to get it done, get it built, get it 
made. And I know you share that commitment and the role that 
the private sector can play. In my city it helped us get the 
first hotel built in 4 years. Finding public-private 
partnerships helped us to build infrastructure, create jobs, 
turn a city around that literally now we are growing in 
population. So I know we share those values.
    I do have some concern about infrastructure funding that is 
in areas where there really is not a private sector potential 
and the idea that in some areas where there is really no way 
for the Department to recoup but still for rural areas, it is 
still important that they get access to things like rail, for 
example. You would agree with that. Right?
    Ms. Furchtgott-Roth. Yes.
    Senator Booker. And as we contemplate massive 
infrastructure spending efforts here, some of that is going to 
have to be direct government funding. Do you agree with that?
    Ms. Furchtgott-Roth. Yes, yes. And in fact, one of the 
research projects funded by the Assistant Secretary is at 
Rutgers University dealing with mobility and these kinds of 
issues.
    Senator Booker. OK. Thank you for dropping Rutgers 
University in there. It is always helpful with your answers.
    And so President Trump has said we can put millions of 
people to work rebuilding our infrastructure. Do you agree with 
that, that infrastructure actually creates jobs as well? 
Correct?
    Ms. Furchtgott-Roth. Definitely, yes, yes.
    Senator Booker. And so there is a multiplier effect if we 
are looking at economics, that if you put a dollar into 
infrastructure, it can create--studies I have seen--and you 
have probably looked at more of the research than I have. In 
the Gateway Region, a dollar produces $4 in economic 
development. I have seen studies that show a dollar invested in 
infrastructure produces about $2 in returns.
    Ms. Furchtgott-Roth. It produces returns that enables 
people to get to their jobs. It enables more development in 
that particular area. We can see it with airports when private 
stores operate in airports like they do at a mall.
    Senator Booker. Right. And that is why Republican President 
Eisenhower did the National Highway Program with tremendous 
Federal investments, to the tune of about a trillion dollars in 
today's dollars. It has produced perhaps some of the greatest 
economic growth on the planet earth. Correct?
    Ms. Furchtgott-Roth. Correct, yes.
    Senator Booker. And it is problematic that we have gone 
from the highest ranking infrastructure on the planet earth to 
now most engineering associations, nationally, internationally, 
rank us out of the top 10 in terms of crumbling, decaying 
infrastructure.
    Ms. Furchtgott-Roth. It is very, very troubling.
    Senator Booker. I really appreciate your loyalty and 
commitment to data.
    I just want to give you a chance to elaborate on some of 
the answers. And I just want to give you the chance on General 
Schatz. He is not a general. Senator Schatz.
    Senator Blunt. Are you going to tell him he is not a 
general?
    Senator Booker. I will definitely tell him. He does not 
bench press more than I do.
    [Laughter.]
    Senator Booker. He asked questions about you, and you 
responded that there were some new facts that changed your mind 
on transportation funding. He was drilling down on that just 
devolve it all to the states versus having direct Federal 
spending. Can you just elaborate in response to his 
questioning? I will just give you a little more space to do 
that.
    Ms. Furchtgott-Roth. Yes. Well, first of all, this is a 
question for Congress to decide rather than for an Assistant 
Secretary for Research.
    I was trying to make a point that if states had more 
flexibility with their highway trust funds, they could make the 
dollars go further so that if they had more control over how 
these funds were spent.
    Senator Booker. OK.
    But you understand that Congress' role is about how it is 
done. Right?
    Ms. Furchtgott-Roth. Definitely.
    Senator Booker. I really appreciate you saying that.
    And the last thing I want to say because I have read a lot 
of your writing, and I think that you are one of those 
academics who--and we were actually talking about this up here, 
not that this has not been the most exciting hearing of my 
life, but about just how you seem to want to follow the data, 
data first, and then form opinions based on the data. And I 
really appreciate you saying that for the record.
    And I just want to say this. I got a lot of flags from 
different labor groups. I am going to submit some of the labor 
concerns for the record.
    But you and I know about trends going on in the United 
States' economy right now, and one of those is that in the 
1960s, if you had a full-time job and you were paid minimum 
wage. It is the equivalent of about making $20 an hour today. 
So back then, if you were willing to work hard in America, 
America worked for you. The problem is we have an economy--
because you and I both love technology and innovation, and I am 
one of those people that has used this Committee to talk about 
over-regulation and things like the drone industry. It was 
crazy that in France, they were doing so much more with drones 
before we would even issue permits for drones to do anything 
more than film movies, which was outrageous to me. If the FAA 
was around during the time of Orville and Wilbur Wright, we 
might not have even gotten off the ground, for crying out loud.
    But one thing that is happening in this world of increasing 
technology is this changing the nature of work. And we have a 
lot of folks out in America now that are working full-time jobs 
finding extra shifts where they can, and they still find 
themselves at or below the poverty line, having to rely on the 
social safety net, food stamps, like people in my city, food 
stamps. They rely on Medicaid. They rely on public housing. But 
yet, they are working just as hard as those folks back in the 
1960s, but the economy is not working for them.
    And I have looked at data and analysis. And you have to 
understand. You know me as a former mayor. We have some shared 
history. I fought with brass knuckles to try to get the best 
deal for my taxpayers, which meant that sometimes I had unions 
out protesting in front of city hall protesting me. But I have 
just looked at the data. And people who are a union janitor 
versus a non-union janitor--in fact, the New York Times did a 
great article. I wish I could be quoting the Washington Post--
excuse me. The Wall Street Journal might be more respected by 
my colleague. But they did a great analysis of a janitor that 
worked for Apple versus a Janitor that worked for Kodak. You 
probably saw the article. And the data basically shows that 
people that have union jobs, the same job, versus somebody that 
does not tend to make a living wage versus a significant 
lowering of income. Have you seen that data? Am I wrong in that 
analysis?
    Ms. Furchtgott-Roth. You are correct, yes.
    Senator Booker. So that is why some of the things that the 
language--and I will submit it for the record. But I really 
respect you as an academic--that some of the language you have 
said about unions in the past has been troubling to a lot of 
people at least on this side of the dais. And I just want to 
say that for the record.
    But I am really encouraged by your willingness to look at 
that. We in America have a real problem right now. Almost 50 
percent--not all--the data shows, are working in jobs in 
America that make $15 an hour or less. We have a situation 
where in the baby boomer generation, by the time that baby 
boomers were 30, 90 percent were making more money than their 
parents. I am very sad that my generation, the X-geners, that 
we see now that trend really declining sharply, that the data 
shows that if you were born in 1980, by the time you are 30, 
only 60 percent are doing better than their parents. And it is 
getting worse because of the changing nature of work.
    We can have a discussion because this is my belief is that 
right now unions are the bulwark between the sliding of wages, 
while we see the gains in this economy going increasingly 
toward the highest wage workers. So I just want to say that to 
you in this open hearing.
    I am actually confident that you are one of those people I 
can reach out to. We are going to have more conversations.
    But I just want to say that my colleague here, the Chairman 
of this Committee, has been incredibly respectful, run a good 
hearing. I think I have now strained his patience, and I am 
going to end my remarks. But I want to thank everyone here.
    Senator Blunt. My patience continues, and thanks for your 
comments.
    Thanks to all of the people who have appeared today and to 
your family for coming with you and to those others who are 
here to support you.
    Senator Booker has mentioned a couple of times questions 
for the record. It is our hope that each of you will be before 
the Committee for our markup decisions on really the next 
hearing. So the record will remain open through Thursday, 
November 2, for questions to be submitted. During this time, 
Senators will be able to do that.
    Upon the receipt of those questions, nominees need to 
respond as quickly as possible, but no later than the close of 
business on Monday, November 6. And if there are outstanding 
questions, unlikely that you would be one of the nominees that 
we would be able to move on at the next markup. But I think 
that will not happen. We hope to move each of these nominees 
quickly.
    We are grateful that you are willing to serve, grateful for 
the service that each of you have given in the past, and look 
forward to your service in the future.
    And with that, this hearing is concluded.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

                             American Trucking Associations
                                  Arlington, VA, September 29, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the American Trucking Associations (ATA), I write to 
express the associations' strong support for the nomination of Raymond 
Martinez to be Administrator of the Federal Motor Carrier Safety 
Administration (FMCSA). Mr. Martinez has a strong understanding of the 
trucking industry and exudes the kind of professionalism, integrity, 
and focus on safety that FMCSA needs. We encourage the Committee to 
support his nomination to this critical role.
    ATA is the Nation's preeminent organization representing the 
interests of the U.S. trucking industry, encompassing more than 30,000 
companies and every type and class of motor carrier operation. Within 
that role, ATA consistently advocates for the increased safety of our 
Nation's roads and bridges as a top priority for the trucking industry. 
In fact, ATA has determined that the industry invests at least $9.5 
billion annually in safety. These investments include technologies on 
the truck such as collision avoidance systems, electronic logging 
devices for driver hours of service compliance, and video event 
recorders. They also include driver safety training, driver safety 
incentive pay, and compliance with safety regulations.
    As FMCSA Administrator, Mr. Martinez would work directly with 
legislators, law enforcement, and the industry to improve highway 
safety for commercial motor vehicles. Given his extensive experience--
currently serving as the Chairman and Chief Administrator of the New 
Jersey Motor Vehicle Commission, and previously as the Commissioner of 
the New York State Department of Motor Vehicles--we are confident that 
Mr. Martinez is prepared to work hand-in-glove with the trucking 
industry to ensure the safety of our motoring public.
    ATA looks forward to working closely with Mr. Martinez, FMCSA, and 
the Committee on important highway safety issues, and asks that you 
move ahead confidently with the approval of his nomination.
            Sincerely,
                                               Chris Spear,
                                                 President and CEO,
                                        American Trucking Associations.

Cc: Members of the Senate Committee on Commerce, Science, and 
            Transportation
                                 ______
                                 
                                                   November 2, 2017

Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Thune,

    I am writing in strong support of the nomination of Diana 
Furtchgott-Roth to be Assistant Secretary for Research and Technology 
at the Department of Transportation. I have had the pleasure of getting 
to know Diana through her work with the Shadow Open Market Committee, 
which I became a member of early this year. She quickly caught my 
attention with her unusually incisive questions and ability to shift 
seamlessly between her roles as organizer, convener, and contributor to 
the meetings. That motivated me to read some of her publications, which 
I found to be well-reasoned and fair. Clearly her background working as 
Chief of Staff for the Council of Economic Advisers and Chief Economist 
for the Labor Department is excellent preparation for productively 
managing the researchers at DOT. Both of those organizations also are 
well known for the quality and impartiality of their research, and I am 
sure she would bring those values to this job as well. In sum, I don't 
think it would be possible to find a more suitable candidate for this 
position.
    Please feel free to contact me if I can be of further assistance in 
this regard.
            Sincerely,
                                             Deborah Lucas,
                 Sloan Distinguished Professor of Finance Director,
                               MIT Golub Center for Finance and Policy.
                                 ______
                                 
                           The University of Michigan-Flint
                                        Flint, MI, November 3, 2017

Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
  
Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

RE: Letter of Support for Diana Furchtgott-Roth

Dear Senators Thune and Nelson:

    I am writing this letter to express my strong support for Diana 
Furchtgott-Roth who has been nominated for the position of Assistant 
Secretary for Research and Technology at the Department of 
Transportation. I have been familiar with Diana's research and writing 
for almost 20 years, going back to the late 1990s when I read her 1998 
book ``Women's Figures: An Illustrated Guide to the Economic Progress 
of Women in America.'' At that time, I was very impressed with Diana's 
well-research, detailed analysis of the economic progress of women in 
America, which included many dozens of detailed tables, charts, graphs 
and figures. I still have a copy of that book on my bookshelf, and 
occasionally refer to it. Fortunately, there is an updated 2012 version 
of Diana's book, and I was one of the reviewers of that updated version 
for The American Enterprise Institute.
    In addition to being affiliated with the University of Michigan for 
more than 20 years, now as a full professor of economics at the Flint 
campus, I have also been affiliated with The American Enterprise 
Institute (AEI) for almost the last ten years, as an economist and 
scholar. It was in my role as a scholar at AEI that I had the 
opportunity in 2012 to review Diana's updated version of her book 
``Women's Figures'' and was again impressed with her attention to 
detail, and her graphical representation of economic data relating to 
the economic progress of women in America.
    Having spent much of the last nine years living in Washington, 
D.C., I have had many occasions to meet Diana Furchtgott-Roth in 
person, have attended several of Diana's speaking engagements, and have 
read her many op-eds and articles. I also had the opportunity to spend 
almost a week with Diana in Israel in 2015 at a conference sponsored by 
The Friedberg Economics Institute, which invited both of us to be 
speakers for an invitation-only conference for talented college 
students.
    Therefore, I am very familiar with Diana both on a professional and 
personal basis over a period to time spanning several decades. As a 
fellow economist, I would rate Diana's research and writing skills as 
first-rate, and she is also a person of the highest level of 
professional and personal integrity. If she is approved as Assistant 
Secretary for Research and Technology at the Department of 
Transportation, I am confident that Diana Furchtgott-Roth will serve 
the public and the Department of Transportation as a very competent and 
experienced researcher/economist, as a dedicated public servant, and as 
a person of the highest integrity and character.
            Sincerely,
                                      Mark J. Perry, Ph.D.,
                                Professor of Economics and Finance,
                                          University of Michigan-Flint.
                                 ______
                                 
                         University of California, Berkeley
                                     Berkeley, CA, November 4, 2017
Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Thune,

    I am writing in support of Diana Furchtgott-Roth's nomination to be 
Assistant Secretary for Research and Technology at the Department of 
Transportation.
    As a Berkeley professor of social welfare and Co-editor-in-Chief of 
the Oxford University Press Series on International Social Policy, I am 
familiar with Ms. Furchtgott-Roth's accomplishments as a researcher and 
policy scholar. In her work on a volume for our OUP series she 
recruited a distinguished group of economists representing a refreshing 
mix of progressive and conservative orientations. And, more generally, 
I've been impressed by her thoughtful and bracing analyses of 
statistics on sensitive topics such as sexual assault and gender wage 
gaps. Ms Furchtgott-Roth is a policy analyst with a healthy 
intellectual appreciation for diverse perspectives and fearless respect 
for empirical evidence--qualities that are imminently suited for an 
Assistant Secretary of Research and Technology.
            Sincerely,
                                              Neil Gilbert,
                                Chemin Professor of Social Welfare.
                                 ______
                                 
                                     University of Maryland
                                                   November 6, 2017
Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
  
Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    It is my honor to write in support of the nomination of Diana 
Furchtgott-Roth to be Assistant Secretary for Research and Technology 
at the Department of Transportation.
    I am a professor at the University of Maryland School of Public 
Policy and a Senior Fellow at the Atlantic Council. I was a president, 
vice president, and director of international conferences of the 
Association for Public Policy Analysis and Management. I have also been 
a senior scholar at both the Brookings Institution and the American 
Enterprise Institute. In addition, I have taught law at New York 
University, Georgetown University, and the College of William and Mary.
    I have known Diana for more than twenty years, read many of her 
publications, and attended many meetings where she presented. Many 
would describe her as a conservative analyst. In fact, she would 
probably do so herself. These days in Washington, that leads many on 
the left to challenge an analyst's bona fides.
    Invariably, I found Diana to be an exceptional scholar and gracious 
colleague.
    As the first director of the U.S. National Center on Child Abuse 
and Neglect, I worked extensively on the issue of child sexual abuse. 
That, in turn, led me to study sexual harassment, assault, and rape. 
These are serious social problems finally gaining the attention they 
require. Nevertheless, it is too easy to let sincere concern for 
victims create an exaggerated view of the nature and extent of the 
problem. While some may disagree with Diana's exact findings, I have no 
doubt that her research and that of others has provided a needed note 
of caution to the policy process.
    The same is true of her work on income and earnings, of women in 
particular, but of all Americans, in fact. It is too easy to 
oversimplify the factors that lead to low incomes for women and 
specific social groups. Her analysis, again firmly grounded in well-
accepted data, provides an important additional dimension for 
understanding recent developments.
    In my role as co-editor in chief of the Oxford University Press 
(OUP) Handbook series on international social policy, I asked Diana to 
the editor of the American section of one of the OUP volumes, Global 
Trends in Income, Wealth, Consumption, and Well-Being. As editor of 
that section she has assembled a first-rate group of authors that span 
the ideological spectrum. They include: Karlyn Bowman, Richard 
Burkhauser, Edward Conrad, Jeffrey Larrimore, Bruce Meyer, June 
O'Neill, Emmanuel Saez, and John Weicher.
    Diana also serves as the senior American reviewer for the European 
papers being prepared for the OUP handbook by scholars under the 
leadership of senior staff at the European Commission. Under OUP 
auspices, she met in Paris with the European authors to help shape 
their chapters and ensure that their analyses are as balanced as 
possible. Even as she was making strong points about elements missing 
or needing modification, she demonstrated an ability to lower the 
anxiety and defensiveness of more junior scholars while pointing them 
in a more productive direction.
    In these contentious times, we need more researchers and public 
servants like Diana, who understands the basis for differing opinions 
and seeks to narrow them through honest, evidence-based analysis.
    I would be happy to provide any additional information or material 
that might be helpful.
            Sincerely,
                                       Douglas J. Besharov,
                                Professor, School of Public Policy,
                                                University of Maryland.
                                 ______
                                 
                                            Urban Institute
                                   Washington, DC, November 7, 2017

Chairman John Thune,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I am writing to give my strong estsupport for the nomination of 
Diana Furchtgott-Roth to be Assistant Secretary for Research and 
Technology at the Department of Transportation. She is a prolific and 
respected policy-oriented researcher.
    I have known Ms. Furchtgott-Roth for over 20 years. Having worked 
with her on research projects, I know that she takes a dispassionate 
approach to data, one that is not influenced by ideology. Although we 
sometimes approach public policy issues from different angles, we share 
a mutual respect for the research that accurately captures the facts. 
As a guest speaker in my class at American University, Ms. Furchtgott-
Roth provided an interesting, clear, and sound presentation and 
analysis of economic data. She has served well in major and relevant 
positions within the government, including chief economist at the U.S.
    Department of Labor and Chief of Staff at the Council of Economic 
Advisers. Her personal connections to the economic research community 
will be valuable were she confirmed as Assistant Secretary. Finally, I 
am confident in ability to manage resources effectively and work 
collaboratively. I believe she will be highly successful in her new 
role.
    Please let me know if you need any further information.
            Sincerely,
                                          Robert I. Lerman,
                                                  Institute Fellow,
                                   Emeritus Professor of Economics,
                                                   American University.
                                                   Research Fellow,
                                                   IZA (Bonn, Germany).
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                    Hon. Leon (Lynn) A. Westmoreland
    Question 1. Congressman Westmoreland, my colleagues, including 
Senator Nelson, Senator Booker, and others worked hard to ensure that 
passenger rail, including Amtrak, was authorized in the FAST Act. 
Appropriators led by Senator Cochran funded the full Amtrak system--not 
only the Northeast Corridor but state supported and long-distance 
routes as well. When you were my colleague in the House, you voted 
against funding for Amtrak in general and the long distance routes in 
particular, on more than one occasion. Those long distance trains can 
provide a vital transportation link and economic development 
opportunities for rural areas including my state. Is that still your 
position?
    Answer. When I represented my district, my constituents expected me 
to protect the taxpayers' interests. I used my vote to remind Amtrak 
that Congress was watching, and expected careful stewardship of the 
public investment in its system. One of the main roles of Congress is 
oversight and one of the most efficient ways to demonstrate Congress' 
close attention is through funding mechanisms. Amtrak got that message, 
and the significant efficiency improvements that followed helped to 
keep the national system viable. I think it is also important to note, 
I supported the 2015 FAST Act and voted for passage of the final 
version which reauthorized funding for Amtrak. I am very confident that 
the current Amtrak leadership will continue to provide our communities 
with the service they need, and I look forward to working with them to 
help make that happen.

    Question 2. My colleagues and I have worked with a host of partners 
along the Gulf Coast to restore passenger rail service lost due to 
Katrina. A big supporter and necessary partner of this effort has been 
Amtrak. We cannot restore this vital service to Louisiana, Alabama, 
Mississippi, and Florida without that strong partnership with Amtrak. 
Are you going to be that partner?
    Answer. I completely understand the interest the communities and 
their leaders and elected representatives have taken in the service 
restoration effort on the Gulf Coast. I have been impressed by the 
ongoing activity, and I look forward to working with you and with them 
to find a way forward as we explore all the available options for 
service restoration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                    Hon. Leon (Lynn) A. Westmoreland
    Gulf Coast Rail Service. Congressman Westmoreland, as you know, 
earlier this year the Gulf Coast Working Group issued its final report 
on the restoration of Gulf Coast Rail Service, which provides a path to 
restoring service. Restoration of rail service will help the region 
meet its transportation needs and boost tourism and local economies.
    Question 1. Do you commit to work towards restoring rail service to 
the Gulf Coast?
    Answer. I am very aware of the efforts the people of the Gulf Coast 
and their leaders have invested in this service restoration effort, and 
I looking forward to working with them and with you to explore the full 
range of possible options for service restoration.

    Question 2. Do you support continued Federal funding for long 
distance lines, including the Auto Train, Silver Meteor, and Silver 
Star, that run in Florida?
    Answer. I believe Amtrak's national network has a vital role to 
play, particularly in providing service to areas without transportation 
alternatives, and I support it, provided it is run in a manner that 
safeguards the taxpayers' interests. I would also note that I supported 
the 2015 FAST Act and voted for passage of the final version which 
reauthorized funding for Amtrak.

    Question 3. At the hearing, you mentioned that you were concerned 
about the cost effectiveness of long distance routes and would like to 
evaluate the routes. What specifically do you want to evaluate and 
which routes do you plan to evaluate? Under what, if any, circumstances 
would you consider discontinuing long distance service?
    Answer. I think that the system should be regularly evaluated to 
ensure that it continues to deliver relevant transportation choices to 
the communities it serves at an affordable cost to the taxpayer. This 
is a complex question, but I have a lot of confidence in the ability of 
the current management and the Amtrak Board to identify options for the 
improvement of existing services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                    Hon. Leon (Lynn) A. Westmoreland
    Congressman Westmoreland, if there's one thing we don't need in 
Washington state, it's more traffic. Over 1.2 million people use Amtrak 
trains each year in our state, keeping a lot of cars off the road. The 
Administration's budget proposed eliminating funding for long distance 
routes which effect the two National Network trains that run through 
Eastern Washington, potentially ending service for over 50,000 Amtrak 
users in Spokane.
    Question 1. In your questionnaire you stated that you have a 
personal connection to Amtrak because you rode it from Atlanta to D.C. 
as a junior Congressman. Given this appreciation for Amtrak important 
mission, can you explain your reasoning for voting to defund Amtrak 
while you were serving in the United States House of Representatives?
    Answer. When I represented my district, my constituents expected me 
to protect the taxpayers' interests. I used my vote to remind Amtrak 
that Congress was watching, and expected careful stewardship of the 
public investment in its system. One of the main roles of Congress is 
oversight and one of the most efficient ways to demonstrate Congress' 
close attention is through funding mechanisms. Amtrak got that message, 
and the significant efficiency improvements that followed helped to 
keep the national system viable. I think it is also important to note, 
I supported the 2015 FAST Act and voted for passage of the final 
version which reauthorized funding for Amtrak. I am very confident that 
the current Amtrak leadership will continue to provide our communities 
with the service they need, and I look forward to working with them to 
help make that happen.

    Question 2. As the Director of Amtrak, would you support the 
administration's proposed budget cuts or would you be an effective 
advocate for Amtrak within the Administration?
    Answer. The Amtrak Board of Directors has significant fiduciary 
responsibilities to the company, which carry the obligation to ensure 
that they act in the best interests of the company. Last year, in its 
2018 General and Legislative Annual Report, Amtrak reported to Congress 
that the elimination of the long distance services would cost an 
additional $423 million. That would be a significant financial problem 
for Amtrak, and if confirmed, I would need to consult closely with the 
rest of the Amtrak Board and Congress before coming to a conclusion.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                    Hon. Leon (Lynn) A. Westmoreland
    Question 1. Do you agree that Amtrak is an important contributor to 
the Nation's economy?
    Answer. Yes, I believe Amtrak makes a very strong contribution to 
the Nation's economy in every region it serves. In the Northeast, it 
supports the Nation's economic powerhouse; in the South and West, it 
provides towns and communities with few transportation choices and 
connectivity to major urban centers. I supported the 2015 FAST Act and 
voted for passage of the final version which reauthorized funding for 
Amtrak.

    Question 2. Do you agree that Amtrak is an important contributor to 
the economy of your home state, Georgia?
    Answer. I do. Amtrak provides the state with important scheduled 
transportation connections it would otherwise lack. A U.S. DOT study a 
few years back found that Georgia saw a 28 percent drop in bus service 
coverage for rural residents between 2005 and 2010. That makes Amtrak 
service that much more important to the rural parts of the state. 
Amtrak does substantial business in Georgia, and it spent more than $56 
million on procurement in the state in 2016, and it has a payroll of 
nearly $7 million in the state.

    Question 3. Did you vote in 2007 as a member of the House 
Transportation and Infrastructure Committee to cut security funding 
from Amtrak?
    Answer. When I represented my district, my constituents expected me 
to protect the taxpayers' interests. I used my vote to remind Amtrak 
that Congress was watching, and expected careful stewardship of the 
public investment in its system. One of the main roles of Congress is 
oversight and one of the most efficient ways to demonstrate Congress' 
close attention is through funding mechanisms. Amtrak got that message, 
and the significant efficiency improvements that followed helped to 
keep the national system viable. I think it is also important to note, 
I supported the 2015 FAST Act and voted for passage of the final 
version which reauthorized funding for Amtrak. I am very confident that 
the current Amtrak leadership will continue to provide our communities 
with the service they need, and I look forward to working with them to 
help make that happen.

    Question 4. Did you vote in 2010 as a member of the House 
Transportation and Infrastructure Committee to cut funding from 
Amtrak's capital and debt service grants by approximately $1.2 billion?
    Answer. Yes.

    Question 5. Did you vote in 2011 as a member of the House 
Transportation and Infrastructure Committee to cut funding from 
Amtrak's capital and debt service grants by approximately $446.9 
million?
    Answer. Yes, however, I was not a member of the House 
Transportation and Infrastructure Committee in 2011.

    Question 6. Did you vote in 2015 as a member of the House 
Transportation and Infrastructure Committee to cut funding from 
Amtrak's capital and debt service grants by approximately $850 million?
    Answer. Yes, however, I was not a member of the House 
Transportation and Infrastructure Committee in 2015.

    Question 7. Did you vote in 2015 as a member of the House 
Transportation and Infrastructure Committee to cut funding from 
Amtrak's operating grants by approximately $288 million?
    Answer. Yes, however, I was not a member of the House 
Transportation and Infrastructure Committee in 2015.

    Question 8. Did you ever vote in favor any amendment as a member of 
the House Transportation and Infrastructure Committee that would 
deauthorize Federal financial support for Amtrak?
    Answer. When I represented my district, my constituents expected me 
to protect the taxpayers' interests. I used my vote to remind Amtrak 
that Congress was watching, and expected careful stewardship of the 
public investment in its system.

    Question 9. Do you stand by your votes in relation to Amtrak?
    Answer. Yes, I do. When I represented my district, my constituents 
expected me to protect the taxpayers' interests. I used my vote to 
remind Amtrak that Congress was watching, and expected careful 
stewardship of the public investment in its system. One of the main 
roles of Congress is oversight and one of the most efficient ways to 
demonstrate Congress' close attention is through funding mechanisms. 
Amtrak got that message, and the significant efficiency improvements 
that followed helped to keep the national system viable. I think it is 
also important to note, I supported the 2015 FAST Act and voted for 
passage of the final version which reauthorized funding for Amtrak. I 
am very confident that the current Amtrak leadership will continue to 
provide our communities with the service they need, and I look forward 
to working with them to help make that happen.

    Question 10. If you have changed your mind about these votes, what 
led you to change your mind?
    Answer. A member of Congress has the obligation to represent his 
constituents, and I think I did that. As a Board member, however, I 
would have a different set of obligations. Directors are expected to 
act in the best interests of the company, which would lead me to take a 
different position on Amtrak funding issues. I would note that I 
supported the 2015 FAST Act and voted for passage of the final version 
which reauthorized funding for Amtrak.

    Question 11. It is promising in your questionnaire to this 
committee that you have now voiced support for Amtrak and for high-
speed rail. Do you now support an increase in funding for Amtrak?
    Answer. I would support increased funding for capital investment, 
because I believe that Amtrak faces major infrastructure challenges 
that must be addressed. I would stress, however, as we appropriate more 
capital, it is important that the company also ensure that the 
taxpayers receive the best possible value for their money with these 
investments.

    Question 12. What level of funding should Amtrak receive annually 
from the Federal Government?
    Answer. Amtrak should receive sufficient funding to meet its 
statutory obligation to operate the national intercity passenger rail 
system, and to address its growing infrastructure and fleet 
recapitalization needs.

    Question 13. How would you convince members of the Senate and House 
that we need to increase investment in the network?
    Answer. I believe the best argument for Amtrak is its current 
financial success. If we can go to Senators and House members with a 
demonstrated record of managerial excellence and successful operations 
that serve the nation, those facts will make a very effective argument 
of the value Amtrak brings to the taxpayers, and for the very 
significant needs for capital investment to deal with the system's 
capacity needs and state of good investment backlog.

    Question 14. In response to the committee's questionnaire, you 
state ``If Amtrak is to remain competitive, it must have options that 
go beyond standard rail service.'' Do those options include high-speed 
rail?
    Answer. Yes, they do. The improvements that Amtrak has made in its 
financial position have been largely attributable to better management 
and better service. High speed rail could, if properly located, 
designed and managed, make a great contribution both to the national 
economy and Amtrak's bottom line.

    Question 15. What should the source of funds be for new high-speed 
rail efforts?
    Answer. I would be willing to explore all options, including the 
Federal appropriations process, FAST-authorized grant programs, and 
other innovative strategies.

    Question 16. In response to the committee's questionnaire, you 
state ``The Acela has been successful in part because of its time-
saving design, although even that option needs improvement.'' What 
improvements do you suggest?
    Answer. As I am sure you know, Amtrak is purchasing new Acela 
trainset, with the first set slated for delivery and testing in 2019. 
These will provide a larger capacity and support better and more 
frequent service, particularly as targeted infrastructure improvements 
are completed. There is clearly a need for investment in additional 
capacity and trip time improvements on the Northeast Corridor, in 
addition to the clearly identified need for repair and replacement of 
aging and deteriorating infrastructure.

    Question 17. What efforts will you take to improve safety on the 
Amtrak network?
    Answer. I believe the current management has set achievable goals 
and a good strategy to improve safety, and I will work with them to 
ensure that they have the tools and support they need to accomplish 
that task.

    Question 18. What efforts will you take to improve security on the 
Amtrak network?
    Answer. I will encourage management to ensure that safety and 
security remain their top priorities, and work with them to identify 
and implement effective strategies to secure the Amtrak system. As a 
former member of the House Permanent Select Committee on Intelligence, 
I have gained a strong perspective on both the threat and the means 
that are available to deal with it--including current Federal and 
private best practices. I believe there will be potential opportunities 
for improvement at Amtrak, and I will work closely with the Board and 
management to pursue every available opportunity to keep the traveling 
public safe.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Edward Markey 
  and Hon. Catherine Cortez Masto to Hon. Leon (Lynn) A. Westmoreland
    Amtrak provides a valuable service to tens of millions of Americans 
across the country, including those living in rural communities who 
travel on Amtrak Long-Distance routes. These routes connect 40 percent 
of rural America, offering an important option for scheduled intercity 
travel for many of those living in these areas.
    At the hearing, you acknowledged the importance of passenger rail 
service to rural communities, stating that funding our rail system is a 
``necessity.'' However, as a Member of Congress you voted to cut and 
eliminate Amtrak operating and capital grants and funding for Long-
Distance routes, like those that serve multiple stops in Northern 
Nevada (Reno, Elko and Winnemucca) and connect Boston and Western 
Massachusetts residents to major destinations like Chicago and 
Cleveland.
    Regrettably, the Trump Administration's budget request proposed 
slashing over $600 million of funding for these critical long-distance 
routes.
    Question. If confirmed, what steps would you take as a member of 
Amtrak's Board of Director to make Long-Distance routes cost effective?
    Answer. I will work with my colleagues on the Amtrak Board and with 
management to study the system and identify opportunities for financial 
improvement, consistent with our responsibilities to operate and 
maintain the national system.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                    Hon. Leon (Lynn) A. Westmoreland
    Question. During your confirmation hearing, you described the 
urgent need to build the Gateway Project. If confirmed, will you 
support increasing Federal funding for projects of national 
significance like the Gateway project?
    Answer. I will certainly support efforts that, like Gateway 
program, are designed to invest to address identified capacity, 
condition, and replacement needs. I believe there is a place for 
Federal capital investment in projects of this magnitude, provided it 
is made in a fiscally prudent and responsible manner.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                    Hon. Leon (Lynn) A. Westmoreland
    Mr. Westmoreland, I have long championed the idea of expanding and 
increasing rail services in New Hampshire. I had planned to ask you 
about whether this is something you would consider supporting and 
working with me on, if confirmed to this position.
    Then I took a look at your voting record.
    In the U.S. House of Representatives, you voted to eliminate ALL 
Amtrak funding, you voted to eliminate Amtrak operating grants, and you 
voted to close down several rail lines altogether. To be clear, as a 
member of the House of Representatives you were no friend of Amtrak's.
    Question. How do you remedy the need for the Amtrak system to 
operate with your seeming desire to shut it down; and what assurances 
does this committee have that you will act in the best interest of 
Amtrak, and not work to dismantle it?
    Answer. I do not want to shut Amtrak down. I want it to run in a 
manner that safeguards the taxpayers' investment. When I represented my 
district, my constituents expected me to protect the taxpayers' 
interests. I used my vote to remind Amtrak that Congress was watching, 
and expected careful stewardship of the public investment in its 
system. One of the main roles of Congress is oversight and one of the 
most efficient ways to demonstrate Congress' close attention is through 
funding mechanisms. Amtrak got that message, and the significant 
efficiency improvements that followed helped to keep the national 
system viable. I think it is also important to note, I supported the 
2015 FAST Act and voted for passage of the final version which 
reauthorized funding for Amtrak. I am very confident that the current 
Amtrak leadership will continue to provide our communities with the 
service they need, and I look forward to working with them to help make 
that happen.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Catherine Cortez Masto 
                  to Hon. Leon (Lynn) A. Westmoreland
    Question. Congressman Westmoreland, you highlighted rail security 
threats in both your questionnaire and your testimony. Can you speak a 
little more about your expertise in that area, and what you think you 
may add that isn't being consider on the current Amtrak board?
    Answer. As a former member of the House Permanent Select Committee 
on Intelligence, I have gained a strong perspective on both the threat 
and the means that are available to deal with it--including current 
Federal and private best practices. I believe there will be potential 
opportunities for improvement at Amtrak, and I will work closely with 
the Board and management to pursue every available opportunity to keep 
the traveling public safe
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Diana Furchtgott-Roth
    Impacts of Climate Change. Ms. Furchtgott-Roth, as we have 
tragically seen in the most recent hurricanes, Florida and territories 
like Puerto Rico are particularly susceptible to extreme weather and 
the impacts of sea level rise.
    Question 1. Do you believe that it is important to help make 
communities resilient to extreme weather and climate variability? If 
yes, what actions should we take to address resiliency and prevent 
damage caused by hurricanes and other forms of extreme weather?
    Answer. Yes. We have benefited from advances in weather 
forecasting, to help communities prepare for such weather disasters. We 
also need to have research into how to make roads, ports, and airports 
more resilient after storms, such as research on the durability of 
various materials that could be used for surface areas. We also need 
robust energy and communications systems, particularly at ports and 
airports, to make sure that supplies and building materials can enter 
the impacted areas.

    Question 2. Do you support Federal funding to help with immediate 
emergency relief and long-term rebuilding?
    Answer. Yes.

    Highway Trust Fund. You have written several articles that have 
been very critical of Federal involvement in highway and transit 
funding. They have even included calls by you to either scale back the 
Federal Highway Trust Fund dramatically or to get rid of it altogether.
    Question 3. What impact would your proposal have on our ability to 
ensure that our roads and bridges are safe? What research have you done 
to come to this conclusion?
    Answer. One aspect of being both an academic and a columnist is to 
throw out ideas for discussion and reaction. And because revenues from 
the Highway Trust Fund are diminishing, we need to consider solutions 
to the problem of how to maintain and improve highway infrastructure. 
To be clear, I support the current law, which includes the Highway 
Trust Fund. But we should do more research into alternative sources of 
funding so that Americans can have a safe infrastructure system.

    Question 4. If confirmed, would you continue to advocate for the 
elimination of or a reduction to the Highway Trust Fund? Please 
explain. 2
    Answer. No. The position is a research position, not a policy or an 
advocacy position.

    Privatization of Air Traffic Control. In a 2016 article supporting 
privatizing air traffic control, you stated: ``Congress should free 
each airport to choose the air-traffic-control service it prefers. 
There could be one agreed-upon set of communications protocols, and 
each service provider would have to abide by these protocols.''
    Question 5. Can you explain how such a plan would preserve the 
National Airspace System and ensure the safety of the flying public? 
What data have you relied on to come to this position?
    Answer. Safety is paramount. When I wrote the article, I believed 
that an agreed-upon set of communications protocols would ensure that 
different air traffic control systems would work together, just as 
people with Verizon phones can talk to people with T-Mobile phones. But 
the future of the air traffic control system would not be my decision 
if confirmed as Assistant Secretary for Research and Technology. I 
would not be advocating for any changes in the current system.

    LGBT Rights. In an August 24, 2016, article on marketwatch.com 
titled ``Obama's bathroom law fails to protect those who need it most: 
girls,'' you stated the following: ``That simple moral compass has been 
turned on its head in America, where the Obama administration has 
unwittingly invited Peeping Toms and perverts to enter any girls' 
bathrooms and locker rooms under the guise of fairness to the 
transgender community. Not only are the lechers invited in, but the 
Obama administration even sought to make it unlawful to keep them 
out.''
    Question 6. Do you stand by this statement? Please explain.
    Answer. Quite honestly, as the parent of a girl, I would have been 
upset if a school had allowed boys, even those who identified as girls, 
into girls' bathrooms or locker rooms.

    Funding for the Manhattan Institute. In your response to my pre-
hearing questions, you stated that you ``do not have information 
concerning the donors to the Institute.'' This did not appropriately 
respond to my concern, which involves potential conflicts.
    Question 7. Please provide a list of all entities that have 
provided funding to the Manhattan Institute for Policy Research since 
2009.
    Answer. I have asked the Manhattan Institute if it has a public 
donor list, and no such list is published. Fundraising is done by the 
Institute's Office of Development in New York. As an employee of the 
Institute, I am not informed about who the contributors are for 
precisely the reason that you cite: that it could pose a conflict of 
interest and taint our research products.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Diana Furchtgott-Roth
    Ms. Furchtgott-Roth, you have written very extensively about your 
opposition to the government's role in helping to develop sustainable 
energy sources, and you've been a forceful proponent of public-private 
partnerships when it comes to building infrastructure.
    One of missions of the Office of the Assistant Secretary for 
Research and Technology is to ``Advance innovation, technology 
development, and breakthrough knowledge.''
    Question 1. If confirmed, will you work to promote and advance 
innovation and technology development which will bring much-needed 
improvements in efficiency and environmental benefits, even though some 
of those technologies may stand in contrast to many of your writings?
    Answer. Yes

    Question 2. If confirmed, will you prioritize research and 
technology development on the best available science?
    Answer. Yes

    Question 3. You've been a strong proponent of public-private 
partnerships, yet not all states are equipped or even willing to hand 
over responsibility for key transportation infrastructure to the 
private sector. How will you account for that when advising the 
administration on much-needed infrastructure overhaul?
    Answer. The position to which I have been nominated is a research 
position and not a policy position. If confirmed, I hope to generate 
research that shows which types of public private partnerships work, 
and which ones do not, and in what circumstances. I do not believe 
there can be ``one-size-fits-all'' approach. I hope that the research 
of the Office would inform policy.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Diana Furchtgott-Roth
    Experience and familiarity with transportation.
    Question 1. What experience do you have in transportation?
    Answer. I have had an interest in transportation from an early age, 
as my father, Gabriel Roth, was a transportation economist at the World 
Bank and recently a fellow at the Independent Institute. He has 
published several books and numerous articles that have appeared in 
transportation journals. In my own career as an economist, I have 
written on a range of transportation subjects, including ports, 
pipelines, highway funding, and CAFE standards. I have managed research 
teams at the Council of Economic Advisers, the U.S. Department of 
Labor, and at the Manhattan Institute. Researchers affiliated with 
these offices have conducted research on a wide variety of topics, 
including transportation.

    Question 2. What positions have you held in the transportation 
industry?
    Answer. None, but I would suggest that this could be construed as a 
positive in that my work in the Office of Research and Technology would 
not be influenced by past industry associations.

    Question 3. What entities have you worked for in the transportation 
sector?
    Answer. I worked at the American Petroleum Institute for four 
years.

    Question 4. What positions have you held that oversee safety 
matters?
    Answer. None.

    Question 5. What positions have you held that are focused on 
science (exclusive of economics-focused positions)?
    Answer. Most economists would say that they are scientists. 
Economics follows scientific methods of analysis of data and 
statistics. I am not a physical scientist, but as an economist, I study 
how humans react to various externalities, such as price, availability, 
availability of substitutes, and so forth. In transportation, safety is 
often a function of human behavior; consumers make choices between 
travel by air or rail; state and local governments consider the present 
value of building road A versus road B. Economics is an appropriate 
discipline for the Assistant Secretary for Research and Technology. I 
have led research teams at the Council of Economic Advisers, the U.S. 
Department of Labor, and at the Manhattan Institute. Researchers 
affiliated with these offices have conducted research on a wide variety 
of topics, including transportation. Finally, I wish to note that the 
incumbent in this position was a lawyer so being a physical scientist 
or engineer does not seem to be a prerequisite for holding this 
position. 5

    The Federal Government's role funding transit and rail and 
overseeing rail and trucking safety.
    Question 6. In 2014, did you write that the Federal Government 
should ``no longer require states to use gas tax funds to pay for mass 
transit''?
    Answer. Yes. I wrote a column reviewing legislation by 
Representative Earl Blumenauer from Oregon, entitled the Road Usage Fee 
Pilot Program Act of 2013. He proposed replacing the gas tax with a fee 
for miles travelled.

    Question 7. Do you hold the view that the Federal Government should 
no longer require states to use gas tax funds to pay for mass transit?
    Answer. I support the law of the land, which requires states to 
spend funds on mass transit. The position to which I have been 
nominated is not a policy position.

    Question 8. In 2011, did you write that ``passenger service on 
fixed rails . . . is an old and outmoded technology''?
    Answer. Yes.

    Question 9. Do you hold the view that passenger service on fixed 
rails . . . is an old and outmoded technology?
    Answer. The article was in the context of President Obama's search 
for areas to cut the deficit. Proposed high speed rail projects were 
major budget items. I recognize that for many Americans, particularly 
along the Northeast corridor, passenger and commuter rail is the most 
efficient form of transportation.

    Question 10. What do you propose be done to replace passenger 
service on fixed rails if you do indeed believe it is an old and 
outdated technology?
    Answer. Future concepts in transit technology, such as MagLevs and 
hyperloops, are being developed, and one day soon could be reality. In 
the meantime, fixed rail service should be supported, particularly on 
well-traveled routes such as the Northeast corridor.

    Question 11. In 2011, did you write a piece telling the Obama 
administration to ``cut, don't promote high-speed rail''?
    Answer. I did not write that. That was the headline given by the 
Washington Examiner.

    Question 12. Do you believe the Trump administration should lessen 
investment in passenger rail?
    Answer. Some routes are worthy of additional investment, 
particularly the Northeast Corridor.

    Question 13. Have you ever questioned the Federal Government's role 
as a safety regulator?
    Answer. No.

    Question 14. Do you support the Federal Government serving as a 
strong safety oversight authority?
    Answer. Yes.

    Question 15. Have you ever retweeted articles that argue for safety 
and economic benefits of deregulated rail and trucking industries?
    Answer. I do not recall. I deleted my Twitter account weeks ago and 
I have no record of my Tweets or Retweets.

    Question 16. Have you ever tweeted any articles arguing that self-
policing by an industry yields better public safety?
    Answer. I do not recall tweeting those articles.

    Question 17. A recent surface transportation reauthorization bill 
authorizes significant funding for transit and rail for Connecticut. Do 
you support the investment of those funds in rail and transit?
    Answer. If Congress makes the judgment that such funding is in the 
public's interest, then I believe in carrying out those provisions. I 
do not expect that the Office of Research and Technology would be 
called upon to opine on such funding decisions.

    Question 18. Should we invest more Federal funds into passenger 
rail?
    Answer. Some routes are worthy of additional investment, 
particularly the Northeast Corridor.

    Question 19. Should the Federal Government do more or less to 
regulate safety?
    Answer. When there are safety issues that can be effectively 
addressed by regulation, I believe the Federal Government should 
address it. I believe safety is paramount and is an appropriate role of 
government.

    Question 20. In your confirmation hearing, Sen. Schatz asked about 
your past support for reducing investments in transportation, citing a 
statement from you in 2011, ``One sector ripe for cuts is 
transportation.'' You stated your position on this has changed as ``new 
facts'' ``have come to light.'' What ``new facts'' have you discovered 
that made you change your position?
    Answer. In the six years, since I wrote this article, traffic 
congestion has gotten worse, the average flight time is longer from 
destination to destination, drones are now used in a number of ways, 
and automated vehicles are getting closer to introduction on the roads. 
The Department of Transportation must have the resources necessary to 
effectively promote proper testing of new technologies, regulate and 
enforce laws, and assist state and local governments finance new 
infrastructure. However, I continue to believe that all Federal 
departments, not just the Department of Transportation, have a duty to 
restrain spending whenever possible. Accumulating debt is a serious 
matter that will impact generations to come.

    Question 21. Have you ever tweeted a statement or retweeted the 
statement: ``It's long past time to put an end to Chevron Deference''?
    Answer. I do not recall tweeting or retweeting that statement. I 
have not written on Chevron Deference. It is possible that I retweeted 
an article from our daily Ebrief, which is a collection of 7 economics 
articles that go out every morning from E21.

    Question 22. What legal framework do you propose replace this 
principle?
    Answer. This is a legal topic, and not one on which I have taken a 
position.

    Impartiality in scientific studies.
    Question 23. The position for which you've been nominated--the head 
of the department's office of research and technology--plays an 
instrumental role evaluating safety data and testing ways to save 
lives. That role also requires impartiality--the hallmark of good 
science--``upholding the integrity and impartiality of transportation 
statistical data,'' as the agency's website states. In one of your 
books, you refute policies at DOT. The agency oversees CAFE standards, 
which reduce harmful, unhealthy auto emissions. You wrote in 2012 
``higher CAFE standards would be the nail in the automobile industry's 
coffin.'' Do you maintain the views you've expressed in the past 
concerning CAFE standards?
    Answer. A 2002 National Research Council study concluded that the 
first CAFE standards resulted in 1,300 to 2,600 more Americans killed 
on the roads in 1993, a typical year, because cars were lighter. Safety 
should be paramount.

    Question 24. How can we trust you will be impartial in questions of 
raising CAFE standards?
    Answer. Decisions concerning CAFE standards are the purview of 
NHTSA, not the Assistant Secretary for Research and Technology. 
However, I believe I have a reputation for allowing the research speak 
for itself and adhering to the principle of impartiality.

    Question 25. Will you recuse yourself from working on CAFE matters?
    Answer. I will follow the instructions of the Office of General 
Counsel's Ethics Officer.

    Privatization of public infrastructure.
    Question 26. In 2017, did you retweet an op-ed urging privatization 
of our roads and highways?
    Answer. I do not recall.

    Question 27. In 2017, did you write, ``Privatize interstates for 
better roads, affordable tolls and guaranteed basic income.''?
    Answer. No. The phrase was from an op ed by the economics Nobel 
Prize winner Vernon Smith in the Wall Street Journal on June 27 
entitled ``Privatize the Interstates.'' The article was aggregated in 
the Economics21 daily ``Ebrief.'' The Ebrief is a collection of 7 
articles on economic topics which is sent out by my office every 
weekday. Anyone may subscribe.

    Question 28. What research did you perform into this subject before 
posting this statement?

    Question 29. What interstates do you suggest we ``privatize''?

    Question 30. What would be an ``affordable'' toll?

    Question 31. What would be the value of the ``guaranteed basic 
income''?
    Answer. Please see above response to #27. This was not my article 
or my argument.

    Gender equality.
    Question 32. In 2014, did you write that female Secret Service 
agents are less capable of protecting the president than the male 
agents?
    Answer. Yes. I wrote that ``female Secret Service officers have to 
meet lower standards of fitness than male officers do.''

    Question 33. Do you believe women are less capable of protecting 
the president than men?
    Answer. No. Only if they have lower standards of fitness. All 
Secret Service officers should be held to the same standard.

    Question 34. In 2001, did you argue that women feel sexually 
harassed when unattractive men approach them, but not when attractive 
men approach them?
    Answer. I do not recall writing that.

    Question 35. Do you believe that women feel sexually harassed when 
unattractive men approach them, but not when attractive men approach 
them?
    Answer. No.

    Question 36. In 2001, did you argue that when off-color jokes, 
leering, and suggestive remarks are placed on a continuum with assault 
and rape, it amounts to crying wolf with regard to harassment and 
violence?
    Answer. I may have, but I do not recall.

    Question 37. Do you believe that when off-color jokes, leering, and 
suggestive remarks are placed on a continuum with assault and rape, it 
amounts to crying wolf with regard to harassment and violence?
    Answer. Yes. Off-color jokes are not the same as assault and rape. 
It is offensive to anyone who has suffered violent assault or rape to 
suggest that it is the equivalent of an off-color joke.

    Question 38. Have you ever you stated that in workplaces with 
strong policies against harassment, ``Relationships between men and 
women in the workplace inevitably suffer''?
    Answer. This quote is taken from ``The Feminist Dilemma: When 
Success Is Not Enough,'' written by Christine Stolba and myself. The 
title of the chapter is ``No Laughing Matter: Sexual Harassment.'' The 
chapter describes the extraordinary problems women face from sexual 
harassment.

    Question 39. In 2001, did you argue that it is prudent for men in 
positions of authority to avoid interacting with women to protect 
themselves from harassment claims?
    Answer. We argued that ``women's workplace advancement might 
suffer'' precisely because men will limit their exposure to 
``potentially ambiguous situations.'' Senator Hassan also noted this 
concern during the hearing. I urge senators to read the entire book and 
not selective quotes taken out of context. See, for instance, a full 
discussion on page 103.

    Question 40. Do you believe that it is prudent for men in positions 
of authority to avoid interacting with women to protect themselves from 
harassment claims?
    Answer. See answer above.

    Question 41. If confirmed, will you urge male subordinates who 
remain in positions of authority over women to avoid interacting with 
women?
    Answer. No. 10

    Question 42. Will your views on gender discrimination and workplace 
harassment be germane to the position for which you are nominated?
    Answer. If confirmed, I will follow all laws and rules about 
workplace harassment and discrimination. In my 30-plus year career, I 
have experienced my share of workplace harassment, and I am very 
sympathetic to such problems that occur in the workplace.

    Question 43. Does the position for which you are nominated oversee 
employees focused on civil rights?
    Answer. I am aware that the organization chart shows an Office of 
Civil Rights that reports to the Assistant Secretary for Research and 
Technology. I am told that this box is a holdover from when the Office 
of Research and Technology was a separate operating administration. As 
you know, it is now an office within the Office of the Secretary. 
Complaints of civil rights violations within the Office of the 
Secretary are filed directly with the departmental Office of Civil 
Rights, which is a discrete office and reports directly to the 
Secretary. The Assistant Secretary for Research and Technology would 
not be supervising that office.

    Question 44. Will the views you've expressed concerning sexual 
harassment be applied to women under your supervision?
    Answer. My book states that women in the workplace deserve all 
rights to professional advancement without being subjected to sexual 
harassment. I have always held that view, and I have had no complaints 
from men and women under my supervision in the past.

    Labor.
    Question 45. Have you ever written an article with a title claiming 
unions are ``roach motels''?
    Answer. I did not pick the title nor use the phrase in the article. 
My original article was published in U.S. News and World Report on 
August 17, 2016, and was entitled ``Leaving Is Too Much Labor.'' It was 
republished by the Foundation for Economic Education on August 19, 
2017, and given a different title.

    Question 46. Have you ever argued that ``the middle class is 
getting `hollowed out'--but only because workers are getting richer''?
    Answer. Yes. In February 2016, National Review published an article 
I wrote on the topic. I was quoting a report from the Center for 
American Progress written by Harvard professor Richard Freeman. I 
wrote, ``As CAP admits, `about three-quarters of the reduction [in the 
middle class] resulted from a rising share of high-wage workers.' 
Between 1969 and 2007, the household income of the median adult rose by 
52 percent. This increase was seen across the income distribution--even 
the income of those at the 25th percentile of the income distribution 
grew by 40 percent from 1969 to 2007.''

    Question 47. What workers ``are getting richer''?
    Answer. Please see answer above. The Center for American Progress 
estimated that three-quarters of the reduction in the middle class 
resulted from a rising share of high-wage workers.

    Question 48. Have you ever suggested air traffic controllers are 
responsible for flight delays?
    Answer. No, I did not say that air traffic controllers are 
responsible for delays. I did write an article saying that it is odd 
that 17 air traffic controllers did not have to show up for work 
because they are on ``official time,'' full-time working for their 
union.

    Question 49. Have you ever claimed that air traffic controllers 
make too much money?
    Answer. I never claimed that working air traffic controllers make 
too much. I have suggested that non-working air traffic controllers 
make too much.

    Question 50. Have you ever urged the adoption of technology to 
eliminate the air traffic control workforce?
    Answer. I do not recall urging the adoption of technology to 
eliminate the air traffic control workforce.

    Question 51. Will the position for which you've been nominated 
require you to work closely with and collaborate with many labor 
unions?
    Answer. I support all American workers, union and non-union. Labor 
unions are important stakeholders in transportation; but because I will 
not be in a policy-making role, I do not anticipate a day-to-day 
collaboration with labor. However, I welcome the opportunity to work 
with anyone.

    Question 52. What do you say to labor unions who might look at your 
statements as hostile and evidence of an unwillingness to work 
together?
    Answer. Please see answer above.

    Autonomous Vehicles (AV) and drone policy.
    Question 53. Should DOT require manufacturers of AVs to perform a 
minimum level of due diligence testing and analysis to ensure that AVs 
work safely and properly before they are tested on public roads or sold 
to consumers?
    Answer. Yes.

    Question 54. Have you done any consulting for companies involved in 
the development of autonomous vehicles?
    Answer. No.

    Question 55. Have you ever consulted with any businesses that 
consult for manufacturers of autonomous vehicles?
    Answer. Not to my knowledge.

    Question 56. Do any AV manufacturers provide financial 
contributions to any entities to which you are an employee or 
contractor?
    Answer. Not to my knowledge.

    Question 57. If you answered yes to questions 53 to 56, will you 
recuse yourself from working on AV matters?
    Answer. I will comply with all ethics rules.

    Question 58. Did you ever write ``President Obama usurping state 
land in Utah and Nevada? Let states make their own decisions''?
    Answer. No. This was from a Point/Counterpoint in our daily Ebrief 
on January 3, 2017. Every Ebrief features a Point/Counterpoint with two 
opposing views. I did not write either article. On that day we asked 
``Should Republicans undo Obama's designation of new national 
monuments?'' and we paired DeSanctis (Reversing Obama's Last Minute 
Land Grab) in National Review with Eilperin and Dennis (Obama Adds to 
Environmental Legacy) in the Washington Post.

    Question 59. Do you believe states should retain the ability to 
make ``their own decisions'' in relation to AVs?
    Answer. This is a legal issue and a matter for Congress to decide.

    Question 60. Do you believe states should retain the ability to 
make ``their own decisions'' in relation to drones?
    Answer. This is a legal issue and a matter for Congress to decide.

    Transparency.
    Question 61. Do you maintain a personal Twitter account?
    Answer. No.

    Question 62. Have you posted any opinions about policy on such 
account?
    Answer. I do not currently have an account.

    Question 63. Do you continue to stand by the statements you've 
provided on such account?
    Answer. I do not currently have an account. For anything I may have 
tweeted during the period that I maintained a Twitter account, it is 
impossible to know whether I still stand by any particular tweet or not 
without knowing what it is. I have testified that I have changed my 
views on certain issues if facts and circumstances change.

    Question 64. Have you deleted any tweets you've authored since your 
nomination?
    Answer. I closed my Twitter account prior to my nomination.

    Question 65. Why did you delete these tweets?
    Answer. I did not delete any tweets since my nomination.

    Question 66. Will you provide the Committee with all the deleted 
tweets?
    Answer. I had a Twitter account before I was nominated, and closed 
it before I was nominated. I do not have access to those tweets because 
Twitter does not keep closed accounts.

    Question 67. What steps have you taken to retrieve deleted tweets?
    Answer. I did not delete any tweets. I closed down the account. I 
looked online to see if the tweets could be retrieved, and they could 
not be retrieved.

    Question 68. Does the deletion of your tweets conflict with your 
pledge to collaborate and be transparent with the committee?
    Answer. I did not delete tweets. I reaffirm my pledge to be 
transparent and cooperate with the committee.

    Question 69. Have you ever registered or used any other group or 
jointly controlled social media accounts (to include but not limited to 
Facebook and LinkedIn)? If so, please list the name of the account(s) 
and provide a copy of the content posted on such account(s).
    Answer. I used to have Facebook and LinkedIn accounts, but I closed 
them months before I was nominated. I can reactivate these accounts if 
you are interested in seeing them because Facebook and LinkedIn keep 
the data. I have a private Strava account to track my cycling, a 
private family WhatsApp group, and a private family Instagram account. 
None of these are relevant to my nomination as Assistant Secretary for 
Research and Technology.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                         Diana Furchtgott-Roth
    Question 1. During the hearing, you stated that due to ``new facts 
that have come to light'' you believe that a Federal Government 
shutdown is not helpful. Please provide the new facts that have led to 
a change in your position.
    Answer. Shutdowns seriously inconvenience Americans, and have had 
no beneficial results.

    Question 2. In response to the question of whether it is vital to 
the national interest that the Federal Government ensures a fast, safe, 
efficient, accessible and convenient transportation system, you stated 
that ``the transportation sector is extremely important and deserves a 
lot of support.'' Do you believe it is the role and responsibility of 
the Federal Government to provide direct funding to interstate 
highways, transit and safety programs?
    Answer. Yes. It is both the law of the land and prudent to maintain 
an efficient transportation network to facilitate commerce.

    Question 3. In an article entitled `Starting a trade war with ``Buy 
America'',' you wrote ``The tragic losers of ``Buy America'' are free 
trade agreements and potential job growth in the American economy. . 
.``Buy America'' is shorthand for fewer jobs as other countries 
retaliate.'' Do you support ``Buy America'' provisions? Do you believe 
that ``Buy America'' requirements create higher wages and employment 
rates for workers in the United States?
    Answer. I support current law, including laws with Buy America 
provisions. These laws create higher wages and employment rates for 
many American workers.

    Question 4. In a 2009 article entitled ``Drivers Should Pay For the 
Roads They Use,'' you wrote ``the Department of Transportation should 
no longer require states to use gas tax funds to pay for mass 
transit.'' Do you support Federal funding for mass transit?
    Answer. Federal funding for mass transit through the Highway Trust 
Fund is the law, and I support implementing the law.

    Question 5. In a 2015 article detailing findings by the New York 
City Panel on Climate Change published in response to Superstorm Sandy 
entitled ``Climate change could bring higher temperatures, much higher 
sea levels, and more flooding to NYC: report'', you are quoted as 
saying ``Money we are using for potential, unproved happenings in 2080 
could better be used today for the health and safety of our citizens.'' 
Do you believe that research should be conducted on the impact of 
future extreme weather events on infrastructure? Should state 
departments of transportation and local planning authorities consider 
science-based modeling of future extreme weather events in planning and 
assessment activities?
    Answer. Yes. As recent events have shown, research in this area is 
vital. Transportation and communications networks need to be able to 
operate. We should try to identify effective ways to make 
infrastructure more resilient.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                         Diana Furchtgott-Roth
    Climate Change.
    Question 1. I am concerned about some of your writings on climate 
change. Do you believe that climate change is real and that there is 
overwhelming scientific evidence that humans are the primary driver? 
Will you ensure that researchers, scientists, and those working on data 
can freely do their work to address the impacts of climate change 
without interference?
    Answer. Climate change is real. As I mentioned in the hearing, my 
siblings and I used to regularly skate on the C & O Canal in the late 
1960s. Now it is rare for the canal to freeze. Most climate scientists 
agree that humans are the primary driver of climate change. If 
confirmed, I would defer to the expertise of DOT's climate scientists. 
I would ensure that researchers, scientists, and those working on data 
can freely do their work to address the effects of climate change 
without interference.

    Labor.
    Question 2. You have referred to labor unions as ``roach motels'' 
and made efforts to blame unions without factoring in all potential 
impacts. Do you support collective bargaining right among workers in 
the transportation industry?
    Answer. I did not pick the title nor use the phrase in the article. 
My original article was published in U.S. News and World Report on 
August 17, 2016, and was entitled ``Leaving Is Too Much Labor.'' It was 
republished by the Foundation for Economic Education on August 19, 
2017, and given a different title with ``roach'' in it. I support 
workers' rights to join and leave unions.

    Question 3. Can you please provide assurances that you will provide 
fair and balanced research particularly when it comes to issues 
impacting collective bargaining rights and prevailing wage laws?
    Answer. Yes, I can assure you that my research will be fair and 
balanced. I believe my reputation is for research that informs policy-
making, not research that merely blesses a predetermined conclusion.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                         Diana Furchtgott-Roth
    Question. During your confirmation hearing, you stated that if a 
complaint of sexual harassment if an employee came to you, you would 
refer it to the Office of Civil Rights within the Department of 
Transportation. According to the organizational chart for the 
Department of Transportation,\1\ the Office of Civil Rights would be 
under your purview if you were to be confirmed.
---------------------------------------------------------------------------
    \1\ https://www.transportation.gov/transition/assistant-secretary-
for-research-and-technology
---------------------------------------------------------------------------
    Please clarify the role your office plays with regard to the Office 
of Civil Rights. If a complaint of sexual harassment or assault, what 
specific steps would you take to address it?
    Answer. I am aware that the organization chart shows an Office of 
Civil Rights that reports to the Assistant Secretary for Research and 
Technology. I am told that this box is a holdover from when the Office 
of Research and Technology was a separate operating administration. As 
you know, it is now an office within the Office of the Secretary. 
Complaints of civil rights violations within the Office of the 
Secretary are filed directly with the departmental Office of Civil 
Rights, which is a discrete office and reports directly to the 
Secretary. The Assistant Secretary for Research and Technology would 
not be supervising that office.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Catherine Cortez Masto 
                        to Diana Furchtgott-Roth
    SMART Communities. I have introduced the Moving FIRST Act to create 
additional competitive Federal funding opportunities for these 
communities and would encourage the administration to supportive of 
such efforts to help improve safety, connect more of our constituents, 
and tackle various difficult quality of life realities for them.
    Question. How much exposure have you had to the concept of smart 
communities, where innovation and technologies are being implemented to 
tackle challenges from congestion and development, to transportation 
access and environmental concerns? Is it something you are supportive 
of?
    Answer. I am very interested in the concept of Smart Cities. It is 
vital to use technology to reduce traffic accidents and fatalities, 
decrease time spent in traffic, lower emissions, make it easier to get 
to jobs and school, and revitalize underserved communities. Smart 
Cities have the potential to do all these things. We should also be 
examining potential benefits of intermodal approaches. Should I have 
the honor of being confirmed, I hope to be able to work with you on the 
issue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Raymond P. Martinez
    Question 1. In a recent listening session hosted by the U.S. 
Department of Transportation and the Federal Motor Carrier Safety 
Administration on Electronic Logging Devices and Hours of Service, 
South Dakota small business owners and drivers raised several issues 
with current Federal requirements.
    With that in mind, do you commit to taking a comprehensive look at 
requirements with the aim of providing appropriate relief for drivers 
as you work to advance the safe and efficient transportation of goods?
    Answer. Yes. I look forward to working with all stakeholders, 
including small independent trucking companies, and especially those 
who, such as livestock haulers, would be most affected by this rule. I 
will have an open-door policy to work with all stakeholders to meet 
with them and hear their concerns.

    Question 2. The 2016 U.S. Department of Transportation's Report to 
Congress (DOT), Comprehensive Truck Size and Weight Limit Study, 
recognized the need for additional data regarding truck characteristics 
at the time of a crash, including loaded weight.
    Given that the DOT has highlighted this data limitation, if you are 
confirmed, will you get back to the committee regarding whether the DOT 
is considering loaded weight as a part of data collection, mandatory or 
voluntary, within the context of accident reporting or any other 
related accident data collecting?
    Answer. Yes, if confirmed, I will get back to the Committee 
regarding the Department's plans to address the lack of loaded weight 
data as a limitation in state level accident reporting. I will consult 
FMCSA staff as well as my colleagues at the Federal Highway 
Administration on this data reporting issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Raymond P. Martinez
    Question 1. In 1994, Congress passed the Federal Aviation 
Administration Authorization Act, or F4A. This bill included a 
preemption on state laws related to the price, route, or service of a 
motor carrier. However, some states are implementing regulations 
related to issues like meal and rest breaks that go beyond the 1994 
law. How important is it to have transportation policies that are 
consistent across state lines? Does a patchwork of state laws hinder 
the ability of carriers to move freight?
    Answer. In general, I believe uniformity in the rules for 
interstate commerce is important to ensure efficient flow of goods and 
services nationwide. However, the question of whether preemption 
applies to any particular set of facts and circumstances is a legal 
question that I am not in a position to answer without consulting the 
Office of General Counsel.

    Question 2. The FAST Act required a study of the Compliance, 
Safety, Accountability program due to concerns about the use of faulty 
data, which was then publically posted. The National Academy of 
Sciences recently released their report on CSA, which recommended a new 
algorithm, known as the Item Response Theory model, to collect data and 
address enforcement. What are your thoughts on the recommendations made 
by the National Academy of Sciences?
    Answer. If confirmed, safety will remain FMCSA's highest priority. 
Continued improvement of safety can only be achieved by leveraging 
current, valid and verifiable data in order to identify areas of risk 
and focus enforcement efforts more efficiently on those identified 
areas. The National Academy of Sciences (NAS) has provided a thorough 
review of the Safety Measurement System and recommendations for 
improvement of the system. The recommendations provide a more 
scientific approach to how FMCSA uses the inspection and investigation 
data to assess the safety culture and compliance of companies. In 
addition, the NAS provided FMCSA recommendations on improvement to the 
quality of its data, which I believe strongly, will help in its mission 
to improve safety. I will work with FMCSA on corrective action plan 
that addresses the NAS recommendations. It is my understanding that 
FMCSA has also contracted with NAS to establish a standing committee to 
provide advice during evaluation and implementation of the 
recommendations.

    Question 3. Will you ensure that the methodology used to collect 
information on a motor carrier is thoroughly researched and developed 
before that information is made public?
    Answer. Yes. If confirmed, I will ensure that FMCSA data and 
information is accurate, reliable, complete and timely. FMCSA has 
committed to a public process of implementation of the NAS 
recommendation.

    Question 4. As you know, the trucking industry is facing a 
significant driver shortage, which is currently estimated at nearly 
50,000 drivers. If confirmed, will you work with Congress and industry 
stakeholders to help make real progress on this issue?
    Answer. Yes. I would be eager to work with Congress and our 
industry partners to help address the driver shortage within the 
industry. I know that FMCSA has already taken several actions under its 
existing regulatory authority to help address the driver shortage such 
as outreach programs to assist veterans become licensed drivers and to 
permit certain qualified individuals 18-21 to drive interstate. I look 
forward to working with FMCSA to continue these efforts and to identify 
additional ways to address the driver shortage issue.

    Question 5. The driver shortage is exacerbated by skills testing 
delays in several states. It has been reported that CDL applicants are 
waiting two weeks or more to take the CDL exam. In some instances, wait 
times have exceeded 40-60 days. These prolonged periods of time prevent 
people with new job skills from getting to work. If confirmed, will you 
commit to addressing this issue and making the CDL application and 
testing process more fair and efficient?
    Answer. As the New Jersey Motor Vehicle Commission Chair and Chief 
Administrator, I have dealt firsthand the problems faced by states on 
the long delays involved in CDL testing. If confirmed, one of the first 
steps I will take is to bring together FMCSA and my former colleagues 
at the American Association of Motor Vehicles to address the 
requirements in the CDL skills tests to see where we can make 
adjustments to reduce delays inherent in the system but still provide 
an adequate level of testing. I am also aware that the Federal Motor 
Carrier Safety Administration is collecting data from each state, 
including New Jersey, on driver license skills test delays and related 
information. Findings from this effort will help all of us better 
understand this important issue and potential contributing factors.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                          Raymond P. Martinez
    Question 1. This committee has had a number of hearings related to 
Autonomous Vehicles and the opportunity new technology has to make our 
roads safer for all drivers of all motor vehicles. In fact, this 
committee just passed legislation that would allow for the testing, 
certification, and deployment of autonomous vehicles.
    What role do you see for the Federal Motor Carrier Administration 
in the development and deployment of autonomous vehicles?
    Answer. I believe that FMCSA should continue to work together with 
all of the modes of the Department of Transportation to provide an 
adaptive and flexible regulatory framework for autonomous CMVs and 
still ensure the safety of the driving public. FMCSA should also work 
on developing guidance for manufacturers, state and local agencies, and 
other entities involved in the development and deployment of automated 
CMV technology.

    Question 2. Commercial Driver's License testing wait times can be a 
major impediment for individuals seeking their CDL and entering the job 
market. The FAST Act included Section 5506, which required the ``FMCSA 
Administrator to report these wait times and describes specific steps 
that the Administrator is taking to address skills testing delays in 
states that have average skills test or retest wait times of more than 
7 days from the date an applicant requests to test or retest to the 
date the applicant has the opportunity to complete such test or 
retest.''
    How would you begin to address issues related to skills testing 
delays in states that have wait times of longer than 7 days?
    Answer. As the New Jersey Motor Vehicle Commission Chair and Chief 
Administrator, I have dealt firsthand the problems faced by states on 
the long delays involved in CDL testing. If confirmed, one of the first 
steps I will take is to bring together FMCSA and my former colleagues 
at the American Association of Motor Vehicles to address the 
requirements in the CDL skills tests to see where we can make 
adjustments to reduce delays inherent in the system but still provide 
an adequate level of testing. I am also aware that the Federal Motor 
Carrier Safety Administration is collecting data from each state, 
including New Jersey, on driver license skills test delays and related 
information. Findings from this effort will help all of us better 
understand this important issue and potential contributing factors.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                          Raymond P. Martinez
    Question 1. Mr. Martinez, as you are well aware, the trucking 
industry is confronted with a significant driver shortage issue. Some 
projections indicate that within seven years the trucking and logistics 
industry could see a shortage as high as 175,000 individuals. My 
colleague Senator Fischer worked to include a pilot program within the 
FAST Act to permit drivers between the ages of 18-21 to drive across 
state lines if they are active duty or reserve members of the military. 
However, this pilot program has seen fewer than 10,000 participants 
sign up. I would like to work with your office to identify if there are 
further opportunities to allow young adults into the trucking industry 
without reducing safety. As statistics become available from this pilot 
program, will you pledge to work with this committee to build upon this 
pilot program?
    Answer. Yes. I would be eager to work with Congress, our industry 
and other stakeholders to help address the driver shortage.

    Question 2. Mr. Martinez, your testimony touches on the importance 
of utilizing data driven policy focused on the best information 
available as well as your commitment to reasonable stakeholder 
engagement. I look forward to working with you to ensure FMCSA 
prioritizes the implementation of safety regulations that are robustly 
supported by data. In that vein, the Electronic Logging Device (ELD) 
implementation date is swiftly approaching in six weeks. I have heard 
from numerous Hoosiers in the logistics industry regarding their 
concerns with this pending regulatory implementation. Will you pledge 
to work with small and independent operators to address their concerns 
as this implementation date approaches?
    Answer. Yes. I look forward to working with all stakeholders, 
including small independent trucking companies, and especially those 
who, such as livestock haulers, would be most affected by this rule. I 
will have an open-door policy to work with all stakeholders to meet 
with them and hear their concerns.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Raymond P. Martinez
    Truck Safety. Side and rear under guards on trucks can help save 
lives. The Insurance Institute for Highway Safety conducted a test of 
side underride guards that showed significant benefits, including 
preventing a car traveling at 35 miles per hour from going underneath 
the side of a truck.
    Question 1. What do you believe are the benefits of under guards to 
safety? Do you believe this is an issue the Department of 
Transportation should consider?
    Answer. Under guards may reduce the attendant injuries and 
fatalities associated with large truck crashes. However, more 
information may be needed to determine whether rulemaking would be 
effective. If confirmed, I will work with officials both at FMCSA and 
the National Highway Traffic Safety Administration, which regulates 
vehicle manufacturers, to evaluate the extent to which these crashes 
could be reduced through available technologies and the cost of such 
efforts.

    Rulemakings. The Federal Motor Carrier Safety Administration has 
stopped and delayed important rulemakings, including sleep apnea, 
minimum insurance, and safety fitness determination.
    Question 2. Will you commit to review these rules and reevaluate 
continuing the rulemaking process? Will you commit that, if confirmed, 
you will not roll back any other truck and bus safety rules?
    Answer. If I am confirmed, I would be open to reviewing and re-
evaluating any new evidence or any new technology regarding these 
matters.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Raymond P. Martinez
    Insurance. DOT sets minimum insurance levels for trucking 
companies. The minimum is $750,000 for most carriers of property. This 
amount was last changed in 1985--32 years ago--even though $750,000 
pales in comparison to the damage a massive, 80,000-pound rig can do to 
motorists on our highways. (The minimum amount for bus companies is $5 
million.) DOT has tried increasing this amount, concluding in 2014 that 
``current financial responsibility minimums are inadequate to fully 
cover the costs of some crashes in light of increased medical costs and 
revised value of statistical life estimates.'' Unfortunately, the FAST 
Act--while an important bill with many positive elements--institutes a 
delay, requiring an exhaustive study of the industry before any 
rulemaking can even commence that ensures trucking companies are 
adequately insured. I fought against that, but sadly it made it into 
the law alongside many good provisions I do support.
    Question 1. Do you recognize that the cost of crashes increases due 
to inflation--but the coverage from insurance doesn't, leaving victims 
at a loss?
    Answer. The issue of minimum levels of financial responsibility is 
complex and continuing discussion between FMCSA and stakeholders (e.g., 
the insurance industry, State agencies, transportation industry 
associations, safety advocacy groups, etc.) is necessary to fully 
understand all the factors that should be considered in determining the 
appropriate levels of insurance.

    Question 2. What steps will you take to resolve this?
    Answer. If confirmed, I would work with stakeholders and my 
colleagues at FMCSA to better understand what additional data would be 
needed in order to fully evaluate an increase in minimum insurance.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Richard Blumenthal 
             and Hon. Edward Markey to Raymond P. Martinez
    Sleep apnea. A study cited on FMCSA's website found almost one-
third (28 percent) of commercial truck drivers suffer from sleep apnea. 
And additional studies have shown that truck drivers with untreated 
sleep apnea have a rate of preventable crashes that is five times 
higher than unaffected truckers.
    The Obama administration recognized this problem and put forward 
proposed rules to combat these dangers--allowing screening and 
treatment so dangers could be mitigated while workers kept their jobs. 
This proposal applies to rail workers and truck drivers. The Trump 
administration, however, rolled them back in August 2017, concluding 
current efforts were sufficient. This is troubling, as it seems the 
agency may not be concerned about sleep apnea.
    Question 1. What current safety programs at FMCSA mitigate the 
risks due to sleep apnea?
    Answer. I am aware that FMCSA and the Canadian government developed 
the North American Fatigue Management Program, which provides a 
comprehensive approach to reducing the risk of drivers operating while 
fatigued. The program includes information on sleep disorders screening 
and treatment, which includes the topic of OSA and other fatigue risk-
management issues.
    In addition, FMCSA issued a bulletin to the healthcare 
professionals on its National Registry of Certified Medical Examiners 
(the National Registry) of the current physical qualifications standard 
and advisory criteria concerning the respiratory system. The bulletin 
explains how the requirements apply to drivers that may have 
obstructive sleep apnea (OSA). FMCSA is currently working on a revision 
of its OSA bulletin to incorporate the 2016 recommendations of the 
Agency's Medical Review Board.

    Question 2. Do you agree that we should bring back the proposed 
rulemaking?
    Answer. My understanding is that the sleep apnea proposal was 
withdrawn because sleep apnea is already governed by existing safety 
regulations. If I am confirmed, I would be open to reviewing any new 
evidence or any new technology regarding sleep apnea.

    Question 3. What steps do you plan to take to address sleep apnea?
    Answer. Driver fatigue is a major risk factor associated with 
commercial motor vehicle (CMV) crashes. Preventing the fatigued 
operation of CMVs is a complex challenge, one that requires the effort 
of FMCSA, state and local governments, industry, and drivers' 
associations and unions. Currently, FMCSA is a key partner with 
industry in providing education and training for commercial drivers and 
carriers. This work is intended to address overall work-rest schedules, 
and balancing family and work life in a manner that enables the driver 
to rest during off-duty periods.

    Outstanding rulemakings. Forward collision avoidance and mitigation 
systems--also known as ``F-CAM''--prevent large trucks from plowing 
into small cars ahead of them, cars that the truck driver often doesn't 
see until too late. There are at least 2,000 of those crashes a year, 
which result in hundreds of deaths. F-CAM technology would prevent 
those tragedies.
    Speed limiters would dramatically reduce high-speed truck crashes. 
It would also save hundreds of lives. We know how effective it is--it's 
required throughout Europe.
    Underguards and sideguards prevent small cars from sliding under 
big trucks, brutally decapitating those in the car. Crashes like that 
happen nearly every day nationwide, resulting in hundreds of deaths as 
well. A sideguard might have saved the life of the passenger in the 
self-driving Tesla that crashed into a truck last year; but the 
passenger died--a preventable tragedy--as we all know from the NTSB 
report released a few weeks ago.
    Question 4. Should we focus on these proven, life-saving devices?
    Answer. I share your interest in enhanced technologies that could 
improve the safety of commercial motor vehicle transportation and will 
encourage additional testing and evaluation of such technologies.

    Question 5. What is your commitment toward making them a reality?
    Answer. It is true that F-CAM, speed limiters, siderails, etc., may 
prevent crashes and the attendant injuries and fatalities. However, 
more information may be needed in order to fully evaluate the 
effectiveness of any one technology. If confirmed, I will work with 
National Highway Traffic Safety Administration, which regulates vehicle 
manufacturers, to evaluate the extent to which these crashes could be 
reduced through available technologies and cost of such efforts.

    Deaths Caused by Large Truck Crashes. Truck crashes continue to 
occur at an alarmingly high rate. Every year on average, over 4,000 
people are killed and nearly 100,000 are injured in large truck 
crashes. Sadly, fatalities in crashes involving large trucks increased 
by five percent in 2016 and, since 2009, have increased a staggering 28 
percent.
    Question 6. If confirmed as Administrator of Federal Motor Carrier 
Safety Administration (FMCSA), what actions will you take to ensure 
that the agency creates and implements a plan that will reduce truck 
crash deaths and injuries?
    Answer. If confirmed, I would have discussions with the 
department's leadership team, senior executives in FMCSA, and meet with 
stakeholders to get their perspectives on how the Agency can work more 
collaboratively than in previous years to address the challenges we are 
now facing in highway safety.
    I would also work with stakeholders to implement improvements to 
FMCSA's approach to assessing the safety performance of motor carriers 
and the identification of high-risk carriers. The National Academy of 
Sciences (NAS) published its report titled, ``Improving Motor Carrier 
Safety Measurement,'' which contained recommendations for improvement 
in measuring performance. If confirmed, I would push forward with a 
plan to move forward with this work.

    Question 7. What major truck safety initiatives do you plan to take 
to improve truck safety?
    Having worked in State government for many years, I truly 
appreciate the role the states play in highway safety. I would ensure 
the effective implementation of FMCSA's grant programs, including the 
amendments included in the FAST Act that were intended to consolidate 
programs and reduce administrative burdens on states. I also believe 
impaired driving is a serious issue. The abuse of opioids, for example, 
has become a nationwide epidemic, and FMCSA must consider ways of 
addressing this issue among commercial drivers.

    Truck Driver Fatigue. Truck driver fatigue is a well-known safety 
problem. Large truck drivers can operate very long shifts without 
adequate sleep, on constantly changing schedules that conflict with 
biological circadian rhythms. Studies show that driver fatigue is a 
factor in up to as many as 31 percent of truck crashes.
    For the second time in a row, the National Transportation Safety 
Board's (NTSB) Most Wanted List for 2017-18 includes ``Reduce fatigue-
related accidents.'' According to the NTSB, ``fatigue degrades a 
person's ability to stay awake, alert, and attentive to the demands of 
controlling their vehicle safely.''
    Question 8. If confirmed as Administrator of FMCSA, what immediate 
actions have you identified that the agency can take to combat truck 
driver fatigue?
    Answer. Driver fatigue is a major risk factor associated with 
commercial motor vehicle (CMV) crashes. Preventing the fatigued 
operation of CMVs is a complex challenge, one that requires the effort 
of FMCSA, state and local governments, industry, and drivers' 
associations and unions. Currently, FMCSA is a key partner with 
industry in providing education and training for commercial drivers and 
carriers. This work is intended to address overall work-rest schedules, 
and balancing family and work life in a manner that enables the driver 
to rest during off-duty periods. If confirmed I will continue these 
efforts and work with stakeholders and Congress to address driver 
fatigue.

    Regulations Required by Congress. Congress as part of the Fixing 
America's Surface Transportation Act (FAST Act, Pub. L. No. 114-94) and 
the Moving Ahead for Progress in the 21st Century Act (MAP-21, Pub. L. 
112-141) has required FMCSA to conduct several studies and issue safety 
regulations. Many of these tasks have yet to be completed.
    Question 9. If you are confirmed as Administrator of FMCSA, will 
you commit to moving forward and completing the rulemakings and studies 
required by Congress?
    Answer. If confirmed, I will continue FMCSA's efforts to address 
the requirements under MAP-21 and FAST Act.

    Motorcoach Safety Scores. According to the American Bus Association 
(ABA) Motorcoach Census, in 2014 there were 604 million passenger trips 
on motorcoaches. This amounts to over 1.65 million per day. In Section 
32707 of the Moving Ahead for Progress in the 21st Century Act (MAP-21, 
Pub. L. 112-141) Congress directed the Federal Motor Carrier Safety 
Administration (FMCSA) to assign safety ratings to all motorcoach 
service providers by October 2015.
    Question 10. Mr. Martinez, has the FMCSA assigned a safety rating 
to all motor carriers registered in the United States?
    Answer. FMCSA has fully implemented the provisions of the MAP-21 
reauthorization bill requiring all companies operating motor coaches to 
be assigned a safety rating every three years and new motor coach 
carriers to receive a rating within two years.

    Question 11. If not, how many carriers have yet to receive a safety 
rating and will you commit to ensuring that those carriers receive a 
safety rating within one year of your confirmation?
    It is my understanding that MAP-21 requirements apply specifically 
to companies operating motor coaches. As noted in my previous response, 
FMCSA has successfully implemented those requirements and is assigning 
safety ratings every 3 years and within 2 years for new companies. If 
confirmed, it would be my intention to comply with the provision of 
MAP-21.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Raymond P. Martinez
    Question 1. Electronic Logging Devices. During your confirmation 
hearing you described the benefits of electronic logging devices. Do 
you believe electronic logging devices should be implemented in all 
trucks?
    Answer. If confirmed, I will continue FMCSA's efforts to implement 
the provisions of the MAP-21 reauthorization bill requiring electronic 
logging devices. In doing that, I will continue to listen to the 
concerns of all stakeholders.

    Speed Limiters. The National Highway Traffic Safety Administration 
(NHTSA) found that between 2004 and 2013, there were on average 1,044 
fatalities annually in crashes in which the speed of a heavy vehicle 
likely contributed to the severity of the crashes. In 2006, safety and 
industry groups petitioned the NHTSA and FMCSA for a regulation 
requiring speed governors in heavy trucks to be set to limit top speeds 
to improve safety and conserve fuel. In September of 2016, the Federal 
Motor Carrier Safety Administration (FMCSA) and NHTSA issued a proposed 
rule to mandate the use of speed limiters in heavy vehicles. The agency 
stated in that proposal that ``[s]tudies examining the relationship 
between travel speed and crash severity have confirmed the common-sense 
conclusion that the severity of a crash increases with travel speed. 
Impact force during a crash is related to vehicle speed, and even small 
increases in speed have large effects on the force of impact.'' The 
agency concluded that limiting the speed of heavy vehicles to 60 mph 
could save as many as 498 lives and prevent as many as 10,857 injuries 
annually.
    Question 2. During you confirmation hearing, you indicated a need 
to examine the cost benefit analysis around the use of speed limiters 
on trucks. Given the strong evidence that reducing the speed of trucks 
saves lives, do you support the use of speed limiters on trucks and if 
confirmed will you work to expand the use of speed limiters?
    Answer. I believe that safety technologies can play a major role in 
reducing roadway crashes. FMCSA should continue to support 
technological improvements and encourage voluntary implementation of 
safety technology. The issue is whether the benefits are sufficient to 
outweigh the costs of a Federal one-size-fits-all rule. Any new Federal 
requirement will undoubtedly increase the cost of shipping goods by 
truck and will affect both consumers and drivers. However, any decision 
about proposing a new rule, such as a speed limiter, should be based on 
sound analysis of data and a consideration of all points of view. To 
this end, if confirmed, I will work with the experts at FMCSA to 
explore the expanded use of automatic emergency braking and other 
technologies that have the potential to improve safety on our Nation's 
highways.

    Obstructive Sleep Apnea (OSA). This week the National 
Transportation Safety Board held a hearing on a 2016 crash between a 
motorcoach and a truck near Palm Springs, CA. One of the determinations 
made was that the truck driver most likely fell asleep ``due to fatigue 
related to his undiagnosed, moderate-to-severe obstructive sleep 
apnea.'' As a result of this crash, the bus driver and 12 passengers 
died and more than 30 people were injured. This crash highlights the 
serious and tragic consequences of OSA.

    Question 3. Do you believe commercial driver's license (CDL) 
holders afflicted with OSA should be required to receive treatment 
before being permitted to operate a motorcoach or large truck?
    Answer. I believe that we should address any health issues of CDL 
drivers that pose a problem for public safety.

    Question 4. FMCSA has identified this issue as a significant threat 
to public safety. What steps will you take to ensure that drivers with 
OSA are being diagnosed and are receiving proper treatment?
    Answer. It is my understanding that FMCSA issued a bulletin to the 
healthcare professionals on its National Registry of Certified Medical 
Examiners of the current physical qualifications standard and advisory 
criteria concerning the respiratory system. The bulletin explains how 
the requirements apply to drivers that may have obstructive sleep apnea 
(OSA). Also that FMCSA is currently working on a revision of its OSA 
bulletin to incorporate the 2016 recommendations of the Agency's 
Medical Review Board.

    Question 5. If you are confirmed as Administrator of FMCSA, will 
you commit to review the agency's decision to withdraw the previous 
rulemaking and report to this Committee on your findings?
    Answer. If I am confirmed, I would be open to reviewing any new 
evidence or any new technology regarding sleep apnea.

    Minimum Insurance. A fatal, multi-vehicle truck accident can cost 
over $20 million to compensate families, care for the injured, and pay 
for the destruction of our Nation's highway infrastructure. However, 
the requirement to carry at least $750,000 in minimum insurance has not 
been increased in 30 years, even to account for inflation, which has 
led to taxpayers having to foot the bill in the aftermath of major 
truck accidents. If the minimum level was raised to an adequate level 
of around $4 million, according to Dawson Transportation Services, most 
small carriers would just see their premiums increase $1,750.
    Question 6. If confirmed, do you commit to working to raise the 
minimum insurance levels?
    The issue of minimum levels of financial responsibility is complex 
and continuing discussion between FMCSA and stakeholders (e.g., the 
insurance industry, State agencies, transportation industry 
associations, safety advocacy groups, etc.) is necessary to fully 
understand all the factors that should be considered in determining the 
appropriate levels of insurance. If confirmed, I would work with 
stakeholders and my colleagues at FMCSA to better understand what 
additional data would be needed in order to fully evaluate an increase 
in minimum insurance.

    Question 7. Automatic Braking Systems. In the hearing, you 
supported the use of technology to address safety challenges, including 
the use of automatic braking systems. What specific steps do you plan 
to take at the Department to advance the use of automatic braking 
systems?
    Answer. I support the utilization of proven and effective advanced 
safety technologies and will work to identify measures which can 
accelerate the voluntary adoption of these technologies such as 
automatic emergency braking and other collision mitigation systems. I 
will work with our stakeholders across the commercial motor vehicle 
community such as manufacturers, suppliers, fleets, safety advocates, 
and drivers to leverage their expertise and support. Whether or not 
these technologies are appropriate for rulemaking would require more 
study and data.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Raymond P. Martinez
    Question 1. Human Trafficking. Please address your potential plans, 
or personal history, on addressing our crisis of human trafficking in 
the U.S., and internationally.
    Answer. If confirmed, I would work closely with the agencies that 
have lead roles in addressing human trafficking to ensure that FMCSA is 
providing all the support it can. At a minimum, I will ensure that 
FMCSA investigators and our State partners continue to be aware of red 
flags that may indicate the presence of human trafficking in a vehicle 
or company and know how to engage the proper law enforcement agencies.

    SMART Communities. I have introduced the Moving FIRST Act to create 
additional competitive Federal funding opportunities for these 
communities and would encourage the administration to supportive of 
such efforts to help improve safety, connect more of our constituents 
and tackle various difficult quality of life realities.
    In your testimony, you highlight transportation data and analysis 
for safety and congestion.
    Question 2. How much exposure have you had to the concept of smart 
communities, where innovation and technologies are being implemented to 
tackle challenges from congestion and development, to transportation 
access and environmental concerns?
    Answer. As the New Jersey Motor Vehicle Commission Chair and Chief 
Administrator, I have worked with the Governor's office and local 
governments as we endeavored to promote intelligent transportation 
systems and its promise of safer and more efficient travel.

    Question 3. Is it something you are supportive of?
    The idea of harnessing technology to improve transportation 
networks is something I have long supported. We must be cognizant of 
ways to integrate technology in effective ways.

    Truck Drivers.
    Question 4. While there are various issues you'll have before you 
that impact trucking businesses and safety, what do you see as two or 
three priorities you can do on behalf of truck drivers?
    Answer. The biggest priority for FMCSA is to ensure our highways 
are as safe as possible for all Americans, and particularly truck and 
bus drivers that make their living traveling our highways. In addition, 
I will ensure FMCSA actively enforces its regulations prohibiting 
harassment and coercion of drivers so that they are free to operate 
their vehicles safely without pressures or retaliation from their 
employers.

    Question 5. What can you do in this role to improve their quality 
of life or everyday work environment for the over 10,000 truck drivers, 
and roughly 90,000 CDL (commercial driver's license) holders in Nevada?
    Answer. I fully appreciate that truck and bus drivers keep America 
moving. If confirmed, I will ensure that FMCSA rulemakings and programs 
fully consider the impacts to drivers. In addition, I will open a 
dialog to seek input from the driving community on how FMCSA can serve 
them better.

    Safety.
    Question 6. In your questionnaire, you reference your eagerness to 
``focus on higher risk carriers.'' Can you define what those operations 
look like to you?
    Answer. FMCSA has used data to identify those behaviors common to 
carriers that have higher crash rates. The Agency uses available 
carrier safety data to identify similar trends in violation data. Using 
this information, FMCSA identifies and prioritizes those carriers for 
investigations by FMCSA or state law enforcement resources. If 
confirmed, I will ensure that FMCSA continues to prioritize 
investigations on these higher risk carriers.

    Question 7. And what do you have in mind to raise the bar of safety 
to protect everyone on the road from those type of carriers?
    Answer. I believe that to continue to improve safety we must use a 
multi-faceted approach that is rooted in data, and incorporates a wide 
variety of strategies including outreach and education in addition to 
compliance and enforcement activities.

    Question 8. Specifically, I'd ask about ensuring the safety of 
detrimental bus operations. Nevada is a tourist destination, and we 
have significant number of visitors we welcome to the state by way of a 
bus or tour company. What can you say to commit that they will be able 
to safety to and from places like Las Vegas or the Hoover Dam?
    Answer. If I am confirmed, passenger carrier safety will remain as 
one of our highest priorities at FMCSA. Inspecting buses in highly 
populated areas is challenging due to the specialized nature of the bus 
inspections and the space and equipment needed to inspect a large bus 
or motor coach. FMCSA and State Agencies may not conduct en route 
inspections and are limited to identifying locations where buses will 
be when they are empty, and then the facilities must be adequate for 
the inspection. That would include what are called ``destination'' 
inspections at locations such as theme parks, sporting events or resort 
areas.
    I will ensure that FMCSA continues to execute the provisions of the 
MAP-21 authorization bill requiring regular investigations of certain 
bus companies, and will continue to find way to identify those carriers 
most at risk of having a crash. In addition, I will work to refine the 
algorithm for identifying carriers that go out of business and then 
reestablish themselves under another name to avoid compliance, known as 
``reincarnating.''
    Finally, motorcoaches have been required to have seat belts 
installed since November of 2016. I will work to increase compliance 
for seat belt use in motorcoaches by having passenger carrier and 
outreach offices work side by side with the industry and users of buses 
to ensure passengers know the importance of using this critical safety 
equipment.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                           Bruce S. Landsberg
    Question. In 2010, Congress directed the Federal Aviation 
Administration (FAA) to update flight and duty time regulations. In 
crafting these rules, the agency made a distinction between operations 
conducted by passenger and cargo pilots and, after a thorough cost-
benefit analysis, the FAA excluded cargo pilots from the rule. In March 
of last year, the U.S. Court of Appeals for the D.C. Circuit denied a 
petition challenging this rule. In doing so, the court found that the 
FAA acted within its discretion to exempt cargo operations from part 
117 rules.
    Could you further explain your thoughts on this rule and if you 
believe that a one-size-fits-all approach to safety is appropriate, 
particularly given the large variance in the operational considerations 
between cargo and passenger carriers, fatigue management plans already 
in place, and total hours flown? While the NTSB is not required to take 
costs into consideration in making recommendations, isn't it 
appropriate for agencies promulgating rules to do so?
    Answer. Fatigue is certainly an issue for pilots in all operations 
and I also recognize that regulatory agencies should consider costs and 
benefit before promulgating rules in any area. A one-size-fits-all 
approach is, in certain circumstances, not the best solution, 
especially in the expanse of safety. Certainly, a risk-based approach 
to resolving safety issues is a preferred methodology to improving and 
enhancing a safe operational environment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Bruce S. Landsberg
    1,500 Hour Rule. Important lessons were learned in the wake of the 
2009 crash of Colgan
    Flight 3407 near Buffalo, NY. Congress passed comprehensive 
legislation to address various safety concerns, including a mandate 
that all airline pilots must have at least 1,500 hours of flight 
experience to qualify for certification. Previously, ``first officers'' 
(or co-pilots) were required to have a mere 250 hours of experience.
    Question 1. You have been critical of what is now known as the 
``1,500 Hour Rule.''
    Please clarify your position on the Rule. Do you support and 
acknowledge the 1,500 Hour Rule as the law of the land?
    Answer. The NTSB found the Colgan accident to be due to the 
Captain's poor airmanship, poor hiring and retention practices and 
inadequate transition training. FAA's poor oversight and fatigue were 
also cited. Not cited, however, was the first officer and her lack of 
experience or training as it related to minimum flight hours. Improved 
system safety is based on the many changes, including parts of the 
Airline Safety Rule, that occurred after the crash. The NTSB made 24 
recommendations after Colgan and many were implemented. I concur with 
those recommendations.
    I acknowledge the 1,500 hour rule is the current law of the land. 
My review and resulting recommendations of any accident will be based 
on the facts of that accident, data analysis and casual trends. I 
strongly believe in compliance with all rules and standards and believe 
that quality training programs and oversight provide a higher level of 
safety.

    Third Class Medical. In 2016, Congress passed legislation that 
substantially revised the
    Third Class Medical procedures applicable to general aviation 
pilots. AOPA was the chief proponent of legislation to modify Third 
Class Medical procedures. The proposal generated significant 
controversy and a compromise was eventually adopted.
    Question 2.What is your position on the modification of general 
aviation pilot medical procedures? Did you support AOPA's original 
proposal? Are the compromise procedures sufficient to preserve safety? 
What additional modifications or refinements would be prudent?
    Answer. I applaud the compromise reached by this Committee and the 
Congress and that the new law is sufficient to preserve safety. The 
data reveal that there are very few accidents caused by medical 
incapacitation in Part 91 operations. I am particularly encouraged by 
the medical education requirement in the new law.
    I am confident that the NTSB and FAA will be monitoring this area 
closely for changes in the medical incapacitation accident rate as we 
go forward.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Bruce S. Landsberg
    The FAA's first officer qualification and training requirements 
enacted by regulation in 2013 were prompted by Congress in 2010 
following multiple fatal airline accident investigations that 
identified the pilots' lack of flight experience and training as 
factors in the accidents. There are some within the industry who have 
expressed strong opposition to these rules, although there is no 
consensus across the industry about whether a genuine pilot shortage 
currently exists.
    Since the bill was enacted, U.S. aviation has enjoyed its safest 
period in history. During that same period, while you worked for AOPA, 
you wrote critically against the 1,500 hour rule, calling it ``an 
undesirable outcome.''
    Question 1. Do you continue to believe that the 1,500 hour rule is 
unnecessary, or do you believe that it has not improved the safety of 
our commercial air system?
    Answer. As previously stated, I believe in performance-based 
criteria, as opposed to a standard that is not supported by any 
empirical evidence.

    Question 2. If confirmed, will you be hesitant to point out 
instances where more training in any mode of transportation is needed 
as a result of your involvement with the 1,500 hour rule?
    Answer. If the data support that additional training (or 
experience) is needed in any mode to enhance safety, I would never 
hesitate to make such a recommendation.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                           Bruce S. Landsberg
    Outstanding safety recommendations. One issue I have raised 
repeatedly in this committee concerns outstanding safety 
recommendations from the NTSB to the myriad agencies and industries 
that NTSB investigates. As you know, they are only recommendations--
they are not mandates.
    Question. How will you ensure that agencies and entities carry them 
out?
    Answer. NTSB serves as a safety advocate which cannot, by its 
enabling legislation, force a regulatory agency to enact a 
recommendation. However, it is entirely appropriate for NTSB to make 
its recommendations known to the regulatory authority, the respective 
industry and the public in order to approve safety all modes of 
transportation. If confirmed, I will work with my fellow Board Members 
to advocate for adoption of NTSB recommendations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Bruce S. Landsberg
    Question 1. Past NTSB Recommendations. Are there current, or past, 
NTSB recommendations you have taken exception to, or have disagreed 
with in the past?
    Answer. I do not believe so.

    Question 2. If yes, roughly how many recommendations or 
investigation assessments do you think you've opposed or disagreed with 
over the years? N/A

    Question 3. Can you please provide some of the specifics of those 
circumstances?
    Answer. N/A

    Question 4. How do you rate the importance of cost-benefits when 
determining safety rulemakings or recommendations, especially in your 
potential role with the NTSB?
    Answer. NTSB is not charged with conducting cost-benefit analysis 
but recommendations are not made in a vacuum. There will be cases where 
significant benefit can be achieved at acceptable cost and the 
regulatory agencies will be more likely to adopt quickly. As technology 
advances, follow-on improvements can often be made to improve safety 
even more.

    Hazardous Materials by Rail. In your questionnaire, you underscored 
your responsibility of ``supporting the (NTSB) Chairman'' and 
highlighted ``continuing to expand understanding of human factors 
across modes, including complacency, distraction and fatigue'' in your 
list of challenges for NTSB.
    And the NTSB Chairman has previously noted for us that ``Since 
1969, the NTSB has investigated 148 rail accidents that could have been 
prevented if an operational positive train control (PTC) system been in 
place.'' I note this, because rail safety, and the possible shipment of 
nuclear waste is an incredibly important safety issue, not just for me, 
but for the 44 states, and over 300 congressional districts, who would 
see this product traverse through their communities.
    Question 1. In your expert safety opinion, do you think there would 
be safety concerns with large amounts of nuclear waste traveling from 
say Minnesota, Texas, or Mississippi, all the way to Nevada, by rail?
    Answer. There are always safety concerns with the transport of any 
hazardous cargo whether by rail or vehicle. Clearly, we need to ensure 
that necessary precautions are taken to manage risks.

    Question 2. For example, are you aware if we even have a safe and 
certified rail car available to move spent nuclear fuel?
    Answer. I am not aware of the availability such rail cars, but, if 
confirmed, I will continue to seek to learn more about this issue.

    Question 3. Would you think it would be a logical expectation that 
we wouldn't move significant amounts of nuclear waste by rail until 
those operations have trustworthy innovations like PTC and ECP brakes 
more roundly installed, and utilized, by the industry?
    Answer. As previously stated, I believe that the transport of any 
hazardous cargo requires necessary precautions to be taken in order to 
manage risks. Measures such as those recommended by the NTSB are 
necessary to ensure safety, and if confirmed I pledge to look further 
into this issue.

                                  [all]

                  This page intentionally left blank.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
